<html>
<title> - NOMINATIONS TO THE FEDERAL TRADE COMMISSION</title>
<body><pre>[Senate Hearing 115-761]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-761

                              NOMINATIONS 
                    TO THE FEDERAL TRADE COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 14, 2018

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation






              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]














                Available online: http://www.govinfo.gov
                
                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
39-877 PDF                 WASHINGTON : 2020 
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER WICKER, Mississippi            BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               GARY PETERS, Michigan
MIKE LEE, Utah                       TAMMY BALDWIN, Wisconsin
RON JOHNSON, Wisconsin               TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
CORY GARDNER, Colorado               CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana                  JON TESTER, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 14, 2018................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Nelson......................................     2
    Prepared statement...........................................     3
Statement of Senator Moore Capito................................     8
    Introductory statement.......................................     9
Statement of Senator Blumenthal..................................    54
    Prepared statement from the Congressional Antitrust Caucus...    84
Statement of Senator Schatz......................................    55
Statement of Senator Udall.......................................    57
Statement of Senator Hassan......................................    59
Statement of Senator Cantwell....................................    61
Statement of Senator Lee.........................................    64
Statement of Senator Wicker......................................    66
Statement of Senator Markey......................................    68
Statement of Senator Klobuchar...................................    69
Statement of Senator Cortez Masto................................    71
Statement of Senator Cruz........................................    73
Statement of Senator Moran.......................................    75
    Letter dated January 30, 2018 from Hon. Jerry Moran and Hon. 
      Richard Blumenthal to Hon. Maureen Ohlhausen, Acting 
      Chairman, Federal Trade Commission.........................    76
Statement of Senator Baldwin.....................................    77
Statement of Senator Tester......................................    79

                               Witnesses

Hon. Orrin Hatch, U.S. Senator from Utah.........................     4
    Introductory statement.......................................     6
Hon. John Cornyn, U.S. Senator from Texas........................     7
    Introductory statement.......................................     8
Joseph Simons, Nominee for Commissioner/Chairman Designate, 
  Federal Trade Commission.......................................    10
    Prepared statement...........................................    11
    Biographical information.....................................    11
Christine S. Wilson, Nominee to be a Commissioner, Federal Trade 
  Commission.....................................................    23
    Prepared statement...........................................    24
    Biographical information.....................................    25
Noah Joshua Phillips, Nominee to be a Commissioner, Federal Trade 
  Commission.....................................................    33
    Prepared statement...........................................    35
    Biographical information.....................................    36
Rohit Chopra, Nominee to be a Commissioner, Federal Trade 
  Commission.....................................................    40
    Prepared statement...........................................    41
    Biographical information.....................................    42

                                Appendix

Letter dated November 3, 2017 to Hon. John Thune and Hon. Bill 
  Nelson from former Chairs (as well as current Chairs) of the 
  Section of Antitrust Law of the American Bar Association.......    87
Letter dated February 20, 2018 to Hon. John Thune and Hon. Bill 
  Nelson from Stanley Pierre-Louis, Senior Vice President and 
  General Counsel, Entertainment Software Association............    88
Letter dated February 26, 2018 to Hon. John Thune and Hon. Bill 
  Nelson from Heidi K. McAuliffe, Vice President, Government 
  Affairs, American Coatings Association.........................    90
Chris W. K. Fetzer, Dentons US LLP, prepared statement...........    90
Response to written questions submitted to Joseph Simons by:
    Hon. John Thune..............................................    91
    Hon. Roger F. Wicker.........................................    92
    Hon. Roy Blunt...............................................    93
    Hon. Jerry Moran.............................................    93
    Hon. Dan Sullivan............................................    94
    Hon. Dean Heller.............................................    95
    Hon. Jim Inhofe..............................................    95
    Hon. Bill Nelson.............................................    96
    Hon. Amy Klobuchar...........................................    97
    Hon. Richard Blumenthal......................................    97
    Hon. Brian Schatz............................................   100
    Hon. Tom Udall...............................................   102
    Hon. Tammy Duckworth.........................................   103
    Hon. Catherine Cortez Masto..................................   103
Response to written questions submitted to Christine S. Wilson 
  by:
    Hon. Roger F. Wicker.........................................   107
    Hon. Dan Sullivan............................................   107
    Hon. Dean Heller.............................................   108
    Hon. Jim Inhofe..............................................   108
    Hon. Bill Nelson.............................................   108
    Hon. Amy Klobuchar...........................................   110
    Hon. Richard Blumenthal......................................   110
    Hon. Brian Schatz............................................   113
    Hon. Tom Udall...............................................   116
    Hon. Tammy Duckworth.........................................   117
    Hon. Catherine Cortez Masto..................................   117
Response to written questions submitted to Noah Joshua Phillips 
  by:
    Hon. Roger F. Wicker.........................................   120
    Hon. Dan Sullivan............................................   120
    Hon. Dean Heller.............................................   121
    Hon. Bill Nelson.............................................   121
    Hon. Richard Blumenthal......................................   122
    Hon. Brian Schatz............................................   125
    Hon. Tom Udall...............................................   126
    Hon. Tammy Duckworth.........................................   127
    Hon. Catherine Cortez Masto..................................   128
Response to written questions submitted to Rohit Chopra by:
    Hon. John Thune..............................................   131
    Hon. Roger F. Wicker.........................................   132
    Hon. Dan Sullivan............................................   133
    Hon. Dean Heller.............................................   134
    Hon. Bill Nelson.............................................   134
    Hon. Richard Blumenthal......................................   135
    Hon. Brian Schatz............................................   138
    Hon. Tom Udall...............................................   141
    Hon. Tammy Duckworth.........................................   142
    Hon. Catherine Cortez Masto..................................   143

 
                              NOMINATIONS 
                    TO THE FEDERAL TRADE COMMISSION

                              ----------                              


                      WEDNESDAY, FEBRUARY 14, 2018

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Hon. John Thune, Chairman 
of the Committee, presiding.
    Present: Senators Thune [presiding], Inhofe, Wicker, Blunt, 
Moran, Lee, Heller, Cruz, Fischer, Moore Capito, Sullivan, 
Young, Nelson, Cantwell, Klobuchar, Tester, Udall, Blumenthal, 
Schatz, Baldwin, Markey, Hassan, and Cortez Masto.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. Today we welcome four nominees 
to testify before the Committee as we consider their 
nominations to serve as Commissioners of the Federal Trade 
Commission.
    Joseph Simons has been nominated to serve as a Commissioner 
and FTC Chairman. His credentials are impressive. Mr. Simons 
served as the FTC's chief antitrust enforcer, among other 
positions at the Commission. Most recently, he served as 
Partner and Co-Chair of the Antitrust Group at the law firm of 
Paul, Weiss, Rifkind, Wharton, and Garrison.
    Christine Wilson is an antitrust and consumer protection 
attorney, who most recently served as Vice President for 
Regulatory and International Affairs at Delta Airlines. Among 
her other credentials, she too has worked at the Commission 
before serving as Chief of Staff to the FTC Chairman Tim Muris 
during the George W. Bush administration.
    Noah Joshua Phillips is a familiar face to many of us, as 
he currently serves as Chief Counsel to Senator John Cornyn, 
where he advises on issues including antitrust, consumer 
privacy, and intellectual property.
    Finally, Rohit Chopra. While not an attorney steeped in 
competition law, Mr. Chopra does have extensive experience in 
government service and as a consumer advocate. He currently 
serves as a Senior Fellow at the Consumer Federation of 
America, and previously served in senior roles at both the 
Consumer Financial Protection Bureau and the U.S. Department of 
Education.
    Thank you all for being here, and welcome to your friends 
and families who are also joining us.
    The FTC is not the largest or most well-known agency under 
this Committee's jurisdiction, but it is arguably one of the 
most influential, given its mission to oversee competition and 
consumer protection across broad swaths of the American 
economy.
    The FTC was founded in 1914 by the direction of Congress, 
and for more than a century, the Commission has evolved 
alongside changing market dynamics and consumer preferences.
    The agency was borne out of concern at the time that more 
needed to be done to ensure competitive markets in the United 
States and to ``bust the trusts'' that threatened that 
competition. The Commission's focus soon expanded to include a 
mandate to enforce against unfair and deceptive acts and 
practices that threaten consumers.
    A common theme bridging the Commission's dual focus on 
competition and consumer protection is ensuring freedom in the 
marketplace.
    Over its history, and on balance, the FTC has been a strong 
cop on the beat ensuring that Americans reap the benefits from 
a functioning economy, not one dominated by firms with unfairly 
concentrated market power. The FTC has also made it possible 
for Americans to be confident in their transactions, to spend 
freely, and grow the economy with the knowledge that they are 
largely protected from the fraudsters and cheats who would do 
them harm.
    But the agency has not been without controversy. In the 
late 1970s, for example, the agency drew criticism for its 
consideration of a regulation that would have imposed major 
restrictions on television advertisements aimed at young 
children in order to reduce the amount of sugar that children 
eat. This regulatory overreach led the Congress to advance 
heightened procedural safeguards on the Commission's authority 
to promulgate rules, and led one media outlet to criticize the 
Commission as the ``great national nanny.''
    The Commission's assertiveness and the breadth of its 
jurisdiction have earned the FTC other nicknames as well. More 
recently, the agency has been called the ``Federal Technology 
Commission.'' That nickname is actually an appropriate one 
given the Commission's increased focus on the American tech 
sector and the growing influence of Silicon Valley on the 
American economy. It is my expectation that the FTC will 
continue its vigilance on this beat.
    Privacy and data security, for example, will remain major 
consumer protection concerns in the coming years, and issues 
each of these nominees will contend with, once confirmed. The 
FTC must continue to bring deception cases where it finds 
material misrepresentations. And it must bring unfairness cases 
where it finds substantial harm.
    Once again, I want to thank all of you for testifying today 
and for your willingness to fill these critical posts.
    And I will turn now to our Ranking Member, Senator Nelson, 
for his opening remarks.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. Senator Blumenthal 
has kindly agreed to step in as Ranking today since I have to 
be in three places at once.
    Although the Federal Trade Commission is a small agency, 
it's one with a big responsibility: protecting American 
consumers. Whether it involves small-time robocallers, multi-
million-dollar payday lenders, or giant Silicon Valley tech 
companies, the FTC acts as a cop on the beat that polices a 
whole host of unscrupulous practices that put American 
pocketbooks at risk.
    It's not just financial harm, public health can also be at 
stake. In the past, the FTC has cracked down on cigarette 
advertisements aimed at kids or on phony sports equipment 
claiming to prevent concussions.
    Just recently the FTC and the FDA sent warning letters to 
11 companies who were touting ``opioid cessation products.'' 
Given the depth of the opioid crisis in our country, it's 
unconscionable that anyone would prey on vulnerable families in 
desperate need of help, but they do.
    While the recent action by the FTC is a positive step, it 
also raises serious questions about why the agency waited so 
long to address this epidemic opioid crisis. Where was the FTC 
all these years when drug manufacturers were making deceptive 
marketing claims about the risks associated with OxyContin and 
other opioids?
    Given this reality, it's absolutely essential that the 
agency fulfills its mission to protect American consumers in a 
no-nonsense, nonpartisan, and independent manner. Unlike other 
independent agencies, it has a long tradition of acting on a 
consensus basis. The FTC's mission is too important for 
individual Commissioners to let politics or special interests 
impede the agency's law enforcement work. And if confirmed, I 
expect the nominees, and I have met with them privately, to 
continue the tradition of past Commissioners and work in a 
constructive bipartisan and independent manner.
    Finally, let me say a word about net neutrality. Simply 
put, the FTC is not the agency for net neutrality. Despite the 
amazing things the FTC does, it does not have the expertise, 
the resources, or the authority to adopt forward-looking rules 
to protect broadband consumers. The expertise is in the FCC, 
and that's why you'll see a CRA coming to the Senate to restore 
the FCC's critical net neutrality protections. That CRA, 
though, is not inconsistent with my continuing belief that in 
the long term, as I have discussed over and over while Senator 
Thune and I have consulted and collaborated on this, only 
lasting bipartisan net neutrality legislation with real 
protections can bring the certainty necessary to fully protect 
consumers and preserve the FCC's authority.
    And I thank you, Mr. Chairman.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Thank you, Mr. Chairman. I want to thank the nominees before us 
today. We now live in a cynical time when public service is not as 
valued as it once was. I commend all of you for your willingness to 
overcome this unfortunate attitude and work on behalf of the American 
public.
    The Federal Trade Commission is America's premier consumer 
protection agency. In 1914, President Wilson signed the FTC Act into 
law, empowering the newly formed commission to crack down on unfair 
methods of competition.
    And since the law was amended in 1938 to prohibit ``unfair or 
deceptive acts and practices,'' the FTC Act remains the bedrock of 
American consumer protection law today.
    The FTC is a small agency that has to cover a vast amount of real 
estate. The pocketbooks of American consumers are under constant 
assault by scams and unscrupulous corporate practices. From small-time 
robocallers to multi-million-dollar payday lenders to the giant tech 
companies of Silicon Valley, the FTC must take on a whole host of 
commercial practices that put average working Americans at risk.
    And it's not just financial harm--public health can be at stake. In 
the past, the FTC has cracked down on cigarette advertisements aimed at 
kids and on phony sports equipment claiming to prevent concussions. 
Just recently, the FTC and the FDA sent warning letters to 11 companies 
who were touting opioid cessation products. Given the depth of the 
opioid crisis in our nation, it's unconscionable that anyone would prey 
on vulnerable families in desperate need of help.
    Given this reality, it is absolutely essential that the FTC 
fulfills its mission to protect American consumers in a no-nonsense, 
bipartisan manner.
    Unlike other independent agencies, the FTC has a long tradition of 
acting on a consensus basis. The FTC's mission is too important for 
individual commissioners to bring their ideological baggage into the 
agency's law enforcement work. If confirmed, I expect all of you to 
continue the tradition of past FTC commissioners and work in a 
constructive, bipartisan manner.
    And finally, let me say a word about net neutrality. Simply put, 
the FTC is not the agency for net neutrality. Despite the amazing 
things the FTC does, it does not have the expertise, the resources or 
the authority to adopt forward looking rules to protect broadband 
consumers. That's why I support the CRA to restore the FCC's critical 
net neutrality protections. That CRA, though, is not inconsistent with 
my continuing belief that, in the long-term, only lasting bipartisan 
net neutrality legislation with real protections can bring the 
certainty necessary to fully protect consumers and preserve the FCC's 
authority.
    Thank you, Mr. Chairman.

    The Chairman. Thank you, Senator Nelson. And I would say, 
``Hear, hear!'' to that last statement, and hopefully this 
Committee will be able to get there in due time.
    We have a couple of our colleagues we would like to welcome 
to the Commerce Committee today. And they are here to introduce 
a couple of our nominees. I first want to recognize the 
President Pro Tem of the U.S. Senate, Senator Hatch. And he is 
here to introduce Joseph Simons.
    Senator Hatch, you're recognized.

                STATEMENT OF HON. ORRIN HATCH, 
                     U.S. SENATOR FROM UTAH

    Senator Hatch. Well, thank you so much, Mr. Chairman and 
members of the Committee. I want to thank you for the 
opportunity to appear.
    It is my distinct pleasure to introduce Joe Simons as 
nominee for Chairman of the Federal Trade Commission. We've all 
been eagerly waiting for this hearing because we all know it's 
high time to get things up and running again at the FTC. Though 
now over 100 years old, its mission remains as critical today 
as it was when first established.
    The United States is the economic marvel of the world. Our 
market system, in which entrepreneurs are free to build and 
consumers are free to choose, has proven an engine of 
prosperity without equal.
    But as I need not remind members of this Committee, a free 
enterprise economy will reach its full potential only so long 
as institutions like the FTC keep our markets free, fair, and 
competitive. Striking that balance has always been exceedingly 
difficult, no less now than in the past. And so, for all the 
prosperity of our system, and all the prosperity our system has 
delivered, for all it promises to deliver still, today there's 
a palpable anxiety about our economy and its trajectory.
    Concerns are being raised about corporate consolidation and 
the conduct of some of our biggest firms. Questions of data 
privacy and security loom large. Thus, the next few years will 
prove a critical time in the history of the FTC. The concerns 
are real, the policy choices are difficult, and the pressures 
brought to bear are likely to be heavy.
    Ultimately, Chairman Thune, that is why I am so pleased to 
be here to make this introduction. Let me say this and let me 
be clear: Joe Simons is just the man this moment requires. The 
President could not have made a better choice for this crucial 
role.
    I have to say, of course, he is superbly qualified to lead 
the Commission as Chairman. He was educated at Cornell and 
Georgetown Law. He served in several important posts at the 
FTC, including Director of the Bureau of Competition, and was 
both a partner and leader of the antitrust group at the law 
firm Paul Weiss.
    But more importantly than his resume, Joe Simons is also 
uniquely suited, both by temperament and character, to take up 
this charge. In his tenure at the FTC, on both merger and 
conduct cases, he earned a reputation for skill, integrity, and 
vigor. His enforcement decisions both when to proceed and, just 
as importantly, when not to, reflected doctrinal expertise, a 
keen sense for economics, and a practical feel for the 
operation of markets. Indeed, the methods he developed have 
been adopted and used by administrations of both parties and 
judges of all philosophical approaches.
    Once in private practice, he was called upon by both 
private clients and public institutions to handle the most 
difficult problems and most important and sensitive of matters. 
As the FTC charts its course through the modern era, Joe 
Simons' experience and stature will make him just the steady 
hand that the markets, the bar, and consumers expect.
    Of course, the FTC is more than just its Chairman. Before 
this Committee is an excellent slate. Christine Wilson is a 
recognized leader in competition law, and I have great respect 
for her. Rohit Chopra is a widely regarded expert in consumer 
protection. And Noah Phillips, of course, is a part of our 
family here in the Senate. Consistently over the years, he has 
proven a reliable counselor to Senator Cornyn as well as an 
honest and productive broker in working with other Senate 
offices. I know he'll make an exceptional Commissioner.
    In conclusion, Mr. Chairman, I commend the President on 
such outstanding nominees, and I applaud this Committee for its 
expedition in moving them forward. Let there be no mistake: 
this is an excellent package, and it deserves bipartisan 
support. Led by Joe Simons, we can trust the FTC will 
faithfully fulfill its mandate and continue its tradition and 
bipartisan, practical enforcement and policymaking to tackle 
the challenges ahead.
    Thank you, Mr. Chairman, for this opportunity of saying 
these few words.
    [The prepared statement of Senator Hatch follows:]

             Introduction of Joe Simons by Hon. Orrin Hatch
    Chairman Thune, Ranking Member Nelson, and members of the 
Committee, I want to thank you for the opportunity to appear here 
today. It is my distinct pleasure to introduce Joe Simons as nominee 
for Chairman of the Federal Trade Commission.
    We have all been waiting eagerly for this hearing, because we all 
know it's high-time to get things up and running again at the FTC. 
Though now over 100 years old, its mission remains as critical today as 
it was when first established. The United States is the economic marvel 
of the world. Our market system--in which entrepreneurs are free to 
build and consumers are free to choose--has proven an engine of 
prosperity without equal.
    But, as I need not remind members of this Committee, a free 
enterprise economy will reach its full potential only so long as 
institutions like the FTC keep our markets free, fair, and competitive. 
Striking that balance has always been exceedingly difficult, no less 
now than in the past. And so, for all the prosperity our system has 
delivered, for all it promises to deliver still, today there's a 
palpable anxiety about our economy and its trajectory. Concerns are 
being raised about corporate consolidation and the conduct of some of 
our biggest firms. Questions of data privacy and security loom large. 
And thus, the next few years will prove a critical time in the history 
of the FTC. The concerns are real, the policy choices are difficult, 
and the pressures brought to bear are likely to be heavy.
    Ultimately, Chairman Thune, that is why I am so pleased to be here 
to make this introduction. Let me say this, and let me be clear: Joe 
Simons is just the man this moment requires. The President could not 
have made a better choice for this crucial role.
    Of course, he is superbly qualified to lead the Commission as 
Chairman. He was educated at Cornell and Georgetown Law. He served in 
several important posts at the FTC, including Director of the Bureau of 
Competition, and was both a partner and leader of the antitrust group 
at the law firm Paul Weiss. But, more importantly than resume, Joe 
Simons is also uniquely suited, both by temperament and character, to 
take up this charge. In his tenure at the FTC, on both merger and 
conduct cases, he earned a reputation for skill, integrity, and vigor. 
His enforcement decisions--both when to proceed, and just as 
importantly, when not to--reflected doctrinal expertise, a keen sense 
for economics and a practical feel for the operation of markets. 
Indeed, the methods he developed have been adopted and used by 
administrations of both parties and judges of all philosophical 
approaches. Once in private practice, he was called upon--by both 
private clients and public institutions--to shepherd and handle the 
most important, and sensitive, of matters. As the FTC charts its course 
through the modern era, Joe Simons' experience and stature will make 
him just the steady hand that the markets, the bar, and consumers 
expect.
    Of course, the FTC is more than just its Chairman. Before this 
Committee is an excellent slate. Christine Wilson is a recognized 
leader in competition law. Rohit Chopra is a widely regarded expert in 
consumer protection. And Noah Phillips, of course, is a part of our 
family here in the Senate. Consistently over the years, he has proven a 
reliable counselor to Senator Cornyn as well as an honest and 
productive broker in working with other Senate offices. I know he'll 
make an exceptional Commissioner.
    In conclusion, Mr. Chairman, I commend the President on such 
outstanding nominees, and I applaud this Committee for its expedition 
in moving them forward. Let there be no mistake: this is an excellent 
package, and it deserves bipartisan support. Led by Joe Simons, we can 
trust the FTC will faithfully fulfill its mandate, and continue in its 
tradition of bipartisan, practical enforcement and policymaking to 
tackle the challenges ahead.

    The Chairman. Thank you, Chairman Hatch, my Chairman of the 
Senate Finance Committee, along with Senator Cornyn and a few 
others on this panel as well.
    But we're also joined by another distinguished Member of 
the Senate leadership, our Whip, Senator Cornyn, from Texas. 
And he is here to introduce Noah Phillips.
    Senator Cornyn.

                STATEMENT OF HON. JOHN CORNYN, 
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Thank you, Mr. Chairman. And thanks to 
Ranking Member Blumenthal, and the members of the Committee.
    I'm honored to be here, as you've heard, to introduce an 
extremely well-qualified candidate, Noah Phillips, to be a 
Federal Trade Commissioner.
    You've already said, Mr. Chairman, and others have 
acknowledged, that Noah serves as my Chief Counsel, which is to 
his great credit. Heaven knows I need all the help I can get. 
And Noah has helped guide me and my legislative portfolio 
through complex issues on the Judiciary Committee during his 
tenure. His intellect shines most when he's faced with 
technical topics that would intimidate even the most seasoned 
lawyers: intellectual property, privacy issues, antitrust, and 
constitutional law. But he's also shown, as Senator Hatch has 
noted, a knack for building consensus with folks on the other 
side of the aisle when necessary to get things done. This is 
becoming increasingly rare these days, and it's one of the 
reasons he has been a very valued member of my staff.
    Trading judicial confirmation hearings for hearings on 
proposed corporate mergers may seem like a big career change, 
but Noah actually started out in the financial world in New 
York City after graduating from college. After completing law 
school at Stanford, Noah clerked on the U.S. Court of Appeals 
for the Fifth Circuit and was located in San Antonio and came 
to the realization that so many folks have when they spend time 
in my state, he learned to really like Texas. We see a lot of 
that.
    I'll spare you the impressive list of law firms he's worked 
for, but he soon found his way back to Texas and onto my staff. 
His legal resume is remarkable, as is the work he's done with 
the Judiciary Committee. He has worked behind the scenes on 
important victims' rights laws such as the Holocaust 
Expropriated Art Restoration Act and legislation to reform our 
Nation's patent system.
    Beyond the hearing room, Noah is a man of strong moral 
character and quick wit. As further confirmation of his 
bipartisan credentials, his wife, Sarah, worked for USAID and 
the National Security Council during the Obama administration. 
He is a devoted father to three wonderful children: Dalia, 
Jonah, and Abigail--who you've already heard some from this 
morning.
    [Laughter.]
    Senator Cornyn. And perhaps you'll hear more from as the 
hearing continues.
    As a Commissioner, Noah will use his even-handed manner and 
experience in patent and antitrust law to better protect 
consumers and competition. Capitol Hill staff may come and go, 
but this is a loss that will be felt by my office and by the 
entire Senate Judiciary Committee. I know that the Commission 
and our country will be better off during his tenure, and I 
thank you for your consideration of this deserving and well-
qualified nominee.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Cornyn follows:]

           Introduction of Noah Phillips by Hon. John Cornyn
    Thank you, Mr. Chairman, and thanks to Ranking Member Blumenthal 
and the Members of the Committee. I'm honored to be here, as you've 
heard, to introduce an extremely well-qualified candidate, Noah 
Phillips, to be Federal Trade Commissioner.
    You've already said, Mr. Chairman, and others have acknowledged 
that Noah served as my chief counsel, which is to his great credit. 
Heaven knows I need all the help I can get. Noah's helped guide me and 
my legislative portfolio through complex issues on the Judiciary 
Committee during his tenure. His intellect shines most when he's faced 
with technical topics that would intimidate even the most seasoned 
lawyers: intellectual property, privacy issues, antitrust, and 
constitutional law. But he's also showed, as Sen. Hatch has noted, a 
knack for building consensus with folks on the other side of the aisle 
when necessary to get things done. This is becoming increasingly rare 
these days, and it's one of the reasons he's been a very valued member 
of my staff.
    Trading judicial confirmation hearings for proposed corporate 
mergers may seem like a big career change, but Noah actually started 
out in the financial world in New York City after graduating from 
college. After completing law school at Stanford, Noah clerked on the 
U.S. Court of Appeals for the 5thCircuit, and was located in San 
Antonio, and came to the realization that so many folks have when they 
spend time in my state: he learned to really like Texas. We see a lot 
of that.
    I'll spare you the impressive list of law firms he's worked for, 
but he soon found his way back to Texas and on to my staff. His legal 
resume is remarkable, as is the work he's done with the Judiciary 
Committee, working behind the scenes on important victims' rights laws 
like the Holocaust Expropriated Art Restoration Act and legislation to 
reform our Nation's patent system.
    Beyond the hearing room, Noah's a man of strong moral character and 
quick wit. As further confirmation of his bipartisan credentials, his 
wife Sarah worked for USAID and the National Security Council during 
the Obama Administration. He is a devoted father to three wonderful 
children: Dalia, Jonah, and Abigail, whom you've already heard some 
from this morning and perhaps you'll hear more from as the hearing 
continues.
    As a Commissioner, Noah will use his even-handed manner and 
experience in patent and antitrust law to better protect consumers and 
competition. Capitol Hill staff may come and go, but this is a loss 
that will be felt by my office and by the entire Senate Judiciary 
Committee. I know that the Commission and our country will be better 
off during his tenure, and I thank you for your consideration of this 
deserving and well-qualified nominee.

    The Chairman. Thank you, Senator Cornyn.
    And we are grateful for our colleagues' willingness to come 
here and testify on behalf of the nominees. Thank you for being 
here.
    And I'm going to ask our nominees if they would come 
forward. I'm going to recognize a member of this Committee in 
just a minute, Senator Capito, to introduce one of the other 
``noms'' as well, but if we could have our folks come forward, 
we'll get rolling.
    I want to recognize Senator Capito, and she is here to 
introduce Ms. Christine Wilson.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Yes. Thank you, Mr. Chairman.
    I want to thank all the nominees, but I particularly want 
to thank President Trump for nominating Christine Wilson as a 
nominee as FTC Commissioner to the Committee. She's an absolute 
stellar candidate.
    Ms. Wilson works in Washington, D.C., and lives in Falls 
Church, Virginia. But she has recently purchased farmland in 
Morgan County, West Virginia. Christine and her husband both 
have relatives who have lived and worked in the region in the 
1700s and the 1800s. So when they break ground on their house 
in March, it will be something of a homecoming for them, and 
West Virginians will welcome them home.
    Aside from being one of my newest constituents, I would 
like to highlight her work with women and human trafficking. 
Included in the plans of Ms. Wilson's recently purchased 
farmland in West Virginia, is her hope to open a retreat 
location for victims of sexual trafficking and abuse. I commend 
her for this initiative and look forward to hoping that that 
comes true because that's an issue that many of us care deeply 
about.
    On the professional front, as you can tell from her bio, 
for over 20 years, she has been an advocate of a simple but 
vital truth at the heart of American economic greatness: 
Competition is the best protection for consumers and the 
strongest prescription for a healthy economy.
    Belief that consumers benefit most from robust competition 
was at the heart of Christine's work as Chief of Staff to the 
FTC Chairman, Tim Muris, under President George W. Bush. And 
confidence that market economies increase consumer choice and 
reduce prices has grounded her many contributions to the sound 
development of competition law and policy, both domestically 
and internationally.
    If confirmed, I know Christine will bring to bear, as an 
FTC Commissioner, the extensive experience that she has gained 
both in private practice and in the public sector. So I look 
forward to hearing from her and the other nominees today.
    And thank you, Christine, for your commitment to our 
country and your public service.
    Thank you.
    [The prepared statement of Senator Capito follows:]

     Introduction of Christine Wilson by Hon. Shelley Moore Capito
    It is my pleasure to introduce Christine Wilson, nominee for FTC 
Commissioner, to this Committee.
    Ms. Wilson works in Washington DC and lives in Falls Church, 
Virginia but recently purchased farm land in Morgan County, West 
Virginia. Christine and her husband both have relatives who lived and 
worked in that region during the 1700s and 1800s. When they break 
ground to build a house in March, it will be something of a homecoming 
for them.
    Aside from being one of my newest constituents, I'd like to 
highlight her work with women and human trafficking. Included in the 
plans of Ms. Wilson's recently purchased farm land in West Virginia, is 
her hope to open a retreat location for survivors of trafficking and 
abuse. I commend her for this initiative as the issue is one I care 
very deeply about.
    On the professional front, for over twenty years, Ms. Wilson has 
been an advocate of a simple but vital truth at the heart of American 
economic greatness. Competition is the best protection for consumers 
and the strongest prescription for a healthy economy.
    Belief that consumers benefit most from robust competition was at 
the heart of Christine's work as Chief of Staff to FTC Chairman Tim 
Muris under President George W. Bush.
    And confidence that market economies increase consumer choice and 
reduce prices has grounded her many contributions to the sound 
development of competition law and policy, both domestically and 
internationally.
    If confirmed, Christine will bring to bear as an FTC Commissioner 
the extensive experience she has gained both in private practice and 
the public sector.
    I look forward to hearing from her and the other nominees today.

    The Chairman. Thank you, Senator Capito.
    So we're going to proceed. We'll start on my left, and your 
right, with Mr. Simons. And if we could ask our panelists, if 
they could, to confine their oral remarks as close to 5 minutes 
as possible. Your entire statements will be included and made a 
part of the record. And we'll get on to our questioning.
    So, Mr. Simons, please proceed.

                  STATEMENT OF JOSEPH SIMONS,

          NOMINEE FOR COMMISSIONER/CHAIRMAN DESIGNATE,

                    FEDERAL TRADE COMMISSION

    Mr. Simons. Chairman Thune, Ranking Member Blumenthal, and 
distinguished members of the Committee, thank you for this 
opportunity to testify today. And thank you to Senator Hatch 
for those very kind words. I'll do my best to live up to them.
    It is truly an honor to appear before you, and especially 
regarding this particular nomination. The Federal Trade 
Commission is an institution that is very close to my heart. 
The FTC has a great mission. It deals with fascinating and 
important issues, and most importantly, it has a terrific 
staff.
    As I mentioned to a few of you, in some ways, it feels like 
I have spent my entire professional life preparing for this 
opportunity.
    As a much younger lawyer back in the 1980s, I worked at the 
agency as an assistant to the Director of the Bureau of 
Competition. A little over a decade later, I returned to run 
the Bureau of Competition at the FTC. And while in private 
practice, I have for many years represented clients before the 
FTC and the Antitrust Division of the Department of Justice. 
Throughout all that time, I never gave much thought to the 
possibility that I might one day find myself before this 
Committee as a nominee to lead the Commission, but personally, 
I cannot imagine a greater professional honor.
    Of course, none of this would have been possible without 
the support of friends and family. First and foremost, I 
definitely would not be here today without the love and support 
of my wife, Martha. Also here with me today are my children 
Jack, Sam, and his wife, Whitney; my stepchildren Jaxson, 
Michelle, Lauren; my brother-in-law, Jim, and his wife, Lynn; 
and several of our close friends; and my cousin, Jeff. My 
daughter, Lauren, is watching from Cornell. And I can't thank 
all of them enough for their support.
    The Federal Trade Commission is a proud and respected 
institution in Washington. Since its creation a little over 100 
years ago, its work has proven critical to increasing the 
growth of our economy. By vigorously policing anticompetitive 
conduct and preventing anticompetitive consolidation, the 
Commission can help ensure that firms compete on the merits, 
providing better products and services to consumers at lower 
prices. Likewise, by stamping out unfair and deceptive trade 
practices, the Commission can help assure that consumers are 
protected and have the information they need to make 
intelligent choices in the marketplace. In sum, the FTC is all 
about protecting and improving consumer welfare. And as has 
already been discussed, one of the great things about the FTC's 
mission historically is that it has been performed in a highly 
bipartisan way.
    I pledge to you today that if honored with confirmation, I 
will continue to lead the FTC in that rich tradition of 
bipartisan policymaking and enforcement. I look forward to 
working alongside my fellow Commissioners, of both parties, to 
assure that the FTC remains as effective in the start of its 
second century as it did up through the end of its first.
    Thank you again for this opportunity to testify. And I look 
forward to your questions.
    [The prepared statement and biographical information of Mr. 
Simons follow:]

  Prepared Statement of Joseph Simons, Nominee to be a Commissioner, 
                        Federal Trade Commission
    Chairman Thune, Ranking Member Nelson, and distinguished members of 
the Commerce Committee, thank you for the opportunity to testify today. 
It is, truly, an honor to appear before you, and especially regarding 
this nomination.
    The Federal Trade Commission is an institution very close to my 
heart. The Commission has a great mission, it deals with fascinating 
and important issues, and it has a terrific staff. I've spent the 
greater part of my career working on the issues at the core of its 
mission, witnessing first-hand the tremendous impact the Commission can 
have and the enormous good that it can do. As I've mentioned to a few 
of you, in some ways it feels like I've spent my entire professional 
life preparing for this opportunity. As a much younger lawyer back in 
the 1980s, I worked at the agency as an assistant to the Director of 
the Bureau of Competition, among other jobs in Bureau. A little over a 
decade later, I returned to the FTC to run the Bureau of Competition. 
And while in private practice, I have for many years represented 
clients before the FTC and Department of Justice Antitrust Division. 
Throughout all that time, I never gave much thought to the possibility 
that I might one day find myself before this Committee as a nominee to 
lead the Commission. But personally, I cannot imagine a greater 
professional honor.
    Of course, none of this would have been possible without the 
support of family and friends, some of whom are here with me today. 
First and foremost, I definitely would not be here today without the 
love and support of my lovely wife Martha. Also here with me today are 
my children Sam, Jack and Lauren, and my stepchildren Jaxson, Michelle, 
and Lauren. Several of our close friends are here as well. I can't 
thank them all enough for their support.
    The Federal Trade Commission is a proud and respected institution 
in Washington. Since its creation a little over a 100 years ago, its 
work has proven critical to increasing the growth of our economy. The 
free enterprise system works best when our markets remain free and 
competitive. By vigorously policing anticompetitive conduct, and 
preventing anticompetitive consolidation, the Commission can help 
ensure that firms compete on the merits, providing better products and 
services to consumers at lower prices. Likewise, by stamping out unfair 
or deceptive trade practices, the Commission can help assure that 
consumers are protected and have the information they need to make 
intelligent choices in the marketplace. The FTC is all about protecting 
and improving consumer welfare.
    And one of the great things about this mission historically is that 
it has been performed in a highly bipartisan way.
    I pledge to you today that if honored with confirmation, I will 
continue to lead the FTC in that rich tradition of bipartisan 
policymaking and enforcement. I look forward to working alongside my 
fellow Commissioners, of both parties, to assure the FTC remains as 
effective in the start of its second century as it did up through the 
end of its first century.
    Where the agency already has the necessary tools to protect 
consumers, you have my assurance they will vigorously be brought to 
bear. And where a new approach may be needed, I'll be eager to work 
with this Committee and its staff in finding a solution.
    Thank you again for this opportunity to testify, and I look forward 
to your questions. I'm humbled by the nomination, and, if honored with 
confirmation, excited for the work ahead. Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Joseph Jay 
Simons.
    2. Position to which nominated: Commissioner of the Federal Trade 
Commission.
    3. Date of Nomination: October 19, 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 2001 K Street, NW, 5th floor, Washington, DC 20006.

    5. Date and Place of Birth: May 4, 1958; Brooklyn, NY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Martha Marie Simons (wife)--Self-employed contractor for 
        Maharishi Foundation USA, Inc., Employment address is home.

        Children: Samuel P. Simons (son)--27 years old; Jack W. Simons 
        (son)--24 years old; Lauren L. Simons (daughter)--20 years old; 
        Jaxson L. Zimmerman (stepson)--29 years old; Michelle M. 
        Zimmerman (stepdaughter)--28 years old; Lauren L. Zimmerman 
        (stepdaughter)--24 years old.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Cornell University, AB (1980)
        Georgetown University Law Center, JD (1983)

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Ocean County Department of Consumer Affairs, Toms River, NJ--
        Intern (Summer 1980)

        Giordano, Halleran & Ciesla, Middletown, NJ--Summer Associate 
        (Summer 1981)

        Duncan, Weinberg & Miller, Washington, D.C.--Law Clerk (Fall 
        1981)

        Cohen & Uretz, Washington, D.C.--Law Clerk (Spring 1982-Fall 
        1982)

        Stryker, Tams & Dill, Newark, NJ--Summer Associate (Summer 
        1982)

        Butler & Binion, Houston, TX--Summer Associate (Summer 1982)

        *Wald, Harkrader & Ross, Washington, D.C.--Law Clerk and 
        Associate (Spring 1983-1985)

        *Skadden, Arps, Slate, Meagher & Flom, Washington, D.C.--
        Associate (1985-1987)

        **Federal Trade Commission, Washington, D.C.--Assistant to the 
        Bureau Director, Assistant Director for Evaluation, and 
        Associate Director for Mergers, Bureau of Competition (1987-
        1989)
                As Associate Director, responsible for supervising half 
                of Commission's merger investigations. As Assistant 
                Director, responsible for managing the Bureau's 
                Evaluation Office.

        *Wachtell, Lipton, Rosen & Katz, New York, NY--Associate (1989-
        1994)

        **Collier, Shannon, Rill & Scott, Washington, D.C.--Partner and 
        Counsel (1994-1998)

        Madison Oil Company, Dallas, Texas--Board Member and Vice 
        President (Approx. 1993-1998; 2000-2001)

        Toreador Resources Corporation, Dallas, Texas--Board Member 
        (approx. 2001-2003)

        **Clifford Chance, Washington, D.C.--Partner (1998-2001)

        **Federal Trade Commission, Washington, D.C.--Director of the 
        Bureau of Competition (2001-2003)

        **Paul, Weiss, Rifkind, Wharton & Garrison LLP, Washington, 
        D.C.--Partner and Co-Chair of the Antitrust Group (2003-12/31/
        2017)

    Note: items marked with (*) for roles related to nominated position 
and (**) for managerial roles relating to nominated position.
    9. Attach a copy of your resume. A resume copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.

        Paul, Weiss, Rifkind, Wharton & Garrison LLP, Washington, 
        D.C.--Partner (2003-12/13/2017)

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        American Bar Association (1983 to present)

        American Economic Association (approximately 1983 to present)

        Fellow of the American Bar Association (approximately 2012 to 
        present)

        New York Bar (1989 to present)

        District of Columbia Bar (1983 to present)

        Alpha Tau Omega Fraternity (1977 to present)

        U.S. Power Squadrons (approximately 2012 to present)

        National Rifle Association (member on and off over last ten 
        years)

        Executive Club of Wilmington, NC (2016 to present)

        Sport & Health Club, McLean, VA (approximately 2005 to present)

        Sports Club LA, Washington, D.C. (approximately 2003-2015)

        Alpha Tau Omega Fraternity membership is limited to males. 
        Otherwise, Alpha Tau Omega does not restrict membership on the 
        basis of race, color, religion, national origin, age, or 
        handicap. None of the other listed organizations restricts 
        membership on the basis of sex, race, color, religion, national 
        origin, age, or handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

        U.S. Senate Victory Committee--$1,000 (6/30/2010)

        Friends of Dick Lugar--$1,000 (12/06/2011)

        National Republican Senatorial Committee--$2,000 (12/13/2011) 
        and $3,000 (10/15/2010)

        Romney Victory Inc.--$1,000 (7/20/2012)

        Ted Cruz for Senate--$1,000 (3/24/2011), $500 (7/21/2012), $500 
        (5/23/12), and $500 (10/3/2012)

        Zinke for Congress--$2,600 (11/14/2013)

        Sullivan for U.S. Senate--$1,000 (10/20/2014)

        Friends of Pat Toomey--$1,000 (9/17/2015)

        Shelby for U.S. Senate--$1,000 (11/03/2015)

        Marco Rubio for President--$1,000 (12/23/2015)

        McHenry for Congress--$1,000 (6/30/2016)

        Cornyn Majority Committee--$1,000 (2/15/2017)

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Recognized as a leading antitrust lawyer by Chambers USA, 
        Chambers Global, and The Legal 500.

        Selected to Best Lawyers in America, The International Who's 
        Who of Competition Lawyers and Economists.

        Selected to Crain's New York Business ``40 Under 40'', which 
        recognizes 40 rising stars under 40 years old in the New York 
        business community.

        Federal Trade Commission Award for Meritorious Service.

        Fellow of the American Bar Foundation.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    The following list reflects the best of my recollection and a 
diligent search, but it is possible that there is an article, 
presentation or speech that I have no record of or was unable to 
locate.

        A Practical Guide to Merger Analysis, with Steven Salop, 29 
        Antitrust Bulletin 663 (Winter 1984).

        Fixing Price with Your Victim: Efficiency and Collusion with 
        Competitor Based Formula Pricing Clauses, 17 Hofstra Law Review 
        599 (1989).

        Focusing Market Definition: How much Substitution is 
        Necessary?, with Barry Harris, 12 Research In Law and Economics 
        207 (1989), reprinted at 21 The Journal of Reprints for 
        Antitrust Law and Economics 151 (1992).

        Real Estate Multiple Listings Services and Antitrust Revisited, 
        with John Loptka, in M. Geurin-Calvert and S. Wildman (eds.), 
        Electronic Services Networks: A Business and Public Policy 
        Challenge (Prager: 1991).

        The Often-Forgotten Role of Price-Cost Margins in Antitrust 
        Merger Analysis, with Barry Harris, 6 International Merger Law 
        (February 1991)

        Horizontal Mergers in Spatially Differentiated Noncooperative 
        Markets, with Preston McAfee and Michael Williams, 40 Journal 
        of Industrial Economics 349 (1992).

        New U.S. Merger Enforcement Guidelines: Competitive Effects, 
        with Michael Williams and Preston McAfee, 21 International 
        Merger Law (May 1992).

        The Renaissance of Market Definition, with Michael Williams, 38 
        Antitrust Bulletin 799 (1993).

        Co-author with James Loftis of chapters on vertical mergers, 
        conglomerate mergers, and potential competition in R. 
        Schlossberg and C. Aronson (eds.), MERGERS AND ACQUISITIONS 
        (ABA: 2000).

        Keynote Address to the Tenth Annual Golden State Antitrust and 
        Unfair Competition Law Institute Santa Monica California 
        (October 2002).

        Report from the Bureau of Competition, Presentation at the 2003 
        ABA Antitrust Section Spring Meetings (April 2003).

        FTC Initiatives in Intellectual Property, oral remarks at the 
        American Intellectual Property Law Association (May 2003).

        The State of Critical Loss Analysis: Let's Make Sure We 
        Understand the Whole Story, with David Scheffman, The Antitrust 
        Source (November 2003).

        Non-Merger Enforcement at the FTC: An Aggressive Proconsumer 
        Agenda, with David Scheffman, Antitrust Bulletin 471 (Fall 
        2004).

        Antitrust Issues in Bidding for Corporate Control, Paul, Weiss, 
        Rifkind, Wharton & Garrison LLP, Client Alert (10/11/2006).

        Department of Justice Gives Antitrust Guidance to Standards 
        Development Organizations, Paul, Weiss, Rifkind, Wharton & 
        Garrison LLP, Client Alert (11/08/2006).

        FTC Announces Revised Hart-Scott-Rodino Thresholds, Paul, 
        Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (01/25/
        2007).

        New Supreme Court Decision Changes Standard on Motions to 
        Dismiss, Paul, Weiss, Rifkind, Wharton & Garrison LLP, Client 
        Alert (05/21/2007).

        DOJ Challenges Non-HSR Reportable Transactions, Paul, Weiss, 
        Rifkind, Wharton & Garrison LLP, Client Alert (05/29/2007).

        Supreme Court Overrules Dr. Miles and Holds That Vertical Price 
        Restraints Are Not Per Se Illegal, Paul, Weiss, Rifkind, 
        Wharton & Garrison LLP, Client Alert (07/02/2007).

        In the Courts: A Changed Standard on Motions to Dismiss, Paul, 
        Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (07/14/
        2007).

        Prohibition on Interlocking Directorates May Prohibit a Firm 
        From Appointing Its Agents to Serve As Directors of Competing 
        Corporations, Paul, Weiss, Rifkind, Wharton & Garrison LLP, 
        Client Alert (11/13/2007).

        District Court Dismisses Antitrust Class Action Complaint 
        Against Private Equity Firms, Paul, Weiss, Rifkind, Wharton & 
        Garrison LLP, Client Alert (02/26/2008).

        DC Circuit Rules in FTC's Favor on Whole Foods-Wild Oats 
        Merger, Paul, Weiss, Rifkind, Wharton & Garrison LLP, Client 
        Alert (08/04/2008).

        Court Declines to Dismiss Antitrust Claim Alleging Private 
        Equity Firms Allocated Market For Leveraged Buyouts, Paul, 
        Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (12/18/
        2008).

        President Obama Announces Key Antitrust Nomination: What to 
        Expect From the FTC and DOJ in the New Administration, Paul, 
        Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (01/22/
        2009).

        Recent DC Circuit Decisions in Whole Foods Leave Standard for 
        Future Mergers Unsettled, with Ilene Gotts, Aidan Synnott and 
        George Conway, Competition Law International 9 (Feb. 2009).

        Federal Appeals Court Tightens Standards For Class 
        Certification in Antitrust Actions, Paul, Weiss, Rifkind, 
        Wharton & Garrison LLP, Client Alert (02/02/2009).

        U.S. Supreme Court Addresses ``Price Squeeze'' Claim and 
        Application of Twombly Pleading Standard to Section 2 of the 
        Sherman Act, Paul, Weiss, Rifkind, Wharton & Garrison LLP, 
        Client Alert (02/26/2009).

        Leibowitz Named FTC Chairman, Paul, Weiss, Rifkind, Wharton & 
        Garrison LLP, Client Alert (03/09/2009).

        Implications of Pacific Bell v. Linkline, with Andrew Finch and 
        William Michael, Law 360 (03/31/2009).

        DOJ Antitrust Division Declares Reverse Settlements 
        ``Presumptively Unlawful'', Paul, Weiss, Rifkind, Wharton & 
        Garrison LLP, Client Alert (07/20/2009).

        Department of Justice Proposes ``Structured Rule of Reason'' 
        Approach to Resale Price Maintenance Claims, Paul, Weiss, 
        Rifkind, Wharton & Garrison LLP, Client Alert (10/12/2009).

        Interlocks Under Section 8 of the Clayton Act: Implications of 
        the FTC's Investigation of Apple and Google, Paul, Weiss, 
        Rifkind, Wharton & Garrison LLP, Client Alert (10/14/2009).

        Ninth Circuit Courts Reject Antitrust ``Bundling'' Claims In 
        Two Recent Cases, Paul, Weiss, Rifkind, Wharton & Garrison LLP, 
        Client Alert (11/16/2009).

        Critical Loss v. Diversion Analysis: Clearing up the Confusion, 
        with Malcolm Coate, The Antitrust Chronicle (Dec. 2009).

        The Potential Impact of New Economic Tests in Merger Analysis: 
        A New Direction? (Presented at the ABA Antitrust Section Spring 
        Meetings March 2010).

        Court Rejects FTC Challenge to Reverse Settlement Agreement, 
        Paul, Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (03/
        01/2010).

        Critical Loss v. Diversion Analysis: Another Attempt at 
        Consensus, with Malcolm Coate, The CPI Antitrust Journal (April 
        2010).

        Unilateral Effects for Differentiated Products: Theory, 
        Assumptions and Research, with David Scheffman, The Antitrust 
        Source (April 2010).

        U.S. Antitrust Agencies Propose Revisions to Merger Guidelines, 
        Paul, Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (04/
        22/2010).

        Second Circuit Invites Rehearing in Reverse Settlement Case, 
        Paul, Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (05/
        06/2010).

        Upper Pressure on Price Analysis, with Malcolm Coate, 6 
        European Competition Journal 377 (August 2010).

        U.S. Antitrust Agencies Issue Revised Merger Guidelines, Paul, 
        Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (08/26/
        2010).

        Continuity and Change in the 2010 Merger Guidelines, with 
        Malcolm Coate, CPI Antitrust Journal (Oct. 2010).

        The 2010 Merger Guidelines, Critical Loss and Linear Demand, 
        with Jay Ezrielev, 7 Journal of Competition Law and Economics 
        497 (2011).

        Court of Appeals Upholds Antitrust Conspiracy Claim, Addresses 
        Application of Twombly, Paul, Weiss, Rifkind, Wharton & 
        Garrison LLP, Client Alert (01/18/2011).

        Seventh Circuit Affirms Dismissal of ``Buyers' Cartel'' Claim, 
        Provides Guidance Regarding Premiere Information Sharing, Paul, 
        Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (01/24/
        2011).

        Eighth Circuit Affirms Summary Judgment for Medical Device 
        Supplier in Antitrust Case Challenging Pricing Practices, Paul, 
        Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (06/20/
        2011).

        In Dismissal of Hospital's Tying Claim Against Drug 
        Manufacturer, Third Circuit Takes Narrow View indirect 
        Purchaser Requirement, Paul, Weiss, Rifkind, Wharton & Garrison 
        LLP, Client Alert (06/27/2011).

        Hart-Scott-Rodino Reporting Requirements Amended, Paul, Weiss, 
        Rifkind, Wharton & Garrison LLP, Client Alert (07/13/2011).

        A Comment on Choosing Among Tools for Assessing Unilateral 
        Effects Analysis, with Malcolm Coate, 8 European Competition 
        Journal 429 (2012).

        In Defense of Market Definition, with Malcolm Coate, 57 
        Antitrust Bulletin 667 (Winter 2012).

        A Comment on the Articles in the Special Kaplow Edition, with 
        Malcolm Coate, 57 Antitrust Bulletin 953 (Winter 2012).

        Known Unknowns: Uncertainty and its Implication for Antitrust 
        Policy and Enforcement in the Standard-Setting Context, with 
        Bruce Hoffman, 57 Antitrust Bulletin 89 (Spring 2012).

        Hart-Scott-Rodino Enforcement: Executive Equity Awards Can 
        Trigger HSR Filing Obligations, Paul, Weiss, Rifkind, Wharton & 
        Garrison LLP, Client Alert (01/06/2012).

        Third Circuit Holds that ``Reverse Settlement'' Payments Are 
        Prima Facie Evidence of an Antitrust Violation. Widening 
        Circuit Split, Paul, Weiss, Rifkind, Wharton & Garrison LLP, 
        Client Alert (07/19/2012).

        Supreme Court Reverses Certification of Antitrust Class Action 
        But Defers Decision on Standards for Expert Testimony, Paul, 
        Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (04/04/
        2013).

        Federal Court Rules ``Loyalty Discounts'' Do Not Violate 
        Antitrust Laws Unless Below-Cost, Paul, Weiss, Rifkind, Wharton 
        & Garrison LLP, Client Alert (04/22/2014).

        Seventh Circuit Affirms Dismissal of Antitrust Claims Based on 
        Foreign Purchases, Paul, Weiss, Rifkind, Wharton & Garrison 
        LLP, Client Alert (12/09/2014).

        FTC Announces New Hart-Scott-Rodino and Clayton Act Section 8 
        Thresholds, Paul, Weiss, Rifkind, Wharton & Garrison LLP, 
        Client Alert (01/21/2015).

        Fifth Circuit Reverses Jury Verdict for Antitrust Plaintiffs, 
        Finding Lack of Sufficient Evidence to Establish a Conspiracy, 
        Paul, Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (01/
        23/2015).

        Court of Appeals Upholds Decision Unwinding Consummated Merger 
        of Two Physician Groups Following FTC Suit, Paul, Weiss, 
        Rifkind, Wharton & Garrison LLP, Client Alert (02/17/2015).

        Supreme Court Holds State Regulatory Board Controlled by Active 
        Market Participants Is Not Immune from Antitrust Liability, 
        Paul, Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (02/
        27/2015).

        Sixth Circuit Court of Appeals Adopts Below-Cost Standard for 
        ``Non Explicit'' Tying Arrangements, Paul, Weiss, Rifkind, 
        Wharton & Garrison LLP, Client Alert (03/30/2015).

        Third Circuit Court of Appeals Joins Other Circuits in Applying 
        Daubert to Expert Testimony at Class Certification, Paul, 
        Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (04/13/
        2015).

        Second Circuit Applies Rule of Reason to Uphold Preliminary 
        injunction Preventing Manufacturer from Removing Alzheimer's 
        Drug from Market, Paul, Weiss, Rifkind, Wharton & Garrison LLP, 
        Client Alert (06/03/2015).

        Federal Judge Preliminarily Enjoins Sysco-U.S. Foods Merger and 
        Parties Abandon the Transaction, Paul, Weiss, Rifkind, Wharton 
        & Garrison LLP, Client Alert (07/02/2015).

        FTC's Challenge to Family Dollar/Dollar Tree Merger Suggests 
        Potential for Significant Increase in Merger Enforcement, Paul, 
        Weiss, Ritkind, Wharton & Garrison LLP, Client Alert (07/27/
        2015).

        Federal Judge Denies FTC's Bid to Preliminarily Enioin Steris-
        Synergy Health Merger, Paul, Weiss, Rifkind, Wharton & Garrison 
        LLP, Client Alert (09/28/2015).

        Recent Enforcement Actions Highlight Importance of Hart-Scott-
        Rodino Compliance When Acquiring Voting Securities, Paul, 
        Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (10/08/
        2015).

        FTC Announces New Hart-Scott-Rodino and Clayton Act Section 8 
        Thresholds, Paul, Weiss, Ritkind, Wharton & Garrison LLP, 
        Client Alert (01/26/2016).

        Second Circuit Affirms Dismissal of Sherman Act Claims Based on 
        Failure to Allege a Plausible Geographic Market Definition, 
        Paul, Weiss, Ritkind, Wharton & Garrison LLP, Client Alert (03/
        22/2016).

        District Court Dismisses Tying and Bundling Claims, Holding 
        that Medical Surgical Distributor Failed to Show Market Power 
        or Injury to Competition, Paul, Weiss, Rifkind, Wharton & 
        Garrison LLP, Client Alert (04/12/2016).

        Executive Order Calls on Agencies to Address Industry 
        Concentration: The Implications for Common Ownership Interests, 
        Paul, Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (05/
        03/2016).

        Third Circuit Court of Appeals Affirms Dismissal of Claim that 
        ``Loyalty Discounts'' Violate Antitrust Laws, Paul, Weiss, 
        Rifkind, Wharton & Garrison LLP, Client Alert (05/06/2016).

        Federal Court Blocks Staples-Office Depot Merger, Finding Sale 
        of Office Supplies to Large Business Customers to Be a Distinct 
        Relevant Market, Paul, Weiss, Rifkind, Wharton & Garrison LLP, 
        Client Alert (05/20/2016).

        U.S. Justice Department Requires Restructuring of Transaction 
        Involving Foreign Entities to Address Section 8 Interlocking 
        Directorates Concern, Paul, Weiss, Rifkind, Wharton & Garrison 
        LLP, Client Alert (07/19/2016).

        Amendments to the HSR Rules Including Allowing Submission of 
        HSR Filings via DVD, Paul, Weiss, Rifkind, Wharton & Garrison 
        LLP, Client Alert (08/29/2016).

        Deferring to China's Interpretation of Its Own Regulation. 
        Second Circuit Throws Out $147 Million Antitrust Judgment, 
        Paul, Weiss, Rifkind, Wharton & Garrison LLP, Client Alert (09/
        22/2016).

        Department of Justice and FTC Release Antitrust Guidance for 
        Employee Hiring and Compensation, Paul, Weiss, Rifkind, Wharton 
        & Garrison LLP, Client Alert (11/10/2016).

        Settling an Antitrust Case, with Daniel Crane, Chapter 31 in 
        Settlement Agreements in Commercial Disputes: Negotiating, 
        Drafting and Enforcement Volume 2 (Wolters Kluwer 2017).

        FTC Announces New Hart-Scott-Rodino and Clayton Act Section 8 
        Thresholds, Paul, Weiss, Rifkind, Wharton & Garrison LLP, 
        Client Alert (01/26/2017).

        FTC Releases Study Examining Merger Remedies Between 2006 and 
        2012, Paul, Weiss, Rifkind, Wharton & Garrison LLP, Client 
        Alert (02/17/2017).

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony. None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have worked at the Federal Trade Commission twice before, the 
last time as Director of the Bureau of Competition, with 
responsibilities for roughly half of the agency's mission. My tenure 
there was both active and highly successful. The Commission during that 
time brought more non-merger enforcement actions than in any comparable 
period two decades before or since, while remaining very active in 
merger enforcement as well. As a matter of personal pride, those 
efforts were characterized by a high degree of bipartisanship.
    In private practice, I have spent about 30 years representing 
clients largely before the Federal Trade Commission and the Department 
of Justice Antitrust Division, an experience which provides valuable 
insights that can be applied in running the agency.
    I am seeking this appointment for the following reasons. Our 
country's economic potential is unmatched, and the Federal Trade 
Commission has an important role to play in making sure we exploit that 
advantage in a way that benefits U.S. consumers to the greatest extent 
possible, and at the same time, creates more jobs. Our economy is based 
largely on free enterprise, a system designed to incentive sellers to 
produce the best products at the lowest prices. But such a system 
requires rules of the road (and a reliable referee to enforce them) to 
ensure that it stays true to its purpose. Those rules must prohibit 
anticompetitive conduct and help ensure consumers are protected from 
deceptive and unfair practices. The chance to play a significant role 
in enabling the FTC to fulfill that mission would be a great 
opportunity and honor.
    Between my two prior stints at the FTC, and my experience in 
private practice, I feel as though I have been essentially training for 
this job since law school. Furthermore, I love the agency's mission, 
the stimulating issues it deals with, and its outstanding personnel. I 
am confident that I am in an excellent position to be successful as 
Commissioner if confirmed.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I would be responsible for ensuring that the FTC has proper 
management and accounting controls. In terms of experience, I was 
previously Director of the Bureau of Competition and responsible for 
roughly half of the agency's mission, which involved personnel 
management and budgeting. I have also had managerial experience running 
cell phone businesses worth over $2 billion as a trustee for the 
Department of Justice and the Federal Communications Commission.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    1. Significant concerns have been raised that the Federal antitrust 
agencies have been too permissive in dealing with mergers and 
acquisitions, resulting in harm to consumer welfare via increased 
prices, limited consumer choice, and harm to workers. Addressing these 
concerns is critical, as they lie at the heart of the agency's 
competition mission. The FTC needs to devote substantial resources to 
determine whether its merger enforcement has been too lax, and if 
that's the case, the agency needs to determine the reason for such 
failure and to fix it. Even if the evidence shows no such failure, it 
would be good practice to evaluate more systematically the Commission's 
merger enforcement program through the regular use of retrospective 
studies to prevent potential problems in the future. It would also be 
good practice to extend the retrospectives to non merger matters as 
well.
    2. The FTC recently conducted a study of its merger remedies and 
concluded that cases involving divestitures of asset packages not 
involving stand-alone businesses had a 30 percent failure rate. That 
rate is too high and needs to be lowered substantially or, ideally, 
zeroed out altogether.
    3. Rapid changes in technology and cyber threats provide a 
significant challenge to the Agency's ability to fulfill its consumer 
protection mission and provide meaningful guidance to the business 
community. It is critical, despite these challenges, that the FTC 
protect consumers without unduly burdening them or interfering with the 
ability of firms (especially small firms and new entrants) to use data 
to enhance competition.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I retired from Paul, Weiss, Rifkind, Wharton & Garrison LLP 
effective 12/31/2017. I will receive my final partnership share 
distribution as a single, lump sum payment prior to assuming the duties 
of my Federal position. The total amount of the payment will be 
calculated as of the date of my retirement from the partnership.
    Pursuant to the firm's partnership agreement and the firm's 
handbook, I have been provided an office, secretarial services, access 
to a computer and computer services, and the ability to participate in 
the firm's health insurance plan. Upon confirmation, I will forgo all 
of theses benefits.
    I will continue to participate in the Paul, Weiss, Rifkind, Wharton 
& Garrison LLP defined benefit plan under which I will receive 
approximately $13,154 per month beginning in 2018.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the U.S. Office of Government Ethics and the Federal Trade Commission's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. If confirmed, any potential conflicts of interest will be 
resolved in accordance with the terms of the ethics agreement that I 
have entered into with the Commission's Designated Agency Ethics 
Official. I am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the U.S. Office of Government Ethics and the Federal Trade Commission's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. If confirmed, any potential conflicts of interest will be 
resolved in accordance with the terms of the ethics agreement that I 
have entered into with the Commission's Designated Agency Ethics 
Official. I am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy. None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    If confirmed, any potential conflicts of interest will be resolved 
in accordance with the terms of the ethics agreement that I have 
entered into with the Commission's Designated Agency Ethics Official. I 
am not aware of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

  a.  Provide the name of agency, association, committee, or group;

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.

    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None to my knowledge.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    If confirmed, I would work diligently with my fellow Commissioners 
to do so.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    If confirmed, I would work diligently with my fellow Commissioners 
to do so.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       Resume of Joseph J. Simons
 Retired Partner (Of Counsel); Paul, Weiss, Rifkind, Wharton & Garrison 
LLP, 2001 K Street, NW, Washington, D.C.

Formerly, a partner and co-chair of the Antitrust Group, Joe Simons 
focused on antitrust M&A, litigation and counseling. Prior to joining 
Paul, Weiss, he was the chief antitrust enforcer at the Federal Trade 
Commission (FTC), serving as Director of the Bureau of Competition from 
June 2001 until August 2003. Under his leadership, the Commission 
pursued a strong bipartisan enforcement agenda under which all but one 
of the more than 70 antitrust enforcement actions taken by the agency 
were by unanimous vote. During his tenure, the FTC prevailed in all of 
the 46 merger enforcement actions taken by the Commission. Joe was 
responsible for overseeing the re-invigoration of the FTC's non-merger 
enforcement program, initiating well over 100 investigations in two 
years and producing more non-merger enforcement actions in one year 
than in any year in the prior two decades. He also initiated a new 
emphasis at the FTC on administrative litigation, substantially 
increasing the number of trials before the agency, including merger, 
monopolization and horizontal restraint cases.
Experience
    Joe has extensive experience representing clients before the FTC, 
the Department of Justice, the Department of Defense, and Congress in a 
wide range of antitrust and regulatory matters, from the largest 
mergers and acquisitions to price fixing and novel predation and 
vertical restraints cases. He has represented clients in numerous 
industries ranging from airlines and computer reservations systems to 
telecommunications, defense contracting, consumer electronics, music, 
financial services, credit cards, transportation, agriculture, health 
care, soft drink concentrate, beer, aluminum can sheet and software.
    Some of his work includes representing:

  <bullet> Rockstar, a consortium including Microsoft, Eriksson, RIM 
        and Sony, in its $4.5 billion acquisition of the patent 
        portfolio of Nortel Networks in a bankruptcy court approved 
        auction. Paul, Weiss is representing both Ericsson and the 
        consortium in seeking antitrust clearance in the U.S.;

  <bullet> Sharp Corporation in antitrust litigation and investigations 
        of cartel activity related to liquid crystal display units;

  <bullet> Ericsson in its acquisitions of the CDMA, GSM and Passport 
        businesses of Nortel Networks in several bankruptcy court 
        approved auctions for aggregate consideration in excess of $1.3 
        billion. The transactions required antitrust clearance in 
        numerous jurisdictions including U.S., Europe and China;

  <bullet> Mastercard Inc. in antitrust class actions in federal court 
        in New York involving all merchants in the United States that 
        accept Master, alleging that the fees merchants pay when 
        consumers use credit and debit cards are fixed illegally under 
        antitrust laws; and

  <bullet> The Lightsome Group ong antitrust issues in connection with 
        the disposition of its portfolio company, Prime Outlets 
        Acquisition Company, to Simon Property Group, Inc. in a 
        transaction valued at approximately $2.3 billion, which was 
        subject to an Ff investigation.

Along with a former chief economist of the Department of Justice 
Antitrust Division, Joe developed ``Critical Loss Analysis,'' a 
technique for market definition that has been adopted and used widely 
by the Antitrust Division, the FTC, and the U.S. Court of Appeals. It 
was incorporated into the DOJ/FTC Merger Guidelines. Critical Loss 
Analysis also plays a fundamental role in evaluating the competitive 
effects of transactions as well. Joe was also the first practicing 
attorney to evaluate monopolization and vertical restraints under the 
theory of ``Raising Rivals Costs'' and contributed to the development 
of the theory, which now plays a significant role in the analysis of 
such cases at both Federal antitrust enforcement agencies.

Joe's history with the FTC's Bureau of Competition started in the late 
1980s when he served as the Associate Director for Mergers and the 
Assistant Director for Evaluation, respectively. In the former 
position, he was responsible for supervising numerous merger 
investigations, and as head of the Evaluation Office, he was 
responsible for analysis of all of the Competition Bureau's non-merger 
matters.

While in private practice in 2000, Joe was nominated by the Department 
of Justice, and approved by the Federal Communications Commission and 
Federal District Court, as trustee of four wireless telephone 
businesses relating to the GTE/Bell Atlantic/Vodafone transaction. In 
that capacity, he became the holder of the FCC licenses to these 
properties, making him the 10th largest wireless carrier in the United 
States, and he was responsible for managing and divesting these 
businesses valued at over $2 billion. He performed a similar function 
for the Cingular/AT&T Wireless transaction.

Joe has published a wide range of articles on antitrust-related topics, 
including two papers appearing in refereed economics journals, one of 
which was selected for The Journal of Reprints for Antitrust Law and 
Economics. He co-authored an article published in Oxford's Journal of 
Competition Law & Economics titled ``The 2010 Merger Guidelines, 
Critical Loss, and Linear Demand.'' Most recently, he co-authored ``In 
Defense of Market Definition,'' published in the Winter 2012 issue of 
The Antitrust Bulletin, a special issue with articles written in 
response to Professor Louis Kaplow's Harvard Law Review article ``Why 
(Ever) Define Markets?''

Joe continues to be recognized as a leading antitrust lawyer by 
Chambers USA, Chambers Global and The Legal 500. For the past three 
years, he has also been acknowledged by his peers for inclusion in The 
Best Lawyers in America. Joe was selected to ``The International Who's 
Who of Competition Lawyers & Economists 2013'' by the Global 
Competition Review. Earlier in his career, he was selected to Crain's 
New York Business ``40 Under 40,'' which recognizes 40 rising stars in 
the New York business community.
Practices
Antitrust

Litigation
Education
J.D., Georgetown University Law Center, 1983 cum laude

A.B., Cornell University, 1980
Recognitions
The Best Lawyers in America
Chambers USA

Crain's New York Business

``40 Under 40''

The Legal 500
                                 ______
                                 
                                                   January 31, 2018

Christian S. White
Designated Agency Ethics Official
Federal Trade Commission
Washington, DC.

Dear Mr. White:

    The purpose of this letter is to describe the steps that I will 
take to avoid any actual or apparent conflict of interest in the event 
that I am confirmed for the position of Commissioner of the Federal 
Trade Commission.
    As required by 18 U.S.C. Sec. 208(a), I will not participate 
personally and substantially in any particular matter in which I know 
that I have a financial interest directly an4 predictably affected by 
the matter, or in which I know that a person whose interests are 
imputed to me has a financial interest directly and predictably 
affected by the matter, unless I first obtain a written waiver, 
pursuant to 18 U.S.C. Sec. 208(b)(1), or qualify for a regulatory 
exemption, pursuant to 18 U.S.C. Sec. 208(b)(2). I understand that the 
interests of the following persons are imputed to me: any spouse or 
minor child of mine; any general partner of a partnership in which I am 
a limited or general partner; any organization in which I serve as 
officer, director, trustee, general partner or employee; and any person 
or organization with which I am negotiating or have an arrangement 
concerning prospective employment.
    I have resigned from my position with the law firm of Paul, Weiss, 
Ritkind, Wharton & Garrison LLP. Pursuant to the firm's customary 
partnership agreement, I am entitled to receive my final partnership 
share distribution as a single, lump sum payment. I have received a 
single, lump sum payment of my capital account on January 12, 2018. My 
partnership share distribution will be calculated as of the date of my 
resignation and will be received prior to assuming the duties of my 
Federal position. For a period of one year after my resignation, I also 
will not participate personally and substantially in any particular 
matter involving specific parties in which I know Paul, Weiss, Ritkind, 
Wharton & Garrison LLP, is a party or represents a party, unless I am 
first authorized to participate, pursuant to 5 C.F.R. Sec. 2635.502(d). 
In addition, I will not participate personally and substantially in any 
particular matter involving specific parties in which I know a former 
client of mine is a party or represents a party, for a period of one 
year after I last provided service to that client, unless I am first 
authorized to participate, pursuant to 5 C.F.R. Sec.  2635.502(d).
    Finally, I understand that my obligation to comply with ethics laws 
and regulations is ongoing and will require vigilance regarding any 
changes in my financial interests, the financial interests of persons 
and organizations imputed to me under the ethics laws and regulations, 
and other outside interests.
    I have disclosed in my financial disclosure report my financial 
interest in Handy Place IV LLP. However, a preexisting confidentiality 
agreement barred me from identifying the underlying assets of this fund 
in my financial disclosure report. Therefore, I wil1 divest my 
financial interest in this fund as soon as possible after confirmation 
and not later than 90 days after my confirmation. Until I have divested 
Handy Place IV LLP, I will not participate personally and substantially 
in any particular matter that to my knowledge has a direct and 
predictable effect on the financial interests of that fund or its 
underlying assets, unless I first obtain a written waiver, pursuant to 
18 U.S.C. Sec. 208(b)(1), or qualify for a regulatory exemption, 
pursuant to 18 U.S.C. Sec. 208(b)(2). I understand that I may be 
eligible to request a Certificate of Divestiture for qualifying assets 
and that a Certificate of Divestiture is effective only if obtained 
prior to divestiture. Regardless of whether I receive a Certificate of 
Divestiture, I will ensure that all divestitures discussed in this 
agreement occur within the agreed upon timeframe and that all proceeds 
are invested in non-conflicting assets.
    My spouse is an independent contractor for Maharishi Foundation 
USA, Inc and she receives a commission tied to her personal services. 
For as long as my spouse continues to serve Maharishi Foundation USA, 
Inc. as an independent contractor, I will not participate personally 
and substantially in any particular matter involving specific parties 
in which I know Maharishi Foundation USA, Inc., is a party or 
represents a party, unless I am first authorized to participate, 
pursuant to 5 C.F.R. Sec. 2635.S02(d).
    If I rely on a de minimis exemption under 5 C.F.R. Sec. 2640.202 
with regard to any of my financial interests in securities, I will 
monitor the value of those interests. If the aggregate value of 
interests affected by a particular matter increases and exceeds the de 
minimis threshold, I will not participate personally and substantially 
in the particular matter that to my knowledge has a direct and 
predictable effect on the interests, unless I first obtain a written 
waiver pursuant to 18 U.S.C. Sec. 208(b)(1).
    If I have a managed account or otherwise use the services of an 
investment professional during my appointment, I will ensure that the 
account manager or investment professional obtains my prior approval on 
a case-by-case basis for the purchase of any assets other than cash, 
cash equivalents, investment funds that qualify for the exemption at 5 
C.F.R. Sec. 2640.201(a), obligations of the United States, or municipal 
bonds.
    I will meet in person with you during the first week of my service 
in the position of Commissioner to complete the initial ethics briefing 
required under 5 C.F.R. Sec. 2638.305. Within 90 days of my 
confirmation, I will document my compliance with this ethics agreement 
by notifying you in writing when I have completed the steps described 
in this ethics agreement.
    I understand that as an appointee I will be required to sign the 
Ethics Pledge (Exec. Order No. 13770) and that I will be bound by the 
requirements and restrictions therein in addition to the commitments I 
have made in this ethics agreement.
    I have been advised that this ethics agreement will be posted 
publicly, consistent with 5 U.S.C. Sec. 552, on the website of the U.S. 
Office of Government Ethics with ethics agreements of other 
Presidential nominees who file public financial disclosure reports.
    Finally, I understand that my obligation to comply with ethics laws 
and regulations is ongoing and will require vigilance regarding any 
changes in my financial interests, the financial interests of persons 
and organizations imputed to me under the ethics laws and regulations, 
and other outside interests.
            Sincerely,
                                                  Joseph J. Simons.

    The Chairman. Thank you, Mr. Simons.
    Ms. Wilson.

STATEMENT OF CHRISTINE S. WILSON, NOMINEE TO BE A COMMISSIONER, 
                    FEDERAL TRADE COMMISSION

    Ms. Wilson. Mr. Chairman, Ranking Member Blumenthal, 
Senator Capito, distinguished members of the Committee, I am 
deeply honored to have been nominated by President Trump to 
serve as a Commissioner of the Federal Trade Commission. Thank 
you for the time that you and your staffs spent with us during 
the last couple of weeks, and for inviting us here today.
    And thank you also, Senator Capito, for your words of 
confidence, which I appreciate.
    I am joined here today by my husband, Ramsey Wilson; my 
daughters, Regan and Savannah Wilson; my niece, MicKayla Smith; 
and my in-laws, Kate and Tom Mason; as well as a number of very 
close friends. I would echo what Joe said: without their love 
and support, I would not be here today.
    If confirmed, serving as Commissioner will be my third job 
at the FTC. I first spent time there while I was in law school 
as a law clerk in the agency's Bureau of Competition. I 
returned as Chief of Staff to Chairman Tim Muris under 
President George W. Bush. These roles helped me understand the 
pride that FTC personnel rightly take in their agency and in 
their mission. With fewer than 1,200 employees, the FTC 
routinely tackles issues of daily importance to Americans in 
every walk of life. Deploying its finite resources to maximum 
advantage, the FTC promotes the interests of consumers by 
ensuring the effective operation of markets, typically in a 
bipartisan way. But the agency must be careful to wield its 
power appropriately. To use a sports analogy coined by then-
Chairman Muris, the FTC must avoid trading its role as referee 
of our markets for one as a manager of, or a star player in, 
those markets.
    As it enters its second century, the FTC has much important 
work ahead of it to continue protecting consumers, including 
preserving competition in health care markets; staying abreast 
of technological advances and tailoring the FTC's advocacy and 
enforcement efforts accordingly; and promoting the sound 
economic analysis of competition and consumer protection 
issues, both domestically and abroad.
    Each of us, if confirmed, will bring his or her experiences 
to the role of Commissioner. The most notable experience for me 
occurred in 1984. Ronald Reagan was our President, I was in 
high school, and I took a three-week trip behind the Iron 
Curtain. I saw firsthand the long lines, empty shelves, and 
misery inflicted by an authoritarian government and a command-
and-control economy. I finished that trip an ardent advocate 
for personal liberty and market economies. And, yes, my older 
daughter is named after President Reagan.
    That trip through Eastern Europe and the Soviet Union was 
the first in a series of events that led me here today. Other 
key milestones are attributable to distinguished mentors with 
whom I have been blessed: University of Florida Professor Roger 
Blair, who taught my first antitrust law and economics class 
and who showed me the possibility of a career in this field; 
Professor Steve Salop, an antitrust economist for whom I worked 
as a research assistant while at Georgetown Law; Jim Rill, the 
former DOJ Assistant Attorney General for Antitrust, for whom I 
worked after graduating from law school and who is here with us 
today; and Tim Muris, for whom I served as Chief of Staff. Each 
of them was instrumental in enhancing my understanding of 
antitrust and consumer protection law and policy, and I am 
deeply indebted to them.
    Thank you for considering my nomination. I look forward to 
answering your questions.
    [The prepared statement and biographical information of Ms. 
Wilson follow:]

 Prepared Statement of Christine S. Wilson, Nominee for Commissioner, 
                        Federal Trade Commission
    Mr. Chairman, Ranking Member Nelson, members of the Committee, I am 
deeply honored to have been nominated by President Trump to serve as a 
Commissioner of the Federal Trade Commission. Thank you for the time 
that you and your staff have spent meeting with me, and for inviting 
the four FTC nominees to appear here today.
    I am joined by my husband, Ramsey Wilson; my daughters, Regan 
Wilson and Savannah Wilson; my niece, MicKayla Smith; and my in-laws, 
Tom and Kate Mason.
    If confirmed, serving as Commissioner will be my third job at the 
FTC. I first spent time at the FTC as a law clerk in the Bureau of 
Competition while in law school. I returned to the FTC as Chief of 
Staff to Chairman Timothy J. Muris during the first term of President 
George W. Bush.
    These previous roles helped me understand the pride that FTC 
personnel rightly take in their agency and in their mission. Although 
it has fewer than 1,200 FTEs, the FTC tackles issues of daily 
importance to Americans in every walk of life. Deploying its finite 
resources to maximum advantage, the FTC promotes and protects the 
interests of consumers by ensuring the effective operation of markets, 
and it typically does so in a bipartisan way. But the agency--which the 
Washington Post disparaged as the ``National Nanny'' during the 1970s--
must be careful to wield its power appropriately. To use a sports 
analogy coined by then-Chairman Muris, the FTC must avoid trading its 
role as referee of our markets for one as a manager of, or a star 
player in, those markets.
    The FTC recently entered its second century. In the coming years, 
the agency has much important work ahead of it to continue protecting 
consumers, including preserving competition in health care markets; 
staying abreast of technological advances and tailoring the FTC's 
advocacy and enforcement efforts accordingly; and promoting the sound 
economic analysis of competition and consumer protection issues both 
domestically and internationally.
    Each of us, if confirmed, will bring his or her experiences and 
perspectives to the role of Commissioner. One of the most notable 
experiences for me occurred in 1984. Ronald Reagan was our President, I 
was in high school, and I took what would become a formative trip 
behind the Iron Curtain. During this three-week trip, I saw first-hand 
the long lines, empty shelves, and misery inflicted by an authoritarian 
government and a command and control economy. I finished that trip an 
ardent advocate for personal liberty and market economies.
    That trip through Eastern Europe and the Soviet Union was the first 
in a series of events that ultimately led me here today. Other 
important milestones on that path are attributable to distinguished 
mentors with whom I have been blessed--University of Florida Professor 
Roger D. Blair, who taught my first antitrust law and economics class 
and who opened my eyes to the possibility of a career in this field; 
Professor Steven C. Salop, an antitrust economist whose classes I took 
and for whom I worked as a research assistant while at Georgetown Law; 
James F. Rill, the former DOJ Assistant Attorney General for Antitrust 
for whom I worked after graduating from law school; and Timothy J. 
Muris, the FTC Chairman for whom I served as Chief of Staff. Each of 
them was instrumental in enhancing my understanding of antitrust and 
consumer protection law and policy. I am deeply indebted to them.
    Thank you for considering my nomination. I look forward to 
answering your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Christine S. 
Wilson.

        Former names: Christine Alyssa Bishop Smith; Christine Smith 
        Chambers; Christine Chambers Wilson.

    2. Position to which nominated: Commissioner, Federal Trade 
Commission.
    3. Date of Nomination: January 25, 2018.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: Delta Air Lines, 1212 New York Ave. Suite 200, 
        Washington, D.C. (Feb. 1, 2018 was my last day with Delta).

    5. Date and Place of Birth: May 15, 1970; Orlando FL.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Ramsey J. Wilson (self-employed attorney)
        Regan Katherine Bishop Wilson, 18

    7. List all college and graduate degrees. Provide year and school 
attended.

        Georgetown University Law Center, J.D., cum laude (1995)
        University of Florida, B.A., Phi Beta Kappa (1991)

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Senior Vice President--Legal, Regulatory & International, Delta 
        Air Lines (2016 to Feb. 1, 2018)*

        Partner, Antitrust Group, Kirkland & Ellis LLP (2011-2016)*

        Partner, Antitrust Group, O'Melveny & Myers LLP (2004-2011)*

        Consultant to Howrey, Simon, Arnold & White, LLP (2004)*

        Consultant to Chairman Timothy J. Muris, Federal Trade 
        Commission (2003-2004)*

        Chief of Staff to Chairman Timothy J. Muris, Federal Trade 
        Commission (2001-2002)*

        Senior Associate, Howrey, Simon, Arnold & White, LLP (2000-
        2001)*

        Associate, Collier, Shannon, Rill & Scott PLLC (1995-2000)*

        Law Clerk, Collier, Shannon, Rill & Scott PLLC (1995)*

        Law Clerk, Bureau of Competition, Federal Trade Commission 
        (1994)*

        Research Assistant, Professor Steven C. Salop, Georgetown 
        University Law Center (1993-1994)*

        Temporary Assistant, Washington DC (part time) (1992-1993)

        Assistant, TREEO Center, University of Florida (1991-1992)

    * denotes management-level jobs and non-managerial jobs that relate 
to the position for which I have been nominated.

    9. Attach a copy of your resume. See Attachment A.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years.

        Advisor to the U.S. Government in connection with the 
        International Competition Network (approximately 2007-2009)

        Special Assistant to James F. Rill, Co-Chair of the 
        International Competition Policy Advisory Committee 
        commissioned by Attorney General Janet Reno

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.

        Senior Vice President--Legal, Regulatory & International, Delta 
        Air Lines (2016 to Feb. 1, 2018)

        Partner, Antitrust Group, Kirkland & Ellis LLP (2011-2016)

        Partner, Antitrust Group, O'Melveny & Myers LLP (2004-2011)

        Director, The Dignity Restoration Project, Restoration Anglican 
        Church (2013-2014)

        Director, Casa Chirilagua (2011)

        Director, Truth & Grace Ventures (2006-2011)

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Restoration Anglican Church, Arlington VA (2009 to present)

        The Falls Church Anglican, Falls Church VA (2005-2008)

        American Bar Association Section of Antitrust: I have served in 
        a variety of capacities, including Vice Chair, Federal Civil 
        Enforcement Committee; Vice Chair, Transportation and Energy 
        Committee; Member, Task Force on Foreign Investment, Trade 
        Policy, and Sectoral Review; Member, Research Institute; and 
        Editor, Antitrust Law Developments Update (1995 to present).

        The Grapevine: I co-founded The Grapevine, a network of 
        competition and consumer protection women professionals inside 
        the Beltway, in 2011. I served in the leadership of the 
        organization until 2016, when I moved to Delta Air Lines. 
        Although mailings about events are sent only to women, men 
        occasionally attend events.

        Competition Committee, U.S. Council for International Business 
        (2004-2010)

        Competition Committee, Business and Industry Advisory Committee 
        to the OECD (2004-2010)

        District of Columbia Bar Association (admitted 1999)

        Virginia Bar Association (admitted 1995) (inactive)

        National Rifle Association (2014)

        Except as explained for The Grapevine, none of these 
        organizations restrict membership on the basis of sex, race, 
        color, religion, national origin, age, or handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    Political Contributions of $500 or more within last ten years

  <bullet> I contributed $1,666.64 to the Delta Air Lines Political 
        Action Committee in 2016, $5,000 in 2017, and $416.66 in 2018. 
        These contributions were used to make donations to 
        Congressional candidates campaigning for (re)election.

  <bullet> I contributed $2,700 in March 2016 to Cruz for President.

  <bullet> I made two contributions to Romney for President, Inc. in 
        2012 totaling $5,000.

  <bullet> I made two contributions to Romney Victory, Inc. totaling 
        $5,000 in 2012.

  <bullet> In 2011, I contributed $2,500 to Ted Cruz for Senate.

  <bullet> In 2010, I contributed $500 to Americans for Murray (Patrick 
        J. Murray).

    Services rendered to an election committee within the last ten 
years

        Antitrust Committee, McCain Presidential Campaign (2007-2008)

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        I have been ranked as a leading antitrust practitioner in 
        Chambers USA, The Legal 500 U.S., and Euromoney's Guide to the 
        World's Leading Competition and Antitrust Lawyers.

        Washingtonian's Top 40 Under 40 Lawyers (2011)

        Women Worth Watching (2010), Profiles in Diversity

        Phi Beta Kappa

        Various academic scholarships and awards

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    See Attachment A.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony. None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    As a high school student in 1984, I traveled through several 
countries behind the Iron Curtain. During that trip, I witnessed first-
hand the consequences of an authoritarian government and a centrally 
planned economy, and finished that trip an ardent advocate for a market 
economy and personal liberty.
    The foundation for my career as an antitrust lawyer was laid in 
undergraduate school, when I took a graduate level class on antitrust 
law and economics taught by Prof. Roger Blair. That class taught me how 
I could help promote competitive markets in the U.S. At Georgetown 
University Law Center, I worked as a research assistant for Prof. 
Steven Salop, an antitrust economist. I also got my first FTC job 
during law school. Upon graduation in 1995, I began practicing with 
James F. Rill, former AAG for the Antitrust Division under George H.W. 
Bush. And in 2001, I returned to the FTC as Chief of Staff to Chairman 
Timothy J. Muris.
    These distinguished mentors taught me a great deal about domestic 
and international antitrust law and policy, antitrust economics, and 
consumer protection. They also instilled in me the benefits of public 
service. The most important experience of my professional career to 
date was serving as Chief of Staff to FTC Chairman Muris. Each night, I 
headed home from work knowing that I was making a difference for 
American consumers by promoting the basic rules that help a market 
economy work to the benefit of consumers.
    I seek to return to public service to ensure the sound application 
of the antitrust and consumer protection laws to the benefit of 
consumers, and to capitalize on the ability of the FTC to advocate for 
sensible market-based approaches both in the U.S. and abroad.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed, I would work diligently with my fellow Commissioners 
to ensure that the Federal Trade Commission has proper management and 
accounting controls. I would bring to bear my experience as Chief of 
Staff to Chairman Timothy J. Muris, my experience in helping to manage 
the antitrust practice groups at Kirkland & Ellis and O'Melveny & 
Myers, and my experience overseeing the regulatory and international 
groups and participating in the management of the law department at 
Delta Air Lines.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

  <bullet> Health care expenditures as a percentage of GDP have been 
        growing for several decades, and accounted for 17.9 percent of 
        GDP in 2017. Given the importance of this sector to ordinary 
        Americans, the FTC has long devoted significant attention to 
        this arena. Both the FTC's Bureau of Competition and its Bureau 
        of Consumer Protection have played a key role in promoting 
        vibrant competition, ensuring accurate information about 
        products and services, protecting consumers' sensitive medical 
        information, and advising government entities on the likely 
        impact of new regulations on entry and competition. The past 
        decade has seen significant regulatory and technological 
        changes that impact health care, as well as notable innovations 
        in how health care is delivered to patients. The continuing 
        growth of this sector, combined with significant concerns about 
        health care costs, misuse of sensitive data, and burgeoning 
        occupational licensing requirements, underscore the need for 
        the FTC to maintain its focus on this industry. It is 
        imperative for the FTC to continue increasing its understanding 
        of how these developments affect patient choice and the quality 
        of patient care, and how these changes should be incorporated 
        into the Commission's advocacy and enforcement efforts.

  <bullet> Trade across borders and the rapid proliferation of 
        competition and consumer protection regimes generate benefits 
        for consumers and businesses, but also give rise to potential 
        pitfalls. Consumers can easily fall prey to fraudsters who have 
        never set foot on U.S. soil, and foreign cartels can raise the 
        prices of goods imported into the U.S. American businesses can 
        face exclusionary conduct from foreign competitors that limits 
        access to markets overseas, and foreign governments can apply 
        their competition laws in ways that disproportionately 
        disadvantage U.S. companies. The FTC, together with the DOJ 
        Antitrust Division, has long played a role in coordinating with 
        and providing technical assistance to competition and consumer 
        protection agencies in other jurisdictions. But challenges 
        remain, and now more than ever the FTC and the DOJ Antitrust 
        Division must assume a global leadership role in advancing 
        sensible antitrust and consumer protection policies that 
        promote competition, protect consumers, and move away from the 
        use of competition and consumer protection regimes to favor 
        national champions and advance industrial policy goals.

  <bullet> Advances in technology create many benefits for consumers 
        but present enforcement complexities for the FTC. Some of the 
        most controversial public policy issues--e.g., the intersection 
        of intellectual property and antitrust, data security and 
        privacy--are rooted in continuing technological advances. An 
        informed understanding of how technologies work and how their 
        use affects consumers is therefore necessary to the sensible 
        and economically grounded exercise of the FTC's authority. The 
        FTC historically has taken advantage of its unique R&D 
        capabilities--including 6(b) studies, hearings, and workshops--
        to stay abreast of technological developments that may 
        implicate new enforcement priorities and challenges, to fashion 
        sound enforcement policies, and to make policy recommendations 
        to Congress, as well as to Federal and state agencies. The FTC 
        is well positioned to be a thought leader on the complex issues 
        that arise in this arena, and should continue taking full 
        advantage of that capability.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.

  a.  Delta Air Lines 401(k): I will continue to participate in this 
        defined contribution plan. The plan sponsor will not make 
        further contributions after my separation.

  b.  Delta Air Lines unvested restricted stock: I received restricted 
        stock awards at 3 different times (initial equity award, 2016 
        Long Term Incentive Plan, and 2017, Long Term Incentive Plan). 
        Under the LTIP, a portion of the award vests each year. The 
        Delta Air Lines, Inc. Officer and Director Severance Plan 
        provides for the pro rata vesting of restricted stock at 
        separation. I will receive that vested share and will forfeit 
        the portion that remains unvested.

  c.  Delta Air Lines unvested stock options: I received unvested stock 
        options under the 2017 Long Term Incentive Plan. Under the 
        LTIP, a portion of the award vests each year. The Delta Air 
        Lines, Inc. Officer and Director Severance Plan provides for 
        the pro rata vesting of stock options at separation. I will 
        receive that vested share and will forfeit the portion that 
        remains unvested.

  d.  Delta Air Lines travel benefit: Pursuant to Delta's travel 
        benefit plan and Officer and Director Severance Plan, for up to 
        15 months after February 1, 2018, I will continue to receive 
        the same travel benefit I received as an employee. During my 
        appointment, I will not exercise my entitlement to these Delta 
        travel benefits. In addition, in December 2018, Delta will 
        calculate the travel I took from November 1, 2017 to January 
        31, 2018 and impute the income into my W2 and pay my income 
        taxes up to the maximum of my tax allowance. For travel after 
        January 31, 2018, Delta will impute the income but not pay my 
        income taxes.

  e.  Delta Air Lines anticipated cash severance: Pursuant to the Delta 
        Air Lines, Inc. Officer and Director Severance Plan, I am 
        entitled to receive a severance payment calculated according to 
        a formula, payment of 15 months of COBRA expenses, and the 
        Management Incentive Plan payment for my work in January 2018. 
        Under the Long Term Incentive Plan, I am entitled to receive a 
        pro rata share of my cash performance award granted in 2016 and 
        2017.

  f.  Delta Air Lines career transition services: Pursuant to the Delta 
        Air Lines, Inc. Officer and Director Severance Plan, I am 
        eligible to receive career transition services valued at up to 
        $5,000 at a career transition services firm chosen and paid by 
        Delta. The eligibility will expire upon my becoming employed.

  g.  Delta Air Lines Management Incentive Plan: Under the Management 
        Incentive Plan I will receive the 2017 payment.

  h.  Delta Air Lines cash signing bonus: Delta has agreed to waive the 
        contractual requirement that I repay 50 percent of my cash 
        signing bonus.

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the U.S. Office of Government Ethics and the Federal Trade Commission's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. If confirmed, any potential conflicts of interest will be 
resolved in accordance with the terms of the ethics agreement that I 
have entered into with the Commission's Designated Agency Ethics 
Official. I am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the U.S. Office of Government Ethics and the Federal Trade Commission's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. If confirmed, any potential conflicts of interest will be 
resolved in accordance with the terms of the ethics agreement that I 
have entered into with the Commission's Designated Agency Ethics 
Official. I am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    During the last 10 years, I have represented clients in matters 
affecting the administration and execution of the antitrust and 
consumer protection laws and on related issues of public policy.
    I worked with a pharmaceutical client on draft legislation 
pertaining to the circumstances under which generic pharmaceutical 
manufacturers could obtain access to samples of branded pharmaceutical 
products subject to Risk Evaluation and Mitigation Strategies (REMS) 
and/or restricted distribution systems.
    I worked with an airline client on draft legislation pertaining to 
operational issues.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the U.S. Office of Government Ethics and the Federal Trade Commission's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. If confirmed, any potential conflicts of interest will be 
resolved in accordance with the terms of the ethics agreement that I 
have entered into with the Commission's Designated Agency Ethics 
Official. I am not aware of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

  a.  Provide the name of agency, association, committee, or group;

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.
        No.

    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    N/A
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    If confirmed, I would work diligently with my fellow Commissioners 
to do so.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    If confirmed, I would work diligently with my fellow Commissioners 
to do so.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                              Attachment A
                     Resume of Christine S. Wilson
Education
  <bullet> Georgetown University Law Center (J.D., cum laude, 1995)

  <bullet> University of Florida (B.A., 1991; Phi Beta Kappa)
Experience
  <bullet> Senior Vice President--Legal, Regulatory & International, 
        Delta Air Lines (2016-2/1/2018)

  <bullet> Partner--Antitrust Group, Kirkland & Ellis LLP (2011-2016)

  <bullet> Partner--Antitrust Group, O'Melveny & Myers LLP (2004-2011)

  <bullet> Consultant--Howrey, Simon, Arnold & White, LLP (2004)

  <bullet> Consultant--Chairman Timothy J. Muris, Federal Trade 
        Commission (2003-2004)

  <bullet> Chief of Staff--Chairman Timothy J. Muris, Federal Trade 
        Commission (2001-2002)

  <bullet> Senior Associate--Howrey, Simon, Arnold & White, LLP (2000-
        2001)

  <bullet> Associate--Collier, Shannon, Rill & Scott, PLLC (1995-2000)

  <bullet> Law Clerk--Bureau of Competition, Federal Trade Commission 
        (1994)

  <bullet> Research Assistant--Prof. Steven Salop, Georgetown 
        University Law Center (1993-1994)
Admissions
  <bullet> District of Columbia (admitted 1999)

  <bullet> Commonwealth of Virginia (admitted 1995) (inactive)
Current Memberships and Affiliations
  <bullet> Editor, Antitrust Law Developments Update, Antitrust 
        Section, American Bar Association (2017-2018)

  <bullet> Co-Founder--The Grapevine (DC Women's Network of Competition 
        and Consumer Protection Professionals)

  <bullet> Member--American Bar Association, Antitrust Section

  <bullet> Member--District of Columbia Bar Association, Antitrust, 
        Trade Regulation and Consumer Affairs Section
Former Memberships and Affiliations
  <bullet> Member--Research Institute, Antitrust Section, American Bar 
        Association Advisor to the U.S. Government in connection with 
        International Competition Network

  <bullet> Member--Competition Committee, U.S. Council for 
        International Business

  <bullet> Member--Competition Committee, Business and Industry 
        Advisory Council (BIAC) to the Organization for Economic 
        Cooperation and Development (OECD)

  <bullet> Member--Task Force on Foreign Investment, Trade Policy, and 
        Sectoral Review, Antitrust Section, American Bar Association

  <bullet> Vice Chair--Transportation and Energy Committee, Antitrust 
        Section, American Bar Association

  <bullet> Vice Chair--Federal Civil Enforcement Committee, Antitrust 
        Section, American Bar Association

  <bullet> Special Assistant to James F. Rill, Co-Chair of the 
        International Competition Policy Advisory Committee 
        (Commissioned by U.S. Attorney General Janet Reno)
Publications
  <bullet> Kirkland Alert, Federal Trade Commission Loses Motion to 
        Enjoin Steris-Synergy Merger Based on Lack of Evidence of 
        Future Competition, September 28, 2015 (with I. John, J. 
        Mutchnik, and M. Kovner)

  <bullet> Kirkland Alert, FTC Issues Policy Statement on the Reach of 
        Section 5 of the FTC Act, August 17, 2015 (with T. Muris)

  <bullet> Kirkland Alert, Ninth Circuit Affirms FTC's Win in Challenge 
        to Hospital's Acquisition of Physician Group; Voices Skepticism 
        of Merger-Related Efficiency Claims, February 17, 2015 (with I. 
        John and I. Conner)

  <bullet> Kirkland Alert, DOJ Requires Disgorgement for Gun-Jumping 
        Violations in Abandoned Flakeboard/SierraPine Transaction, 
        November 12, 2014 (with I. John, J. Mutchnik, M. Kovner, and J. 
        Nord)

  <bullet> Bazaarvoice: Protecting Consumers by Silencing the 
        Customer?, Competition Policy Int'l (2014) (with T. Muris)

  <bullet> Yes We Can, But Should We? Merger Remedies During the First 
        Obama Administration, Competition Policy Int'l (2014) (with K. 
        Klovers)

  <bullet> Antitrust Issues in the Air Transportation Industry, in Am. 
        Bar Ass'n, Transportation Antitrust Handbook (2014) (with I. 
        Conner and J. Nord)

  <bullet> Kirkland Alert, DC District Court Upholds New HSR Rules 
        Expanding Reporting Requirements for Pharmaceutical Patent 
        Licenses, June 11, 2014 (with E. Jakovic, J. Mutchnik, and B. 
        Sayyed)

  <bullet> Kirkland Alert, Senate Confirms Terrell McSweeny as a 
        Federal Trade Commissioner, April 14, 2014 (with S. Davies and 
        T. Muris)

  <bullet> Kirkland Alert, The DOJ Settles Airline Challenge, Clears 
        Path/or AMR/US Airways Merger, November 14, 2013 (with I. 
        Conner and T. Muris)

  <bullet> Kirkland Alert, FTC Finalizes 4mendments to HSR Act to 
        Expand Reporting Requirements for Pharmaceutical Patent 
        Licenses, November 13, 2013 (with E. Jakovic, J. Mitchnik, and 
        B. Sayyed)

  <bullet> Kirkland Alert, Senate Confirms Bill Baer to Lead the 
        Antitrust Division and Josh Wright as a Federal Trade 
        Commissioner, January 2, 2013 (with T. Muris and B. Sayyed)

  <bullet> Grading the Professor: Evaluating Bill Kovacic's 
        Contributions to Antitrust Engineering, in I William E. 
        Kovacic: An Antitrust Tribute Liber Amicorum (Nicholas Charbit 
        et al., eds., 2012) (with D. Sokol and J. Nord)

  <bullet> Kirkland Alert, FTC Challenges Magnesium Elektron's 5-Year-
        Old Non-Reportable Acquisition of Rev.ere Graphics, October 17, 
        2012 (with I. Conner and J. Nord)

  <bullet> Kirkland Alert, Senate Judiciary Committee Holds Hearing on 
        William Baer's Nomination to Head the U.S. Department of 
        Justice's Antitrust Division, July 27, 2012 (with S. Davies)

  <bullet> KirklandPEN, Antitrust Trends inthe United States, China and 
        India, in What to Expect in 2012: From Carried Interest 
        Taxation to Chinese Antitrust Enforcement, January 9, 2012 
        (with I. Conner, E. Jakovic, M. Kovner, T. Muris, J. Mutchnik, 
        and B. Sayyed)

  <bullet> Conflict, Convergence, and Cooperation; in Am. Bar Ass'n, 
        Monopolization and Dominance Handbook (2011) (with B. Sayyed)

  <bullet> Kirkland M&A Update, Forward Looking Statements--Deal Market 
        Trends for 2012, December 6, 2011 (with D. Fox, D. Wolf, R. 
        Hayward, D. Feirstein, J. Zachariah, and T. Muris)

  <bullet> Kirkland M&A Update, Behind the Headlines--A Closer Look at 
        Antitrust Reverse Termination Fees, September 7, 2011 (with D. 
        Wolf anq T. Muris)

  <bullet> Kirkland Alert, Trend Toward Transnational Cooperation in 
        Antitrust Enforcement Continues with Sino-U.S. Cooperation 
        Agreement, August 1, 2011 (with M. Filip, T. Muris, J. 
        Mutchnik, and S. Williamson)

  <bullet> Kirkland Alert, India Finalizes Merger Control Regulations, 
        June 3, 2011 (with E. Jakovic and A. Nielson)

  <bullet> Developments in International Cartel Enforcement and 
        Leniency Agreements, in Global Competition Rev., Antitrust 
        Review of the Americas 2010 (2009)

  <bullet> Bell Atlantic Corp. v. Twombly: A Tectpnic Shift in Pleading 
        Standards (Or Just a Tremor)?, Wash. Legal Found. Legal 
        Backgrounder, Aug. 24, 2007 (with T. Brown)

  <bullet> The Learned Professions in the United States: Where Do We 
        Stand Thirty Years After Goldfarb?, in European Competition Law 
        Annual 2004 (Claus-Dieter Ehlerrnann & Isabela Atanasiu eds., 
        June 2006) (with M. Schechter)

  <bullet> Selected Recommendations for Substantive and Procedural 
        Convergence in the Multi Jurisdictional Merger Context, in 
        International Antitrust Law & Policy (Barry Hawk ed., 2000) 
        (with J. Rill)

  <bullet> Streamlining Multi-Jurisdiction Merger Review, Global 
        Competition Rev., April/May 2000, at 18 (with C. Lewis)

  <bullet> Market Access chapter, in Final Report of the American Bar 
        Association Global Task Force (1999) (contributor)

  <bullet> Markets in the Balance: Efficiencies Analysis of Mergers 
        Should Consider Multiple Markets, Legal Times, Oct. 25, 1999, 
        at 34

  <bullet> Trends in U.S. Antitrust Enforcement, in Gutde to the 
        World's Leading Competition and Antitrust Lawyers (1999) (with 
        J. Rill)

  <bullet> American Bar Association Comments on the 1998 U.S./ECU 
        Positive Comity Agreement (1998) (contributor)

  <bullet> Global Forum chapter, in Report of the International Chamber 
        of Commerce Joint Working Party on Competition and 
        International Trade (1998) (contributor)

  <bullet> Antitrust Enforcement and Non-Enforcement as a Barrier to 
        Import in the Japanese Automobile Industry, 24 Empirica 109 
        (1997) (with J. Rill)

  <bullet> The New Efficiencies Guidelines, FTC Watch, Apr. 21, 1997, 
        at 8 (with J. Loftis III)

  <bullet> Federalism in Antitrust Enforcement, in Robert Schuman 
        Centre Annual on European Competition Law (Claus-Dieter 
        Ehlermann & Laraine L. Laudati eds., 1996) (with J. Rill)
Speaking Engagements and Presentations
  <bullet> ``Hot Topics in Mergers and Acquisitions 2015,'' PLI, 
        Chicago (September 2015) and New York (Oct. 2015)

  <bullet> ``Antitrust Issues in the Internet Age,'' ABA Business Law 
        Section Annual Meeting, Chicago (Sept. 2015)

  <bullet> ``Waiting to Exhale: Interim Operations and Gun Jumping,'' 
        ABA Antitrust Section Spring Meeting, Washington, D.C. (Mar. 
        27, 2014)

  <bullet> ``Airline Mergers: First Class Results or Middle Seat 
        Misery?,'' ABA Antitrust Section, Washington, D.C. (May 28, 
        2013)

  <bullet> ``Competitor Collaborations: U.S. and EU Joint Venture 
        Law,'' ABA Antitrust Section Spring Meeting, Washington, D.C. 
        (Apr. 10, 2013)

  <bullet> ``Antitrust in the Second Obama Term: What to Expect?,'' 
        George Washington University Law School and Concurrences 
        Journal, New York (Mar. 27, 2013)

  <bullet> ``Antitrust Hot Topics,'' Organization for International 
        Investment General Counsel Conference, Washington, D.C. (Sept. 
        2012)

  <bullet> ``Someone to Watch Over Me: Legal & Compliance Challenges 
        Posed By Antitrust Agencies' Consent Decrees,'' Washington 
        Legal Foundation, Washington, D.C. (July 28, 2011)

  <bullet> ``Competition Analysis in the Airline Industry,'' ABA Public 
        Utility, Communications and Transportation Law Conference, 
        Washington, D.C. (Mar. 7, 2011)

  <bullet> ``Toward Greater Transparency or Enhanced Market Power: 
        Distribution Issues in the Airline Industry,'' ABA Antitrust 
        Section Transportation and Energy Committee, Washington, D.C. 
        (Feb. 8, 2011)

  <bullet> ``Mergers & Acquisitions: Issues and Challenges,'' 
        International Competition Law Conference, Delhi (Oct. 19, 2010)

  <bullet> ``Antitrust Enforcement Investigations: Recent Changes 
        Around the Region,'' Inter Pacific Bar Association 20th Annual 
        Conference, Singapore (May 4, 2010)

  <bullet> ``Vertical Restraints, Resale Price Maintenance, and Article 
        81(1) Analysis,'' Fordham Conference on International Antitrust 
        Law and Policy, New York (Sept. 25, 2009)

  <bullet> ``The FTC's Review of its Privacy Mission: How Will It 
        Affect Behavioral Advertising and Other Marketing Practices?,'' 
        Washington, D.C. (Sept. 22, 2009)

  <bullet> ``The FTC's Proposed Rulemakings Addressing Mortgage 
        Industry Practices,'' Washington, D.C. (June 3, 2009)

  <bullet> ``Mergers and Alliances in the Airline Industry,'' ABA 
        Antitrust Section Merger and Transportation Committees, 
        Washington, D.C. (Feb. 18, 2009)

  <bullet> ``Divergent Attitudes Toward the IP/Antitrust Interface in 
        the EU and the U.S.,'' ABA Antitrust Section Antitrust/IP 
        Conference, Berkeley (Feb. 5, 2009)

  <bullet> ``Antitrust and Intellectual Property in China,'' American 
        Intellectual Property Law Association Spring Meeting, Houston 
        (May 14, 2008)

  <bullet> ``The International Competition Network: Report from the 
        Unilateral Conduct Working Group,'' ABA Antitrust Section 
        Sherman Act Section 2 and International Committees, Washington, 
        D.C. (Mar. 19, 2007)

  <bullet> ``Price Gouging: Do We Need a New Federal Law?,'' ABA 
        Antitrust Section Spring Meeting, Washington, D.C. (Mar. 30, 
        2006)

  <bullet> Panelist, ``Update on Antitrust Law Developments,'' 
        Presentation Before the ABA Antitrust Section Corporate 
        Counseling Committee (Sept. 22, 2006)

  <bullet> Moderator, ``Brown Bag'' Luncheon with FTC Commission 
        William Kovacic, ABA Antitrust Section Federal Civil 
        Enforcement Committee (July 18, 2006)

  <bullet> Presenter on Behalf of the Business and Industry Advisory 
        Committee, OECD Working Party 2 Roundtable on Competition in 
        the Payment Cards Industry (June 6, 2006)

    The Chairman. Thank you, Ms. Wilson.
    Next up, Mr. Phillips. And it will be the Senate's loss and 
the FTC's gain, but welcome. Please proceed.

      STATEMENT OF NOAH JOSHUA PHILLIPS, NOMINEE TO BE A 
             COMMISSIONER, FEDERAL TRADE COMMISSION

    Mr. Phillips. Thank you. Chairman Thune, Ranking Member 
Blumenthal, members of the Committee, I want to thank you for 
holding this hearing and for the opportunity to testify before 
you today. This is a critical time for the Federal Trade 
Commission, and your stewardship of that agency is essential.
    I also want to thank the President for the honor that he 
has bestowed and the confidence that he has placed in me. I am 
deeply humbled by that.
    I would like to thank Senator Cornyn. It has been the honor 
of my life to spend the last 6 years working for him.
    With the Committee's permission, I will reintroduce my 
family, and I thank you in advance for your patience with some 
of them. First, my father, David Phillips, is a law professor 
at Northeastern University in Boston. I did not go there, but 
he taught me everything. What is perhaps more important, I was 
10 years old when my mother died of cancer, and my father 
raised me and my two sisters all by himself. I know that my 
mother, Deborah Kaplan Phillips, is here with us today in 
spirit.
    My younger sister, Judith, is here. She and her family live 
in Cambridge, Massachusetts, and she works as an attorney at a 
startup devoted to improving patient care.
    My older sister, Aliza, is not able to be here. She is a 
clinical psychologist and instructor at Harvard Medical School, 
and has three great kids of her own. I'm thrilled to have her 
husband, Ira, a journalist and author, here with me today.
    Here with me are my three children: Dalia, Jonah, and our 
baby, Abigail. I could go on about them indefinitely, but for 
present purposes, I will say that Dalia is beginning to learn 
the game Monopoly, and that Jonah shares this Committee's 
interest in airplanes and trains.
    [Laughter.]
    Mr. Phillips. Finally, my wife and love, Sarah, is here 
with me. She is a committed public servant, recently off a 
four-year detail to the White House on the staff of the 
National Security Council. Between her work in government and 
out, it is no exaggeration to say that Sarah is personally 
responsible for saving tens of thousands of lives. I am in awe 
as well as love. Happy Valentine's Day.
    Members of the Committee, the FTC is an important 
institution at a critical time for our national economy. 
Congress has tasked the Commission with enforcing consumer 
protection laws and antitrust laws, which, in turn, help 
consumers by protecting competition. The free market is the 
most powerful and effective engine of social progress in human 
history, but it works better with rules of the road and cops to 
enforce them. The FTC is one of those cops. Its mission 
statement reads, ``Working to protect consumers by preventing 
anticompetitive, deceptive, and unfair business practices, 
enhancing informed consumer choice, and public understanding of 
the competitive process, and accomplishing this without unduly 
burdening legitimate business activity.''
    I believe in that mission. By following it, the FTC not 
only protects consumers, it helps instill confidence in 
markets, foster innovation, and create jobs, and that is no 
small task. First, the FTC must execute the authority vested in 
it by Congress to protect consumers and competition. Second, 
the FTC must maintain predictability and intellectual rigor. We 
need sound rules on which consumers and businesses both can 
rely. Third, the FTC must keep abreast of developments in 
technology and business. And the agency must do all of this as 
Americans are hearing more about antitrust, seeing high health 
care costs, and sharing their data for use in new and different 
ways. I am here before you because, if confirmed, I want to 
help lead the FTC at this critical time.
    Over my career, I have worked on issues the FTC deals with 
from different perspectives: as a mergers and acquisitions 
analyst; as a lawyer litigating antitrust, fraud, and other 
cases, and doing merger review; and for the bulk of my legal 
career, here in the U.S. Senate. And that last perspective is 
key.
    As the members of this Committee well know, legislation is 
hard. It requires understanding complex problems, listening to 
a broad array of stakeholders, judgment, and finding common 
bipartisan ground. For over 6 years, I have worked hard and 
well with Democrats and Republicans, and, if confirmed, I will 
continue that at the FTC.
    Working here in the Senate also has given me a personal 
appreciation for the Constitution's separation of powers, 
including the primacy of Congress in fashioning national 
policy. I know what goes into the words you write, and, if 
confirmed, I will take care faithfully to execute them.
    I thank the members of this Committee. And I look forward 
to your questions.
    [The prepared statement and biographical information of Mr. 
Phillips follow:]

      Prepared Statement of Noah Joshua Phillips, Nominee to be a 
                 Commissioner, Federal Trade Commission
    Chairman Thune, Ranking Member Nelson, members of the Committee--I 
want to thank you for holding this hearing, and for the opportunity to 
appear before you.
    This is a critical time for the Federal Trade Commission, and your 
stewardship is essential.
    I want to thank the President, for the honor he has bestowed and 
the confidence he has placed in me. I am deeply humbled.
    I'd also like to thank Senator Cornyn. It's been the honor of my 
life to spend the last six years working for him, on behalf of Texans 
and the American public.
    With the permission of the Committee, I'd like to recognize my 
family here with me today: my father, David Phillips; my sister, Judith 
Dolgin, my brother-in-law, Ira Stoll; my children, Dalia, Jonah, and 
Abigail; and my wife, Sarah Charles.
    Members of the Committee, the FTC is an important institution at a 
critical time for our national economy.
    Congress has tasked the FTC with enforcing consumer protection laws 
and antitrust laws, which help consumers by protecting competition.
    The free market is the most powerful and effective engine of social 
progress in human history.
    But it works better with rules of the road, and cops to enforce 
them. The FTC is one of those cops.
    Its mission statement reads: ``Working to protect consumers by 
preventing anticompetitive, deceptive, and unfair business practices, 
enhancing informed consumer choice and public understanding of the 
competitive process, and accomplishing this without unduly burdening 
legitimate business activity.''
    I believe in that mission.
    By following it, the FTC not only protects consumers, it helps 
instill confidence in markets, foster innovation and create jobs.
    That is no small task.
    First, the FTC must execute faithfully the authority vested in it 
by Congress, to protect consumers and competition. If confirmed, that 
is a responsibility I will shoulder humbly and carefully.
    Second, the FTC must maintain predictability and intellectual 
rigor. We need sound rules, on which consumers and businesses both can 
rely.
    Third, the FTC must keep abreast of developments in technology and 
business.
    The agency must do all this as, among other things, Americans are 
hearing more about antitrust, seeing high healthcare costs, and sharing 
their data for use in new and different ways.
    I am here before you because I want to help lead the FTC at this 
critical time.
    Over my career, I have worked on issues the FTC deals with from 
different perspectives: as a mergers & acquisitions analyst; as a 
lawyer litigating antitrust and fraud cases, and doing merger review; 
and, for the bulk of my legal career, here in the Senate.
    That last perspective is key.
    As the members of this Committee know, legislation is hard. It 
requires understanding complex problems, listening to a broad array of 
stakeholders, judgment and finding common, bipartisan, ground.
    For over six years, I have worked hard and well, with Democrats and 
Republicans. I plan to continue that at the FTC.
    Working here in the Senate also has given me a personal 
appreciation for the Constitution's separation of powers, including the 
primacy of Congress in fashioning national policy.
    I know what goes into the words you write, and, if confirmed, I 
will take care faithfully to execute them.
    I thank the Members of the Committee and look forward to your 
questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Noah Joshua 
Phillips.
    2. Position to which nominated: Commissioner, Federal Trade 
Commission.
    3. Date of Nomination: January 25, 2018.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: Senate Judiciary Subcommittee on Border Security & 
        Immigration, Dirksen Senate Office Building, Room 141, 
        Washington, D.C., 20510.

    5. Date and Place of Birth: August 3, 1978; Boston, Massachusetts.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
        Spouse: Sarah Pauline Charles, Senior Director, International 
        Rescue Committee.
    7. List all college and graduate degrees. Provide year and school 
attended.

        A.B., Dartmouth College, 2000
        J.D., Stanford Law School, 2005

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

  a.  Wasserstein Perella & Co. (later Dresdner Kleinwort Wasserstein), 
        New York, NY, 2000-2002. I worked as an Analyst investment 
        banker in the firm's Energy Group. At times, my work involved 
        supervising more junior bankers, bankers at other firms, 
        lawyers and other professionals involved in mergers and 
        acquisitions work. M&A work necessarily involves study of the 
        relevant markets in proposed deals. I focused on the energy 
        industry, which is traditionally within the purview of the 
        Federal Trade Commission.

  b.  Hon. Edward C. Prado, U.S. Court of Appeals for the Fifth 
        Circuit, San Antonio, TX, 2005-2006. I worked as a law clerk, 
        which exposed me to a wide variety of areas of Federal law and 
        appellate litigation practice.

  c.  Cravath, Swaine & Moore LLP, New York, NY, 2006-2010. I worked as 
        an associate attorney in the firm's litigation group. I worked 
        on fraud and antitrust matters, among others, including one 
        significant merger review before the Department of Justice. I 
        supervised teams of junior attorneys, accountants and support 
        staff on a variety of matters, including litigation and 
        internal investigations.

  d.  Steptoe & Johnson LLP, Washington, D.C., 2010-2011. I worked as 
        an associate attorney in the firm's litigation group. I worked 
        on consumer protection, fraud and antitrust matters, including 
        one involving patents. I was the lead associate on two larger 
        litigations, one of which involved working with one partner to 
        lead a team of lawyers and support staff through a successful 
        trial.

  e.  Senate Judiciary Committee, Subcommittees on Immigration, 
        Refugees & Border Security, the Constitution, and Border 
        Security & Immigration, Washington, D.C., 2011-present. As 
        Counsel, from 2011 to 2013, I advised Senator Cornyn on policy 
        issues within the Committee's purview, including antitrust, 
        consumer privacy, constitutional law, fraud and intellectual 
        property. I worked on legislation and oversight related to 
        these issues. Since 2013, as Chief Counsel to Senator Cornyn, I 
        have continued to advise him on these issues and led a team of 
        lawyers and others.
    9. Attach a copy of your resume.
    A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.
    From 2012 to 2016, I served on the Board of Directors of the Senate 
Employee Child Care Center. I served both as Secretary and Vice 
President.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    Member, D.C. Minyan approximately 2012-2016; Member, Ohr Kodesh 
Congregation, 2016-present. Both of these are Jewish congregations, but 
to my knowledge they do not restrict membership on the basis of 
religion.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period. None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

  a.  Honorary Texan, 2017.

  b.  National Law Journal's ``Hill Hot List,'' 2014.

  c.  Commendation for excellence in trial advocacy by the City of 
        Lancaster, California, 2011.

  d.  Mr. and Mrs. Duncan L. Matteson Sr. Award and Walter J. Cummings 
        Awards in Stanford Law School's 2005 Marion Rice Kirkwood Moot 
        Court Competition. My partner and I were the champions and I 
        won Best Individual Oral Argument.

  e.  Various academic awards.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

  a.  Panel participant, ``Legislative Perspectives--Agenda for 
        Congress and the New Administration,'' 2016 IP Institute, 
        Cravath, Swaine & Moore LLP, November 30, 2016.

  b.  Panel participant, ``Balancing Patent Rights and Litigation 
        Abuses,'' The Federalist Society, December 4, 2014.

  c.  Panel participant, ``Effective Innovation Policies to Bolster 
        Entrepreneurs & Enable New Markets,'' Consumer Electronic 
        Association's Startup Government Day, May 16, 2014.

  d.  Speech at American Enterprise Institute's ``Preventing patent 
        abuse: Prospects for Reform'' event, April 3, 2014. I delivered 
        remarks that Senator Cornyn had planned to deliver.

  e.  ``Sunlight for the Heart of Darkness: Conflict Minerals and the 
        First Wave of SEC Regulation of Social Issues,'' written by 
        Jonathan C. Drimmer and myself and published in Human Rights 
        and International Legal Discourse. Citation: 6 Hum. Rts. & 
        Int'l Legal Discourse 131 2012.

  f.  I wrote a blog post (I believe titled ``Imagining Conservatism'') 
        on a website, Snarksmith.com, in 2005 or 2006. I do not recall 
        the substance and have been unable to find the article online.

  g.  Letters to the Editor of The Dartmouth, Dartmouth College's 
        campus daily:

    i.  ``Atonal,'' April 27, 2001.

    ii.  ``False Racism Accusation is an Attempt to Discredit,'' 
            November 4, 1999.

    iii.  ``Student Assembly Does Its Best To Represent Diverse 
            Dartmouth Student Body,'' February 24, 1999.

    iv.  ``Collis Cafe Must Stay Vegetarian to Fairly Serve Dartmouth 
            Students,'' January 28, 1997.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony. None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Several aspects of my professional background qualify me for 
appointment to the FTC. As Chief Counsel and, earlier, Counsel to 
Senator Cornyn, I have advised him on a number of subject matters that 
fall within the FTC's jurisdiction, notably antitrust, consumer 
protection, fraud, intellectual property and privacy. I have also 
advised him on oversight of both the agency and the Department of 
Justice's Antitrust Division, when those issues have come before the 
Senate Judiciary Committee. As an attorney in private practice, I 
worked on those areas (including merger review), as well as on other 
litigation issues related to mergers and acquisitions. My career began 
in mergers and acquisitions, advising firms on transactions in the 
energy industry.
    The FTC's antitrust, consumer protection and public education 
missions are as important to the American economy as ever. Technology 
and business practices are evolving rapidly, public discussion about 
antitrust is growing louder and Americans are grappling with increasing 
healthcare costs and new realities of data privacy. I want to help lead 
the FTC to face these challenges in order to protect American 
consumers. My nearly two decades of experience--in public and private 
service, as an adviser to policy makers and businesses alike--will 
enable me to do so.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Management of the FTC is vested principally in the Chairman. As 
Commissioner, I would work with the Chairman, the other Commissioners 
and agency senior staff to ensure proper management and accounting 
controls. I have never run a large organization. As a Commissioner, I 
would leverage the managerial experience I gained in my professional 
career as a lawyer in private practice, a congressional staffer, and a 
non-profit board member.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    In my view, the agency's top three challenges are: (i) protecting 
the American consumer by enforcing the antitrust and consumer 
protection laws written by Congress; (ii) maintaining predictability 
and intellectual rigor in the interpretation and enforcement of those 
laws; and (iii) keeping abreast of developments in technology and 
business practices to ensure the protection of American consumers.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have none.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the U.S. Office of Government Ethics and the Federal Trade Commission's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. If confirmed, any potential conflicts of interest will be 
resolved in accordance with the terms of the ethics agreement that I 
have entered into with the Commission's Designated Agency Ethics 
Official. I am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the U.S. Office of Government Ethics and the Federal Trade Commission's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. If confirmed, any potential conflicts of interest will be 
resolved in accordance with the terms of the ethics agreement that I 
have entered into with the Commission's Designated Agency Ethics 
Official. I am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    None, other than my work as a congressional staffer.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the U.S. Office of Government Ethics and the Federal Trade Commission's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. If confirmed, any potential conflicts of interest will be 
resolved in accordance with the terms of the ethics agreement that I 
have entered into with the Commission's Designated Agency Ethics 
Official. I am not aware of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal; State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    Yes. In 1997, my sophomore year in college, my roommates and I 
threw a party at which alcohol was served. My roommates and I were not 
yet 21, and the Hanover Police Department (HPD) shut down the party 
following a complaint. I was arrested for the unlawful possession of 
alcohol. The charges were dropped following my participation in the 
HPD's Alcohol Diversion Program.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    See answer to question C2, above.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I have no additional information to disclose.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    If confirmed, I would work diligently with my fellow Commissioners 
to do so.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    If confirmed, I would work diligently with my fellow Commissioners 
to do so.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     Resume of Noah Joshua Phillips
Professional Experience
U.S. Senate Committee on the Judiciary, Washington, D.C., Subcommittees 
on the Constitution and the Border Security and Immigration
Chief Counsel to Senator John Cornyn, Republican Whip, 2013-present, 
Counsel, 2011-2013

  <bullet> Advise Senator Cornyn on Judiciary Committee matters during 
        committee and floor consideration, including antitrust, 
        bankruptcy, civil justice, constitutional law, intellectual 
        property, privacy and national security.

  <bullet> Represent Senator Cornyn on Judiciary Committee issues to 
        House and Senate Republican committee and floor leadership, as 
        well as outside stakeholder groups.

  <bullet> Draft and shepherd legislation on topics including 
        intellectual property, bankruptcy and national security.

  <bullet> Featured on the National Law Journal's 2014 ``Hill Hot 
        List'' of congressional staff lawyers.

Steptoe & Johnson LLP, Washington, D.C.
Litigation Associate, 2010-2011

  <bullet> Drafted briefs for Federal and state litigation on issues 
        including Federal preemption, antitrust, and patent law.

  <bullet> Lead associate in representation of hedge fund client in 
        multi-hundred million dollar FINRA arbitration; and individual 
        directors in securities, derivative and ERISA lawsuits stemming 
        from environmental disaster.

Cravath, Swaine & Moore LLP, New York, NY
Litigation Associate, 2006-2010

  <bullet> Practiced civil litigation before Federal and state courts 
        and agencies involving Alien Tort Statute, antitrust, 
        contracts, copyright, patents, professional malpractice, Rule 
        11 sanctions, securities fraud and takeover disputes and 
        provided advice to clients on mergers, litigation strategy and 
        related matters.

  <bullet> Conducted internal investigations of client companies 
        involving employee misconduct and political corruption.

U.S. Court of Appeals for the Fifth Circuit, The Honorable Edward C. 
Prado, San Antonio, TX
Law Clerk, 2005-2006

Wasserstein Perella & Co. (later Dresdner Kleinwort Wasserstein), New 
York, NY
Analyst, Mergers & Acquisitions, 2000-2002
Education
Stanford Law School, Palo Alto, CA
J.D., May 2005

    Selected Honors/Activities: Co-Champion, 2005 Marion Rice Kirkwood 
Moot Court Competition (Mr. and Mrs. Duncan L. Matteson Sr. Award for 
Winning Team and Walter J. Cummings Award for Best Individual Oral 
Argument).

Dartmouth College, Hanover, NH
A.B. in Government with Honors, Magna Cum Laude, June 2000

Selected Honors/Activities: Phi Beta Kappa; William S. Churchill 
Memorial; Class President (1997-1998); White House Intern in the Office 
of Counsel to the President (Winter 1999).
Bar Admissions
New York (2006); District of Columbia (2010); U.S. Court of Appeals for 
the Second Circuit (2007); U.S. Court of Appeals for the Ninth Circuit 
(2010); U.S. District Courts for the Southern and Eastern Districts of 
New York (2006).

    The Chairman. Thank you, Mr. Phillips.
    Mr. Chopra.

   STATEMENT OF ROHIT CHOPRA, NOMINEE TO BE A COMMISSIONER, 
                    FEDERAL TRADE COMMISSION

    Mr. Chopra. Thank you, Chairman Thune and Ranking Member 
Blumenthal and members of the Committee. I appreciate the 
opportunity to be here today.
    It's an honor to be nominated by the President to the 
Federal Trade Commission, an agency with one of the most 
respected staffs in the world. And I'm grateful to my family, 
friends, teachers, and colleagues for their support, some of 
whom are here today.
    This is my fifth time testifying in hearings before Members 
at the U.S. Senate. I believe in the fundamental importance of 
congressional oversight over Federal agencies to ensure that 
they're working for the greater good and using public resources 
efficiently. And I am committed to being responsive and 
accountable to this Committee and this chamber.
    The FTC is more than a century old, but many of its 
traditions should remain timeless. The agency has a 
longstanding history of Commissioners working on a bipartisan 
basis to protect consumers and competition by fairly enforcing 
the law. And it has been a privilege for me to get to know Noah 
Phillips, Christine Wilson, and Joe Simons.
    The agency also knows that law enforcement proceedings 
should not be the only tool in the toolbox. Research, consumer 
and business education, and cooperation with other agencies can 
be powerful tools, and I'm eager to continue these traditions 
along with my fellow Commissioners for the benefit of consumers 
and businesses alike.
    At the same time, the FTC faces significant challenges in 
today's day and age. The massive data breaches at Equifax and 
other companies highlight the serious issues we face with the 
security and proliferation of consumer data in our economy and 
society. Consumers, including senior citizens and military 
families, continue to be targeted by scammers and fraudsters. 
And record-high equity market valuations, the outlook for 
global growth, and the shape of the yield curve suggest to me 
that sizable M&A activity will occur in 2018 and perhaps 
beyond. At the same time, small business starts are hovering 
near a 40-year low. All of these trends will require careful 
attention of the Commission.
    In the private sector, I've seen how both large and small 
enterprises seek to serve consumers while responding to the 
demands and pressures of a competitive environment for capital, 
labor, and other input markets. In my previous service in 
government, I was proud to lead and contribute to work that 
benefited both consumers and honest businesses, shutting down 
debt relief scams, securing hundreds of millions of dollars in 
refunds for borrowers harmed by illegal practices, and 
promoting greater competition in the student loan refinance 
market.
    If confirmed, I look forward to working cooperatively with 
my fellow Commissioners, the staff, this Committee, and the 
public at large to advance the agency's mission to protect 
consumers and competition with openness, transparency, and 
humility.
    Thank you. And I look forward to your questions.
    [The prepared statement and biographical information of Mr. 
Chopra follow:]

   Prepared Statement of Rohit Chopra, Nominee to be a Commissioner, 
                        Federal Trade Commission
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, thank you for holding this hearing today to consider Joseph 
Simons, Christine Wilson, Noah Phillips, and me to serve as 
Commissioners of the Federal Trade Commission.
    It has been a great honor to be nominated by the President to a 
position that plays such a critical role in promoting an economic 
environment that works for hardworking and honest businesses and 
consumers. I am indebted to my family, friends, teachers, and 
colleagues who have led me to sit before you today, as well as to many 
current and former Commissioners who have provided valuable advice.
    This is my fifth time testifying in hearings before Members of the 
United States Senate, the majority of these taking place during my 
previous government service. I deeply believe in the fundamental 
importance of Congressional oversight over Federal agencies to ensure 
that they are working in the interest of taxpayers and the public, and 
I committed to being responsive and accountable to this Committee.
    The Federal Trade Commission is among the most highly-respected 
agencies in the Federal Government. Not only does the agency have a 
strong tradition of bipartisanship, but it also does not limit its work 
to adversarial law enforcement proceedings. Using research, consumer 
and business education, and cooperation with other agencies, I am eager 
to continue this tradition for the benefit of consumers and businesses 
alike.
    At the same time, the Federal Trade Commission faces significant 
challenges. Consumers, including senior citizens and military families, 
continue to be targeted by scammers and fraudsters, especially online. 
The massive data breach at Equifax highlighted the serious issues we 
face with the security of the proliferation of consumer data in our 
economy and society. Record-high equity market valuations, the outlook 
for global growth, and the shape of the yield curve suggest sizable M&A 
activity in 2018, and perhaps beyond. All of these trends will require 
resources and careful attention of the Commission, underscoring the 
importance of responsible stewardship of the agency's finite resources.
    I hope my experience in the private sector working with both large 
and small enterprises on how to serve consumers while responding to the 
demands and pressures of a competitive capital markets environment, 
coupled with my experience as a government official, will prove to be 
an asset to the Federal Trade Commission and its mission.
    During my tenure at the Consumer Financial Protection Bureau and 
the U.S. Department of Education, I was proud to lead and contribute to 
work that created significant benefits for consumers and legitimate 
businesses alike. Working with a bipartisan group of Attorneys General, 
my colleagues and I worked to shut down a deceptive website 
masquerading as an official government entity that targeted student 
veterans. I led efforts to obtain hundreds of millions of dollars in 
refunds for consumers harmed by illegally-originated student loans and 
improper debt collection tactics.
    But importantly, I know that agencies can achieve benefits for the 
market outside of formal enforcement proceedings through research and 
engagement with industry and the public. I've worked with industry 
innovators to remove perceived regulatory barriers in private-sector 
loan refinancing, helping to contribute to a robust market that is 
creating competition and cutting interest rates for consumers across 
the country. I helped develop a new Financial Aid Shopping Sheet that 
has been voluntarily adopted by thousands of colleges across the 
country to better educate students and their families on how to make 
better decisions on financing their higher education. I co-authored a 
report uncovering harmful practices that led to the overcharging of 
tens of thousands of military families--practices which have largely 
ceased to exist.
    If confirmed, I look forward to working cooperatively with my 
fellow Commissioners, the Commission's staff, this Committee, and the 
public to advance the agency's mission to protect consumers and 
competition with openness, transparency, and humility.
    Thank you for your consideration.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Rohit Chopra.
    2. Position to which nominated: Commissioner, Federal Trade 
Commission.
    3. Date of Nomination: January 25, 2018.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 1620 Eye St. #200, Washington, D.C. 20006

    5. Date and Place of Birth: January 30, 1982; Plainfield, NJ.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage). None.
    7. List all college and graduate degrees. Provide year and school 
attended.

        Harvard University, BA, 2004.
        Wharton School, University of Pennsylvania, MBA, 2009.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Consumer Federation of America, 2017 <SUP>(1)</SUP>

        Clinton-Kaine Transition Project, 2016 <SUP>(1)</SUP>

        U.S. Department of Education, 2016 <SUP>(1)(2)</SUP>

        Consumer Financial Protection Bureau, 2010-2015 
        <SUP>(1)(2)</SUP>

        McKinsey & Company, 2008-2010 <SUP>(1)</SUP>

        U.S. Fulbright Fellow, 2006-2007

        PSB Research, 2006 <SUP>(1)</SUP>

        Booz, Allen & Hamilton, 2004-2006 <SUP>(1)</SUP>

        John Kerry for President, 2004

        Let's Go Publications, 2004

    <SUP>(1)</SUP> Position held included responsibilities and content 
areas related to the position
    <SUP>(2)</SUP> Position held included significant enterprise-level 
or segment-level management responsibilities

    9. Attach a copy of your resume. See attachment.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years.

        Consultant, Colorado Office of the Attorney General, 2017.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.

        Fellowship, Roosevelt Institute, 2017

        Consultant, Ford Foundation, 2017

        Consultant, GLG (intermittent)

        Fellowship, Center for American Progress, 2015 (unpaid)

        Graduate Teaching Assistant, University of Pennsylvania, 2008-
        2009

        Consultant, Prosper Marketplace, 2008

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Harvard Alumni Association
        Member, Board of Directors, 2011-2014

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period. None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Fels Institute of Government Public Leadership Award, 2016

        Woodstock Institute Community Investment Award, 2015

        Henry Morgenthau Prize, 2009

        U.S. Fulbright Fellowship, 2006

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Note: During my government service, I gave a large number of 
speeches and presentations at conferences, mostly at industry 
conferences in my official capacity. I also published many reports and 
blog posts for consumers. Records of these have been retained by the 
respective agencies where I served. I have attempted to list as many as 
I can recall.
Reports
        Annual Report to Congress of the CFPB Student Loan Ombudsman
        Consumer Financial Protection Bureau
        October 2014

        Annual Report to Congress of the CFPB Student Loan Ombudsman
        Consumer Financial Protection Bureau
        October 2013

        Student Loan Affordability
        Consumer Financial Protection Bureau
        May 2013

        Annual Report to Congress of the CFPB Student Loan Ombudsman
        Consumer Financial Protection Bureau
        October 2012

        The Next Front? Student Loan Servicing and the Cost to Our Men 
        and Women in Uniform (with Holly Petraeus)
        Consumer Financial Protection Bureau
        October 2012

        Farewell to Cheap Capital? The Implications of Long-Term Shifts 
        in Global Investment and Saving (with Manyika, et al)
        McKinsey Global Institute
        Fall 2010

        Growth and Competitiveness in the United States: The Role of 
        Its Multinational Companies (with Cummings, et al)
        McKinsey Global Institute
        Spring 2010
Columns, Op-Eds, and Blog Posts
        Consumer Alert for Military Families on the Equifax Data Breach
        Consumer Federation of America blog
        September 2017

        What Should I Do About the Massive Data Breach at Equifax?
        Consumer Federation of America blog
        September 2017

        Sallie Mae's Stock Has Soared Since the Election
        Washington Post
        January 2017

        5 Steps to Keep Student Loans from Ruining Your Life
        Money
        October 2015

        Stressed Out by Student Debt
        Milwaukee Journal-Sentinel
        May 2015

        Student Debt Drains Economy
        Politico
        May 2013

        Debt Deja Vu for Students
        Philadelphia Inquirer
        October 2012

    While serving as an official with the Consumer Financial Protection 
Bureau, I authored or co-authored dozens of blog posts and other 
written information for consumers. These posts can be found online by 
conducting an author search at https://www.consumerfinance.gov/about-
us/blog/?form-id=l&filterl_authors=rohit-chopra
Speeches
        Rutgers Law School Institute on Corporate Compliance
        Remarks
        April 2017
        Camden, NJ

        Transatlantic Consumer Dialogue
        Remarks
        March 2017
        Washington, D.C.

        Conference of Western Attorneys General
        Keynote Remarks
        May 2016
        Portland, OR

        National Association of Realtors
        Remarks
        May 2016
        Washington, D.C.

        University of Michigan
        Remarks
        January 2016
        Ann Arbor, MI

        Federal Reserve Bank of Philadelphia
        Remarks
        September 2015
        Philadelphia, PA

        State Higher Education Executive Officers Association
        Remarks
        August 2015
        Newport Beach, CA

        National Association of Student Financial Aid Administrators
        Remarks
        July 2015
        New Orleans, LA

        Woodstock Institute
        Remarks
        May 2015
        Chicago, IL

        Howard University
        Remarks
        April 2015
        Washington, D.C.

        Education Writers Association
        Remarks
        April 2015
        Chicago, IL

        Federal Reserve Bank of New York
        Remarks
        March 2015
        New York, NY

        National Council of Higher Education Resources
        Remarks
        February 2015
        Washington, D.C.

        American Bar Association
        Remarks
        February 2015
        Houston, TX

        National Council of Higher Education Resources
        Remarks
        February 2015
        Washington, D.C.

        Coalition of Higher Education Assistance Organizations
        Remarks
        January 2015
        Arlington, VA

        National Consumer Law Center
        Remarks
        November 2014
        Tampa, FL

        National Association of Attorneys General
        Remarks
        May 2014
        Washington, D.C.

        Coalition of State University Aid Administrators
        Remarks
        April 2014
        Scottsdale, AZ

        Suffolk University Law School
        Remarks
        April 2014
        Boston, MA

        Consumer Bankers Association
        Remarks
        March 2014
        National Harbour, MD

        Coalition of Higher Education Assistance Organizations
        Remarks
        January 2014
        Arlington, VA

        Federal Reserve Bank of St. Louis
        Keynote Remarks
        November 2013
        St. Louis, MO

        National Council of Higher Education Resources
        Remarks
        November 2013
        St. Petersburg, FL

        National Consumer Law Center
        Remarks
        November 2013
        Washington, D.C.

        Credit Union National Association
        Remarks
        November 2013
        Phoenix, AZ

        ABS East
        Keynote Remarks
        October 2013
        Miami, FL

        New America Foundation
        Remarks
        October 2013
        Washington, D.C.

        National Association of Attorneys General
        Remarks
        May 2013
        Washington, D.C.

        iiBIG Education Finance and Loan Symposium
        Keynote Remarks
        May 2013
        Washington, D.C.

        Eastern Association of Student Financial Aid Administrators
        Remarks
        May 2013
        Boston, MA

        Milken Institute Global Conference
        Remarks
        April 2013
        Los Angeles, CA

        PDG Student Loan Receivables/Collections Conference
        Remarks
        April 2013
        Orlando, FL

        Consumer Bankers Association
        Remarks
        March 2013
        Phoenix, AZ

        Education Writers Association
        Remarks
        November 2012
        Indianapolis, IN

        Judge Advocate General's (JAG) Legal Center and School
        Remarks
        October 2012
        Charlottesville, VA

        Department of Defense Worldwide Education Symposium
        Remarks
        July 2012
        Las Vegas, NV

        Coalition of Higher Education Assistance Organizations
        Remarks
        July 2012
        Cleveland, OH

        Transatlantic Consumer Dialogue
        Remarks
        June 2012
        Washington, D.C.

        National Association of Student Financial Aid Administrators
        Remarks
        March 2012
        Washington, D.C.

        Education Finance Council
        Remarks
        March 2012
        Washington, D.C.

        Association of Private Sector Colleges and Universities
        Remarks
        March 2012
        Washington, D.C.

        Consumer Federation of America Consumer Assembly
        Remarks
        March 2012
        Washington, D.C.

        Consumer Bankers Association
        Remarks
        March 2012
        Austin, TX

        National Council of Higher Education Loan Programs
        Remarks
        September 2011
        Washington, D.C.

        Student Loan Servicing Alliance
        Remarks
        June 2011
        Denver, CO

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a govenunental or non-
govenunental capacity and specify the date and subject matter of each 
testimony.

        House of Representatives Committee on Financial Services
        Hearing Witness
        Subject Matter of Testimony: Consumer Protection for Students 
        and Student Loan Borrowers
        April 28, 2017

        Senate Committee on Armed Services, Subcommittee on Personnel
        Written Statement on behalf of the Consumer Federation of 
        America, the National Military Family Association, and other 
        consumer/veterans advocates
        Subject Matter of Testimony: Financial Readiness and Consumer 
        Protection for Active-Duty Servicemembers and their Families
        February 14, 2017

        Joint Economic Committee of the United States Congress
        Hearing Witness
        Subject Matter of Testimony: Consumer Protections in Higher 
        Education Finance
        September 30, 2015

        Senate Committee on the Budget
        Hearing Witness
        Subject Matter of Testimony: Impact of Student Debt on 
        Homeownership, Entrepreneurship, and the Economy
        June 4, 2014

        Senate Committee on Banking, Housing, and Urban Affairs
        Hearing Witness
        Subject Matter of Testimony: Student Debt and Parallels to the 
        Mortgage Crisis
        June 24, 2013

        Senate Committee on Banking, Housing, and Urban Affairs, 
        Subcommittee on Financial Institutions and Consumer Protection
        Hearing Witness
        Subject Matter of Testimony: Private Student Loans
        July 24, 2012

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I am a deep believer in markets. When markets function well, they 
can deliver prosperity for families and enterprises in our country. But 
when a market participant engages in unfair or deceptive conduct, 
markets cannot function appropriately. Transparent, even-handed 
enforcement doesn't only serve the interests of consumers, it also 
helps honest businesses grow and succeed.
    My work in the public sector as a Federal financial regulator, in 
the private sector working with companies to develop and execute new 
business strategies, and in the nonprofit sector working with a broad 
range of stakeholders on public policy issues has allowed me to analyze 
complex problems from multiple vantage points.
    Should I be confirmed, I hope to steward the agency with my fellow 
Commissioners in a way that contributes to healthy and dynamic markets 
that are fair and competitive.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The Commission is charged with setting agency priorities and 
carefully stewarding taxpayer resources in an effective and efficient 
manner. I believe that careful oversight of agency activities, 
particularly with respect to management and accounting controls, are 
critical.
    My previous role as a senior government executive, as well as my 
private sector experiences with large enterprises, have equipped me 
with the skills to cooperate with and scrutinize the outputs of audits 
conducted by Inspectors General, the Government Accountability Office, 
and independent audit firms, in order to ensure that appropriate 
corrective actions are taken.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    First, the Commission must confront the rapid development and use 
of big data in today's modern economy. Output of data is doubling 
almost every two years. I have closely observed how big data is 
reshaping the financial services and education industries, but they are 
certainly not exceptions. Big data is offering new opportunities in 
almost every sector of the economy. At the same time, it raises 
important questions with respect to consumer protection, privacy, and 
competition that require thoughtful examination.
    Second, while the Commission is more than a century old, it must be 
nimble and adjust to macroeconomic shifts both here and abroad. For 
example, in the near term, strong corporate earnings and balance sheets 
suggest that M&A activity is likely to be robust, despite expectations 
of rising interest rates. The macroeconomic environment has significant 
implications for the type of work the Commission can expect to address 
in the upcoming years. The Commission must ensure that it has a clear 
view into the broader economic environment.
    Third, I believe that all government agencies can and should 
continuously identify opportunities to make better use of taxpayer 
resources. Despite the significant responsibilities Congress has 
charged the Commission with executing, agency resources are, of course, 
limited. Stewarding the agency to meet its obligations to the public 
with these limited resources requires attention and care.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    If confirmed, I will resign from all outside positions.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the U.S. Office of Government Ethics and the Federal Trade Commission's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. If confirmed, any potential conflicts of interest will be 
resolved in accordance with the terms of the ethics agreement that I 
have entered into with the Commission's Designated Agency Ethics 
Official. I am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the U.S. Office of Government Ethics and the Federal Trade Commission's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. If confirmed, any potential conflicts of interest will be 
resolved in accordance with the terms of the ethics agreement that I 
have entered into with the Commission's Designated Agency Ethics 
Official. I am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    As a Federal Government official at the U.S. Department of 
Education and Consumer Financial Protection Bureau, I was frequently 
solicited by Members of Congress and their staffs to provide 
substantive and technical advice on potential legislation. Outside of 
government, I have been called upon to express my views on consumer 
protection and higher education issues, though at no time have I ever 
served as a registered lobbyist.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    If confirmed, any potential conflicts of interest will be resolved 
in accordance with the terms of the ethics agreement that I have 
entered into with the Commission's Designated Agency Ethics Official. I 
am not aware of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

  a.  Provide the name of agency, association, committee, or group;

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.
    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    In November 2016, I was diagnosed with advanced thyroid cancer. I 
am blessed to have support from family, friends, colleagues, and 
neighbors, and I am grateful for the excellent medical care I receive.
    My treatment is being supervised by Dr. Robert Tuttle of Memorial 
Sloan Kettering Cancer Center in New York. The treatment has included a 
major surgical intervention (total thyroidectomy) and post-operative 
iodine radiation treatment.
    While I continue to undergo regular diagnostic monitoring and 
consultations with my medical team, my condition has not stopped me 
from leading a productive life. I have been assured by my medical team 
that I will be able to fully execute my professional responsibilities, 
if confirmed.
    Should the Committee seek any additional information about my 
course of treatment or my fitness to serve, I have authorized my 
medical team to fully cooperate with these requests.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes. During my tenure as a Federal agency official, I have always 
sought to work cooperatively with all appropriate committees of 
jurisdiction to ensure that information requests from Majority and 
Minority staff receive appropriate and timely responses, and I will 
continue to do so.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    Yes. I will work closely with Members of the Commission and senior 
agency officials to ensure that the Committee is adequately briefed on 
key issues from appropriate experts employed by the Commission.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    Yes. As a former Federal agency official, I have testified on 
numerous occasions before congressional committees. While testimony can 
be resource-intensive for agencies, hearings provide Congress, the 
market, and the public with greater confidence that agency activities 
are aligned with the public interest.
                                 ______
                                 
                         Resume of Rohit Chopra
Professional Experience
Consumer Federation of America, Senior Fellow (2017-Present)

  <bullet> Conduct research and analysis on consumer issues with a 
        special focus on young people and military families

Clinton-Kaine Transition Project, Policy Planning Adviser (2016)

  <bullet> Pursuant to the Pre-Election Presidential Transition Act of 
        2010, supported policy and personnel planning in economic and 
        regulatory policy areas

U.S. Department of Education, Special Adviser to the Secretary (2016)

  <bullet> Led initiatives to enhance consumer protection, deploy more 
        rational and efficient oversight, and improve transparency

Consumer Financial Protection Bureau, Assistant Director (2010-2015)

  <bullet> Served as principal agency executive coordinating all 
        activities on student financial services, including 
        supervision, enforcement, consumer education, and research.

  <bullet> Appointed by the Treasury Secretary in 2011 as student loan 
        ombudsman, a new position established by Congress to work with 
        consumers and industry on enhancing service

  <bullet> Negotiated major resolutions to law enforcement actions 
        leading to hundreds of millions of dollars in refunds for 
        consumers. During tenure, CFPB uncovered military family 
        overcharging scheme (resolved by Justice Department in $60 
        million settlement with Sallie Mae), obtained $480 million in 
        relief on an illegal private student loan scheme, and shut down 
        student ``debt relief' companies

  <bullet> Led initiatives to jumpstart competition and expand private-
        sector student loan refinancing opportunities

  <bullet> Developed award-winning consumer education tools to assist 
        borrowers seeking assistance on student loan borrowing and 
        repayment, including a Financial Aid Shopping Sheet, 
        voluntarily adopted by more than 2,000 colleges and 
        universities

McKinsey & Company, Associate (2008-2010)

  <bullet> Advised senior executive clients in the financial services 
        and consumer technology industries as Summer Associate and 
        full-time Associate in the U.S., Latin America, and Asia on 
        operations, marketing, and acquisition strategies

  <bullet> As a Fellow of the McKinsey Global Institute, co-authored 
        two publications for the firm's economics and public policy 
        think tank

Additional experience includes work at a peer-to-peer financial 
technology startup, at private-sector consulting firms, and as a think 
tank fellow. Further information available upon request.
Education
Wharton School, University of Pennsylvania (MBA, 2009)

  <bullet> Awarded Henry Morgenthau Prize by family of former Treasury 
        Secretary for excellence and commitment to the advancement of 
        public policy and finance

  <bullet> Graduate Teaching Assistant: Corporate Finance, Financial 
        Accounting, Management Communication

Harvard University (BA, 2004)

  <bullet> Elected and served as student body president

  <bullet> Prison Instructor: taught inmates in a large Boston 
        facility, leading many to successful GED completion

    The Chairman. Thank you, Mr. Chopra.
    Well, let's start by asking the basic question, and I'll 
ask this of Mr. Simons, Ms. Wilson, Mr. Phillips, and Mr. 
Chopra. I know each of you appreciates the importance of 
cooperation between the FTC and Congress. Nevertheless, these 
nomination hearings give us an opportunity to underscore that 
point.
    So the question is, If confirmed, will you pledge to work 
collaboratively with this Committee and its members to provide 
thorough and timely responses to our requests for information?
    Mr. Simons. I would be thrilled to, Senator.
    Ms. Wilson. Absolutely, Senator Thune.
    Mr. Phillips. Absolutely, Senator.
    Mr. Chopra. Yes, absolutely.
    The Chairman. Thank you.
    I'm going to direct this question to all four nominees, and 
it's kind of a big question, but if you could perhaps maybe 
summarize your views on this. But with the growth of search in 
social media in recent years, I would like to get a response 
from each of you regarding the state of competition in the 
American technology sector. Some argue that big tech should be 
subject to more antitrust scrutiny. The applicable law would 
seem to require a more nuanced analysis, one that's not based 
on size alone.
    So could you just sort of fairly quickly describe your 
views or your antitrust concerns with respect to large tech 
firms, such as Facebook and Google?
    And, Mr. Simons, we'll start with you.
    Mr. Simons. Sure, happy to. So at a high level, I believe 
that big is not necessarily bad. I also believe that big is not 
necessarily good. Sometimes big is good, sometimes big is bad, 
and sometime it's both at the same time. Oftentimes, companies 
get big because they are successful with the consumer. They 
offer a good service at a low price, and that's a good thing, 
and we don't want to interfere with that. On the other hand, 
companies that are already big and influential can sometimes 
use inappropriate means, anticompetitive means, to get big or 
to stay big, and if that's the case, then we should be 
vigorously enforcing the antitrust laws and attacking that 
conduct and prohibiting it. That's my overall approach, 
Senator.
    The Chairman. Thank you, Mr. Simons.
    Ms. Wilson.
    Ms. Wilson. Thank you, Senator. I know there have been 
questions about whether the antitrust laws, as currently 
crafted, are sufficient to address these issues, I would like 
to affirm my view today that in fact the antitrust laws, as 
written, are broad and flexible and are capable of adapting to 
evolving technology. So I have no concerns at this time about 
our ability to address the issues that may arise under the 
FTC's current jurisdiction. Obviously, if we find that there 
are any gaps, we would come back to you and open a dialogue 
about that.
    In terms of whether there are issues, I understand that 
there have been investigations into prominent technology 
companies in the past, there has been a lapse of time, and 
technology has evolved. And so it may make sense to take 
another look at concerns that have been raised. My door is 
open. I am interested in hearing concerns or complaints that 
people may have about various companies. There is no company 
that is above the law or beyond the reach of the law.
    If confirmed, I would support Chairman Simons in taking a 
look at potentially unlawful conduct and following the facts 
where they lead.
    The Chairman. Thank you.
    Mr. Phillips.
    Mr. Phillips. Thank you for the question, Senator. In a 
sense, it is ``the'' big question. Like many Americans, I 
experience daily the incredible impact that many of these firms 
have on my life. I see the impact they have on the lives of 
others, including even my little children. I think the FTC has 
a very big role to play here in applying the law fairly and 
applying it carefully, and, very importantly, in continuing to 
keep abreast of changing trends in the markets, watching how 
they develop, and seeing how our laws, both consumer protection 
and antitrust, apply to them.
    I don't know all the answers, but the two commitments that 
I want to make to this Committee are, first, that if confirmed, 
I will help keep the agency abreast of developments, working 
with career staff and my colleagues here; and, second, if there 
are violations of the law, no matter who is committing them, 
that the FTC will enforce the law.
    The Chairman. Thank you.
    Mr. Chopra.
    Mr. Chopra. Thank you. Yes, I want to just offer a few 
observations. One is that, unlike most sectors of the economy, 
large technology firms don't just compete with each other, 
they're competing with several other market verticals and 
sectors of the economy. They're competing with health care 
companies. They're competing with retail. And so many other 
major sectors. And this has been a real challenge for equity 
and debt analysts seeking to predict how these industries will 
evolve, and how profitability and market dynamics will occur. 
And I think that it implores the Commission to make sure that 
we have the adequate talent, analytical capabilities, and to 
engage in constant learning.
    I agree with Mr. Simons that there's a real role to 
continue to look back at past actions to determine whether 
models and empirical analysis have been accurate, how they can 
be evolved, but I think it's an area that we need to be humble 
and continue to learn to effectively understand dynamics in 
this marketplace.
    The Chairman. Thank you.
    Mr. Simons and Mr. Chopra, the American Bar Association's 
Antitrust Law Section issued a 60-page report in January 2017 
on the state of antitrust enforcement. The Antitrust Section 
makes a number of recommendations for improving the FTC's 
handling of antitrust and consumer protection issues, such as 
recommending that all consumer protection orders should sunset 
in 5 years absent extenuating circumstances, such as fraud or 
recidivism. Do you agree with this recommendation regarding a 
5-year sunset for all orders? And if so, will you seek to 
implement this reform should you be confirmed?
    Mr. Simons. So first let me say that the ABA Antitrust 
Section does a terrific job. They have a whole host of 
extremely thoughtful people. And so anytime they make a 
recommendation, you want to think about it seriously. And so 
that's what I would commit to do. I don't have a conclusive 
view yet. I would want to talk to the staff at the agency 
before reaching any conclusions on that. And, of course, I 
would want to talk to my fellow Commissioners.
    The Chairman. Yes.
    Mr. Chopra. Senator Thune, the report had a number of 
recommendations, some of which Chair Ohlhausen has already 
sought to implement, and that appears to be well received. I 
would share that with respect to model orders, I think the 
recommendation about revisiting some of those model orders with 
respect to consent decrees that are filed in administrative 
proceedings or in Federal court looking at whether those 
lengths is appropriate. Twenty years, that is currently used, I 
know is not common in all Federal agencies, so I think it's 
worth always revisiting whether things can be changed or not. 
But I would really want to consult with the experts and staff 
at the Commission before making any final commitments.
    The Chairman. Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you very much.
    Welcome to all of you, and thank you for being here. Thank 
you for your service. In particular, welcome to Mr. Phillips, 
as a member of the Senate family, and thanks for your work on 
the Senate Judiciary Committee, where I also serve.
    I assume, by the way, that your request for patience was 
for your father, the law professor, not for your children.
    [Laughter.]
    Mr. Phillips. Senator, I have long since learned to ask 
others for patience with my father. I try not to ask others for 
what I myself sometimes cannot give.
    [Laughter.]
    Senator Blumenthal. And I assume he's not teaching anyone 
Monopoly.
    [Laughter.]
    Senator Blumenthal. Let me begin by saying that the FTC is 
entering a new era. It has a storied and wonderful past, but 
the simple stark fact is that consumers and competition have 
never been more threatened as the means of delivering products 
and making them, and the products themselves become more 
complex and important, so do the challenges of protecting 
competition and consumers from all of the schemes that now can 
be used on the internet rather than snail mail and other means 
of contacting and working the chains of delivery of products to 
consumers.
    So I think that the FTC needs to enter this new era with 
new energy and new tools. And that's why I have introduced, for 
example, laws that would protect against data breaches.
    Mr. Simons, you and I have talked about the need for better 
protection for consumers against data breaches. My hope is that 
you will, and the other Commissioners will, support the 
legislation that I have introduced. And I don't know whether 
you've had a chance to consider further the Data Breach 
Accountability and Enforcement Act of 2017. I hope that you've 
thought more and perhaps you could support it. Do you have 
another--any more opinions on it?
    Mr. Simons. Sure, Senator. Thank you for the question. One 
of things that I am extremely concerned about is whether the 
FTC has sufficient authority to deal with data breaches, 
particularly in terms of being able to create sufficient 
deterrents, create an incentive for the companies to take care 
of the consumer data as they should. And right now, we don't 
have civil penalty authority, and I think that's something that 
we should consider very carefully and take a very close look 
at. So I'm very sympathetic to your bill, and I look forward 
very much to working with you on it.
    Senator Blumenthal. Would the other nominees agree with 
that view?
    Ms. Wilson. Yes, I would.
    Mr. Phillips. Yes.
    Senator Blumenthal. Sorry.
    Mr. Chopra. Yes. If I could add, Senator, that data 
breaches impose great deals of costs also for small 
enterprises. The Equifax data breach has led to significant 
losses for community banks, credit unions, other financial 
institutions. So I think we need to think about the whole 
picture, including harms that occur to consumers.
    Senator Blumenthal. There are various areas where the FTC 
in this new era needs reinvention, and that's one of them. 
Another seems to me to be drug pricing and drug shortages. 
Every Member of this body I think is in favor of making drug 
prices more affordable to consumers. The President has talked 
about it. And yet every other day seemingly there are reports 
of a drug or device being marked up by 200 or 300 percent.
    I am cosponsor of legislation titled, ``Improving Access to 
Affordable Prescription Drugs Act,'' that directs the 
Department of HHS and OIG and the FTC to work together to 
create a task force that would try to reduce the cost of 
prescription drugs. It is only a beginning. There needs to be 
vigorous and strong enforcement of our antitrust laws against 
the consolidation that has occurred in that industry as well as 
others.
    And with all due respect, Ms. Wilson, in the airline 
industry as well. If we have time for a second round, I will be 
asking you about that industry.
    But let me focus now on drug pricing. Would you agree, Mr. 
Simons, that we need more vigorous enforcement in this area?
    Mr. Simons. Senator, I'm very concerned, as you just 
described, with drug pricing. I think the pharma industry is a 
critical industry for our economy and for the consumers. It 
affects people who are in a very vulnerable point in their life 
often. And so I'm very interested in dealing with that. As we 
spoke when we met, I would like to explore putting together a 
drug pricing monitoring task force so that we can see in real 
time or as close to real time as possible what's going on with 
drug pricing, act as quickly as possible, try to identify when 
high pricing is caused by anticompetitive conduct so we can 
investigate immediately, and engage in enforcement actions 
quickly; if the price spikes are caused by something maybe that 
is regulatory in nature, alert the FDA to that; and if it's 
something else, then potentially maybe legislation would be 
appropriate, and come talk to you about it.
    Senator Blumenthal. Would you consider supporting the 
measure that I mentioned just now?
    Mr. Simons. I would certainly consider it.
    Senator Blumenthal. Do any of the other nominees have views 
on that topic?
    Mr. Chopra. Well, I'll just add that I think the Commission 
needs to anchor its work to where it can really focus on the 
pocketbooks of consumers and activity in the economy. And given 
that so many patients are an ever-increasing share of spend on 
prescription drugs and health care, it must be a top priority 
to enforce all the applicable laws.
    Senator Blumenthal. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Thank you all for your willingness to serve. Thank you to 
your families for supporting you in this endeavor. I want to 
ask you a little bit more about the credit bureaus, the credit 
reporting agencies. They operate basically in the dark. The FTC 
has some analysis that indicates you have a high error rate. 
It's difficult exactly to determine what the material error 
rate is, but let's call it in the, you know, mid-low single 
digits, which means that millions of Americans are unable to 
obtain employment or a loan for a car or a house as a result of 
an error and a customer relationship that is not in their 
possession.
    Although the credit bureaus call us their customers, their 
customers are actually the people who are evaluating our 
creditworthiness. We are not in possession of the data that is 
being sorted, aggregated, and then sold, or rented in some 
instances, by these companies. And the FTC has done some good 
work here, just as the Congress has done some good work here. 
But these credit bureaus operate almost entirely in the dark, 
and it has real impact. This not just a consumer issue, this is 
also a question of the ecosystem itself.
    I'll preface my question with the following. I do not want 
to blow up this ecosystem. We do need some way to evaluate the 
creditworthiness of individuals. We don't want to go back to 
the days when you had to walk in and present yourself to a 
banker, who evaluated your creditworthiness sometimes on the 
basis of a hunch or whether they knew you personally. So I 
understand the need for these credit reporting agencies to 
exist, but I think the FTC has to do more.
    I'll start with Mr. Simons and go down the line as quickly 
as possible, do you think the FTC has the authority to do more? 
And are you inclined to explore those possibilities?
    Mr. Simons. Well, Senator, I certainly share your concerns. 
And that's something I definitely would want to look into, talk 
to the staff at the FTC, and would be happy to work with you on 
it.
    Ms. Wilson. I, too, share your concerns, Senator. As you 
know, the Federal Trade Commission does have enforcement 
responsibility for a number of laws in this area, including the 
Fair Credit Reporting Act and the FACT Act. Right before 
Chairman Tim Muris arrived, there was a significant enforcement 
action against the three credit rating agencies, and under 
Chairman Muris, at least some of them were found to have 
violated orders that would allow consumers easily to call in 
and verify their credit records and then make changes if 
necessary.
    I would be very interested in talking with FTC staff to 
find out whether they think there are areas where additional 
authority would be useful. I would look forward to continuing 
the dialogue with you, with my colleagues on the Commission, 
and with FTC staff, if confirmed.
    Mr. Phillips. Senator, thank you. As we discussed 
yesterday, for a lot of Americans, it's really frustrating to 
face large corporations that maybe they can't even access, the 
errors of which can result in really bad outcomes for all those 
people. And it can affect millions of Americans. If confirmed, 
I look forward to getting briefed on what the agency is doing, 
what it can be doing, and working with you and your staff on 
that issue.
    Mr. Chopra. Senator Schatz, this is an industry where you 
cannot vote with your feet. When consumers can't take their 
business elsewhere, competitive dynamics cannot address certain 
consumer harms. And just in 2017, we've seen a number of 
serious issues come to light in this industry. In one case, the 
court found that a credit bureau was falsely marking consumers 
as terrorists and drug kingpins. And we have to get to these 
core accuracy issues, and this is something that I think really 
warrants bipartisan attention about what we can do to make sure 
the plumbing of our consumer financial infrastructure is 
working better.
    We need to use the Fair Credit Reporting Act and enforce it 
vigorously as well as the other laws. And I agree that the 
Commission needs to amp up its work with respect to consumer 
reporting agencies.
    Senator Schatz. Thank you.
    My final question is for Mr. Chopra, and I think I've 
spoken to all of you about this. I'm very interested in this 
area of predictive algorithms. Some of it is just simple data 
analytics that were available to us decades ago, but some of it 
is getting more robust and sophisticated. I'm very interested 
in the space because it's not clear who has jurisdiction. Some 
of it may be DOJ, some of it may be HUD, some of it may be the 
FTC--of these predictive algorithms that can essentially serve 
as a proxy for race or for geographic location, for disability 
status, for income. And so the degree and extent that some of 
these predictive algorithms are sold as a product either to a 
government or a company, but they're a black box because 
they're proprietary, it's very difficult to determine whether 
laws are being violated.
    So I'm wondering whether you can all take a look at this. 
I'll take Mr. Chopra in person and the rest of you for the 
record on this question.
    Mr. Chopra. Yes, Senator. Fifty years ago almost, we passed 
the Fair Credit Reporting Act to make sure that there weren't 
secret databases making decisions about our lives without 
consumers having access to that data. And increasingly outside 
of the credit reporting sector, the industry of data brokers 
and other sectors are using more and more data. The FTC did 
publish a big data report that highlighted some of those 
issues. But I look forward to working with you and others so 
that we can figure out what the industry dynamics and potential 
issues for consumers are.
    Senator Schatz. Thank you.
    The Chairman. Thank you, Senator Schatz.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you. Thank you very much, Chairman 
Thune.
    And I'd like to direct a couple of comments and questions 
to Mr. Simons here initially.
    How will you prioritize the significant number of issues 
that are currently pending before the Commission?
    Mr. Simons. So, Senator, thank you for the question. A 
first priority for the Commission, if I am confirmed, is going 
to be making sure we are doing vigorous enforcement, both on 
the consumer protection side, and on the competition side, and 
that we do it in a way that gets the biggest bang for the 
taxpayers' dollar, and that would be to focus our attentions 
mostly where harm is the greatest. So that's how I would 
prioritize things, Senator.
    Senator Udall. Now, given the increased number of issues 
before the FTC, what are your views on the adequacy of the 
current FTC budget, and how will you ensure the Commission has 
the resources necessary to protect consumers?
    Mr. Simons. Senator, I pledge that I will look carefully at 
the FTC budget, if confirmed, and make sure that we have what 
we need to do the job that we need to do, and if we don't, I 
will come to you and ask for--well, I won't come to you, but 
I'll ask for more money.
    Senator Udall. Great. Thank you.
    As we discussed in our meeting, and it was a very good 
meeting, I'm concerned about the ability of Federal agencies to 
protect their networks against cyber intrusions, including the 
use of bots targeted against public comment systems. Can you 
address the ways you will empower or elevate the FTC's CIO?
    Mr. Simons. Yes. One of the things that I'm going to do, if 
confirmed, when I first get to the FTC is to talk to the CIO 
and the folks there who are dealing with these issues. This is 
a big concern for me, it's an important concern, and I want to 
address it quickly.
    Senator Udall. I have a long history of working with the 
Federal Trade Commission on false labeling of sports equipment, 
especially sports equipment targeted to young people. The FTC 
has done some very good work there. Specifically, it sent 
letters to retailers and manufacturers calling out certain 
deceptive practices. However, it is important that the FTC 
continue to monitor for future misleading labeling. Will you 
commit to me to continue to monitor the marketplace, including 
both traditional and online retailers and use the enforcement 
authority of the FTC for any marketer or manufacturer 
repeatedly making false claims?
    Mr. Simons. I would be happy to make that commitment. This 
is an issue that is near and dear to my heart. As we discussed 
in your office, my son had a serious concussion while playing 
football in high school, and so I saw the effects of that. And 
so it's very, very important to me.
    Senator Udall. Great. Thank you.
    This next question is addressed to all nominees. Consumers 
are purchasing more and more items that are connected to the 
Internet, but they may not understand the enormous amount of 
data that those items may collect. These items can include 
children's toys or monitoring devices. Can you talk about the 
actions that the FTC can take to help educate consumers about 
data collection practices of manufacturers and other companies? 
What are your ideas on how to promote consumer protection in an 
increasingly online and connected world?
    Why don't we start with Mr. Chopra down there.
    Mr. Chopra. Senator Udall, I think consumer education and 
engagement to increase understanding about the sheer volume, 
growing on an exponential basis, of data collected is 
important. I want to particularly underscore that collection of 
data on children, servicemembers, and other pockets of our 
populations probably warrant more specific attention. Of 
course, the Congress already has certain protections in place 
that address children's privacy, that address privacy of 
students, and I think we should continue to dig deep to figure 
out how we'll increase understanding and awareness by 
consumers.
    Senator Udall. Great.
    Mr. Phillips.
    Mr. Phillips. Thank you, Senator. I largely agree with what 
my colleagues have said, and I think your focus on consumer 
education could not be more important. There is a lot that the 
FTC can do, but outreach to the consumer community, to the 
business community, to particularly affected groups, like the 
military, the elderly, and, in particular, the parents of kids 
I think is essential. Also, using Members of Congress and the 
abilities that they have to get the word out. I think all those 
things are critical.
    Senator Udall. Yes.
    Ms. Wilson, let me interrupt you there because my time is 
really gone here. But I wanted to make a plug, and I bet 
Senator Blumenthal will join me on this, a plug for the FTC 
working with state attorneys general. Both of us were attorneys 
general sometime in our career, and it just seems to me that 
you can amplify consumer efforts by doing that. State attorneys 
general have their ear to the ground, they hear directly from 
consumers. Many in many states have these very strong consumer 
protection laws, and the attorneys general are out there doing 
that. So I think a good working relationship with state 
attorneys general would help you kind of amplify the work that 
you do.
    So with that, I'm finished, Mr. Chairman. Sorry for running 
over a little bit.
    The Chairman. Thank you, Senator Udall.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you very much, Mr. Chair.
    Good morning to all of our nominees. Congratulations on 
your nomination. And to all of the family members of the 
nominees who are here, thank you for supporting your loved ones 
in this process. It is a family affair. And I am very, very 
grateful, especially to the children in the audience, who are 
going to be sharing their parents with the American people, and 
they deserve our thanks for that, too.
    I want to start with a question for you, Mr. Chopra. Given 
your finance background, I want to ask you about student loan 
scams. Predatory student loan providers remain a serious 
problem for American consumers. These companies exploit 
vulnerable young people by charging outrageously high, often 
illegal upfront fees in addition to monthly charges. The FTC in 
several states began a crackdown on this kind of activity last 
fall, but it is clear that more needs to be done at the Federal 
level to make sure that these kind of predatory companies 
cannot operate anywhere and harm consumers in the United 
States. What more can the FTC do to fight this kind of 
predatory lending behavior?
    Mr. Chopra. Well, Senator Hassan, this bears an uncanny 
resemblance to the foreclosure crisis where, as mortgages went 
bad, foreclosure relief firms, many of which were fraudulent, 
preyed on so many communities that were hit hard by 
foreclosures.
    There is a student loan default in this country once every 
28 seconds.
    Senator Hassan. Wow.
    Mr. Chopra. That's 3,000 a day, over a million a year, and 
we discussed this. I know there has been some criticism of the 
FTC on being late to this, but I really think that the staff 
has done a terrific job on its student debt relief work, and I 
think we need to amplify that work and look to work with 
attorneys general and others to make sure that we are not 
allowing a repeat of what we saw in the aftermath of the 
foreclosure crisis.
    Senator Hassan. Thank you very much for that answer.
    This is a question for the panel, and again we have limited 
time, so I'll start with Mr. Simons and work down. But in the 
past, the FTC has looked at videogames, issuing a report on the 
marketing of violent videogames to children in 2009 and in 
2013. It also studied the Entertainment Software Rating Board, 
or ESRB, finding, one of the most effective voluntary 
enforcement boards. That's why I'm confident that the ESRB will 
take this issue seriously. So today I am sending a letter to 
the ESRB outlining my concerns with microtransactions, which 
may take the form of loot boxes, that's what they're called, 
and allow in-game purchases for surprise winnings, and in many 
cases, these are being marketed to and used by children who are 
obviously particularly susceptible to being addicted to them.
    Last month, the World Health Organization recognized gaming 
disorder as a diagnosable disorder. We should be doing all we 
can to protect our children and to inform parents about their 
options when it comes to these types of games.
    So the question for you, Do you agree that children being 
addicted to gaming and activities like loot boxes that might 
make them more susceptible to addiction, is a problem that 
merits our attention? And depending on how the ESRB responds to 
my inquiry, would the FTC be willing to look at loot boxes as 
an issue independently?
    And I'll start with you, Mr. Simons.
    Mr. Simons. Yes, I would agree on both counts.
    Senator Hassan. OK. Thank you.
    Ms. Wilson.
    Ms. Wilson. As the mother of two teenagers, I would agree 
that the extent to which teenagers play videogames is certainly 
of concern, and I would be willing to talk with FTC staff and 
your office to get more up to speed on this issue, should I be 
confirmed.
    Senator Hassan. Thank you very much.
    Mr. Phillips.
    Mr. Phillips. Yes, Senator. While I am not yet expert on 
this issue, I have credible reason to believe that I will 
become or be forced to be an expert on it going forward. And I 
look forward to working with career staff, with my colleagues, 
and with you on that issue.
    Senator Hassan. Thank you.
    Mr. Chopra.
    Mr. Chopra. Yes, Senator.
    Senator Hassan. Well, thank you.
    I have one more question that will take up far more than 
the 45 seconds I have left. So why don't I decide to submit 
that in writing. Thank you all very, very much.
    And I yield back my time, Mr. Chair.
    The Chairman. Thank you, Senator Hassan.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    And welcome to all of the panelists here. And 
congratulations on your nominations.
    Many of my colleagues have already asked about data breach 
or privacy issues in general, but I wanted to ask you each 
whether you thought, given the Equifax issues that we've seen 
and the 5 weeks that it took to notify the public that the 
breach had happened, whether you think that we should have more 
rigorous mandatory or rigorous guidelines on notification for 
data breach?
    Mr. Simons. Thank you, Senator. I think that's something 
definitely worth looking at. If confirmed, I would want to talk 
to the FTC staff about it, get their views, talk to my fellow 
Commissioners, and, of course, talk to you and other members of 
the Committee.
    Senator Cantwell. But do you think 5 weeks is too long?
    Mr. Simons. I don't have a good basis to reach a conclusion 
at this point. One of the things that I understand is an issue 
is sometimes you want to make sure that you know what the 
breach is about, and hopefully you can fix it before you have 
to announce it. So sometimes it depends on the facts of the 
case and whether the breach notification is more appropriate 
sooner or later, but just as a general matter. But in terms of 
the notification itself and potential legislation, that's 
something I would definitely be interested in.
    Senator Cantwell. Ms. Wilson or any of the other witnesses?
    Mr. Chopra. Well, I want to be careful not to prejudice any 
existing investigation, but I do think the data breach at 
Equifax was a wakeup call about the patchwork of state laws 
that we have and the appropriateness of how consumers are 
informed and how they are impacted by it. And so I'm very 
interested in working with all of you on data breach and data 
security issues because it is only going to be more frequent. 
It is not just impacting consumers and businesses, it impacts 
so many facets of our life, including our national security.
    Senator Cantwell. Do you think 5 weeks is too long?
    Mr. Chopra. Again, I don't want to prejudice any ongoing 
investigation, but as a general matter and not speaking about 
any specific situation, several weeks after a major breach of 
personal data does not sound like it is fast enough.
    Senator Cantwell. Mr. Phillips or Ms. Wilson?
    Mr. Phillips. Thank you, Senator. Like my colleagues, I 
understand that the FTC has announced that it is investigating 
that matter, so I don't want to speak specifically to it lest 
what I say impact that investigation in any way, but obviously 
that is a major issue. And I look forward to working with my 
colleagues, staff at the agency, and with you on what is 
appropriate.
    Senator Cantwell. Ms. Wilson?
    Ms. Wilson. I agree that this is a significant issue. I 
have spoken with my colleagues here at the table today. We 
recognize that the Federal Trade Commission is going to spend a 
great deal of time and energy investigating these issues and 
figuring out how best to serve the American consumer. And so I 
would join my colleagues in saying I don't want to prejudice an 
ongoing investigation, but I look forward to talking with 
staff, receiving briefing based on nonpublic information, if 
confirmed, and then talking with you further about additional 
authority or legislation that may be required.
    Senator Cantwell. Yes. I guess I was hoping--I mean, I 
think the facts are well known because they've been in the 
press, and I'm pretty sure this Committee had a hearing on it, 
so I'm pretty sure we're familiar with the fact that there was 
a patch, a software fix, available, and yet it wasn't applied 
within the company, and now 145 million people's personal data 
has been, you know, impacted.
    So I think the thing that we want to understand is what 
your personal views are on how important it is you think the 
FTC play an aggressive role here in filling the gap. If you, as 
FTC members, are not thinking aggressively about this issue and 
what role we need to play in monitoring how to protect 
consumers on privacy, then that's of great concern to me, and 
I'm pretty sure it will be of great concern to my constituents.
    I do have some questions about your current 
antimanipulation authority as it relates to energy and oil 
markets and--but I see my time is about to expire, Mr. 
Chairman, so I'll submit that for the record.
    The Chairman. Thank you, Senator Cantwell.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank all of you for your willingness to serve.
    I'm going to piggyback on Mr. Blumenthal's question on 
prescription drug pricing because we see a lot of consolidation 
in this industry. As an example, there is continued 
consolidation in the PDM industry, where large companies 
dominate the market. Many of these companies also own 
proprietary pharmacies, retail, and mail-order, which compete 
with our local retail pharmacies, often on an uneven playing 
field. As somebody who represents a state with a lot of 
seniors, this obviously is very important.
    So, Mr. Simons, how do you expect to deal with this at the 
FTC and how are you--I saw you shaking your head, so----
    Mr. Simons. So I agree wholeheartedly with that concern. 
One of the things I want to do at the Commission, which is 
spelled out in a little more detail in my response to the 
Committee's questionnaire, is to establish a merger 
retrospective program so that we look at self-critically 
whether our merger enforcement has been as effective as it 
should be. And if it hasn't, why hasn't it? And see how we can 
fix it.
    So as part of that, that look-back, I think it might make 
sense to look at the industry you're describing, and that will 
help us determine whether, you know, what the problem is and 
how to fix it.
    Senator Capito. Right. Yes.
    Mr. Phillips, did you have a comment on that?
    Mr. Phillips. Yes, Senator. And thank you for your 
question. I don't need to tell you that the price of health 
care for Americans may be the number one issue in many of their 
lives financially speaking.
    The FTC has a proud decades-long bipartisan track record of 
working on helping to keep competition going in health care 
markets, from reviewing mergers of hospitals to policing 
prescription drug prices. If confirmed, I look forward to 
working and making that issue a priority.
    Senator Capito. Ms. Wilson?
    Ms. Wilson. I agree with Mr. Phillips, that the Federal 
Trade Commission has a long and rich history of ensuring 
competition in health care markets, including in prescription 
drug markets. This is an area where, under Chairman Muris, the 
FTC spent a great deal of time and effort. It is an important 
one for all Americans given that health care costs now account 
for almost one-fifth of GDP.
    And so I agree with my colleagues, this is an area where I 
anticipate, if confirmed, spending a great deal of time and 
effort.
    Senator Capito. I'm going to jump to another topic real 
quick because, again, our time is short.
    Ms. Wilson, you and I talked about this when you were in 
the office, I think with Mr. Simons, too, is this 
telemarketing, the new spoofing that we all see coming across 
our phones. But also robocalls in telemarketing has taken on a 
whole different form than the original Do Not Call Registry 
list that we saw that developed successfully.
    Several of you mentioned this in your statements, about the 
real need for technology and the Commission's technological 
experts to keep ahead of the next algorithms that are being 
developed to get around the rules or to reach the consumer.
    So, Ms. Wilson, you had a good answer for that for me in my 
office, and I wonder if you could put it on the record for me, 
please?
    Ms. Wilson. Absolutely. Under Chairman Muris, the 
Commission launched the Do Not Call initiative. If Chairman 
Muris were here today, he would tell you that was his 15 
minutes of fame. Unfortunately, technology has now outpaced 
that effort, and there are holes that need to be plugged. 
Robocalls are essentially a form of harassment and are unlawful 
under a variety of different statutes. We need to find a 
technological solution and move forward with significant 
enforcement in that area. And I look forward to working with my 
colleagues and with you, if confirmed, to make sure we have the 
solution for that issue.
    Senator Capito. Thank you.
    I'll just make a quick comment, and then, Mr. Chopra, I'll 
let you make a comment.
    Again, going back to seniors, this I think really impacts 
ability for fraud for them and to be really taken advantage of, 
not just emotionally, but financially and every other way. We 
see it happening all the time.
    Mr. Chopra, do you have a response?
    Mr. Chopra. You read my mind. I was just going to share 
that I think we also need to look at robocalls and 
telemarketing issues, not as an inconvenience, but as a real 
harm to many people. Many individuals do not have the luxury of 
screening their calls. They might be waiting for a doctor's 
call or the next job, and I think this is something we need to 
remember, that it is not simply an annoyance.
    Senator Capito. Thank you.
    The Chairman. Thank you, Senator Capito.
    Senator Lee.

                  STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee. Thanks to each of you for being willing to 
serve and for being here to answer our questions.
    Some of you might be familiar with the proposal known as 
the SMARTER Act. The SMARTER Act is a piece of legislation that 
would ensure that the Department of Justice antitrust officials 
and the Federal Trade Commission officials would have to meet 
the same standard when seeking a preliminary injunction to 
block a proposed merger, and would also require the FTC to 
litigate merger cases in Federal court instead of relying on 
the administrative processes to which they have access.
    At some points in the past, I've discussed these proposals 
with individuals who will say, ``I don't necessarily see the 
need for legislation like that, and don't like it because we 
don't need it to be that way anyway. We already don't do those 
things, and there's no reason to change it.''
    So I guess I've got a couple of questions related to this. 
So I'd like to have each of you tell me, number one, whether 
there is any good reason to have a different standard 
applicable to the FTC than applies to the Department of Justice 
when either entity is trying to block a merger; and, number 
two, whether you would ever authorize the filing of an 
administrative complaint without seeking an injunction in 
Federal court?
    Go ahead. We'll start with Mr. Chopra.
    Mr. Chopra. Market participants shouldn't have to navigate 
multiple standards whenever possible. I want to explore this 
more with you and others. One question I would have is with 
respect to speed of the overall proceeding. Administrative 
proceedings can sometimes be faster and cheaper for parties, so 
that would be something I would look into. As a general matter, 
though, I take your point that these issues may be best suited 
for Federal court.
    Senator Lee. Mr. Phillips.
    Mr. Phillips. Thank you, Senator. It has been great to work 
with your staff over the last 6 years.
    My answer to the first question is I can't think of any 
reason whatsoever. The law should not operate as an arbitrage 
between which Federal agency you appear in front of. And 
companies should not have to consider that question when 
deciding whether and how to pursue mergers and acquisitions 
activity.
    As I said to you when we met, personally, I need to learn a 
little bit more about the operation of Part 3. And if 
confirmed, I look forward to working with my colleagues, with 
career staff, and with you on that question.
    Senator Lee. Great. Thank you.
    Ms. Wilson.
    Ms. Wilson. Thank you, Senator Lee. I think this is a very 
important issue. I think it's a matter of good government that 
businesses have clarity and predictability when they approach 
the government, particularly given concurrent jurisdiction 
between the FTC and DOJ. And so I do not believe there is a 
good reason for differentiated standards. There are people who 
will tell you that the standards as applied essentially come 
out the same way, but I think there is a great deal of value in 
conveying to businesses and the public that the agencies apply 
the same standard.
    In terms of where complaints are brought, I would think as 
a general rule for unconsummated mergers, seeking a PI in 
Federal court would be my inclination. Obviously, there may be 
extenuating circumstances that should be considered, and I 
would want to talk with FTC staff about that. But I think as a 
general rule, seeking a PI in Federal court would be the right 
way to go for unconsummated mergers.
    Senator Lee. OK. Mr. Simons.
    Mr. Simons. Thank you, Senator. I don't see any reason why 
there should be two standards. I am one of those people who, 
though, agrees, as a matter of practice, that the same standard 
is applied. But I see no reason why it shouldn't be cleaned up 
and made very clear.
    In terms of where the FTC files its merger challenges, I 
think generally it should be in the Federal court. There should 
be one bite at the apple. The litigation should occur in the 
Federal court, and if the agency loses there, they shouldn't 
then be going to administrative trial.
    Senator Lee. Excellent. I appreciate that answer very much, 
and that is very helpful.
    In any case, whether we're talking about antitrust law or 
otherwise, but particularly relevant here, since we're talking 
not about a hypothetical, but about real-world situations, 
someone's fate, as a litigant, ought not be determined by the 
toss of a coin, the type of random decision that might dictate 
that a proposed merger be reviewed by this agency or the other. 
So when we have differing substantive standards that apply to 
one versus the other, when one is required to go before a 
Federal court and the other has another option, to me, that 
makes no sense. No one has ever explained to me an adequate 
reason why there ought to be two completely different systems.
    I understand the efficiency argument, that one has been 
made in the past, but the fact that something might be more 
efficient for the government ought not change someone's access 
to due process, which is what our system is all about.
    I see my time is expired, and the Chairman is giving me 
that look.
    [Laughter.]
    Senator Lee. But I thank each of you for your thoughtful 
answers.
    The Chairman. I never give the Senator from Utah that look. 
But thank you, Senator Lee.
    Senator Wicker is up next. I have to depart for a meeting 
on infrastructure, but I will say to our nominees that we hope 
to move very quickly your nominations to the floor, and it's 
important that we get those important seats on the Commission 
filled. So thank you for your willingness to serve. And to your 
families who are here today, too, their willingness to serve 
and sacrifice as well because we all know how all these 
positions are very much family efforts. So thank you.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker [presiding]. Thank you. We'll now move to an 
eight-minute rule.
    [Laughter.]
    Senator Wicker. And you enjoy yourself at that other 
meeting.
    Let me drill down on a specific issue, and then I'll back 
up and ask a more general one.
    To all of you, thank you for meeting with me in my office. 
And I have a really good feeling that we're going to be able to 
work together in a bipartisan manner. But let me ask about the 
contact lens rule.
    And I guess I'll just start with you, Mr. Simons. Where are 
we on that? As I understand it, the optometrists have always 
followed a rule that you write the prescription, and, of 
course, they're willing to fill it themselves, but also they 
write out the prescription, always give it to the patient or 
consumer, and it's up to the consumer to decide where to get 
that prescription filled. Now there's a new rule, which some of 
our providers think is a solution in search of a problem, that 
the patient must now sign that they got the prescription and 
putting the provider in a position of being a recordkeeper for 
several years.
    So where are we on that rule? And without asking any of you 
to say how you would rule on that, what is your general feeling 
about taking into consideration the fact that we already have a 
rule that's working pretty well, and that this would put an 
administrative burden on people who are just trying to provide 
services?
    So I'll start with you, Mr. Simons.
    Mr. Simons. Thank you, Senator. So the rule revision is 
under consideration, under active consideration, at the 
Commission. I believe the Commission has scheduled, I think in 
March, another session to collect more information that will 
help it in its decisionmaking process. So I don't want to 
prejudge the result of that, but I have to say that, you know, 
if it ain't broke, don't fix it, if it turns out those are the 
facts.
    Senator Wicker. Anyone else want to comment? I know we did 
talk about this.
    Ms. Wilson.
    Ms. Wilson. I would agree with Mr. Simons, Senator.
    Senator Wicker. OK. Does anybody else want to add?
    Mr. Chopra. I think we need to be very attentive to 
imposing requirements and burdens on our smallest entities, 
especially if they don't have economies of scale. So, as we 
discussed, Senator, I will probe on some of the assumptions 
around this and hope to make sure that we get a good solution 
here.
    Senator Wicker. OK. Now, Ms. Wilson, you mentioned, and I 
was tickled to hear it, that we want to protect consumers, 
including preserving competition, in health care markets. Wow, 
if we could make some progress in this Committee or in this 
Senate or in this Congress on that issue, we would be doing a 
lot to help the American public.
    Let me ask in particular, I hear concerns about the PBM 
transparency, pharmacy benefit managers, and I know the public 
doesn't understand it, but it is a source of huge frustration 
to many. Given the continued consolidation and growing 
negotiation leverage that PBMs have, what role should 
transparency play to enhance competition and consumer 
protection?
    Ms. Wilson. To go back to what Senator Capito said about 
me, I am a firm believer in free markets and robust 
competition. You need to have full information and transparency 
in order to achieve efficiently functioning markets. And so 
without speaking particularly with respect to PBMs, more 
information makes the market function more efficiently.
    With respect to PBM consolidation, I would concur with Mr. 
Simons that, if confirmed, it will be important to do merger 
retrospectives to determine whether the antitrust agencies have 
achieved the right balance in terms of permitting mergers that 
would allow innovation and economies of scale while at the same 
time blocking mergers or requiring remedies where they might 
otherwise cause harm to competition.
    Senator Wicker. Well, you know, in a larger sense, there is 
just a lot of frustration with the pharmacists that have to 
comply with these rules, often having to do things 
retroactively to rectify problems that they didn't know about.
    My time is up. Let me just say I'm glad to see at least 
three of you, and possibly all of you, talk about 
bipartisanship and the great tradition we have in this 
Commission of not lining up 3 to 2 on so many issues as we've 
seen elsewhere. So let me say that I heartily endorse that kind 
of sentiment coming from a bipartisan panel today, and I hope 
that tradition can continue to provide examples for future 
boards and future candidates to talk about in a positive manner 
in the future. So thank you very much.
    And thank you, Madam Chair.
    Senator Capito [presiding]. Thank you.
    There has been a request for a break of 5 minutes, which we 
have agreed to. So we're going to break for 5 minutes, and I'm 
pretty strict on time. So it's 11:07. We're going to start back 
at 11:12 promptly. Please--thank you. At the call of the Chair.
    [Recess.]
    Senator Capito. Thank you all for that. I will report it is 
11:13. Pretty good for Senate time.
    I would like to now call on Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you. You were just as good Sister 
Superior at the Immaculate Conception Grammar School. You got 
that whole break in perfectly.
    Net neutrality. In December, Federal Trade Commission 
Commissioner McSweeney wrote, quote, ``Scrapping the FCC's net 
neutrality rules will harm consumers and content creators, and 
the Federal Trade Commission isn't going to be able to stop it. 
The Federal Trade Commission does not have specialized 
expertise in telecommunications. We don't have engineers or 
technical expertise in data network management practices. These 
are very real and significant limits to the effectiveness of 
the Federal Trade Commission's tools in ensuring that networks 
are open and free of harmful discrimination.''
    Mr. Chopra, do you agree with Commissioner McSweeney?
    Mr. Chopra. I share a lot of the skepticism and concerns. I 
would also add that given ongoing litigation and rulings in the 
Ninth Circuit, the FTC may face an unlevel playing field where 
some major market participants are exempt from the Commission's 
authority while others are subject to it.
    Senator Markey. Mr. Simons, do you agree with Mr. 
McSweeney?
    Mr. Simons. Thank you, Senator. My view is that the FTC, if 
it gets back its authority in the internet space, is going to 
be a vigorous enforcer. We're going to take the statutory 
authority that we have and use it as best we can. I don't know 
exactly what types of anticompetitive or deceptive and unfair 
practices may come up. If those come up, we can reach them 
under our statute. If something comes up that we can't reach 
under our statute, then I would certainly come to you and the 
Committee and talk to you about a legislative fix.
    Senator Markey. Well, the Federal Trade Commission lacks 
rulemaking authority, and the Federal Communications Commission 
does have rulemaking authority to prevent blocking, throttling, 
and paid prioritization by ISPs. You do agree with that?
    Mr. Simons. We both have rulemaking, and they're different 
types of rulemaking.
    Senator Markey. But in terms of being able to deal with 
those issues of throttling, paid prioritization, and blocking, 
you do not have that authority.
    Mr. Simons. I want to talk to the General Counsel's office 
before I give a specific answer to that. I'm not entirely 
clear.
    Senator Markey. OK. Well----
    Mr. Simons. Because--and in terms of--Senator, in terms 
of--and----
    Senator Markey. Just let me move on.
    Mr. Simons. OK.
    Senator Markey. I just want to reach a second----
    Mr. Simons. Sure.
    Senator Markey.--subject. And I will just say it does lack 
the authority.
    On kids' privacy, there is a growing body of evidence from 
child development experts as well as former industry executives 
that technologies are being purposefully made to be addictive. 
And here's the goal of all these companies, it's like the 
tobacco industry, you've got to get them early because then 
they might be your lifetime customers, so you've got to get 
them at 11, at 12, at 13, at 14, get them hooked, make it 
addictive, and then you've got them for the rest of their 
lives.
    Under the Commission's Child Online Privacy Protection Act 
mandate, which I am the author of in 1999, what will you do to 
ensure that child-directed applications and the parent consent 
processes are fashioned in ways that really protect privacy and 
ensure that parents can make informed decisions about their 
kids, and that includes investigations into data practices, 
enabling profiling and targeting across devices, applications, 
and services?
    Mr. Chopra.
    Mr. Chopra. Well, I agree that those laws first need to be 
vigorously enforced. And, second, we've seen the market develop 
so quickly in ways that parents and our whole society could not 
see coming and the amount of data being collected on our 
children continues to increase. I think we need to be very 
vigilant and come back to you especially if we feel we don't 
have adequate authorities to address this.
    Senator Markey. Will you each commit to an active pro-child 
privacy protection policy at the Federal Trade Commission 
during your tenure if you are confirmed?
    Mr. Simons.
    Mr. Simons. Yes, absolutely.
    Senator Markey. Ms. Wilson.
    Ms. Wilson. Senator, I thank you for your leadership on 
COPPA, and I agree.
    Senator Markey. Great.
    Mr. Phillips.
    Mr. Phillips. If confirmed, absolutely.
    Senator Markey. If confirmed. Thank you.
    I just think that's going to be the cutting-edge set of 
issues. It's time for these industries to come under scrutiny, 
to be made accountable for what they are doing. I mean, the 
public health implications of this now epidemic addiction 
amongst young people, especially in the minority community, 
much higher interestingly, than in other communities, is 
something that we have to pay much closer attention to.
    Thank you, Madam Chair.
    Senator Capito. Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you.
    And I want to thank Senator Cortez Masto for allowing me to 
go before her.
    We had very good meetings. Thank you, all of you. And I 
appreciate as well your bipartisan work; that means a lot given 
how important these issues are.
    And I have three issues, and you can maybe pick who answers 
them. The first is on the pay-for-delay issue. And I see former 
Chair Leibowitz out there somewhere, something he had worked on 
at length. We have had some court cases that changed this, but, 
as you know, pharmaceutical prices have continued to increase. 
Senator Grassley and I have a bill that basically says that you 
can't make these deals to keep generics off the market. And I 
just would like to get someone's thoughts on that and the 
important role the FTC plays.
    Mr. Phillips.
    Mr. Phillips. Senator, thank you for your question. As a 
Judiciary Committee staffer, I am well aware of yours and 
Senator Grassley's interest in the issue. The President called 
a few weeks ago for a focus on the cost of prescription drugs. 
That is an issue that hits all Americans, myself included, in 
the pocketbook every day, maybe every other day if we're a 
little bit healthier than I probably am right now.
    The FTC has a long bipartisan tradition of policing 
anticompetitive conduct in prescription markets. And if 
confirmed, I look forward to working with my fellow 
Commissioners, career staff, with you, on continuing that.
    Senator Klobuchar. OK. Thank you.
    The second question, the cyber attack against Equifax 
exposed the personal information of more than 145 million 
Americans, essentially anyone that has a credit history. And I 
recently sent a letter urging the FTC to broaden its 
investigation of the Equifax data breach in response to reports 
indicating that the Director of the Office of Management and 
Budget had directed Consumer Financial Protection Bureau 
investigators to pull back from their investigation.
    Mr. Simons, what is the FTC's role in conducting this 
investigation? And are you committed to advancing it?
    Mr. Simons. So, Senator, I don't want to prejudge any 
existing matter except to say that on any major issue, 
certainly any major issue involving data breaches, I would 
expect the Commission to be all over it, providing and using 
the necessary resources and just being very vigorous.
    Senator Klobuchar. OK. Thank you.
    Then my third and final area is antitrust. I am the Ranking 
along with Senator Lee, who chairs the Antitrust Subcommittee 
in Judiciary. And last fall I introduced the Merger Enforcement 
Improvement Act as well as the Consolidation Prevention and 
Competition Promotion Act to enhance the ability of antitrust 
agencies to conduct enforcement in the current wave of 
consolidation. And ensuring that the agencies have the 
financial and legal resources to protect competition I believe 
is more important than ever as these deals become more 
sophisticated as you see this kind of takeover of certain 
areas, and especially what you're seeing right now in the 
bills.
    As you know, one is focused on getting more resources by 
having a fee on some of the megamergers, something that I hope 
is not that controversial, so taxpayers aren't footing the bill 
here for these complex reviews from the FTC as well as 
antitrust in Justice. And then the second one is more focused 
on acknowledging the changes we've seen and looking at 
monopsonies and other things.
    So, Mr. Chopra, in the current economic climate, should 
merger enforcement be a priority for the FTC in the near to 
medium future? And why? And what can we do to bolster merger 
enforcement?
    Mr. Chopra. Well, of course, as I shared earlier, we face 
issues with barriers to entry in so many industries with small 
business starts at a low.
    One of the observations I have about the Commission and 
government agencies in general is that it's not so easy to 
adapt its personnel and workforce to changing market 
conditions. The interest rate environment and what the markets 
tell us is that these deals will be robust, they will be big, 
and whether the Commission has adequate resources and 
flexibility to vigorously police in a timely fashion, I think 
that's an open question for me, and I would like to work 
further on that with you.
    Senator Klobuchar. OK. Thank you.
    And, Ms. Wilson, I promise to send you a question on the 
record because I'm going to give it over to Catherine Cortez 
Masto because she was so kind. So thank you.
    Senator Capito. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you very much.
    Senator Capito. You're welcome.
    Senator Cortez Masto. A pleasure to meet some of you and 
talk with you. And I know I've got some future meetings.
    Welcome to all of the family members. All of you have been 
patient, although fidgeting a little I see over here, compared 
to the young kids over there.
    [Laughter.]
    Senator Cortez Masto. But welcome, welcome. And we're 
almost done.
    So let me start with a couple of questions just for all of 
you if you don't mind answering just in a short answer. Can I 
get your commitment to be an active consumer protection agency, 
including on marketing practices and data security and privacy?
    Mr. Simons, I'll start with you.
    Mr. Simons. That's an easy yes, Senator.
    Ms. Wilson. Absolutely yes, Senator.
    Mr. Phillips. Absolutely, Senator.
    Mr. Chopra. Yes. And I would add the Commission also needs 
to be a key partner with attorneys general and others on this.
    Senator Cortez Masto. Good. That was another follow-up 
question I had for you. Thank you.
    What do you envision is the most contentious and difficult 
set of consumer protections coming before you if you are 
confirmed?
    Mr. Simons, I'll start with you.
    Mr. Simons. I think it's how we handle the data breaches. 
They're becoming, you know, much more significant, much more 
frequent, and I think that's a real, real, real serious concern 
for us and that we need to pay close attention to it.
    Senator Cortez Masto. Thank you.
    Ms. Wilson. I would agree with Mr. Simons. When I was at 
the Commission in the early 2000s with Chairman Muris, we spent 
a great deal of time working on data security and consumer 
privacy issues. And I foresee the same, frankly, in the coming 
years, if confirmed.
    Senator Cortez Masto. Thank you.
    Mr. Phillips. I agree with my colleagues, Senator. I would 
add, though, we can't allow contentious issues to distract us 
from the bread and butter of the agency on the consumer 
protection side, looking out for children, veterans, the 
elderly, and Americans generally.
    Senator Cortez Masto. Thank you.
    Mr. Chopra. I would agree on the issues related to big 
data. I would also add that it implicates the consumer 
protection mission as well as the competition and privacy 
missions, and it needs to be very high on the list, if not the 
highest. And the data breach at Equifax also underscores how 
the Fair Credit Reporting Act and oversight of the credit 
reporting agencies needs to be paramount.
    Senator Cortez Masto. Thank you. And then let's talk about 
interaction with states. How do you envision your interaction 
with the states and the attorneys general on matters that you 
have similar when it comes to unfair and deceptive trade 
practices and competition?
    And I'll start with Mr. Simons.
    Mr. Simons. Very close working relationship. I think 
they're critical to us using our assets most efficiently and 
them using their assets most efficiently. So I'm very much in 
favor of a very close working relationship.
    Senator Cortez Masto. Thank you.
    Ms. Wilson. Senator, not surprisingly, I agree with Mr. 
Simons. I think it is very important to have a close 
relationship with the state attorneys general, who can be, in 
many instances, more familiar with the facts on the ground.
    Mr. Phillips. Senator, I agree with all of that. As you 
know well, state attorneys general can be a force multiplier 
for the FTC. They also are closer to the ground and may 
understand issues and how they're impacting consumers better 
than we do. We need to continue those relationships. I would 
only add that we also need to work collaboratively with other 
parts of the Federal Government because there are some areas 
where we may not have expertise, but those other parts do.
    Senator Cortez Masto. OK.
    Mr. Chopra. Senator, as you know, I've worked very 
frequently with the attorneys general on enforcement matters 
over the years, and I would also like to see us go beyond the 
attorneys general to other state officials who have unique 
expertise and authorities because that can be a different 
leverage point to make sure that taxpayer resources are being 
used effectively.
    Senator Cortez Masto. OK. And then how do you see the FTC 
continuing to work with the Consumer Financial Protection 
Bureau to take action against companies that intentionally 
mislead auto buyers, students, and elderly homeowners?
    Mr. Chopra. Well, Senator, I'll start----
    Senator Cortez Masto. Lead off, and then I'll ask all of 
you.
    Mr. Chopra. The CFPB and the FTC have an existing 
memorandum of understanding to coordinate enforcement matters 
as well as other tools in its toolbox. I think it's going to be 
especially critical to coordinate with the CFPB on those 
specific special population issues as well as areas where there 
is co-extensive jurisdiction, including the Fair Credit 
Reporting Act, among other things.
    Senator Cortez Masto. And let me just ask Mr. Simons the 
same question.
    Mr. Simons. Yes, I agree with Mr. Chopra.
    Senator Cortez Masto. And then--this is great. To the 
extent that I've seen this communication, bipartisan, everybody 
working together, but let me ask you, Mr. Simons, if you are 
the Chair, how do you incorporate the board members in everyday 
decisionmaking and enforcement in moving forward?
    Mr. Simons. Yes. As far as I'm concerned, I would foresee 
this being ``Team FTC.'' We are very fortunate that all the 
nominees have significant expertise, and some of it is very 
complementary, and I would want to definitely make use of that.
    Senator Cortez Masto. OK. Thank you very much.
    Senator Capito. Thank you.
    Senator Cruz.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you very much.
    Congratulations to all four of the nominees. I spent 2 
years at the FTC in the early 2000s, and it is a wonderful 
institution with tremendously talented career professionals and 
with a terrific and longstanding tradition of really effective 
bipartisan cooperation, enforcing the antitrust laws, defending 
competition, and protecting consumers. And so I want to commend 
each of you for your willingness to serve.
    I'll note a number of you, we go back a long way.
    Mr. Phillips, we've worked together the last 5 years with 
you doing very good work with Senator Cornyn. It's been a 
pleasure working with you. Sorry to see you leave us, but 
you're going on to do good things.
    And, Mr. Simons, Ms. Wilson, we were all together with Tim 
Muris at the FTC, and it was a wonderful team. It was a 
pleasure working with the both of you each and every day for 
those 2 years. You both did, I think, an extraordinary job 
during your tenure there. And I think we were blessed to serve 
under Chairman Tim Muris, who was, quite frankly, 
extraordinary. I don't think there has been another Chairman 
before or since that had the scope and breadth and vision that 
Tim brought to that job every day.
    So a question I wanted to ask, especially the both of you, 
because you worked with Tim every day, is, What positive 
lessons did you learn from your tenure working under Chairman 
Muris? And how would you expect to implement those lessons 
going forward, should you be confirmed?
    Mr. Simons. Thank you, Senator. And let me just say I look 
very fondly back on those days, and that was clearly by far, by 
wide margin, the best job I ever had, and for all the reasons 
that you just described.
    So one of the things, one of the most important things, I 
learned from Chairman Muris was that it's important to have 
your priorities, to communicate them well so that the staff 
knows what's expected, what types of matters will turn into 
enforcement actions, and so the staff is busy and doing very 
productive things and have very high morale. That's an 
absolutely critical thing I think in terms of leading the FTC, 
and that's my intent, to follow that lead from Chairman Muris.
    Ms. Wilson. Thank you, Senator. I would echo Mr. Simons' 
comments. It was a pleasure to work with you and to get to know 
you then, and I've watched your career since then with great 
interest and support.
    In terms of the things that I learned from Chairman Muris, 
first of all, I would echo what Mr. Simons said. It is very 
important to have a positive agenda. If you go in without a 
positive agenda, you are reacting to external forces and you 
are losing an opportunity to shape policy and to make important 
progress, frankly, in the mission of the agency.
    Second, I would note, perhaps in a self-interested way, 
that Chairman Muris was very good at enlisting all of the 
Commissioners to help advance his positive agenda. I think it's 
important for Mr. Simons, if confirmed, to capitalize on the 
unique experiences and expertise that each of us bring to the 
table. And in the words of Mr. Phillips, that will be 
essentially a force multiplier for him and for the agency.
    And third, I would note that Chairman Muris was excellent 
at advancing competition advocacy. He ensured that the FTC was 
a voice for free markets and for minimal regulation to the 
extent feasible, while still protecting consumers, both at the 
Federal level and at the State level. You, as head of the 
Office of Policy and Planning, played a very important role in 
some of those initiatives. And what Acting Chairman Maureen 
Ohlhausen has been doing is also very important in terms of 
economic liberty and working with state AGs to understand the 
hindrance that licensing requirements can impose.
    And then taking that competition advocacy into the global 
arena as well.
    Tim was there when we launched the International 
Competition Network. Having the FTC and the Department of 
Justice together in a leadership role speaking into the 
international arena and supporting the sound enforcement of 
competition and consumer protection laws is critical for 
American consumers and also for American companies.
    Senator Cruz. Mr. Simons, what are your views on 
competition advocacy and the robust role the FTC has had in 
that in the past?
    Mr. Simons. I don't think I could do better justice to it 
than what Ms. Wilson just said. It's absolutely critical. It's 
had really tremendous effects historically. And I would expect 
that to continue into the future.
    Senator Cruz. Let me ask one final question, which is a 
number of members of this Committee are concerned about the 
scope and control of big tech.
    Mr. Simons. Yes.
    Senator Cruz. That the size and power of it is 
unprecedented. There was an article just recently in Esquire 
that pointed out that Facebook and Google together are worth 
$1.3 trillion, which you could merge the world's top five 
advertising agencies: WPP, Omnicom, Publicis, IPG, and Dentsu; 
the five major media companies Disney, Time Warner, 21st 
Century Fox, CBS, and Viacom; and add also the five major 
communications companies: AT&T, Verizon, Comcast, Charter, and 
Dish; and you'd only get to 90 percent of what Google and 
Facebook are worth. The scope of market power and size and 
control of public discourse is unprecedented. How should the 
Commission approach this development, which I find 
unprecedented?
    Mr. Simons. You know, it's a funny thing. It reminds me of 
when people used to--the old joke about when people would ask 
Jesse James why he robbed banks? It's because that's where the 
money is, right? And so with respect to antitrust, the 
corollary is the place most likely to have antitrust problems 
is places that have market power, right? And so those are the 
places you want to look the most, those are the places you want 
to make sure you're monitoring carefully and paying attention 
to, and if anticompetitive conduct is occurring there, that's 
where you get a big bang for the taxpayer's buck, by 
enforcement in those areas.
    Senator Cruz. Thank you.
    Senator Capito. Thank you.
    Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Chairman Capito, thank you very much. I 
appreciate the opportunity to have a conversation.
    And I appreciate all of you visiting with me in my office 
yesterday.
    I am also a member of the Appropriations Committee, which 
is responsible for the funding of the FTC. And as you are 
probably aware--and maybe I'll direct this at Mr. Simons--the 
FTC was allocated $313 million for FY17, and earlier this week, 
the White House revealed its 2019 budget included $309.7 
million for the FTC, which is about $3 million more than last 
year's budget request. As Congress attempts to appropriate the 
necessary resources for your agencies, what would you remind me 
to be prioritizing from your view?
    Mr. Simons. So one of the things obviously, if confirmed, 
that I would do relatively quickly is get a handle on the 
budget and what the resource allocation looks like and also 
reach out to the staff and make sure I understand where the 
Commission's money is being spent and how well it's being 
spent.
    In terms of the budgetary issues, you know, I don't know 
enough at this point to tell you that we need more or we could 
do okay with less. But, you know, my feeling at this point 
would be keep the ship steady.
    Senator Moran. To make sure I'm not stepping on toes, the 
Subcommittee that funds this is chaired by Senator Capito.
    Senator Capito. Yes.
    [Laughter.]
    Senator Moran. Let me--Mr.--Senator Blumenthal is here as 
well. He and I have recently submitted a letter to Acting 
Chairwoman Ohlhausen seeking an investigation into the 
deceptive and fraudulent practices that purport health plans 
increase their social media presence among real users while 
actually selling fake followers and interactions. I would ask 
unanimous consent to submit that letter that Senator Blumenthal 
and I sent to the Chairwoman.
    Senator Capito. Without objection.
    Senator Moran. Thank you.
    [The letter referred to follows:]

                                       United States Senate
                                   Washington. DC, January 30, 2018

Hon. Maureen Ohlhausen,
Acting Chairman,
Federal Trade Commission,
Washington, DC.

Dear Acting Chairman Townhouse:

    We write regarding the disturbing New York Times investigation over 
the weekend into Devurni, an American company that sells a panoply of 
social media actions, including followers, on some of the biggest 
social media websites, including Twitter and YouTube.\1\ The company 
bills itself as a marketing company that can help clients increase 
their social media presence. In reality, the company allegedly uses 
bots to create fake social media accounts--evidently deceiving its own 
clients and creating tens of thousands of victims of a unique kind of 
social identity theft. This company seems engaged in unfair or 
deceptive practices, and we urge you to use all the tools at your 
disposal to take immediate action to investigate this company, along 
with any other similar services, and shut down any fraudulent practices 
they are engaged in.
---------------------------------------------------------------------------
    \1\ https://www.nytimes.com/interactive/20l 8/0I/27/teclmology/
oscial-mcdia-bots.html
---------------------------------------------------------------------------
    Devumi's website--still live--offers any clients willing to pay a 
smorgasbord of social media influence: followers, retweets, and likes 
on Twitter; views, subscribers, likes, dislikes, and shares on Google's 
YouTube; plays, followers, likes, reposts, and comments on SoundCloud, 
the music-hosting site; followers, likes, and repins on Pinterest, the 
discovery and inspiration site; plays and followers on Vimeo; and 
followers and endorsements on LinkedIn, the professional networking 
site.
    The advertising on Devumi's website belies its reported practice of 
purchasing bots to generate fake social media accounts and 
interactions. For example, regarding its YouTube related services, 
Devumi advertises, ``100 percent Real Views from Real People.'' \2\ Yet 
this is clearly not the case. According to data analysis by The Times, 
Devumi operates from ``an estimated stock of at least 3.5 million 
automated accounts.'' Even worse, Devumi appears to be complicit in a 
massive social media identity theft operation. At least 55,000 of these 
accounts use ``the names, profile pictures, hometowns and other 
personal details of real Twitter users, including minors.''
---------------------------------------------------------------------------
    \2\ https://devumi.com/youtube-views/
---------------------------------------------------------------------------
    Devumi's fraudulent practices are likely linked to widespread 
consumer harms. The inflated number of followers, retweets, and the 
like enabled by Devumi's services have the effect of distorting the 
online marketplace and creating a false sense of celebrity, 
credibility, or importance in people, companies, or institutions that 
may not deserve it.
    As you know, Section 5 of the FTC Act (15 U.S.C. Sec. 45) provides 
the FTC authority to bring enforcement actions against deceptive or 
unfair marketing practices. We urge you to use this statutory auth01ity 
to investigate deceptive and unfair practices of these social media 
influencing services and take appropriate action. We respectfully 
request a response by February 14, 2018.
            Sincerely,

Jerry Moran
Chairman
Subcommittee on Consumer Protection, Product Safety, Insurance, and 
Data Security
Richard Blumenthal
Ranking Member
Subcommittee on Consumer Protection, Product Safety, Insurance, and 
Data Security

    Senator Moran. Section 5 of the FTC Act provides the agency 
enforcement authority to take action against deceptive or 
unfair marketing practices. And I feel strongly this practice 
needs to be investigated. What are some of the inherent 
consumer harms of allowing social media bots to be sold to 
individuals and companies? What kind of market distortions 
would you expect from this behavior? In other words, what's 
your take on the circumstances that, as reported in the press, 
of a young girl finding herself, her identity, being utilized 
in such a deceptive and damaging way?
    Mr. Chopra. Well, sales and marketing is often more 
effective with more trust, and the extent to which these 
practices are undermining trust and how consumers are 
communicating back and forth with firms, that's obviously 
something we need to be concerned about. Deception has some 
specific legal criteria, so I look forward to reviewing your 
letter more closely and seeing how we can address that.
    Senator Moran. We will make sure that the letter is 
provided to all of you.
    Anyone else? In the minute that I have remaining, I raise 
the topic that I raised with you in my office, and ask you 
again about the issue of bots. The legislation that was 
unanimously adopted designed to give our constituents access to 
quality tickets at face value, it's going to require 
enforcement, it's going to require, in my mind, someone being 
made an example of. And I wonder if any of you have reviewed 
the current actions of the FTC, have any suggestions about what 
can and should be done to make certain that the BOTS Act is 
enforced?
    Ms. Wilson.
    Ms. Wilson. I would say, Senator, that we are not yet privy 
to any nonpublic information, but we will, I am sure, if 
confirmed, agree on vigorously enforcing the law, following the 
facts where they lead, and making sure that violators face 
appropriate consequences.
    Senator Moran. Part of the opportunity I have in asking you 
questions today is to highlight at least this Senator's 
emphasis or priorities. And so while you may not be able to 
answer in detail the questions that I've asked you today, I 
hope that you take them as something that at least one member 
of this Committee thinks is valuable for you to pursue. And I 
thank you for your willingness to pursue public service, 
continue to pursue public service, and I look forward to your 
confirmations.
    Senator Capito. Senator Baldwin.

               STATEMENT OF HON. TAMMY BALDWIN, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Baldwin. Thank you, Madam Chair.
    Thank you all for your time this morning and 
congratulations on your nominations.
    I know that you have already been asked and each of you 
have answered questions relating to the Equifax breach as well 
as the priority that ought to be placed on data breaches in 
your work. I'm not going to re-ask those questions, but I want 
to use my prerogative to tell you that that is also a high 
priority of mine, and I was pleased to hear you all agree that 
this ought to be a high priority of the FTC and yours, if 
confirmed.
    I want to begin by asking you about travel rating websites. 
A number of my constituents and many other Americans have 
fallen prey to a tainted alcohol problem in Mexico. This has 
resulted in blackouts, reported robberies, sexual assaults, and 
deaths, over 140 to date that have been identified by some 
really excellent investigative journalism.
    Mexican authorities have failed to address this issue. And 
the current State Department protocol for warning American 
travelers of these dangers is not working. In the alternative, 
many victims have turned to travel rating websites, like 
TripAdvisor, to report their experiences and to warn others who 
might be traveling to those areas and resorts.
    Unfortunately, it has been reported that TripAdvisor has 
censored or taken down posts that detail these adverse 
experiences at these types of Mexican resorts. These actions 
are particularly concerning because TripAdvisor raises revenue 
through click-based advertising and hotel transactions, and so 
they might thus have an incentive to maximize positive reviews 
and minimize negative reports.
    In November, I wrote to the Federal Trade Commission urging 
the agency to review these practices. I'd like to ask each of 
you, will you commit to looking into this issue and the impacts 
of the conduct of these types of websites on consumers if you 
are confirmed?
    And why don't I start with you, Mr. Simons.
    Mr. Simons. Sure, Senator, I would be happy to.
    Senator Baldwin. OK.
    Ms. Wilson. Yes, I, too, would be happy to look into that, 
Senator.
    Mr. Phillips. Yes, Senator. It's scary enough to deal with 
those issues in-country. I can't imagine how your constituents 
must have felt in a foreign country dealing with those sorts of 
things.
    Mr. Chopra. Yes. And if I can add, there are many issues 
we've seen over the past decade and beyond where there's a 
clear mismatch in incentives between consumer and an 
intermediary. We saw that firsthand in the mortgage crisis, 
we've seen it in other markets, and you're right to raise it, 
and my answer is yes.
    Senator Baldwin. Thank you. In my minute remaining, Mr. 
Chopra, I know that you have already been asked specifically 
about the student debt relief scams by Senator Hassan. I want 
to just add, given your professional history of advocating for 
student borrowers, if you can talk a little bit more about the 
coordination and how important it is for the FTC to coordinate, 
for example, with the Department of Education and other 
agencies to respond to and pursue these reprehensible actors.
    Mr. Chopra. So there's no question that the FTC, the CFPB, 
and the Education Department have to tackle this together, 
along with state attorneys general. I would add, though, that 
when deploying these resources, we need to not just look at the 
symptom, but also the cause, and the cause of the proliferation 
of these scams is often due to subpar student loan servicing 
where borrowers are not given accurate information, they're 
deceived along the way, and we have to correct those 
fundamental problems. Otherwise, we will continue to see these 
scams go on and on and on.
    Senator Capito. Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Madam Chair.
    And I want to thank all of you for being here today. I 
appreciate it. We talked a little bit about this, Mr. Simons, 
when you were in my office yesterday I guess it was. But I want 
to kind of get all four of your opinions on it. And what it's 
about is concentration in the ag industry. And I know you guys 
don't deal with all of it. I think Justice deals with the 
commodities portion. But you do deal with fertilizer and 
chemicals, the way I understand it. And just for your 
reference, so you know, 80 percent of the beef in this country 
is basically the market is controlled by four companies, 60 
percent pork, 50 percent chicken, and that's not what I would 
call very capitalistic in my book, and it makes me want to dig 
Teddy Roosevelt up and bring him back to life.
    But, nonetheless, I want to know from each one of you if 
you think it's a problem, number one. And if you do think it's 
a problem, what can be done about it, if anything? Is the 
toothpaste out of the tube and we're just toast, or is this 
something we can actually do something about?
    So I'm going to start with you. John? Joe? Joseph?
    [Laughter.]
    Mr. Simons. Joe. Joe. Call me Joe.
    Senator Tester. John is a good name, too, but Joe is good.
    Mr. Simons. Yes, John is a really good name, too.
    Senator Tester. Yes.
    Mr. Simons. Exactly, yes.
    Senator Tester. So just go ahead and shoot, and if you 
think it's a problem, say, yes, and tell me what we can do 
about it.
    Mr. Simons. Well, so one of the things we talked about 
earlier on in the hearing today is doing a merger retrospective 
program to see if we have been too lax in our enforcement.
    Senator Tester. Mm-hmm.
    Mr. Simons. And so one of the areas we might focus on or 
probably would focus on would be the ag area. So in terms--so 
that----
    Senator Tester. So if you find out you're too lax, does the 
Syngenta-ChemChina situation, does it have some impacts on 
that?
    Mr. Simons. Yes, sure. Like any mergers that would come 
ahead, you know, in the future would be subject to--or not 
subject to, but would be--our analysis would be informed by the 
merger retrospective.
    Senator Tester. OK. But any mergers that's happened in the 
past, that's a done deal?
    Mr. Simons. Generally, that's generally the case.
    Senator Tester. OK.
    Mr. Simons. The other thing, too, is that not only could 
the current situation be a result of a consolidation, it could 
also be the result of anticompetitive unilateral practices, and 
we could look at those, too, and that if there were such cases, 
instances, of that, then what we would hopefully be able to do 
is to get an injunction, prohibit those anticompetitive 
practices, and maybe that would make the market more 
competitive going forward.
    Senator Tester. OK. Briefly, do you guys see it the same 
way?
    Go ahead.
    Ms. Wilson. Yes, I do, Senator.
    Senator Tester. OK.
    Mr. Phillips. Yes, Senator.
    Mr. Chopra. I would just add that the ability for people to 
sustain a livelihood in agriculture, making sure there are no 
illegal barriers to entry is critical.
    Senator Tester. Yes. Well, I would just tell you, and we 
talked about this a little bit, Joe, that my school, 40 kids in 
my graduating class, which isn't very big, it has been a long 
time ago now, 40 years ago, now the whole damn school has got 
40 kids in it. And we've seen that kind of depopulation across 
rural America.
    Now I want to ask you about another issue. And, by the way, 
I hope you're able to do that because I think when it comes to 
competition in the marketplace, whether it's selling it or 
whether it's the inputs you're putting on the crop, it is 
critically important. It will do away with family farm 
agriculture, and I'll tell you what, if family farm agriculture 
goes away, this country changes, and not for the better. That's 
just my two bits.
    I was sitting in a Homeland Security meeting the other day, 
it wasn't classified, and my phone rang, and I thought, gosh, 
it's a 202 number, I better take it, and it was a telemarketer. 
OK? And I guess I shouldn't have taken it, but it could have 
been something important, and it wasn't, it was a nuisance. And 
I think we have far too many of these, and we have failed in 
this regard. So how can we stop this garbage from going on? 
I've got to tell you, I mean, I don't ask them to call me, they 
call me. If I want to buy a hotel room, I'll call them. OK? So 
how do we stop this?
    Mr. Simons. Yes, Senator. I think the original Do Not Call 
rule was good at the initiation, but it has been overtaken by 
technological developments, and it doesn't work anymore, as we 
all experience. And so I think the answer is it's probably a 
technological solution. And I know that the FTC and the FCC are 
having conversations and working to explore that type of 
solution.
    Senator Tester. OK. Anybody else have any comments on that 
about some great ideas so when I get calls, it's from somebody 
that meant to call me and not just call a number?
    Mr. Simons. Well, there are software solutions that are 
effective to a certain degree. I haven't tried them myself----
    Senator Tester. But I'm 61. That doesn't----
    [Laughter.]
    Mr. Simons. Yes, well, do you have children?
    Senator Tester. Yes. I've got kids. My grandkids could 
probably handle it.
    Mr. Simons. Yes, there you go.
    [Laughter.]
    Senator Tester. Yes. Anybody else want to comment on the Do 
Not Call stuff?
    Mr. Phillips. Senator, I'll comment. I would associate 
myself with what Mr. Simons said. There's no question that this 
needs to be a priority for us.
    Senator Tester. OK, good. Right behind the ag competition.
    Mr. Phillips. Right behind that.
    [Laughter.]
    Senator Tester. OK. Thank you.
    Mr. Chopra. It's a priority, but I'm worried about the 
resources and tools to solve it. And I think if we need more, 
we need to come to you and ask for it.
    Senator Tester. Amen, brother. I mean, you guys have got a 
job to do. If you don't have the dough to do it, we can't hold 
you accountable. So please do.
    Thank you all very much.
    Thank you, Madam Chair.
    Senator Capito. Thank you all very much. I think that 
completes our first round. We're going to go to a brief second 
round. I had one additional question, and then Senator 
Blumenthal had several questions.
    So mine is more of an education for me in terms of what 
FTC's role would be. Senator Hassan mentioned the addictive 
quality of computer gaming on the young minds. And my region of 
the country has had enormous issues with opioid addiction and 
the crisis that we see just cascading across the country.
    So I guess my question, and I'm just sort of throwing this 
out there, does the FTC have a role in seeing that addiction 
is--which is considered a health issue--does addiction play 
into decisions that the Commission could or would make around 
certain products? And how do you see that? I don't know the 
answer, I'm just asking.
    So, Mr. Simons?
    Mr. Simons. Yes, so thank you, Senator. So this goes back a 
long way to dealing with the cigarette tobacco issues. 
Basically, you're talking about a population that is put in a 
very vulnerable situation where they potentially are misled 
about the product that they are buying and using, and then you 
have this addiction that attaches before they understand what's 
happened. And so that's a serious issue and something that 
sounds an unfairness.
    Mr. Chopra. I would just add that addiction can lead to the 
conditions for very serious scams and fraud. With respect to 
opioids, you may know of some issues related to body brokering 
where certain individuals receive kickbacks or payments to 
refer addicts to specific rehabilitation facilities. There are, 
of course, issues with the adequacy of rehabilitation 
facilities and the representations they make to consumers. So 
it implicates a number of our authorities, but to be 
responsive, I don't believe addiction appears anywhere in the 
statutes that the Commission enforces, but if I'm confirmed, 
it's something that I know we'll need to tackle.
    Senator Capito. Any other?
    Mr. Phillips. Senator, I agree with my colleagues. The only 
thing that I would add is addiction obviously creates fertile 
ground for folks to proffer solutions to consumers that are not 
really solutions, and that is an area that has long been a 
concern for the FTC. If confirmed, I commit to you to 
continuing that tradition, working with my colleagues and staff 
to focus on it.
    Senator Capito. Well, I appreciate that in terms of where 
we're going with funding for treatment and other recovery 
programs and other kinds of addiction issues particularly 
around the opioid crisis. As we know, when you load a lot of 
money into a program, it becomes more fertile ground for the 
types of things that you were talking about. So thank you very 
much.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Senator Capito, and thank 
you for that last question, which I think raises a profoundly 
important topic. You may or may not know, but as state attorney 
general, I actually sued one of the major opioid manufacturers 
in the country, it happens to be a Connecticut company, because 
of, in effect, misleading or deceptive advertising. We led the 
Federal Government in that effort. Eventually we were joined by 
the Department of Justice, and the ``we'' was in fact 
eventually state attorneys general who joined in my action.
    There is still ongoing, in my view, misleading and 
deceptive advertising surrounding powerful pain killers that 
can lead to opioid addiction and death as well as lasting 
damage to careers and lives and families. So I welcome your 
receptiveness, and I hope to work with, as a matter of fact, 
Senator Capito and you on ongoing solutions to this problem.
    I want to come back to the bread and butter of the FTC, the 
Ninth Circuit's decision in FTC v. AT&T Mobility. As all of you 
know, by virtue of your legal training, this decision enables 
companies to escape FTC authority and jurisdiction simply by 
purchasing a minor side business. It creates a major gap in 
your jurisdiction, ``your'' being the FTC's jurisdiction, 
providing a common carrier service, even if it engages in all 
kinds of unfair and deceptive practices with a gap regarding 
the rest of its business. In effect, it means that Verizon, by 
virtue of purchasing Yahoo!, Verizon being a common carrier, 
Yahoo! being an edge provider, can simply escape enforcement of 
privacy and all kinds of other policies.
    So I would like your commitment that you will continue the 
appeal of the Ninth Circuit's really misguided decision here. I 
led an amicus brief in support of a rehearing, and I hope that 
you will pursue an appeal vigorously to protect your 
jurisdiction and protect consumers.
    Mr. Simons.
    Mr. Simons. Thank you, Senator. I fully expect that the 
Ninth Circuit en banc is going to reverse the lower court. So 
I'm very hopeful about that. And let me just say more generally 
that I think it would be a great idea if we got rid of the 
common carrier exception from the FTC Act entirely.
    Senator Blumenthal. That was my next question, and I hope 
all of the future Commissioners will agree on that point as 
well as on the vigorous appeal of the Ninth Circuit's decision. 
I'm assuming by your nodding that you agree.
    Mr. Chopra. I would also add that bipartisan Commissions 
over many years as well as the ABA Antitrust Section and others 
have advocated for repeal of the common carrier exception, and 
that seems like a good way to ensure there's a level playing 
field.
    Senator Blumenthal. I want to ask, speaking of bipartisan, 
Mr. Simons, as the potential future Chair, you would agree, 
would you not, that the Commission should consist of five 
Commissioners, not just four, and that it should be bipartisan. 
Do you agree?
    Mr. Simons. I didn't turn my mic on. Yes, I agree, Senator.
    Senator Blumenthal. Mobile cramming. As you know, the 
unscrupulous practice of wireless carriers allowing third 
parties to add charges onto monthly bills without authorization 
by consumers, and in many cases, without consumers receiving 
anything in return for those charges. The FTC has brought 
numerous enforcement actions. The FCC has done as well. I hope 
that all of you would commit to continuing that vigorous 
enforcement. And again by the nodding, I will assume assent and 
agreement.
    I do want to ask a question about airlines. I understand 
it's not within your jurisdiction, but I am emboldened to ask 
this question actually by Senator Tester's reference to Teddy 
Roosevelt. You are not only legal enforcers, you also have a 
platform and a bully pulpit, and I hope that you will be 
consumer advocates when it comes to this industry as well.
    A number of years ago, I asked for the Department of 
Justice to investigate potential collusion among the airlines 
in pricing. The Department of Justice announced that it would 
do so. We have yet to hear what the results, if any, are going 
to be. But I think I am not overstating the sense of 
frustration among many consumers by saying that they really 
feel they need a bill of rights that is stronger than the legal 
rights they have now, and partly it is the result of 
consolidation and mergers within the industry. I have opposed 
many, if not all, of them. And I would like your commitment 
that you will take a vigorous and pro-consumer attitude toward 
airline practices even though it is not in your jurisdiction.
    Mr. Simons.
    Mr. Simons. So, Senator, I'm a little reluctant to do that 
just out of a courtesy to the people at the Antitrust Division. 
I'm reluctant to do it particularly now because I would like to 
have very good relationships with them and very good 
coordination with them, and I really don't want to start off on 
a bad foot.
    Senator Blumenthal. Well, their jurisdiction is over 
mergers and antitrust policies.
    Mr. Simons. Yes.
    Senator Blumenthal. Those mergers have already occurred----
    Mr. Simons. Right.
    Senator Blumenthal.--unfortunately, over objections from 
consumer advocates who foresaw that consolidation, where I 
think it's now 85 percent of the capacity, is concentrated in 
four airlines. Ms. Wilson will correct me if I'm wrong on this 
point. And by the way, this is not personal, I hope you 
understand. I have great respect for Delta and its many, many 
employees. And this is an industry issue. And I'm raising the 
consumer issues because they are within your purview.
    Mr. Simons. Well, if they're consumer issues within our 
purview, then it's appropriate for us to speak about it.
    Mr. Chopra. Senator, my understanding is that the 
Transportation Department enforces laws with respect to unfair 
and deceptive practices in air travel. That being said, I do 
think there's a role for economists and researchers at the FTC, 
particularly when doing cross-industry comparisons and 
analyses, to show how certain types of actions taken by the 
agencies and what their results were. Looking at those tools 
and those models I think informs a lot of what both agencies 
do, and vigorously communicating those results I think can be 
very helpful to policymakers while still respecting the 
jurisdictions of our other agencies.
    Senator Blumenthal. Thank you.
    Mr. Phillips, did you have----
    Mr. Phillips. Just one more thing to add, Senator. We have 
spoken a number of times in this hearing about our commitment 
to work with other Federal agencies when they have expertise 
over issues, and certainly that works both ways. If confirmed, 
at the FTC, I plan to make us a resource to those agencies on 
areas where we do have jurisdiction and do have expertise.
    Senator Blumenthal. I appreciate that comment.
    And, Mr. Chopra, I appreciate your comment as well as your 
longstanding professional involvement in consumer advocacy, 
which has been very impressive. But going beyond--and I'll just 
finish on this point--the FTC being a resource, I'd also like 
you to be a champion. I think there's a real opportunity here 
for this new populism that we see sweeping the country to be 
articulated and, in fact, enforced through your advocacy going 
beyond your narrow legal jurisdiction. I understand it may not 
be within that legal jurisdiction, but you have the bully 
pulpit, you can bring the zeal and passion to consumer issues 
that no one else will do at the Federal level. And I'll just 
close with that hope. And I look forward to working with all of 
you. Thank you.
    And I understand that there's a statement from the 
Congressional Antitrust Caucus that they wish to include. So 
I'll ask that be included for the record.
    Senator Capito. Without objection.
    Senator Blumenthal. Thank you.
    Senator Capito. Thank you.
    [The information referred to follows:]

  Prepared Statement of the Congressional Antitrust Caucus: Hon. Rick 
 Nolan, Co-Chair; Hon. Mark Pocan, Co-Chair; Hon. Ro Khanna, Co-Chair; 
  Hon. David N. Cicilline, Co-Chair; and Hon. Keith Ellison, Co-Chair
    Chairman Thune, Ranking Member Nelson, distinguished members of the 
Committee, thank you for the opportunity to submit a statement for the 
record for today's hearing on the nominations of Mr. Joseph Simons, of 
Virginia, Mr. Rohit Chopra of New York, Mr. Noah Joshua Phillips of 
Maryland, and Ms. Christine S. Wilson of Virginia, to be Federal Trade 
Commissioners.
    In 1914, Congress established the Federal Trade Commission to 
promote, develop, and protect antitrust law and competition policy.\1\ 
The Commission's independent, bipartisan structure and broad mandate to 
police ``unfair methods of competition'' reflected Congress' distrust 
of concentrated wealth, deep concern that existing law was inadequate 
to address rising economic concentration, and common belief that 
antitrust violations must be stopped before they gather momentum.\2\
---------------------------------------------------------------------------
    \1\ Humphrey's Ex'r v. United States, 295 U.S. 602, 625-26 (1935) 
(``[T]he language of the act, the legislative reports, and the general 
purposes of the legislation as reflected by the debates, all combine to 
demonstrate the congressional intent to create a body of experts who 
shall gain experience by length of service; a body which shall be 
independent of executive authority, except in its selection, and free 
to exercise its judgment without the leave or hindrance of any other 
official or any department of the government.'').
    \2\ Marc Winerman, The Origins of the FTC: Concentration, 
Cooperation, Control, and Competition, 71 Antitrust L. J. 74, 88 
(2003), http://www.ftc.gov/sites/default/files/attachments/federal-
trade-commission-history/origins.pdf.
---------------------------------------------------------------------------
    We established the Congressional Antitrust Caucus out of 
recognition that this vision for preventing the concentration of 
economic power and protecting economic opportunity must be restored. 
For more than a century, Congress has routinely reformed and expanded 
the antitrust laws to reverse ``a rising tide of economic concentration 
in the American economy'' and to prevent the accumulation of economic 
and political power.\3\
---------------------------------------------------------------------------
    \3\ Brown Shoe Co. v. United States, 370 U.S. 294, 315 (1962) 
(``The dominant theme pervading congressional consideration of the 1950 
amendments was a fear of what was considered to be a rising tide of 
economic concentration in the American economy.''); Robert Pitofsky, 
The Political Content of Antitrust, 127 U. Pa. L. Rev. 1051 (1979).
---------------------------------------------------------------------------
    But today, economic power, wealth, and opportunity are becoming 
concentrated in fewer and fewer hands.\4\ There is mounting economic 
evidence that an overall decline in antitrust enforcement over the past 
several decades, coupled with wave after wave of mergers, has resulted 
in high levels of concentration in numerous industries with clear 
indicators of monopoly profits in key markets.\5\ The alarming result 
of growing consolidation throughout the U.S. economy is increased costs 
and fewer choices for consumers; wage stagnation and depression for 
workers; reduced private investment, innovation, and small business 
ownership, particularly among minorities; and diminished freedom and 
political agency due to the outsized influence of large 
corporations.\6\
---------------------------------------------------------------------------
    \4\ See, e.g., Barry C. Lynn, Cornered: The New Monopoly Capitalism 
and the Economics of Destruction (2011); John E. Kwoka, U.S. Antitrust 
and Competition Policy amid the New Merger Wave (July 2017), http://
cdn.equitablegrowth.org/wp-content/uploads/2017/07/25175
704/072717-kwoka-antitrust-report.pdf.
    \5\ Martin Gaynor, Kate Ho, Robert Town, The Industrial 
Organization of Health Care Markets, National Bureau of Economic 
Research (Jan. 2014), http://www.nber.org/papers/w19800.pdf; The 
American Antitrust Institute, A National Competition Policy 1, 4 (Sept. 
28, 2016), http://www.antitrustinstitute.org/sites/default/files/
AAINatlCompPolicy.pdf.
    \6\ See, e.g., Lina Khan & Sandeep Vaheesan, Market Power and 
Inequality: The Antitrust Counterrevolution and Its Discontents, 11 
Harvard Law & Policy Review 234 (2017); Marc Jarsulic et al., Reviving 
Antitrust: Why Our Economy Needs a Progressive Competition Policy, 
Center for American Progress 2 (June 2016); The American Antitrust 
Institute, A National Competition Policy 9 (Sept. 28, 2016); Joseph 
Stiglitz, Inequality and Economic Growth, The Political Quarterly (Dec. 
2015); Jason Furman, Beyond Antitrust: The Role of Competition Policy 
in Promoting Inclusive Growth, 6-7 (Sept. 16, 2016).
---------------------------------------------------------------------------
    We are in a monopoly moment. The Federal Trade Commission is on the 
front lines of reversing this trend. It must have every tool and 
resource necessary to reverse economic concentration and restore 
economic opportunity. Working Americans, small business owners, and 
innovators rely on the aggressive enforcement of the antitrust laws to 
prevent monopolists from squeezing them out and imperiling the American 
Dream.
    It is noteworthy that Mr. Simons, who has been designated as the 
incoming Chairman, agrees that the Commission must address concerns 
that it has been ``too permissive in dealing with mergers and 
acquisitions, resulting in harm to consumer welfare via increased 
prices, limited consumer choice, and harm to workers.'' \7\ We look 
forward to hearing how Mr. Simons plans to make this evaluation, what 
his plans for fixing this failure will be, and how he will work to 
improve the Commission's enforcement elsewhere. Most of all, we will 
hold Mr. Simons to his word to ``determine the reason for such failure 
and to fix it.'' \8\
---------------------------------------------------------------------------
    \7\ Nominations Hearing Before the S. Comm. on Commerce, Science, & 
Transportation, 115th Cong. 16 (2018) (response of Mr. Joe Simons, 
Chairman Designate, to question for the record), https://
www.commerce.senate.gov/public/_cache/files/6c4149af-3023-4825-90f1-
3c38e279fd0d/6A0CCF409AF89DC8D5C0A84CE8730012.confidential-simons-
committee-questionnaire-redacted
.pdf.
    \8\ Id.
---------------------------------------------------------------------------
    We plan to continue our work to ensure that the Commission has the 
tools and resources necessary to achieve its competition mission. With 
these concerns in mind, we respectfully request that Members of the 
Committee consider the following questions to the nominees:

  1.  A large body of evidence suggests that lax merger enforcement has 
        resulted in high levels of concentrations in numerous 
        industries with clear indicators of monopoly profits in key 
        markets.\9\ In 2016, for example, the White House Council of 
        Economic Advisers found evidence of rising concentration in 
        specific industries and across sectors of the economy. 
        Professor John E. Kwoka of Northeastern University concluded 
        last year that ``broad changes in merger control policy at the 
        Federal Trade Commission and the Antitrust Division at the U.S. 
        Department of Justice have contributed to these outcomes.'' 
        \10\ What do you believe are the causes of these trends, and 
        how should the Commission reverse them?
---------------------------------------------------------------------------
    \9\ See generally supra text accompanying notes 5 and 6.
    \10\ John E. Kwoka, U.S. Antitrust and Competition Policy amid the 
New Merger Wave 9 (July 2017), http://cdn.equitablegrowth.org/wp-
content/uploads/2017/07/25175704/072717-kwoka-antitrust-report.pdf.

  2.  Landmark cases like United States v. Microsoft underscore the 
        importance of effective monopolization enforcement in 
        protecting competition, consumers, and innovation. How should 
        the Commission reverse the decline in monopolization 
---------------------------------------------------------------------------
        enforcement in recent decades?

  3.  Recent economic literature shows that anticompetitive behavior in 
        the market for employment--such as monopsony power to set 
        wages, collusion among employers, and the use of non-compete 
        clauses in employment contracts--have created barriers to 
        employment, mobility, and financial security for working 
        Americans. For example, the White House Council of Economic 
        Advisers reported in 2016 that limited competition among firms 
        providing employment is a significant contributing factor to 
        wage depression.\11\ That same year, the antitrust agencies 
        issued joint guidance for human resource professionals to 
        promote competitive employment markets, which benefit employees 
        ``through higher wages, better benefits, or other terms of 
        employment.'' \12\ In your view, how may the Commission build 
        on this record to protect workers?
---------------------------------------------------------------------------
    \11\ Council of Economic Advisers, Labor Market Monopsony: Trends, 
Consequences, and Policy Response (Oct. 2016).
    \12\ Dep't of Justice, Federal Trade Comm'n, Antitrust Guidance for 
Human Resource Professionals (2016), https://www.justice.gov/atr/file/
903511/download.

  4.  A growing number of international competition authorities have 
        expressed concern that the concentrated control of consumers' 
        data may harm competition, innovation, and undermine consumers' 
        privacy online and offline. What is your view of the role of 
        data in antitrust enforcement? Do you believe that incumbent 
        firms with access to large swaths of consumer data discourage 
---------------------------------------------------------------------------
        investment and competition?

    Senator Capito. Well, given our hope to place these 
nominees on the Committee's next markup, the hearing record 
will remain open until Tuesday, February 20. During this time, 
Senators are asked to submit any questions for the record. Upon 
receipt, the witnesses are requested to submit their written 
answers to the Committee as soon as possible, but by no later 
than Monday, February 26.
    So with that, I would like to thank the witnesses for not 
just your dedication to public service, but your very open and 
honest answers. I think we all have a great deal of confidence 
that has been expressed both with you and I think here in terms 
of the Committee.
    So with that, I would say this hearing is now adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]

                            A P P E N D I X

                                                   November 3, 2017
Hon. John Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Re: Nomination of Joseph J. Simons as Chairman of the Federal Trade 
            Commission

Dear Senators Thune and Nelson:

    We write, in our individual capacities, as former Chairs (as well 
as the current Chair) of the Section of Antitrust Law of the American 
Bar Association. The Section is the largest and best known global 
organization of lawyers devoted to competition and consumer protection 
issues, and we have long been a leading proponent of the importance of 
competition and consumer protection enforcement to our free economy. We 
write today, irrespective of party affiliation, in support of the 
nomination of Joseph J. Simons to be the next Chairman of the Federal 
Trade Commission. Mr. Simons has demonstrated an extraordinarily deep 
understanding of the most important competition principles throughout 
his career, enhanced by his commitment to sound enforcement during his 
years in public service. We are convinced that he will be an 
outstanding Chairman of the Federal Trade Commission.
    Mr. Simons's record includes extensive scholarly work. His paper, 
co-authored with economist Barry Harris, entitled Focusing Market 
Definition: How Much Substitution is Necessary? 12 J. RES. L. & ECON. 
207 (1989), introduced the concept of ``critical loss,'' which has been 
central to merger analysis ever since. His many other publications and 
public presentations further confirm his status as a real scholar. But 
Mr. Simons also has strong practical understanding and capabilities, as 
he has demonstrated in handling many significant matters in his years 
in private practice. He even served, on nomination by the Justice 
Department, as the trustee of four wireless telephone businesses 
relating to the GTE/Bell Atlantic/Vodafone transaction.
    Mr. Simons's public service at the Federal Trade Commission 
deserves special mention. He started at the FTC's Bureau of Competition 
in the late 1980s as Associate Director for Mergers and then Assistant 
Director for Evaluation. In these positions, he supervised a number of 
significant merger and non-merger matters. He returned to the FTC from 
June 2001 until August 2003 as Director of the Bureau of Competition 
under Chairman Timothy Muris. There, his accomplishments were truly 
notable:

  v  Bringing significant cases challenging unilateral conduct as 
        unfair methods of competition in standard setting.

  v  Taking to trial the first reverse payments case, and aggressively 
        pursuing the FTC's ultimately successful campaign to limit the 
        use of reverse payments.

  v  Pursuing litigation and advocacy to prevent companies from harming 
        competition by abusing litigation.

  v  Challenging restraints on competition that had taken advantage of 
        unjustified state action immunity.

  v  Commencing a retrospective on hospital mergers and reviving the 
        FTC's efforts to prevent anticompetitive hospital mergers 
        despite years of losses under prior administrations.

  v  Bringing a case in the recorded music industry that resulted in an 
        important ruling for the FTC on horizontal restraints in the 
        Court of Appeals.

  v  Very importantly, insisting on rigorous economic analysis in all 
        antitrust investigations.

  v  And, significantly, managing a large staff effectively, 
        maintaining excellent morale, and implementing competition 
        policy in a nonpartisan manner.

    For all these reasons and more, we all support the nomination of 
Mr. Simons. We do so based on his demonstrated excellence in 
understanding the law and economics of competition and consumer 
protection issues; his practical experience in representing important 
businesses; and his truly outstanding record in public service. We urge 
the Committee and the full Senate to approve his confirmation at the 
earliest opportunity.
            Sincerely,

Jonathan M. Jacobson                 Harvey M. Applebaum
Chair, 2017-18                       Chair, 1980-81
 
James F. Rill                        Irving Scher
Chair, 1987-88                       Chair, 1988-89
 
Alan H. Silberman                    Caswell O. Hobbs
Chair, 1993-94                       Chair, 1994-95
 
John DeQ. Briggs                     Phillip A. Proger
Chair, 1995-96                       Chair 1998-99
 
Janet L. McDavid                     Ky P. Ewing, Jr.
Chair, 1999-2000                     Chair, 2000-01
Co-Chair IBA Antitrust 2017-18
 
Roxane C. Busey                      Robert T. Joseph
Chair, 2001-02                       Chair, 2002-03
 
Kevin E. Grady                       Richard J. Wallis
Chair, 2003-04                       Chair, 2004-05
 
Joseph Angland                       Kathryn M. Fenton
Chair, 2006-07                       Chair, 2007-08
 
James A. Wilson                      Ilene Knable Gotts
Chair, 2008-09                       Chair, 2009-10
 
Allan Van Fleet                      Richard M. Steuer
Chair, 2010-11                       Chair, 2011-12
 
Theodore Vorhees, Jr.                Christopher B. Hockett
Chair, 2012-13                       Chair, 2013-14
 
Howard Feller                        Roxann E. Henry
Chair, 2014-15                       Chair, 2015-16
 
William C. MacLeod
Chair, 2016-17
 

                                 ______
                                 
                         Entertainment Software Association
                                                  February 20, 2018

VIA ELECTRONIC MAIL
Hon. John Thune,
Chairman
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Re: Nomination Hearing for Federal Trade Commissioners (February 14, 
            2018)

Dear Chairman Thune and Ranking Member Nelson:

    Thank you for the opportunity to submit evidence into the record as 
part of the Committee's consideration of the Federal Trade Commissioner 
nominees.
    The Entertainment Software Association (ESA) represents the public 
affairs needs of companies that publish computer and video games in the 
United States for game consoles, handheld devices, personal computers, 
and the Internet. While our industry is well known for entertainment 
products that bring joy to millions of consumers, researchers have 
begun to tout the educational, mental health, and rehabilitative 
benefits that video games produce.\1\
---------------------------------------------------------------------------
    \1\ See Moleciifar Psychiahy, ``Playing Super Mario Induces 
Structural Brain Plasticity: Gray Matter Changes Resulting from 
Training with a Commercial Video Game'' (2014), link available at: 
https:/lwww.medscape.comlviewarticle/814050.
---------------------------------------------------------------------------
    The Federal Trade Commission (FTC) plays an important role in 
promoting consumer protection and has, on several occasions, lauded our 
industry's self-regulatory practices. These efforts date back to 1994, 
when our industry founded the Entertainment Software Rating Board 
(ESRB) to provide consumers--especially parents--with critical ratings 
information to guide purchasing decisions. When concerns about media 
marketing practices to children arose not long thereafter, the FTC 
conducted a series of regulatory reviews, spanning from 2000 to 2013. 
Having conducted eight such reviews, the FTC repeatedly reported that 
the ESRB ''continues to have the strongest self-regulatory code'' among 
the film, music, and video game industries.\2\ The ESRB has since 
expanded its ratings program from physical products to digital games 
and mobile apps.\3\ Among other things, the ESRB rating disclosures for 
digital games indicate whether a game includes the ability to identify 
a user's location, enables user-to-user communications, provides 
unrestricted Internet access, or allows digital goods to be 
purchased.\4\
---------------------------------------------------------------------------
    \2\ See FTC Repo11 to Congress, ``Marketing Violent Ente1tainment 
to Children'' (April 2009), available at: https://www.ftc.gov/sites/
default/files/documents/reports/marketing-violent-entertainment-
children-sixth-follow-review-industry-practices-motion-picture-music/
p9945IIviolent
entertainment.pdf.
    \3\ International Age Rating Coalition, available at: https://
www.globalratings.com/.
    \4\ See ESRB Ratings Guide, available at: http://www.esrb.org/
ratings/ratingsguide.aspx.
---------------------------------------------------------------------------
    During the questioning of the FTC nominees at the February 14 
hearing, Senator Maggie Hassan raised concerns over the continued 
efficacy of the industry's self-regulatory efforts. Relying in part on 
a proposal by the World Health Organization (WHO) to adopt ''gaming 
disorder'' as a diagnosable disorder,\5\ Senator Hassan maintained that 
in-game purchases, including so-called ``loot boxes,'' might lead to 
addictive behavior by children.
---------------------------------------------------------------------------
    \5\ It is worth noting that the WHO has not yet adopted ``gaming 
disorder'' as classification in its update to the International 
Classification of Diseases (ICD-11), which was recently released as a 
beta draft. See World Health Organization, ``Gaming Disorder'' (Jan. 
2018), available at: http://www.who.int/features/qa/gaming-disorder/
en/.
---------------------------------------------------------------------------
    Putting aside the fact that the WHO's proposed classification does 
not address in-game purchases, we would respectfully suggest that the 
significant weight of scientific evidence does not support the claim 
that video game play leads to addiction. In 2013, for example, the 
American Psychiatric Association (APA) declined to include a diagnosis 
for ``gaming disorder'' in its Diagnoshc and Statistical Manual of 
Mental Disorders,\6\ concluding that there was insufficient evidence to 
classify any level of video game play as a formal disorder. To date, 
the APA has not changed its determination. Furthermore, in 2016, a 
group of academic researchers criticized the WHO proposal for a lack of 
consensus of the symptoms that might lead to such a diagnosis and 
worried that it might stigmatize ordinary game play, leading to 
unwarranted public policy changes.\7\ More recent ly, thirty-six 
academic researchers warned against labeling video game play as 
addictive, ``given the gravity of diagnostic classification and its 
wider societal impact . . . and the low quality of the existing 
evidence base.'' Instead, these experts urged the medical community to 
focus on treating the ``underlying issues such as depressive mood or 
social anxiety first.'' \8\
---------------------------------------------------------------------------
    \6\ See Psychology Today, ``Internet Gaming Disorder in DSM-5: A 
Disorder for Fu1ther Study'' (July 18, 2014), availab/e at: https://
www.psychologytoday.com/blog/here-there-and-everywhere/201407/internet-
gaming-disorder-in-dsm-5.
    \7\ See ResearchGate, ``Scholars' Open Debate Paper on the World 
Health Organizatio n ICD-11 Gaming Disorder Proposal'' (Dec. 12, 2016), 
available at: https://www.researchgate.net/publication/
3l_l98_I_176_Scholars'_open_debate_paper_on_the_World_Health_Organizatio
n_ICD-11_
Gaming_Disorder_proposal.
    \8\ See PsyArXiv, ``A Weak Scientific Basis for Gaming Dis o rder: 
Let Us Err on the Side of Caution'' (Feb. 8, 2018), available at: 
https://psyarxiv.com/kc7r9.
---------------------------------------------------------------------------
    Our industry takes seriously its responsibility to keep consumers 
informed with comprehensive and essential ratings information and 
continually works to ensure that its practices meet consumer needs and 
expectations. We stand ready to work with this Committee to provide any 
additional information it might find helpful on this issue.
            Sincerely,
                                       Stanley Pierre-Louis
                         Senior Vice President and General Counsel,
                                    Entertainment Software Association.
                                 ______
                                 
                              American Coatings Association
                                  Washington, DC, February 26, 2018

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune, Ranking Member Nelson, and Honorable Members of 
            the Committee:

    I am writing to you on behalf of the members of the American 
Coatings Association (ACA) and the more than 250,000 employees in the 
paint and coatings industry, to urge your swift confirmation of the 
President's four nominees to the Federal Trade Commission (FTC): Mr. 
Joseph Simons, Mr. Rohit Chopra, Mr. Noah Joshua Phillips, and Ms. 
Christine S. Wilson.
    For some time now, the FTC has been operating with only two 
commissioners and this has severely hampered the agency's ability to 
carry out its work. These unprecedented vacancies have created 
obstacles to the ability of the agency to protect consumers from 
anticompetitive, deceptive, and unfair business practices while unduly 
burdening legitimate business activity. ACA has worked closely in the 
past with the Federal Trade Commission on developing industry-wide 
guidelines for the ever-evolving issues that impact our industry; 
however, more recently, the agency has moved away from the adoption of 
consistent industry-wide standards in favor of a case-by-case approach. 
It is clear to us that industry-wide guidelines provide certainty to 
industry members and are the most effective in protecting consumers 
from deceptive and unfair business practices. ACA believes that the 
agency will be better equipped to fulfill its mission of protecting 
consumers without unduly burdening legitimate business activity with a 
full slate of commissioners.
    It is for these reasons that ACA asks you to move forward swiftly 
with the approval of these nominees so that the FTC can get back to 
working on the important issues necessary to preserve a fair 
marketplace, for which they are charged.
    If you have any questions at all, please do not hesitate to contact 
me directly.
            Best regards,
                                        Heidi K. McAuliffe,
                                Vice President, Government Affairs.
                                 ______
                                 
                   Chris W. K. Fetzer, Dentons US LLP
Statement for the Record
    Jewelers of America is the national trade association for 
retailers, manufacturers, and suppliers serving the fine jewelry 
marketplace, with over 3,000 member firms representing over 50,000 
employees. Because almost all materials used to create finished jewelry 
products arrive at a U.S. manufacturer in rough and raw form, 
significant work is required by U.S. manufacturers to make saleable 
finished jewelry products. Under existing FTC standards, the point of 
origin of materials needed to manufacture a piece of jewelry is the 
only consideration when determining whether or not that piece of 
jewelry can be labeled ``Made in the USA.''
Question for the Record
    In determining whether jewelry manufactured in the U.S. can be 
labeled ``Made in the USA,'' the FTC uses the ``All or Virtually All'' 
standard. This standard is based solely on the point of origin of 
materials used in the jewelry. However, U.S. Customs and Border 
Protection uses the ``Substantial Transformation'' standard to make the 
same labeling determination, which is the standard used by other U.S. 
Federal agencies and foreign government agencies. Accordingly, if a 
jewelry firm in Massachusetts manufactures a piece of gold jewelry for 
a customer outside of the U.S., it must be labeled ``Made in the USA'' 
in all export and U.S. Customs documentation. This labeling requirement 
has international tax implications as well. An identical piece of gold 
jewelry shipped by the same U.S. manufacturer to a U.S. customer cannot 
be labeled ``Made in the USA'' based on FTC standards.
    What is the FTC's justification for imposing a standard on the U.S. 
jewelry industry that conflicts with standards used by other U.S. 
Federal agencies?
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             Joseph Simons
    Question 1. There are a growing number of voices calling for 
responsible Federal Trade Commission (FTC) reforms, including those 
detailed in the transition report of the American Bar Association. How 
do you view the following proposed reforms:
    Answer. While the FTC must couple its Civil Investigative Demands 
(CIDs) with ``resolutions'' describing the investigation, the FTC has 
made a practice of issuing general, non-specific resolutions that some 
view as too vague to justify its CIDs. This can lead to overly broad 
investigations that lack focus and increase costs and burdens on 
business. What are your views on adopting a more targeted use of CIDs?
    Answer. I am in favor of issuing resolutions that describe the 
investigation in as specific terms as are reasonably practical at the 
time of issuance.

    Question 1a. CIDs also require approval from only one Commissioner. 
What are your views on the FTC ensuring that all Commissioners are 
notified before a CID is issued, so that the Commissioners can raise 
objections or otherwise act as a check in the process?
    Answer. This suggestion is certainly worth considering, but does 
carry with it the possibility, or even likelihood, of substantially 
delaying investigations, which would need to be avoided.

    Question 1b. The FTC can avoid the formality of obtaining a CID in 
a non-merger matter by issuing ``Access Letters'' to companies instead, 
which are often substantially similar to CIDs in composition and 
burden. While these are ``voluntary'' requests for information, 
companies typically feel compelled to comply. What are your views on 
the FTC's use of ``Access Letters'' as a means of avoiding issuance of 
a CID for non-merger investigations?
    Answer. Access Letters can be a useful tool when used in the 
correct way. They should be generally used to obtain preliminary 
information useful to a determination of whether fuller investigation 
is appropriate. This approach can involve a lower burden on both FTC 
staff and the parties, and can be more efficient.

    Question 1c. Although the issuance of the CID is confidential, a 
company seeking to quash or modify a CID must do so publicly. This 
exposes the existence of the investigation, potentially leading to 
public scrutiny. Thus, companies may avoid challenging CIDs they view 
as unfair to avoid the possible reputational harm associated with 
publicizing an investigation. What are your views on a company's 
ability to seek to quash or modify a CID without such petitions being 
made immediately public?
    Answer. This is a suggestion I am willing to explore, if confirmed.

    Question 1d. The FTC has been criticized for seeking permanent 
injunctions in its consent decrees without demonstrating a ``cognizable 
danger of recurring violation.'' What are your views on the FTC 
obtaining permanent injunctions only where it can show ``some 
cognizable danger of recurring violation''?
    Answer. I understand the concern. But since the question here is 
limited to matters settled by consent, the situations involved are all 
negotiated agreements, and thus there would be no opportunity to make 
any kind of formal showing of the type suggested. However, the 
Commission must always be mindful that the remedy it agrees to in a 
consent order is appropriate.

    Question 1e. What are your views on the FTC adopting a more fact-
specific and tailored approach to the standard length of 20 years for 
consent decrees?
    Answer. If confirmed, I would like to consult with the career staff 
at the Commission as well as the other commissioners before coming to a 
view on this issue.

    Question 1f. What are your views on instituting a process to 
expedite reconsideration of consent decrees older than 10 years?
    Answer. I would be open to instituting such a process, but would 
like to confer with the staff at the Commission and my fellow 
commissioners.

    Question 1g. What are your views on the FTC's Bureau of Economics 
issuing routine public statements providing a highlevel description of 
its economic analysis and rationale for consumer protection enforcement 
actions?
    Answer. Public transparency regarding the methods used by the FTC 
is always helpful, but I believe the better approach is for the 
Commission itself to issue as much guidance as reasonably possible, 
which would combine inputs from both the Bureau of Economics and the 
Bureau of Consumer Protection.

    Question 2. Regardless of your answers to the above questions, 
would you support the FTC conducting a workshop with stakeholders to 
examine these and perhaps other potential reforms that results in a 
report with recommendations for action?
    Answer. Yes, I would support a workshop on at least some and 
perhaps all of these issues.

    Question 3. Where a merging party has filed for merger review under 
Hart-Scott-Rodino and has been unable to come to terms with the FTC, 
what are your views on the FTC voluntarily foregoing seeking a 
preliminary injunction and instead working with the merger parties to 
combine a preliminary injunction with a permanent injunction in Federal 
Court as has been recommended by the bipartisan Antitrust Modernization 
Commission?
    Answer. This sounds like a worthwhile approach, and if confirmed, I 
would be interested in examining it further.

    Question 4. Given the proliferation of competition enforcers in the 
world today and the fact that data privacy laws are actively being 
revised and enforced in foreign countries, what role should the FTC 
play in relation to its counterparts in foreign jurisdictions? 
Additionally, what are your views on how the FTC can be a better 
proponent for the U.S. approach to antitrust and privacy in foreign 
jurisdictions?
    Answer. The FTC has for many years worked in close partnership with 
the Department of Justice Antitrust Division in advocating for sound 
competition enforcement around the globe, and the FTC itself has been 
very active in international settings promoting strong but sensible 
privacy policies. Given the growing presence and significance of 
foreign authorities in these areas, such advocacy becomes even more 
important over time. The best tool here is constant and constructive 
engagement with foreign authorities, including partnering with other 
like-minded foreign authorities to emphasize the benefits of such an 
approach.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                             Joseph Simons
    Question 1. To the best of your knowledge, please describe the 
FTC's ongoing activities related to identifying counterfeit lenses 
produced by Asian manufacturers.
    Answer. I do not have access to non-public investigations that may 
be ongoing at the FTC, and I am not aware of any public investigations. 
But I am aware the Department of Justice has obtained a plea agreement 
from the owner of Candy Color Lenses, who was sentenced to significant 
jail time. This DOJ investigation is part of Operation Double Vision, a 
multiagency effort including FDA, U.S. Postal Inspection Service, and 
U.S. Immigration and Customs Enforcement.

    Question 2. To the best of your knowledge, please describe the 
FTC's interactions with the FDA related to post-market surveillance of 
contact lenses.
    Answer. Although FTC does coordinate with FDA on a variety of 
issues, I am not aware of FTC interacting with FDA on post-market 
surveillance of contact lenses.

    Question 3. To the best of your knowledge, what percentage of 
contact lens wearers in the United States have filed complaints with 
the FTC?
    Answer. I am not aware of what percentage of contact lens wearers 
in the U.S. have filed complaints with the FTC.

    Question 4. What other Class III medical devices does the FTC 
regulate through specific rules (i.e., pacemakers, implants, etc)?
    Answer. I am not aware of any.

    Question 5. Many online companies are engaging in targeted 
advertising. Using consumer data, companies can target what they deem 
to be the most relevant ads to consumers. Should there be more 
transparency into how the algorithms behind targeted advertising work 
so that consumers can see how they are being targeted for certain 
messages?
    Answer. I would be happy to look into this issue if confirmed.

    Question 6. Would third party audits of algorithms be a reasonable 
way to ensure the algorithms are doing what companies claim and not 
harming competition or consumer choice? Is this something the FTC might 
consider looking into?
    Answer. I would be willing to consider looking into this issue if 
confirmed.

    Question 7. In 2007, when asked about monitoring domination in the 
advertising intermediation market and its impact on competitiveness, 
the FTC indicated that it would ``carefully review'' any attempts to 
manipulate products to any one entity's advantage. However, a decade 
later we are seeing platform dominance that is allowing a single entity 
to shape what products consumers see--and by that matter--access. This 
may be a problem for consumers looking for short-term loans online. If 
confirmed, under your leadership, what would the FTC do to ensure 
consumer choice in the online lending markets?
    Answer. The FTC enjoys broad authority to protect consumers from 
unfair or deceptive acts or practices, as well as to protect markets 
from unfair methods of competition. The goal of both is to assure that 
consumers are treated fairly, and enjoy as much choice as freely 
competitive markets can provide. If confirmed, I will confer with staff 
and fellow commissioners regarding online markets, including platform 
dominance in order to get a sense for what needs to be done to keep 
these markets free and fair.

    Question 8. The Federal Trade Commission routinely reviews mergers 
between companies across a host of industries to help make sure that 
they do not adversely affect competition. This process can result in 
the Commission blocking a merger or approving it only if the parties 
agree to certain remedies to mitigate any potential anti-competitive 
effects. In this process, the Commission has the authority to pursue 
legal options to enforce a ruling, including administrative proceedings 
or pursuing an injunction in Federal court.
    I understand that for years standard practice was for the FTC to 
file for an injunction in addition to commencing an administrative 
proceeding under so-called ``Part 3'' of the FTC Act so that the party 
proposing the merger would have an early ``day in court'' the same way 
that it would if the merger investigation had been undertaken by the 
Department of Justice. I am aware of at least one case recently where 
this did not happen.
    If confirmed and a merger were to come up for a vote during your 
tenure and the majority of Commissioners decided the merger shouldn't 
proceed (at least not without remedies), would you commit to making 
sure that the FTC files for an injunction in Federal court, to make 
sure that the parties have the same chance to defend the merits of the 
deal in court as they would if the merger had been reviewed by the 
Department of Justice?
    Answer. It is important that as a nominee, and potential 
Commissioner, I do not prejudge any case or party, but I am happy to 
discuss the issue of merger enforcement generally. There are benefits 
to the Commission's administrative litigation path, including providing 
the Commission an opportunity to develop important questions of law. 
That being said, it should be used on the merits, and not to the 
disadvantage of any party, such as running out the clock. For example, 
if the FTC is denied a preliminary injunction in a merger matter, I do 
not believe the Commission should pursue that matter in administrative 
litigation.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                             Joseph Simons
    Question 1. How does your experience in antitrust prepare you to 
lead the FTC in determining cases related to data protection and 
privacy?
    Answer. I know the agency very well from two previous stints with 
the Commission, when I developed a reputation as a vigorous enforcer. I 
have every intention of maintaining that reputation with respect to 
both the FTC's competition and consumer protection missions. If 
confirmed, I will work diligently with the outstanding staff at the FTC 
to make sure the Commission continues to aggressively protect consumers 
from deceptive or unfair acts or practices, including with respect to 
privacy and data security.

    Question 2. Do you have any recommendations for stakeholders 
involved in the data breach debate that may help both industry and 
government entities find common ground on solutions?
    Answer. The FTC has a long tradition of inviting contribution and 
comment from stakeholders across industry, both inside and outside of 
government, when tackling the most difficult challenges confronting the 
agency. If confirmed, I will encourage all interested stakeholders to 
continue to participate and engage with the FTC as we study these 
issues and develop an enforcement agenda.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Jerry Moran to 
                             Joseph Simons
    Question. The Federal Trade Commission (FTC) brought an enforcement 
action in July 2014 against a secondary market ticket provider and some 
of its ``private label'' partners. In this particular case, the FTC 
found that the ``private label'' partners were misleading consumers to 
believe that they were actually buying tickets directly from the venue 
and directed the private labels to engage in more disclosure. In other 
words, the FTC was not troubled by the development of the ``private 
label'' markets, but instead with the deceptive acts of the private 
labels in this particular case. Do you read this case in the same way?
    Answer. As online markets continue to develop, the emergence of 
private labels, in and of itself, is not necessarily problematic. We 
have seen such private label arrangements in many industries for some 
time. However, to the extent that these private labels engage in 
deceptive or unfair conduct, I will commit to pursuing enforcement to 
protect consumers and ensure the integrity of online markets.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                             Joseph Simons
    Question 1. As a former Attorney General of Alaska, I always 
appreciated coordination with Federal agencies where appropriate, and 
the opportunity to communicate solutions that made the most sense for 
Alaskans. Given the importance of state attorneys general to the FTC's 
antitrust enforcement, please describe your views on the working 
relationship between the FTC and state attorneys general.
    Answer. A strong working relationship between the FTC and state 
attorneys general is critical to the FTC's ability to most efficiently 
and effectively fulfill its mission.

    Question 2. As you know, the state I represent is unique which 
means its problems are unique and require unconventional solutions. In 
a highly rural state like Alaska, many communities are not connected by 
roads, challenging weather conditions prohibit timely delivery of mail 
and other essential services, and quality connectivity is considered a 
luxury. One of your objectives at the Commission is consumer protection 
and education. How will you ensure that rural constituents like mine 
have the tools they need to make informed decisions and in cases of 
abuse that require follow up, for example data breaches or identity 
theft, the information necessary to mitigate risks and resolve the 
issue?
    Answer. The FTC has long committed itself to consumer education and 
engagement. I absolutely appreciate that this becomes more difficult 
for citizens in rural areas, and if confirmed, I will confer with 
staff, including those posted in our regional offices, and take a hard 
look at how the agency can assure that consumers of all regions and 
ways of life have access to the tools the FTC provides.

    Question 3. In your prepared statement, you discuss anticompetitive 
consolidation, which immediately called to mind the enormous market 
capitalization of tech companies. Recent calculations value the four 
largest tech companies' capitalization at $2.8 trillion, which is a 
staggering 24 percent of the S&P 500 Top 50, close to the value of 
every stock traded on the Nasdaq in 2001, and to give a different 
perspective, approximately the same amount as France's current GDP. 
Press reports have also noted allegations of increased anti-competitive 
behavior by some of these companies. Is there a point at which these 
companies are simply too big from an antitrust standpoint?
    Answer. Under the antitrust laws, big is neither necessarily bad, 
nor necessarily good. It can be good, it can be bad, and it can be both 
at the same time. Often, big companies get big by producing good 
products or services at low prices. If that is the case, the FTC should 
not interfere. If, however, companies get big--or, just as importantly, 
stay big--through anticompetitive conduct, then the FTC should 
intervene to stop such conduct and protect competition and consumer 
welfare.

    Question 4. As Chairman, is there a former FTC Chairman that you 
admire and believe set forth the right vision and policies at the FTC? 
Who and why?
    Answer. I have had the great fortune to learn from two former FTC 
Chairmen, Bob Pitofsky and Tim Muris. As a law student, I studied with 
Chairman Pitofsky at Georgetown University Law Center, played 
basketball with him in the weekly student faculty basketball games, and 
of course, observed his work as Chairman from outside the agency. With 
respect to Chairman Muris, I observed him from inside the agency as his 
Director of the Bureau of Competition. Both men exemplified the best of 
what an FTC Chairman should be--they demonstrated commitment to the 
agency's mission, the highest degree of skill in the law, and unmatched 
knowledge of how to successfully run the Commission. Each had his own 
approaches and priorities, but each approach was bipartisan at the 
core, required active, vigorous enforcement, and the maintenance of 
high staff morale.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Dean Heller to 
                             Joseph Simons
    Question. When Congress passed the Fairness to Contact Lens 
Consumers Act in 2003, it was a pro-consumer measure that ensured 
consumers automatically receive a copy of his or her prescription after 
an eye exam--without having to ask for it, pay an additional fee, or 
sign a waiver. Do you agree that consumers should receive copies of 
their prescriptions as Congress intended so that they can use the 
prescription to purchase their contact lenses from a source of their 
choosing?
    Answer. Yes.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim Inhofe to 
                             Joseph Simons
    Question 1. The Federal Trade Commission routinely reviews mergers 
between companies across a host of industries to determine any 
antitrust implications. This process can result in the Commission 
requiring certain remedies to mitigate any impacts the Commission 
believes the merger would have on competition in the marketplace. 
Furthermore, should the Commission deny a merger, the Commission has 
the authority to pursue legal options to enforce a ruling, including 
administrative and Federal district court proceedings. Legal 
proceedings, even when necessary, are costly, for both the Commission 
and the companies involved and can drag on for an extended period of 
time. Lengthy legal proceedings create uncertainty for the companies 
involved and in some cases result in a merger being blocked not on its 
individual merits but because the clock ran out on the proposed merger.
    As a Commissioner, you will have a role in determining any and all 
potential legal proceedings that would result from a decision by the 
Commission. Do you believe that legal proceedings should focus on the 
merits of the matter before the Commission?
    Answer. Yes.

    Question 2. Furthermore, what policies or procedures do you believe 
the Commission can implement to ensure legal proceedings focus on the 
merits of the matter and are not used to ``run out the clock'' on a 
merger?
    Answer. If the Director of the Bureau of Competition is properly 
supervising the career staff, this should not happen. And in any event, 
the Chairman should ensure that running out the clock does not occur. 
If confirmed, I will make sure this does not happen, and would 
encourage parties to notify me if they believe it is occuring.

    Question 3. If a party to a matter before the Commission believes 
legal proceedings are being used to ``run out the clock'' on a merger, 
what remedies can be used by that party to address this issue?
    Answer. First, notify the Director of the Bureau of Competition, 
and if not successful, the Chairman.

    Question 4. In a more general sense, how can the FTC work to ensure 
its merger reviews are resolved in a timely manner and that its merger 
investigation process takes into consideration both short and long term 
impacts to industries and consumers?
    Answer. If confirmed, I intend to conduct a review of the merger 
investigation process. Merger investigations are now averaging close to 
12 months, up from 6 months or so just a half-decade ago. The 
Commission should reform the process to push back the length of 
investigations closer to the six month level. The current status is bad 
for competition, bad for the acquired company and bad for the FTC. It 
keeps target companies in limbo for too long, increasing uncertainty 
and causing loss of customers and employees--both of which are bad for 
competition. With respect to the FTC itself, the current length of 
investigations essentially dilutes the Commission's resources. If time 
for investigations were reduced to six months, the Commission would be 
able to handle roughly twice as many merger investigations or use the 
freed-up resources for more non-merger enforcement.

    Question 5. The Federal Trade Commission plays a key role in 
investigating consumer complaints and has a number of tools at its 
disposal to promote fair competition in the market place. These tools 
range from educational efforts to imposing overly burdensome rules.
    When considering how to respond to consumer complaints, do you 
believe the Commission has the guidelines or internal metrics necessary 
to determine an acceptable threshold for the increased costs associated 
with its rule makings or other remedial actions?
    Answer. Yes. The FTC has a large staff of Ph.D. economists capable 
of economic analysis along these lines.

    Question 6. Should the Commission be required to consider less 
burdensome alternative options in certain circumstances, such as when 
the total number of complaints is a very small percentage of business 
transactions?
    Answer. In general, the Commission should strive to minimize 
burdens to the extent this does not materially diminish its enforcement 
efforts. While the agency should focus its enforcement resources on 
matters involving substantial harm to competition and consumers, the 
number of complaints is not always a useful metric in determining 
whether unfair or deceptive acts or practices are occurring.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Joseph Simons
    Question 1. The FTC is a relatively small agency that has to 
effectively use its resources to cover a very broad jurisdiction. In 
this regard, as a matter of discretion, it may be wise for the FTC to 
pursue enforcement cases involving practices that result in substantial 
harm. However, substantial harm is not a legal requirement under 
section five of the FTC Act--cases involving deception do not require 
harm at all, and cases involving unfairness can involve harm that is 
prospective and/or non-financial. Consequently, it is very important 
that commissioners do not stringently require types of harm as a legal 
test for agency enforcement actions. This principle is particularly 
important because Lab MD is challenging the FTC's legal authority to 
bring enforcement actions for data breaches based on the lack of 
requisite harm. As a commissioner, will you pledge to not require 
substantial harm or financial harm as legal tests for FTC enforcement 
actions?
    Answer. If confirmed, I commit to pursue bipartisan efforts to 
bring enforcement actions for both unfair or deceptive acts or 
practices. I anticipate that actionable harms will include financial 
harms, as well as non-financial ones, and look forward to working with 
fellow commissioners to further define the outer parameters of what 
constitutes harm under the FTC Act, including for data breaches.

    Question 2. The FTC's Bureau of Economics provides valuable insight 
and analysis that supplements the FTC's work. However, the FTC is, 
first and foremost, a law enforcement agency, not a regulatory agency. 
As such, economic analysis should play a complementary role, not a 
dispositive one. The FTC should enforce the FTC Act and the other laws 
under its jurisdiction according to legal doctrine, not economic 
analyses. As a commissioner, will you pledge to continue to further the 
FTC as a law enforcement agency in which the Bureau of Economics and 
economic analyses play a complimentary role, not a dispositive role? 
Will you pledge to enforce the law according to legal precedent?
    Answer. If confirmed, I commit that under my leadership the FTC 
will enforce the FTC Act as written and according to legal precedent. 
The FTC has a rich bipartisan tradition of including economic analysis 
as an important part of both competition and consumer protection 
matters, and I plan to use it to support vigorous enforcement in 
pursuit of both missions.

    Question 3. Piracy continues to be a problem that plagues content 
providers. The Internet is filled with websites that provide pirated 
content and entertainment at the expense of the companies that produce 
the content. Moreover, many of these websites can harm consumers with 
unsafe or even fraudulent data and commercial practices. What can the 
FTC do to crack down on the illegal piracy of American entertainment 
and content?
    Answer. There are several things the FTC can do. First, it can 
energetically enforce all laws that Congress has passed in order to 
address these concerns, including actions against spyware and malware 
offenses that often attend pirated material. Further, it can and must 
work with each of the many other Federal agencies empowered to police 
unsafe and fraudulent data and commercial practices. Additionally, the 
FTC can continue its long and successful tradition of business and 
consumer education and guidance, as well as policy advocacy, such as 
with workshops and resources provided through the FTC website.

    Question 4. Fraudulent websites can deceive consumers by 
masquerading as legitimate hotel websites. Consumers who are fooled by 
these sites reserve rooms that do not exist or turn out to be different 
from what they reserved online. According to industry statistics, this 
particular fraud affects millions of consumers a year and costs the 
hotel industry hundreds of millions of dollars. I wrote former FTC 
Chairwoman Edith Ramirez about this issue in June 2015. Will you pledge 
to ensure that the FTC will work with other law enforcement entities 
(such as state attorneys general) to bring enforcement actions against 
fraudulent hotel websites?
    Answer. Yes.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                             Joseph Simons
    Question. I was a cosponsor of the Better Online Ticket Sales 
(BOTS) Act that prohibits ticket scalpers from using bots and other 
online measures to deliberately circumvent security protocols that 
limit or restrict online ticket purchases. Enforcement action against 
bad actors in the ticketing market would help deter people from using 
bots.
    Mr. Simons, will you commit to looking at this issue and pursuing 
enforcement actions against bot users?
    Answer. Yes.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                             Joseph Simons
    Question 1. What experience do you have working with State 
Attorneys General? What are your views regarding the Commission working 
with state law enforcement?
    Answer. During my tenure as Director of the Bureau of Competition, 
the bureau worked closely with the states in merger and non-merger 
investigations. I intend to have the Commission continue that close 
working relationship between the states and the Commission's 
enforcement and policy bureaus.

    Question 2. In the Dodd-Frank Act of 2010, Congress gave the FTC 
extensive authority over the sale, servicing, and leasing of 
automobiles--charging it to protect consumers from abusive auto lending 
practices and granting it exclusive authority to draft rules governing 
unfair or deceptive acts or practices by automobile dealers.
    Would you support the FTC using its rulemaking authority to rein in 
unfair or deceptive acts or practices by automobile dealers?
    Answer. My general preference is to emphasize law enforcement 
actions against unfair or deceptive acts or practices, rather than 
enact rules that may be difficult and time-consuming to adopt, and 
which may at times inadvertently chill procompetitive or efficient 
conduct. However, I can commit to discussing with my fellow 
commissioners and FTC staff whether, in light of the FTC's experience 
and knowledge, the Commission should exercise its rulemaking authority 
or whether an increase in the Commission's law enforcement efforts are 
necessary and advisable.

    Question 3. More than 17 million Americans are the victims of 
identity theft every year. This problem seems to increase year over 
year as identity theft scams seem to get more sophisticated. Three 
years ago, the FTC established IdentityTheft.gov. This site is supposed 
to be a one-stop shop for victims of identity theft where they can 
easily freeze credit across the big three credit reporting agencies, 
and recover their stolen identities.
    This website's functionality is limited, however, because of what 
appears to be a lack of engagement by the credit bureaus to make the 
site what it should be.
    How would you engage with credit bureaus to ensure 
IdentityTheft.gov has a comprehensive suite of easy to use tools 
allowing victims of identity theft to recover as quickly as possible, 
with as little stress as possible? What are your expectations with 
respect to the role the credit reporting agencies should play in making 
IdentityTheft.gov an effective one-stop shop for identity theft 
victims?
    Answer. Protecting consumers from identity theft is crucial. I am 
not yet fully briefed on the limitations you note, but I will consult 
with the FTC's enforcement and technology staff to determine what 
improvements to IdentityTheft.gov are necessary. I expect that the 
active participation of all stakeholders--including reporting 
agencies--will be important, and thus I will confer with staff and my 
fellow commissioners about how we can continue with a collaborative 
approach to preventing and remedying identity theft into the future.

    Question 4. Would you support FTC's jurisdiction be expanded to 
include non-profits and charities so that it can act more swiftly to 
prevent and stop illegal conduct in the nonprofit sector?
    Answer. Yes.

    Question 5. Other Federal agencies charged with consumer protection 
make an array of data available on consumer complaints received. The 
FTC releases relatively very little data on companies receiving 
significant levels of complaints. Do you think the FTC should be more 
transparent about the complaints it receives?
    Answer. I think it is important that the Commission be as 
transparent as possible about its operations. However, publicly 
identifying companies who are the subject of unsolicited complaints to 
the FTC, in particular, raises issues of due process and fairness. I 
would like to better understand whether the Commission can balance the 
need for transparency with its law enforcement efforts aimed at illegal 
conduct.

    Question 6. The Consumer Financial Protection Bureau was created in 
response to the 2008 financial crisis and Great Recession after it 
became clear that our financial sector needed far more oversight to 
prevent a disaster of that magnitude from happening ever again. The 
current Administration seems intent on gutting this agency that serves 
a critical role in protecting Americans from irresponsible financial 
institutions. Of course, the CFPB and the FTC complement each other in 
their protection of consumers. How do you envision the FTC's role in 
holding financial institutions accountable?
    Answer. I expect the FTC to play a strong, aggressive role in 
holding financial institutions accountable for engaging in unfair or 
deceptive acts or practices. As you note, other agencies have 
complementary and sometimes primary jurisdiction over financial 
institutions, and I expect in those situations we will work 
aggressively with our sister agencies to prevent financial institutions 
from engaging in prohibited conduct. I also believe the Commission can 
and should engage in advocacy and public education to prevent financial 
institutions from adopting unsafe or unsound practices, in those areas 
in which we have experience and knowledge.

    Question 7. Other consumer protection agencies appear to be 
reducing the vigor of their enforcement work. In what way should this 
impact the priorities of the FTC?
    Answer. I intend to have the Commission enforce its laws vigorously 
and aggressively; if confirmed, this will be my third significant job 
at the Commission, and I would not return to the Commission if I did 
not believe strongly and wholeheartedly in its mission. If other 
agencies are reducing the vigor of their law enforcement work in areas 
where we share jurisdiction, it may be appropriate for us to step up 
our efforts.

    Question 8. In the past, the FTC has cracked down on for-profit 
colleges and vocational programs with strong enforcement actions. 
However, we're seeing these institutions continue to defraud Americans. 
A study conducted by The Century Foundation found that 98 percent of 
complaints asking for student loan forgiveness alleging fraud by 
colleges were from students attending for-profit institutions. If 
confirmed, how will you protect Americans from being scammed by such 
institutions?
    Answer. I intend to have the Commission enforce its laws and 
regulations in this area aggressively, because as you mentioned, this 
is very important work. Student loan debt is a significant burden, and 
in return for taking on that debt, students should receive education or 
training that is useful in obtaining future employment. I will consult 
with the FTC staff, and relevant leadership at the Department of 
Education, as well as state enforcers and regulators, to identify 
additional ways the FTC can prevent students from falling victim to 
educational scams and better obtain remedies when it happens.

    Question 9. More than two of every three American households own a 
pet. The FTC has estimated they will spend $10.2 billion on medications 
this year, of which more than $5 billion require a prescription. It has 
been estimated that pet owners who can get a copy of their pet's 
prescription and shop around, could save 20 to 30 percent on branded 
medications and 50 percent when they purchase generics. This suggests 
that prescription portability can save pet owners billions of dollars 
every year--in addition to the savings in time and transportation if 
they can get those prescriptions filled while they are at the grocery 
store or pharmacy or delivered from an online pharmacy. Unlike with 
human medications, with our pets, the prescriber also dispenses the 
medication prescribed--setting up a conflict of interest whereby the 
prescriber is both a health care provider and a retailer.
    In testimony in 2016, the FTC stated that ``we believe that the 
greater prescription portability likely would enhance competition for 
the sale of pet medications and that consumers would benefit from this 
competition in the form of lower prices.'' Do you agree with this 
conclusion?
    Answer. Yes, as in many other areas, portability is likely to 
enhance competition. This strikes me as simple economics--it increases 
the potential suppliers of pet medication a pet owner can easily 
purchase from, and such competition will likely lead to lower pricing.

    Question 10. The prescribing and dispensing of human medications 
has long been separated. With eyeglasses and contact lenses, where 
prescribers also sell the products they prescribe, Federal law grants 
consumers the right to their prescriptions. Why should it be any 
different for pet owners with regards to medications for their pets?
    Answer. I am not aware of any reason, grounded in antitrust law or 
consumer protection law, for different treatment.

    Question 11. Manufacturers of pet medications can, and do offer 
inducements to veterinary clinics to prescribe and sell their 
medications.
    Do you think the public, and pet owners who spend billions of 
dollars annually on prescription pet medications have a right to know 
whether their vet clinic is receiving payments from the manufacturers 
of drugs that clinic prescribes?
    Answer. I think this is an area where the Commission can work with 
the relevant ethical and certifying boards to impress upon 
veterinarians and clinics the importance of disclosure. However, the 
receipt of payments is not, in and of itself, illegal, and may be 
offered in support of educational and marketing efforts, among other 
things. When that is the case, such payments may increase competition 
in the markets for prescription pet medications--for example, such 
payments can help encourage the introduction of a new supplier to 
compete with an incumbent provider, thus adding, not lessening, 
competition. But I will consult with staff about the ways to keep this 
market transparent and competitive, to the benefit of consumers.

    Question 12. In 2003, Congress passed the Fairness to Contact Lens 
Consumers Act (``FCLCA'') to grant the 40 million Americans who wear 
contact lens wearers the right to copies of their prescriptions. The 
law also established a process for consumers to have their 
prescriptions verified when they purchase their lenses from a retailer 
other than the prescriber.
    On September 3, 2015, the FTC launched its ten-year review of the 
Contact Lens Rule. The comment period closed on October 26, 2015, after 
the Commission received over 660 comments from a wide variety of 
stakeholders including optometrists, ophthalmologists, consumers, 
contact lens manufacturers and third-party contact lens sellers such as 
big box stores and online retailers.
    On December 7, 2016, the Commission issued a Notice of Proposed 
Rulemaking (``NPRM'') concluding that ``compliance with the automatic 
prescription release provision could be substantially improved.'' This 
is consistent with the comments of 20 State Attorneys General who 
reported to the Commission that: ``[t]he States are aware, from their 
enforcement efforts and collective experience, that not all patients 
receive their prescription in writing as a matter of course.'' The NPRM 
also proposed the common sense solutions of having consumers sign an 
acknowledgement that they have received their prescriptions and 
clarifying the right of consumers and their chosen retailers to receive 
additional copies of those prescriptions.
    If confirmed, will you prioritize finalizing this proposed rule, to 
help ensure all consumers will receive copies of their prescriptions, 
as Congress intended? Considering FTC's limited resources, and the 
significant resources that would be required to take action against 
individual prescribers who are not in compliance with this requirement 
under the current rule, do you agree that the FTC's proposed rule is an 
efficient means of promoting compliance?
    Answer. I strongly support the Commission's rules requiring 
consumers to receive copies of their prescriptions. The Commission is 
continuing to accept and review comments in the rulemaking you 
reference, and will soon hold a public conference on the proposed rule, 
where interested parties will debate the merits of, and possible 
alternatives to, the rule. Therefore, I would like to defer taking a 
position on the merits of the rule as currently formulated, and the 
Commission's ability to enforce the existing rule, until the record in 
this matter is complete.

    Question 13. The FTC has not pursued any enforcement activity under 
the Military Lending Act, despite having the authority to enforce this 
important protection. If confirmed, would you support vigorous 
enforcement of the MLA?
    Answer. Deceptive practices aimed at our military members and 
spouses are abhorrent. I support enforcement of the MLA. I will discuss 
with staff, and determine whether there is some deficiency in the Act 
that has prevented the Commission from pursuing cases, or whether the 
Commission has not yet devoted sufficient resources to this area.

    Question 14. There are numerous examples of the FTC exercising 
complementary jurisdiction with a specialized agency. How would you 
envision FTC's cooperation with other agencies under your leadership?
    Answer. It is important that the agency work cooperatively and 
comprehensively with its sister agencies, and it is important to 
effective law enforcement that agencies with dual or complementary 
jurisdiction welcome the efforts of one another. I expect the 
Commission to work cooperatively with other agencies, and to leverage 
its resources to make such cooperation worthwhile to other agencies, 
and to consumers. I will instruct the law enforcement teams in the 
Bureaus of Competition and Consumer Protection to alert me quickly if 
they believe there are impediments to such cooperation so I, or the 
Commission, can take the steps necessary to address them.

    Question 15. Under your leadership, will the FTC continue to 
thoroughly pursue cases that hold individuals and companies that have 
aided and abetted scams accountable--no matter how big or insulated 
they may be?
    Answer. It is important that the FTC hold accountable firms that 
aid and abet other firms in their deceptive and fraudulent scams. We 
will enforce the law without regard to how big, powerful or important a 
company is. Whether the law on aiding and abetting will allow us to 
reach all companies that participate in a scheme, or that control a 
company that participates in a scheme, is something I will ask the 
General Counsel's office to consider carefully. It is important to 
pursue all avenues to choke off the ability of companies to pursue 
fraudulent and deceptive conduct; aiding and abetting charges are an 
important tool in doing so.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                             Joseph Simons
    Question 1. The February 2013, the Federal Trade Commission 
published a report that found that five percent of consumers had errors 
on their credit reports that could result in less favorable terms for 
loans.
    a. Based on that study, do you think the consumer reporting 
agencies (CRAs) comply with the Fair Credit Reporting Act (FCRA)'s 
requirement to ``follow reasonable procedures to assure maximum 
possible accuracy'' of credit reports? (15 USC 1681e(b))

    b. Do you think the FTC should conduct a follow up study to see if 
error rates have improved?

    c. If error rates continue to impact millions of Americans, what 
actions should the FTC take to enforce compliance with the FCRA?
    Answer. Answer to (a), (b), and (c): The presence of errors on a 
consumer's credit report can have significant financial and non-
financial impacts on that consumer. Whether the prevalence of errors 
mentioned is evidence of a failure of the consumer reporting agencies 
to comply with the Fair Credit Reporting Act is something that, if 
confirmed, I will discuss with the Commission staff and, if 
appropriate, the leadership of the CFPB. Similarly, whether a follow-up 
study is necessary to determine whether error rates are improving is an 
issue I will need to discuss with the Commission staff and fellow 
commissioners; without the context that information may provide, the 
appropriate next steps, if any, are not clear to me. However, this is 
an area where we should all expect improvement over time because of the 
importance of this issue to consumers.

    Question 2. Do you think the policies and practices of CRAs to 
handle consumer disputes are in compliance with the FCRA?
    Answer. Compliance with the FCRA is critical. However, I simply do 
not have sufficient information to provide a response to your question, 
nor do I want to prejudge a matter that may come before me at the 
Commission. However, this is an important question and, if confirmed, I 
will consult with Commission staff to determine if additional efforts 
with respect to compliance by the consumer reporting agencies are 
required.

    Question 3. In 2015, the New York Attorney General reached a 
groundbreaking settlement with the three national consumer reporting 
agencies--Experian, Equifax, and TransUnion. The terms of the 
settlement require the CRAs to do more to ensure maximum possible 
accuracy of credit reports and to improve the dispute resolution 
process for consumers.
    Do you think the terms of the settlement regarding dispute 
resolution represent best practices for CRAs' compliance with the 
FCRA's requirement that CRAs conduct a ``reasonable reinvestigation'' 
if the consumer disputes the accuracy of the information in his or her 
credit report? (15 USC 1681i)
    Answer. I do not have sufficient information to give you a legal 
conclusion with respect to the CRA's compliance with their 
responsibility under the FCRA, nor would I want to prejudge a matter 
that may come before me if I am confirmed. If confirmed, I will consult 
with the FTC's career staff to determine whether additional action is 
warranted with respect to the sufficiency of relief obtained by the 
NewYork Attorney General.

    Question 4. Can the FTC use its current authorities to hold CRAs to 
higher standards when it comes to handling consumer disputes?
    Answer. Publicly available information suggests that CRA's handling 
of consumer disputes can be improved, but I do not wish to prejudge 
whether the CRA's need to be held to higher standards. I would like to 
confer with the FTC's career staff and fellow commissioners, and, if 
appropriate, the leadership and staff of the CFPB, and determine 
whether any further FTC action is necessary. I believe that if there is 
a need to hold CRA's to higher standards with respect to billing 
disputes, the FTC or other agencies have the authority to do so. 
Section 5's prohibition on unfair or deceptive acts or practices is 
very broad and, upon a suitable record, the Commission has authority 
under the FTC Act, along with the Fair Credit Reporting Act 
prohibitions, to define what practices are unfair or deceptive.

    Question 5. What are your views on the adequacy of the Fair Credit 
Reporting Act enforcement regime?
    Answer. I do not yet have sufficient information to provide an 
adequate answer. If confirmed, I will consult with the career staff of 
the FTC and determine whether the enforcement regime is adequate. In 
general, I think we can make improvements in our enforcement efforts by 
a better use of our resources and more focused application of our 
authority.

    Question 6. What are your views on the inclusion of medical debt in 
credit reports?
    Answer. I believe it is appropriate to consult with the career FTC 
staff on this question--it is not an issue I have considered in any 
detail during my career, and I would like to have the benefit of the 
staff's experience and expertise before formulating a definitive 
position.

    Question 7. Consumers have the right to inspect their credit 
reports every year. Do you think they should also have the right to 
inspect their credit score?
    Answer. As above, this is not an issue I have considered in any 
detail during my career. As such, I would need to consult with the 
career FTC staff and come to a conclusion with the staff's experience 
and expertise on the matter.

    Question 8. Do you think the credit reporting market is functioning 
well? In your view, what areas could be improved?
    Answer. I believe it is likely that improvements are possible, but 
I would need to consult with the career FTC staff on this question. As 
it is not an issue I have considered in any detail during my career, I 
would like to have the benefit of the staff's experience and guidance 
on this issue before reaching a conclusion.

    Question 9. Do you think it is sound public policy for consumers to 
have to pay to freeze their credit report?
    Answer. While such a policy likely does not create the right 
incentives for consumers to take steps that may protect them from some 
of the costs associated with identity theft, and such costs may create 
a barrier to certain consumers' ability to protect themselves, free 
credit freezes may not be appropriate in circumstances not associated 
with identify theft or data breaches. I would like to confer with the 
FTC staff to have the benefit of their experience and thinking on this 
issue.

    Question 10. Do you think it is confusing for consumers to 
understand the difference between freezes, which are defined by and 
regulated under state law, and the CRAs' various ``lock'' products, 
which fall outside of the protection of state law?
    Answer. I can see the potential for confusion, but this is a 
question that can be tested empirically and may already be the subject 
of such testing. If confirmed, I will ask the career staff to determine 
whether there is good quality empirical work on this question and what 
that work concludes, and whether any additional work would be useful to 
undertake.

    Question 11. Should the FTC have the authority to ensure compliance 
with the Safeguards Rule?
    Answer. The FTC has previously brought enforcement actions against 
firms for a failure to comply with the Safeguards Rule; I do not 
understand those actions, nor the FTC's authority in this area, to be 
particularly controversial.

    Question 12. Do you think the FTC has the right expertise and 
capacity to investigate and evaluate algorithms for unfair, deceptive, 
fraudulent consumer practices in the marketplace?
    Answer. The career staff at the FTC is very capable. I expect that 
the FTC does have the expertise necessary to investigate and evaluate 
algorithms for unfair, deceptive, and fraudulent consumer practices. If 
the Commission does not have this expertise, I will confer with fellow 
commissioners about acquiring it.

    Question 13. Will you prioritize bringing in additional technical 
talent to strengthen FTC's mission in the digital domain?
    Answer. If confirmed, I intend to make sure the FTC has the 
resources it needs to perform its mission, and if that involves more 
talent for the digital domain, then yes.

    Question 14. What are your views of the FTC's ability to ensure 
adequate oversight of online privacy? Please include your perspective 
on the FTC's expertise and the adequacy of the regulatory tools 
available to it. What specific actions would you propose the FTC 
undertake to improve online privacy?
    Answer. Properly defining consumers' privacy expectations and 
measuring harm associated with the violation of such expectations are 
important, and, along with advancement in the Commission's articulation 
of its data security expectations, will be a significant focus of the 
Commission's enforcement and policy agenda, if my nomination is 
confirmed. The broad reach of the Commission's authority and the talent 
of the staff, places the Commission in a good position to fulfill its 
mission in this area. In terms of specific actions, I would like to 
confer with fellow commissioners about bolstering the agency's 
expertise in the digital markets, as well as providing additional 
guidance to firms and businesses seeking clarity. My intention is to 
focus on significant matters that can make the biggest impact in this 
area.

    Question 15. The FCC's Net Neutrality order is premised upon ISPs 
disclosing voluntary policies and the FTC enforcing compliance with 
those polices.
    Do you agree that the FTC's authority only extends to enforcing a 
company's compliance with whatever policy the company issues? If not, 
please explain.
    Answer. The FTC has full authority under Section 5 to challenge 
both competition and consumer protection violations, of which enforcing 
compliance with disclosed policies is only one part.

    Question 16. If the Ninth Circuit's decision in FTC v. AT&T 
Mobility is allowed to stand, what authority, if any, will the FTC 
retain to enforce these company policies?
    Answer. Such a decision would only be binding in the 9th Circuit, 
and it could still be overturned by appeal to the Supreme Court. 
Subject to a review of an unfavorable opinion and consultation with the 
Commission, the staff and the General Counsel, if the Commission is 
unsuccessful in the 9th Circuit, I believe it would be appropriate to 
appeal a loss to the Supreme Court.

    Question 17. What is your view of the propriety of the FTC imposing 
conditions on proposed mergers as compared with suing to block a deal? 
How would you evaluate when to use one or the other?
    Answer. Imposing conditions on a merger is appropriate when the 
merger would otherwise violate the antitrust laws, and the conditions 
imposed are very likely to remedy the underlying competitive concerns 
so that consumer welfare will not be harmed. When a merger would 
violate the antitrust laws and a good remedy short of blocking the 
transaction is not available, then the transaction should be blocked 
outright.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Joseph Simons
    Question 1. What are your ideas how to promote consumer protection 
in an increasingly online--and connected--world?
    Answer. Markets today are evolving quickly, and it is incumbent 
upon the FTC to keep up. If confirmed, I will assure that agency staff 
and resources are committed to keeping our enforcement and consumer 
education agenda current and responsive to new products and markets. We 
will closely study emerging challenges, and vigorously enforce our 
consumer protection laws, as more and more of life and commerce moves 
online.

    Question 2. Do you believe that the current FTC enforcement 
principles are sufficient to protect consumers? And do you believe the 
FTC has the resources necessary to protect consumers given the 
significant amount of work on the docket for the agency?
    Answer. The FTC holds broad authority to stamp out unfair or 
deceptive acts or practices, and has a long, bipartisan tradition of 
using that authority to protect consumers. If confirmed, I plan to 
vigorously enforce those laws. Along with fellow commissioners, I plan 
to take stock of what else the FTC may need, and I would be happy to 
work with you and this Committee to fill any gaps we may find.

    Question 3.In December, I wrote to the FTC, along with Senators 
Schumer and Blumenthal, asking for a workshop to discuss the increased 
use of ``bots'' to purchase large quantities of in-demand toys and 
items, particularly at Christmas. The FTC has confirmed that it will 
engage with key stakeholders to determine if a workshop is necessary. 
Will you commit to reviewing the record on this issue and to working 
with my office to determine next steps, including the possibility of 
legislation?
    Answer. Yes.

    Question 4. Last week, an article in TechCrunch showed how Facebook 
uses data from Onavo Protect, a subsidiary app, to gather data on its 
competitors; how Google uses its search rankings to demote alternate 
competitive sites; and Amazon's aggressive low pricing undercuts book 
publishers. Under your respective leadership, how will the FTC enforce 
the principles of unfair methods of competition against tech giants 
like Facebook, Google and Amazon to promote consumer welfare?
    Answer. Consistent with my previous tenure at the FTC, I plan to 
forcefully enforce our antitrust laws, so as to assure the economy 
continues to produce benefits for consumers. The Commission will need 
to study emerging trends closely and assure that our agenda reflects 
the most current pressing challenges. Where warranted, I plan to work 
with fellow commissioners to aggressively pursue law enforcement 
actions needed to keep markets competitive.

    Question 5. Following the FTC's approval of the Google/DoubleClick 
acquisition in 2007, then Commissioner Pamela Jones Harbor released a 
dissent detailing the need for the commission to ``evaluate the 
implication of this kind of data merger from a competition as well as a 
consumer protection perspective.'' As commissioner, how would you use 
this framing of data mergers in evaluating mergers and acquisitions in 
the technology industry?
    Answer. If confirmed, I intend to take a close look at the evolving 
technology space, and will assure that the FTC brings its expertise to 
bear in studying emerging trends. Our consumer protection and 
competition efforts must remain current with evolving markets, and the 
collection of data is an important part of that.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                             Joseph Simons
    Question 1. When Congress passed the Fairness to Contact Lens 
Consumers Act in 2004 it helped reduce barriers to retail competition 
in the contact lens market and led to lower prices for consumers. 
However, contact retailers sometimes sell patients contact lenses after 
the prescription has expired or fail to adequately verify the 
prescription in accordance to FCLCA. In some cases, this has led to 
dangerous eye and health conditions for the patient. How can the FTC 
work in coordination with the FDA, CDC and other Federal agencies to 
make sure contact lens patients are receiving high quality care and 
safe contact lenses?
    Answer. It is critical that the FTC work closely with other 
agencies where jurisdiction overlaps and goals can be pursued jointly. 
If confirmed, I plan to assure that the FTC brings both its expertise 
and authority to bear on the Contact Lens Rule, and to work closely 
with other agencies like the FDA and CDC.

    Question 2. In December 2016, the FTC issued a proposed change to 
the current Contact Lens Rule that mandated that all eye doctors obtain 
a signed acknowledgement form from each of their contact lens patients 
when they receive a copy of their prescription. Do you know of any 
other ways for patients to understand their right to their contact lens 
prescription that would be just as, if not, more effective than a 
written acknowledgement?
    Answer. If confirmed, I plan to confer closely with staff at the 
Commission to explore alternative approaches in addressing the needs of 
both a competitive contact lens market and patient safety. As a part of 
ongoing efforts in this area, there is a public workshop scheduled in 
March that will provide the Commission with information to move 
forward.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Joseph Simons
    Question 1. Restoring Internet Freedom FCC-FTC MOU
    Within the net neutrality MOU, signed between the FCC and FTC, 
regarding the FTC's authority it states: ``Congress has directed the 
FTC to, among other things, prevent unfair methods of competition and 
unfair or deceptive acts or practices in or affecting commerce.''
    Therefore, can you say without reservation that you'll have what 
you will need, upon being confirmed at the FTC, to actually catch 
improper actions taken by Internet service providers toward consumers?
    Answer. The rule was only very recently issued, and thus I would 
like a chance to confer with staff about it. But I can say that, if 
confirmed, I will vigorously enforce our laws and use every tool we 
have to assure the fairness and competitiveness of our markets, 
upstream and downstream. In the event that our authority does not prove 
enough to get that job done, I will come back to you and this committee 
to talk about a solution.

    Question 2. Court Case on FTC Authority over ``Common Carriers''
    Unfortunately we still don't know the full FTC authority over 
common carriers, like in the case pending on AT&T, so I would like to 
hear what you anticipate will be FTC's authority going forward.
    Answer. There are certainly open questions about the FTC's 
authority resulting from the pending case. I will be following it 
closely, and should the result leave the FTC with less authority than 
is necessary to accomplish both our consumer protection and competition 
missions, I will come back to this committee and work towards a 
solution.

    Question 3. Court Case on FTC Authority over ``Common Carriers''
    How you can ensure the FTC will even have the authority to enforce 
the limited principles covered in Chairman Pai's weak form of net 
neutrality?
    Answer. I am committed to vigorously enforcing the broad mandate of 
the FTC to stamp out unfair or deceptive acts or practices, and keep 
our markets competitive for consumers. Should that not prove enough, I 
will be eager to work with you and the committee in finding a solution.

    Question 4. Court Case on FTC Authority over ``Common Carriers''
    And I would ask if you can provide me a true commitment to act on 
behalf of consumers who are impacted by less than fair practices by 
some in the telecommunications industry.
    Answer. Absolutely.

    Question 5. Broad Positions on FTC's Place on Net Neutrality
    Can you please define for me what the lead telecommunications 
policy expert Federal agency is, in your opinion?
    Answer. The FCC has enormous subject matter expertise in 
telecommunications. The FTC also has an outstanding staff of attorneys 
and economists who are capable of providing invaluable insight into the 
industry and how to keep it competitive, and free from deceptive or 
unfair acts or practices.

    Question 6. Broad Positions on FTC's Place on Net Neutrality
    Have you specifically recently read the MOU on net neutrality 
between the FCC and FTC, and do you support it in its entirety?
    Answer. I have read the memo of understanding, and will support it 
as long as it stays in effect.

    Question 7. Broad Positions on FTC's Place on Net Neutrality
    What is your understanding of the capacity of the staff currently 
at the FTC, and do you think you can effectively execute this agreement 
enough to garner true public trust in ensuring a truly free and open 
internet?
    Answer. The FTC has an outstanding staff that does exceptional work 
in supporting enforcement actions aimed at keeping markets free, fair, 
and competitive. Of course, it is also incumbent upon the FTC to stay 
current as innovation leads to rapid market evolution, and to that end, 
if confirmed, I will confer with staff about bringing in all necessary 
subject matter experts.

    Question 8. Consumer Education
    The net neutrality MOU between the FCC-FTC includes the reference 
to ``Collaboration on consumer and industry outreach and education 
efforts, as appropriate.'' As well as: ``The Agencies may coordinate 
and cooperate to develop guidance to assist consumers' understanding of 
Internet service provider practices.'' It strikes me in many cases it 
will be difficult to respond to many potential violations to an 
Internet provider's stated policy, so we need to make sure you're 
working on behalf of the consumer to act as a form of deterrent.
    So will you be prioritizing consumer education on how to document 
and submit complaints to the FTC for review?
    Answer. Yes, it will play an important role in our enforcement 
efforts.

    Question 9. Supposed Transparency and ISP's Public Policies
    The net neutrality MOU between the FCC-FTC states: Consistent with 
its jurisdiction, the FTC will investigate and take enforcement action 
as appropriate against Internet service providers for unfair, 
deceptive, or otherwise unlawful acts or practices, including but not 
limited to, actions pertaining to the accuracy of the disclosures such 
providers make pursuant to the Internet Freedom Order's requirements, 
as well as their marketing, advertising, and promotional activities.
    Do you have a sense that you can ask ISPs to amend their supposed 
transparent blocking and throttling language or commitments?
    Answer. Nothing stops the FTC from asking an ISP to clarify its 
language, nor from suggesting ways in which firms can amend their 
marketing materials to avoid being deceptive or unfair.

    Question 10. In other words, is it your opinion that your authority 
at the FTC includes determining whether the ISPs are being transparent 
or in other cases, just presenting a very broad policy that leaves gaps 
in a consumer's understanding of their providers protections or 
limitations to control the flow of information to them?
    Answer. The authority of the FTC to police unfair or deceptive acts 
or practices is quite broad. To the extent an ISP issues a policy that 
leaves gaps and is deceptive or unfair, the Commission has the 
authority to proceed against such an ISP and should do so.

    Question 11. Broadband Internet Speed Honesty
    I am aware that various state Attorneys General are concerned that 
a telecomm industry petition to the FCC on cost transparency, related 
to the advertisement of Internet speeds, quote ``represents nothing 
more than the industry's effort to shield itself from state law 
enforcement.''
    Given the FTC's mission regarding deceptive practices, can you 
speak to your perspective on whether this is fair consumer protection 
issue to be concerned about at FTC, given the prices and promises ISPs 
make to generate more business?
    Answer. I am unclear on how the petition you describe may possibly 
shield firms from state law enforcement, and I can consult agency staff 
on the matter, if confirmed. But I will commit to you that I intend to 
work closely with our state counterparts to prevent, remedy, and punish 
firms from making material promises to consumers that they ignore or 
fail to keep.

    Question 12. Protection of Minorities, Children, and other specific 
Groups
    Considering the fact that in 2011, FTC estimated 11 percent of 
American adults were fraud victims, and 13.4 percent of Hispanics were 
victims, almost 50 percent higher than the rate for non-Hispanic 
whites.\1\
---------------------------------------------------------------------------
    \1\ https://www.ftc.gov/sites/default/files/documents/reports/
consumer-fraud-united-states-2011-third-ftc-survey/
130419fraudsurvey_0.pdf
---------------------------------------------------------------------------
    Current acting FTC Chair Ohlhausen has detailed a specific effort 
to assist those where English is their second language through things 
like her Every Community Initiative.
    Can you commit to continue efforts like to this to ensure we keep 
our focus of consumer protection on all of our populations?
    Answer. Yes.

    Question 13. FTC Investigation on GPS tracking of Vehicles
    Last year it was revealed that the Federal Trade Commission is 
investigating GPS tracking technologies used in the subprime auto loan 
industry, but my understanding is that no findings or rulings have been 
released. Going back as far 2014, the New York Times had highlighted 
this as a concern. In their piece, they highlighted a troubling story 
of a mother in Las Vegas, Mary Bolender, who needed to get her child 
with a 103.5-degree fever to the ER, but her 2005 Chrysler van wouldn't 
start. As the piece says--``The cause was not a mechanical problem--it 
was her lender.''
    Now I have a number of concerns with their as a business practice, 
but can I get a commitment from you to continue to look into this issue 
and publically provide information on your findings and enforcement 
determinations in a timely manner?
    Answer. It is important that I not prejudge the outcome of what you 
have described. But, generally speaking, yes, I will continue to look 
into this issue and consult with the FTC staff on the status and 
substance of any ongoing or related investigation. Any public 
discussion of the FTC's investigation and enforcement decisions can 
only be made in consultation with my fellow commissioners and must take 
account of how any publicity may affect existing or future 
investigations or enforcement actions.

    Question 14. Franchise Business Oversight
    The FTC has jurisdiction over franchise businesses. In my state, I 
have heard complaints from Subway franchisees that the Franchise 
Disclosure Document is written in favor of the franchisor in a way that 
can undermine their ability to succeed. Nevada's neighboring state of 
California has passed a bill protecting franchisees. How can the FTC 
expand protections for franchisees so they can financially succeed?
    Answer. The franchisor-franchisee relationship is governed by 
various laws and regulations, including, in some instances, state law 
and regulation, and the effect of those various laws and regulations 
may, in some instances, be to favor one party to the franchise 
contract. I am not aware of the complaints you have identified, but I 
can commit to discussing with the staff of the FTC whether they have 
heard similar complaints from these and other franchisees, and whether 
such concerns can be and are appropriate to be addressed by the FTC.

    Question 15. Mortgage Closing Fraud
    Thieves have been targeting mortgage closings, where they break 
into a realtor or title company's e-mail accounts. Then, they tell the 
homebuyer to wire money they have saved and borrowed to a bank account 
owned by the thieves. How do you think the FTC can work with the 
Consumer Financial Protection Bureau to prevent these types of scams?
    Answer. Fraudulent conduct, especially frauds that create 
significant financial harm, should be attacked vigorously. I intend for 
the FTC to continue working closely with the CFPB to combat financial 
fraud. I am not yet privy to the extent of the FTC-CFPB relationship 
and cooperation, nor internal procedures that allocate resources to 
such matters. I plan, if confirmed, to discuss this with FTC staff and 
my fellow commissioners, as well as CFPB staff and senior leadership, 
in order to determine how best to work together to limit such scams and 
fraudulent behavior. Finally, where such conduct is better prosecuted 
as criminal conduct, I will continue the FTC's practice of working with 
U.S. Attorneys in addressing the issue.

    Question 16. Reverse Mortgages
    Reverse mortgages are products sold to seniors to help them ``age-
in-place'' and use their home equity as a means by which to responsibly 
pay their bills. Reverse mortgages can be sensible products, but 
sometimes have been falsely advertised to seniors. The FTC and the 
Consumer Financial Protection Bureau conducted a ``sweep'' of reverse 
mortgage advertisements, and a review of consumer complaints, and found 
that three reverse mortgage companies engaged in deceptive advertising 
which misled consumers.
    Given the overlapping jurisdictions between the Consumer Financial 
Protection Bureau and the FTC, can you discuss how you envision the two 
entities work together to combat financial fraud, specifically scams 
impacting seniors?
    Answer. I intend for the FTC to continue working closely with the 
CFPB to combat financial fraud, including but not limited to scams 
impacting senior citizens. I think it is important that each agency 
bring to such matters those rules, regulations, enforcement tools, and 
penalty provisions that maximize our ability to stop such conduct and 
protect consumers from becoming victims of it. Again, I am not yet 
privy to the extent of the FTC-CFPB relationship and cooperation, nor 
internal procedures that allocate resources to such matters, but I plan 
to discuss this with the FTC staff and my fellow commissioners, as well 
as CFPB staff and senior leadership.

    Question 17. Debt Collection
    Debt collectors generate more complaints to the FTC than any other 
industry. And in recent years, the CFPB has noted that debt collection 
remains the top complaint received by the Bureau from older Americans. 
Specifically, the Consumer Bureau identified several issues related to 
debt collection and seniors, including hounding calls, harassment and 
threats of impermissible Social Security garnishment.
    How do you think the FTC could work with the CFPB to bring more 
rules-of-the road to this part of the financial services marketplace to 
protect consumers--particularly seniors--from fraudulent practices?
    Answer. This is a very important issue--our must vulnerable are 
often targets of fraud and deceptive conduct by unscrupulous actors. 
With respect to how the FTC can better work with the CFPB in this area, 
I intend to consult with the staff of the FTC and the CFPB, as well as 
my commissioner colleagues and the senior staff of the CFPB, to confirm 
we are making maximum use of our resources and authority. Some of this 
conduct is, and should be prosecuted criminally, and I will continue 
the FTC's practice of working with U.S. Attorneys to attack the most 
egregious and harmful deceptive and fraudulent conduct where criminal 
penalties can apply.

    Question 18. Merger Review Commitment
    With increased multi-industry players growing in prominence by 
acquiring more businesses outside their core business model, can you 
commit to reviewing the horizontal merger guidelines, which have not 
directly addressed vertical mergers since 1984?
    Answer. Yes.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                          Christine S. Wilson
    Question 1. Many online companies are engaging in targeted 
advertising. Using consumer data, companies can target what they deem 
to be the most relevant ads to consumers. Should there be more 
transparency into how the algorithms behind targeted advertising work 
so that consumers can see how they are being targeted for certain 
messages?
    Answer. I have had an opportunity to review publicly available 
materials regarding the FTC's recent research in this area. If 
confirmed, I would speak with FTC staff regarding any additional non-
public work that the agency has already undertaken in this space, and 
any conclusions that have been drawn from that work. In conjunction 
with my colleagues on the Commission, I would carefully evaluate the 
issues presented by this type of algorithm that fall within the 
jurisdiction and authority of the FTC and how best to address them.

    Question 2. Would third party audits of algorithms be a reasonable 
way to ensure the algorithms are doing what companies claim and not 
harming competition or consumer choice? Is this something the FTC might 
consider looking into?
    Answer. I have had an opportunity to review publicly available 
materials regarding the FTC's recent research in this area. If 
confirmed, I would speak with FTC staff regarding any additional non-
public work that the agency has already undertaken in this space, and 
any conclusions that have been drawn from that work. In conjunction 
with my colleagues on the Commission, I would carefully evaluate the 
issues presented by this type of algorithm that fall within the 
jurisdiction and authority of the FTC and how best to address them.
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                          Christine S. Wilson
    Question 1. As a former Attorney General of Alaska, I always 
appreciated coordination with Federal agencies where appropriate, and 
the opportunity to communicate solutions that made the most sense for 
Alaskans. Given the importance of state attorneys general to the FTC's 
antitrust enforcement, please describe your views on the working 
relationship between the FTC and state attorneys general.
    Answer. In my experience, the FTC and the state AGs have had a 
close and constructive working relationship. If confirmed, I would 
encourage FTC staff and my fellow Commissioners to continue this 
tradition.
    Question 2. As you know, the state I represent is unique which 
means its problems are unique and require unconventional solutions. In 
a highly rural state like Alaska, many communities are not connected by 
roads, challenging weather conditions prohibit timely delivery of mail 
and other essential services, and quality connectivity is considered a 
luxury. One of your objectives at the Commission is consumer protection 
and education. How will you ensure that rural constituents like mine 
have the tools they need to make informed decisions and in cases of 
abuse that require follow up, for example data breaches or identity 
theft, the information necessary to mitigate risks and resolve the 
issue?
    Answer. It is important that the FTC's good work on consumer 
protection and consumer education be made available to all citizens, 
including your constituents and those who are similarly situated in 
rural communities across America. The FTC has sought in various ways to 
ensure that its education initiatives and information regarding its 
enforcement actions reach their intended audiences. For example, during 
my tenure as Chairman Muris' Chief of Staff, the FTC rolled out many 
Spanish-language consumer education materials. In addition, many FTC 
orders require the respondent in an enforcement proceeding to 
distribute to customers, board members, and other stakeholders 
materials pertaining to the alleged law violations. If confirmed, I 
look forward to working with the FTC staff (including in the FTC 
regional offices) and my colleagues on the Commission to ensure that 
ever-increasing numbers of consumers--including those in rural 
communities--are able to obtain needed information.
    Question 3. In your prepared statement, you discuss anticompetitive 
consolidation, which immediately called to mind the enormous market 
capitalization of tech companies. Recent calculations value the four 
largest tech companies' capitalization at $2.8 trillion, which is a 
staggering 24 percent of the S&P 500 Top 50, close to the value of 
every stock traded on the Nasdaq in 2001, and to give a different 
perspective, approximately the same amount as France's current GDP. 
Press reports have also noted allegations of increased anti-competitive 
behavior by some of these companies. Is there a point at which these 
companies are simply too big from an antitrust standpoint?
    Answer. The size of a company may or may not indicate the existence 
of market power, and it is market power, not size per se, that lies at 
the heart of antitrust analysis. Companies that grow by providing 
innovative products and services at attractive prices (i.e., through 
superior skill, foresight, and industry, in the words of a seminal 
antitrust case) create benefits for consumers.
    In these instances, the FTC most effectively promotes consumer 
welfare by refraining from intervening. But companies that grow or 
maintain their preeminence by engaging in what may be anticompetitive 
or exclusionary conduct can and should be closely scrutinized by the 
FTC.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Dean Heller to 
                          Christine S. Wilson
    Question. When Congress passed the Fairness to Contact Lens 
Consumers Act in 2003, it was a pro-consumer measure that ensured 
consumers automatically receive a copy of his or her prescription after 
an eye exam--without having to ask for it, pay an additional fee, or 
sign a waiver. Do you agree that consumers should receive copies of 
their prescriptions as Congress intended so that they can use the 
prescription to purchase their contact lenses from a source of their 
choosing?
    Answer. Yes.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Jim Inhofe to 
                          Christine S. Wilson
    Question. The Federal Trade Commission can be an advocate for 
competition and an unfettered free market--both here in the United 
States and abroad. You have a background dealing with antitrust 
enforcement and consumer protection regulations internationally. How 
can the Federal Trade Commission continue to lead on antitrust 
enforcement and consumer protection issues such as fraud prevention on 
the international stage? What more can the Federal Trade Commission do 
to ensure that due process is respected and U.S. consumers and 
companies are treated fairly by other jurisdictions.
    Answer. The FTC has long provided an important perspective on the 
sound enforcement of competition and consumer protection issues in the 
international arena. The FTC makes its views known through its 
participation in multilateral organizations like the OECD and the 
International Competition Network, through formal bilateral 
relationships between the U.S. and other jurisdictions, through 
informal consultations, and through technical assistance programs. 
Given the proliferation of competition and consumer protection regimes 
abroad, and the emergence of decisions by foreign authorities 
potentially motivated either by a desire to protect national champions 
or by other industrial engineering considerations, these efforts are 
more important than ever. As your question notes, I have worked 
extensively on international competition/consumer protection law and 
policy issues, and if confirmed, I would hope to contribute 
significantly to the efforts of the FTC to promote due process and 
sound enforcement abroad. Moreover, given the importance of 
international cooperation when addressing fraud, if confirmed, and in 
conjunction with my colleagues, I would support continued robust global 
cooperation to combat fraud and to identify ever better ways to 
identify and halt this pernicious conduct.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Christine S. Wilson
    Question 1. The FTC is a relatively small agency that has to 
effectively use its resources to cover a very broad jurisdiction. In 
this regard, as a matter of discretion, it may be wise for the FTC to 
pursue enforcement cases involving practices that result in substantial 
harm. However, substantial harm is not a legal requirement under 
section five of the FTC Act--cases involving deception do not require 
harm at all, and cases involving unfairness can involve harm that is 
prospective and/or non-financial. Consequently, it is very important 
that commissioners do not stringently require types of harm as a legal 
test for agency enforcement actions. This principle is particularly 
important because Lab MD is challenging the FTC's legal authority to 
bring enforcement actions for data breaches based on the lack of 
requisite harm. As a commissioner, will you pledge to not require 
substantial harm or financial harm as legal tests for FTC enforcement 
actions?
    Answer. If confirmed, I will enforce the terms of the FTC Act, 
together with corresponding guidelines and relevant judicial precedent. 
Section 5(n) provides that an unfair act or practice is one that is 
``likely to cause substantial injury to consumers which is not 
reasonably avoidable by consumers themselves and not outweighed by 
countervailing benefits to consumers or to competition.'' This 
provision is an important part of the Commission's organic statute, and 
I pledge to enforce it, consistent with its purpose and statutory 
language, using the three-part test reflected therein. I agree that 
injury can include non-financial forms of harm, including prospective 
harm.
    Deception is viewed as a subset of unfairness that can be analyzed 
on a truncated basis. The FTC's Policy Statement on Deception provides 
that a practice is deceptive if it is likely to mislead consumers 
acting reasonably under the circumstances to their detriment. In modern 
usage, ``to their detriment'' has been replaced with ``about a material 
issue.'' It is viewed as a strict liability standard--if the elements 
described above are met, further analysis of costs and benefits 
typically is not necessary.

    Question 2. The FTC's Bureau of Economics provides valuable insight 
and analysis that supplements the FTC's work. However, the FTC is, 
first and foremost, a law enforcement agency, not a regulatory agency. 
As such, economic analysis should play a complementary role, not a 
dispositive one. The FTC should enforce the FTC Act and the other laws 
under its jurisdiction according to legal doctrine, not economic 
analyses. As a commissioner, will you pledge to continue to further the 
FTC as a law enforcement agency in which the Bureau of Economics and 
economic analyses play a complimentary role, not a dispositive role? 
Will you pledge to enforce the law according to legal precedent?
    Answer. If confirmed, I will enforce the terms of the FTC Act, 
together with corresponding guidelines and relevant judicial precedent. 
Of course, economic analysis plays an important role in identifying 
sectors of the economy where consumer injury is significant and/or 
growing; appropriately evaluating scientific, statistical, or other 
technical data; and analyzing the likely competitive effects of mergers 
and the potentially harmful effects of various types of conduct.
    While I was Chief of Staff to FTC Chairman Muris, I saw how the use 
of economic analysis reshaped the FTC's privacy program to focus on 
harm to consumers, leading to the National Do Not Call Registry, the 
agency's cases against inadequate security provisions, and cases 
against major companies like Microsoft and Pfizer for privacy 
violations.

    Question 3. Piracy continues to be a problem that plagues content 
providers. The Internet is filled with websites that provide pirated 
content and entertainment at the expense of the companies that produce 
the content. Moreover, many of these websites can harm consumers with 
unsafe or even fraudulent data and commercial practices. What can the 
FTC do to crack down on the illegal piracy of American entertainment 
and content?
    Answer. I have not had an opportunity to consider the FTC's role 
with respect to the narrow issue of piracy, but I understand that 
piracy impacts incentives to innovate. If confirmed, I look forward to 
consulting with FTC staff and my colleagues on the Commission regarding 
actions that can be taken by the FTC within the scope of its authority. 
To the extent piracy is accompanied by unfair and/or deceptive acts, 
including fraudulent data and commercial practices, I will support 
vigorous enforcement of Section 5.

    Question 4. Fraudulent websites can deceive consumers by 
masquerading as legitimate hotel websites. Consumers who are fooled by 
these sites reserve rooms that do not exist or turn out to be different 
from what they reserved online. According to industry statistics, this 
particular fraud affects millions of consumers a year and costs the 
hotel industry hundreds of millions of dollars. I wrote former FTC 
Chairwoman Edith Ramirez about this issue in June 2015. Will you pledge 
to ensure that the FTC will work with other law enforcement entities 
(such as state attorneys general) to bring enforcement actions against 
fraudulent hotel websites?
    Answer. The FTC has a long history of working cooperatively with 
other federal, state, and foreign agencies to bring bad actors to 
justice. If confirmed, I will support the FTC's continued efforts to 
coordinate with other law enforcement authorities to halt practices 
that are unfair, deceptive, or both, including with respect to 
fraudulent hotel websites.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                          Christine S. Wilson
    Question 1. The high prices of prescription drugs impose a heavy 
burden on consumers and are projected to continue to rise in the years 
to come. Some branded pharmaceutical companies refuse to provide 
generic drug companies branded samples needed for testing generic 
equivalents, particularly in the context of drugs subject to a Risk 
Evaluation Mitigation Strategy (REMS). This tactic can delay the 
introduction of affordable generic drugs for years. I introduced the 
Creating and Restoring Equal Access to Equivalent Samples (CREATES) Act 
with Senators Grassley, Leahy, and Lee to provide a targeted solution 
to this problem. Do you believe that branded pharmaceutical companies 
withholding testing samples from generic drug companies can lead to 
consumer harm?
    Answer. The Hatch-Waxman Act established a careful balance between 
preserving incentives to innovate and introducing generic competition 
for branded products. The FTC has observed over time that certain 
practices can skew this carefully established balance. During my tenure 
as Chief of Staff to Chairman Muris, the FTC conducted a 6(b) study 
that identified practices in the pharmaceutical industry that 
threatened to distort the careful balance struck in Hatch-Waxman. Based 
on these findings, the FTC made recommendations to Congress and the FDA 
regarding alterations to the Hatch-Waxman process. Many of those 
recommendations were subsequently implemented.
    Certain branded manufacturer practices of which I am aware, 
relating to the withholding of branded drug samples from generic 
companies, have given me cause for concern. If confirmed, I would 
support the FTC in conducting further analysis of this issue and making 
recommendations to Congress and the FDA as appropriate.

    Question 2. What can the FTC do, under existing law, to protect 
consumers and ensure that they benefit from generic drug competition?
    Answer. The FTC has a rich history of working to promote 
competition in the pharmaceutical space. (In fact, during my first 
stint at the FTC while in law school, preserving competition in the 
pharmaceutical industry was a significant focus of my work.) It is my 
understanding that the FTC has investigated alleged competitive 
restraints involving Restricted Evaluation and Mitigation Strategies 
(REMS) and voluntary distribution issues, and has filed amicus briefs 
in private suits. If confirmed, I would talk with relevant personnel in 
the Bureau of Competition and the General Counsel's Office, as well as 
with my colleagues on the Commission, about the extent to which the 
FTC's existing authority appropriately can be used to address 
anticompetitive conduct in this arena.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Christine S. Wilson
    Question 1. What experience do you have working with State 
Attorneys General? What are your views regarding the Commission working 
with state law enforcement?
    Answer. During my tenure as Chief of Staff to Chairman Tim Muris, 
the state attorneys general played an important role in many different 
matters involving both competition and consumer protection issues and 
competition advocacy efforts. From my experience in both government and 
private practice, I have found that state AGs are frequently more 
familiar with the details regarding local impacts of business practices 
and proposed mergers, and therefore complement the FTC's own efforts. 
In addition, as Mr. Phillips noted during the Feb. 14 hearing, the 
state AGs can be a useful ``force multiplier'' for the FTC. The 
relationship between the FTC and state AGs has been quite constructive, 
and if I am confirmed, I would endeavor to continue this tradition.

    Question 2. In the Dodd-Frank Act of 2010, Congress gave the FTC 
extensive authority over the sale, servicing, and leasing of 
automobiles--charging it to protect consumers from abusive auto lending 
practices and granting it exclusive authority to draft rules governing 
unfair or deceptive acts or practices by automobile dealers. Would you 
support the FTC using its rulemaking authority to rein in unfair or 
deceptive acts or practices by automobile dealers?
    Answer. The FTC enforces many laws applicable to auto dealers, 
including the FTC Act, the Truth in Lending Act (TILA) and Regulation 
Z; the Consumer Leasing Act (CLA) and Regulation M; the Equal Credit 
Opportunity Act (ECOA) and Regulation B; and the Fair Credit Reporting 
Act (FCRA). The agency also enforces various FTC rules, such as the 
Used Car Rule, the Holder Rule, the Furnisher Rule, and the Credit 
Practices Rule.
    Since 2012, the FTC has brought 40 enforcement actions targeting 
deceptive and/or unfair practices in the auto marketplace undertaken by 
both independent and franchise dealers. These actions have included 
deceptive dealer advertising; deceptive and unfair practices in the 
finance office; deceptive title loan, debt collection, and debt relief 
practices; privacy and data security failures; deceptive warranty 
practices; deceptive green claims; and credit reporting violations.
    If confirmed, I will consult with FTC staff and my colleagues on 
the Commission to determine whether a rulemaking would provide even 
greater benefits to auto consumers and even greater clarity to auto 
dealers about expected conduct.

    Question 3. More than 17 million Americans are the victims of 
identity theft every year. This problem seems to increase year over 
year as identity theft scams seem to get more sophisticated.
    Three years ago, the FTC established IdentityTheft.gov. This site 
is supposed to be a one-stop shop for victims of identity theft where 
they can easily freeze credit across the big three credit reporting 
agencies, and recover their stolen identities.
    This website's functionality is limited, however, because of what 
appears to be a lack of engagement by the credit bureaus to make the 
site what it should be.
    How would you engage with credit bureaus to ensure 
IdentityTheft.gov has a comprehensive suite of easy to use tools 
allowing victims of identity theft to recover as quickly as possible, 
with as little stress as possible? What are your expectations with 
respect to the role the credit reporting agencies should play in making 
IdentityTheft.gov an effective one-stop shop for identity theft 
victims?
    Answer. Identity theft has been an important issue for consumers 
and, consequently, a significant focus of the FTC. If confirmed, I will 
consult with FTC staff and my colleagues on the Commission to determine 
how IdentityTheft.gov can be improved, including through greater 
cooperation from the credit reporting agencies, and will lend my 
support to implementing all appropriate measures.

    Question 4. Would you support FTC's jurisdiction be expanded to 
include non-profits and charities so that it can act more swiftly to 
prevent and stop illegal conduct in the nonprofit sector?
    Answer. I have not had an opportunity to study this important 
issue. If confirmed, I would consult with FTC staff and my colleagues 
on the Commission regarding this issue, and would welcome the 
opportunity to discuss it with Congress, as appropriate.

    Question 5. Other Federal agencies charged with consumer protection 
make an array of data available on consumer complaints received. The 
FTC releases relatively very little data on companies receiving 
significant levels of complaints. Do you think the FTC should be more 
transparent about the complaints it receives?
    Answer. It is my understanding that the FTC periodically publishes 
an analysis of the consumer complaints that it receives. As a general 
rule, I believe that greater flows of information lead to more informed 
consumers and more efficient markets. Here, it may be that more 
information could allow consumers to more effectively direct their 
business to providers of goods and services who deal fairly and 
honestly with their customers. If confirmed, I would consult with FTC 
staff and my colleagues on the Commission to determine the extent to 
which releasing additional and/or different types of information would 
advance this goal.

    Question 6. The Consumer Financial Protection Bureau was created in 
response to the 2008 financial crisis and Great Recession after it 
became clear that our financial sector needed far more oversight to 
prevent a disaster of that magnitude from happening ever again. The 
current Administration seems intent on gutting this agency that serves 
a critical role in protecting Americans from irresponsible financial 
institutions. Of course, the CFPB and the FTC complement each other in 
their protection of consumers. How do you envision the FTC's role in 
holding financial institutions accountable?
    Answer. If confirmed, I will vigorously enforce the FTC Act (and 
other laws and rules within the jurisdiction of the FTC) with respect 
to all industries, including financial services. I will also encourage 
the FTC to work closely with the CFPB, pursuant to the terms of the 
FTC/CFPB MOU, to ensure that consumers are protected.

    Question 7. Other consumer protection agencies appear to be 
reducing the vigor of their enforcement work. In what way should this 
impact the priorities of the FTC?
    Answer. The FTC excels at monitoring consumer complaints and then 
deploying resources accordingly. If confirmed, and in conjunction with 
my colleagues on the Commission, I would encourage FTC staff to 
continue its industry-monitoring processes to identify areas where 
consumers may be experiencing unfair or deceptive acts or practices and 
to deploy resources accordingly--particularly if those areas of concern 
are not being addressed elsewhere.

    Question 8. In the past, the FTC has cracked down on for-profit 
colleges and vocational programs with strong enforcement actions. 
However, we're seeing these institutions continue to defraud Americans. 
A study conducted by The Century Foundation found that 98 percent of 
complaints asking for student loan forgiveness alleging fraud by 
colleges were from students attending for-profit institutions. If 
confirmed, how will you protect Americans from being scammed by such 
institutions?
    Answer. If confirmed, I will work with FTC staff and my colleagues 
on the Commission to ensure that unfair or deceptive practices in all 
industries, including in the for-profit education space, are addressed.

    Question 9. More than two of every three American households own a 
pet. The FTC has estimated they will spend $10.2 billion on medications 
this year, of which more than $5 billion require a prescription. It has 
been estimated that pet owners who can get a copy of their pet's 
prescription and shop around, could save 20 to 30 percent on branded 
medications and 50 percent when they purchase generics. This suggests 
that prescription portability can save pet owners billions of dollars 
every year--in addition to the savings in time and transportation if 
they can get those prescriptions filled while they are at the grocery 
store or pharmacy or delivered from an online pharmacy. Unlike with 
human medications, with our pets, the prescriber also dispenses the 
medication prescribed--setting up a conflict of interest whereby the 
prescriber is both a health care provider and a retailer.
    In testimony in 2016, the FTC stated that ``we believe that the 
greater prescription portability likely would enhance competition for 
the sale of pet medications and that consumers would benefit from this 
competition in the form of lower prices.'' Do you agree with this 
conclusion?
    Answer. Yes. I believe that prescription portability can foster 
beneficial competition.

    Question 10. The prescribing and dispensing of human medications 
has long been separated. With eyeglasses and contact lenses, where 
prescribers also sell the products they prescribe, Federal law grants 
consumers the right to their prescriptions. Why should it be any 
different for pet owners with regards to medications for their pets?
    Answer. As noted above, it would seem that prescription portability 
for pet medications would benefit consumers, assuming appropriate 
consideration of safety concerns. If confirmed, I would be very 
interested in discussing this issue with FTC staff, my colleagues on 
the Commission, industry stakeholders, and with the FDA.

    Question 11. Manufacturers of pet medications can, and do offer 
inducements to veterinary clinics to prescribe and sell their 
medications. Do you think the public, and pet owners who spend billions 
of dollars annually on prescription pet medications have a right to 
know whether their vet clinic is receiving payments from the 
manufacturers of drugs that clinic prescribes?
    Answer. This issue appears analogous to the marketing efforts of 
branded drug manufacturers undertaken with respect to prescribing 
physicians. If confirmed, I would be very interested in discussing this 
issue with FTC staff, my colleagues on the Commission, and with the FDA 
to determine whether there are actions the FTC could take to boost 
transparency and enhance competition.

    Question 12. In 2003, Congress passed the Fairness to Contact Lens 
Consumers Act (``FCLCA'') to grant the 40 million Americans who wear 
contact lens wearers the right to copies of their prescriptions. The 
law also established a process for consumers to have their 
prescriptions verified when they purchase their lenses from a retailer 
other than the prescriber.
    On September 3, 2015, the FTC launched its ten-year review of the 
Contact Lens Rule. The comment period closed on October 26, 2015, after 
the Commission received over 660 comments from a wide variety of 
stakeholders including optometrists, ophthalmologists, consumers, 
contact lens manufacturers and third-party contact lens sellers such as 
big box stores and online retailers.
    On December 7, 2016, the Commission issued a Notice of Proposed 
Rulemaking (``NPRM'') concluding that ``compliance with the automatic 
prescription release provision could be substantially improved.'' This 
is consistent with the comments of 20 State Attorneys General who 
reported to the Commission that: ``[t]he States are aware, from their 
enforcement efforts and collective experience, that not all patients 
receive their prescription in writing as a matter of course.'' The NPRM 
also proposed the common sense solutions of having consumers sign an 
acknowledgement that they have received their prescriptions and 
clarifying the right of consumers and their chosen retailers to receive 
additional copies of those prescriptions.
    If confirmed, will you prioritize finalizing this proposed rule, to 
help ensure all consumers will receive copies of their prescriptions, 
as Congress intended? Considering FTC's limited resources, and the 
significant resources that would be required to take action against 
individual prescribers who are not in compliance with this requirement 
under the current rule, do you agree that the FTC's proposed rule is an 
efficient means of promoting compliance?
    Answer. My understanding is that the FTC has received and is 
analyzing thousands of comments on this and related issues, and is 
holding a workshop in March on this topic. If confirmed, I will work 
with staff to understand the nature of the feedback received from 
consumers, industry, and others regarding how best to promote 
competition while preserving patient safety. I will then coordinate 
with my colleagues on the Commission to move forward accordingly.
    Question 13. The FTC has not pursued any enforcement activity under 
the Military Lending Act, despite having the authority to enforce this 
important protection. If confirmed, would you support vigorous 
enforcement of the MLA?
    Answer. If confirmed, I will vigorously enforce all laws and rules 
within the jurisdiction of the FTC, including the Military Lending Act.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                          Christine S. Wilson
    Question 1. The February 2013, the Federal Trade Commission 
published a report that found that five percent of consumers had errors 
on their credit reports that could result in less favorable terms for 
loans.
    Based on that study, do you think the consumer reporting agencies 
(CRAs) comply with the Fair Credit Reporting Act (FCRA)'s requirement 
to ``follow reasonable procedures to assure maximum possible accuracy'' 
of credit reports? (15 USC 1681e(b))
    Do you think the FTC should conduct a follow up study to see if 
error rates have improved?
    If error rates continue to impact millions of Americans, what 
actions should the FTC take to enforce compliance with the FCRA?
    Answer. The FCRA, originally passed in 1970 to prevent misuse of 
consumer information in insurance, employment, and credit transactions, 
is an important consumer protection statute. The Act allows use of 
credit information for ``permissible purposes'' that benefit consumers 
and requires notice to consumers when ``adverse actions'' are based on 
a credit report, enabling consumers to verify the accuracy of the 
information. The FTC played a key role in the reauthorization of the 
statute in the Fair and Accurate Credit Transactions Act (``FACTA'') in 
2003 that strengthened consumer protections, particularly against 
identity theft.
    I have not had an opportunity to review the referenced study and 
the analysis and data underlying its conclusions, but look forward to 
doing so if confirmed. In conjunction with FTC staff familiar with the 
methodology and findings of the study, I will work with my colleagues 
on the Commission and other relevant agencies (including the CFPB) to 
understand the sources of errors on credit reports and the best ways to 
lower error rates, clearly an important goal. An additional study may 
be useful to advance this process, and additional enforcement may be 
justified by the facts uncovered during this process.

    Question 2. Do you think the policies and practices of CRAs to 
handle consumer disputes are in compliance with the FCRA?
    Answer. I do not have information sufficient to evaluate the facts 
and provide an informed answer to this question. If confirmed, I will 
consult with FTC staff and my colleagues on the Commission to determine 
whether the policies and practices of the CRAs are in compliance with 
the FCRA, other laws, and relevant orders, and take appropriate actions 
based on that evaluation.

    Question 3. In 2015, the New York Attorney General reached a 
groundbreaking settlement with the three national consumer reporting 
agencies--Experian, Equifax, and TransUnion. The terms of the 
settlement require the CRAs to do more to ensure maximum possible 
accuracy of credit reports and to improve the dispute resolution 
process for consumers.
    Do you think the terms of the settlement regarding dispute 
resolution represent best practices for CRAs' compliance with the 
FCRA's requirement that CRAs conduct a ``reasonable reinvestigation'' 
if the consumer disputes the accuracy of the information in his or her 
credit report? (15 USC 1681i)
    Can the FTC use its current authorities to hold CRAs to higher 
standards when it comes to handling consumer disputes?
    Answer. I have not had an opportunity to review the terms of the 
referenced settlement and how its provisions relate to the requirements 
of the FCRA. If confirmed, I will consult with FTC staff and my 
colleagues on the Commission (and the New York State AG's Office, as 
appropriate) to understand the extent to which the settlement could be 
viewed as a set of best practices for FCRA purposes, and to assess 
whether the FTC has the authority to hold the CRAs to higher standards.

    Question 4. What are your views on the adequacy of the Fair Credit 
Reporting Act enforcement regime?
    Answer. During my tenure as Chief of Staff to Chairman Muris, the 
FTC undertook enforcement actions for order violations by CRAs. More 
recently, though, I have not had an opportunity to study this issue. If 
confirmed, I will consult with FTC staff and my colleagues on the 
Commission regarding the adequacy of the FCRA enforcement regime. 
Should the FTC need additional tools or resources, in conjunction with 
my fellow Commissioners, I would enter into a discussion with Congress.

    Question 5. What are your views on the inclusion of medical debt in 
credit reports?
    Answer. If confirmed, I look forward to consulting with FTC staff 
and my colleagues on the Commission regarding the kinds of debts that 
should be reflected in credit reports, as well as opportunities for 
CRAs to monitor the accuracy of information submitted by furnishers, so 
as to provide accurate information to potential lenders while 
preserving the intended consumer protections of the FCRA and Section 5 
of the FTC Act.

    Question 6. Consumers have the right to inspect their credit 
reports every year. Do you think they should also have the right to 
inspect their credit score?
    Answer. It is my understanding that some companies provide credit 
scores to existing customers, and others offer credit scores free of 
charge to any consumer. If confirmed, I look forward to consulting with 
FTC staff and my colleagues on the Commission regarding the bundle of 
consumer rights necessary to preserve the intended consumer protections 
of the FCRA and Section 5 of the FTC Act.

    Question 7. Do you think the credit reporting market is functioning 
well? In your view, what areas could be improved?
    Answer. The credit reporting market serves the important goal of 
enabling consumers to smooth income streams over time. CRAs have 
assumed a vital role in assembling complex data and evaluating consumer 
credit and other information on consumers. To effectively capitalize on 
the benefits of credit, the credit reporting market must function well, 
which in turn requires lenders to have access to fair and accurate 
credit reporting. If confirmed, I look forward to consulting with FTC 
staff and my fellow Commissioners regarding how effectively the market 
is working today and what steps the FTC can take to improve its 
effectiveness.

    Question 8. Do you think it is sound public policy for consumers to 
have to pay to freeze their credit report?
    Answer. I have not had an opportunity to consider this issue. If 
confirmed, I look forward to consulting with FTC staff and my 
colleagues on the Commission regarding how this issue fits into the 
larger context of the intended consumer protections of the FCRA and 
Section 5 of the FTC Act.

    Question 9. Do you think it is confusing for consumers to 
understand the difference between freezes, which are defined by and 
regulated under state law, and the CRAs' various ``lock'' products, 
which fall outside of the protection of state law?
    Answer. I have not had an opportunity to consider this issue. If 
confirmed, I look forward to consulting with FTC staff and my 
colleagues on the Commission regarding the various products offered by 
the CRAs, how those are analyzed under state and Federal law, any 
resulting disconnects, and appropriate next steps to reduce any 
existing consumer confusion. The FTC's consumer education platform is 
robust and likely could be useful in addressing any consumer confusion 
in this area.

    Question 10. Should the FTC have the authority to ensure compliance 
with the Safeguards Rule?
    Answer. In conjunction with implementing the Gramm-Leach-Bliley 
Act, the FTC issued the Safeguards Rule. This rule, issued during my 
tenure as Chairman Muris' Chief of Staff, requires financial 
institutions under FTC jurisdiction to have measures in place to keep 
customer information secure. Since its issuance, the FTC has conducted 
important enforcement efforts pursuant to this rule, including its 
recent action against TaxSlayer. If confirmed, I would consult with FTC 
staff and my colleagues on the Commission to determine the status of 
the rule, and whether revisions (including to the FTC's scope of 
authority) would be appropriate. I would support FTC discussions with 
Congress, if appropriate, regarding the FTC's scope of authority.

    Question 11. Do you think the FTC has the right expertise and 
capacity to investigate and evaluate algorithms for unfair, deceptive, 
fraudulent consumer practices in the marketplace?
    Answer. I appreciate the discussions we had on this issue before 
the Feb. 14, 2018 confirmation hearing and at the hearing itself. I 
have had an opportunity to review some publicly available materials 
regarding the FTC's research in this area. If confirmed, I would talk 
with FTC staff and my colleagues on the Commission regarding the FTC's 
capacity and expertise in this arena. To the extent unfair and/or 
deceptive practices are occurring within the scope of the FTC's 
jurisdiction, I would support enforcement actions. And to the extent 
additional resources and/or tools are required to reach relevant 
conduct, in conjunction with my colleagues on the Commission, I would 
support a dialogue with Congress.

    Question 12. Will you prioritize bringing in additional technical 
talent to strengthen FTC's mission in the digital domain?
    Answer. As an increasing portion of the U.S. economy has moved 
online, the FTC has taken corresponding steps to increase its 
capabilities in this arena. For example, the FTC now has a Chief 
Technologist whose role is to advise the Commission on technology 
matters, including the FTC's use of technology, technical aspects of 
law enforcement actions, and technology policy recommendations. If 
confirmed, I would support efforts to ensure that the FTC has the 
resources and expertise necessary to carry out its mission effectively, 
including as it relates to the digital domain. To the extent additional 
resources and/or tools are required to reach relevant conduct, in 
conjunction with my colleagues on the Commission, I would welcome a 
discussion with Congress.

    Question 13. What are your views of the FTC's ability to ensure 
adequate oversight of online privacy? Please include your perspective 
on the FTC's expertise and the adequacy of the regulatory tools 
available to it. What specific actions would you propose the FTC 
undertake to improve online privacy?
    Answer. During my tenure as FTC Chief of Staff, the FTC spent a 
great deal of time on (and established important precedents with 
respect to) online privacy issues. Both before and since that period, 
the FTC has been quite active in, and consequently has developed 
significant expertise regarding, the issues in this arena. Moreover, 
the FTC has a variety of tools at its disposal, including the FTC Act 
and COPPA as well as a robust consumer and business education platform. 
If confirmed, I would discuss with FTC staff and my fellow 
Commissioners the additional actions that constructively could be taken 
in this arena, and what additional authority and tools may be required. 
If appropriate, and in conjunction with my colleagues on the 
Commission, I would welcome a discussion regarding any additional 
authority and tools necessary to effectively fulfill the FTC's mission 
in this important space.

    Question 14. The FCC's Net Neutrality order is premised upon ISPs 
disclosing voluntary policies and the FTC enforcing compliance with 
those polices. Do you agree that the FTC's authority only extends to 
enforcing a company's compliance with whatever policy the company 
issues? If not, please explain.
    If the Ninth Circuit's decision in FTC v. AT&T Mobility is allowed 
to stand, what authority, if any, will the FTC retain to enforce these 
company policies?
    Answer. The extent of the FTC's authority over common carriers will 
be determined by the courts and Congress. If the FTC has jurisdiction, 
and if I am confirmed, I will coordinate with FTC staff and my 
colleagues on the Commission to ensure full and effective enforcement 
of all applicable laws within the FTC's jurisdiction, including those 
with respect to unfair and/or deceptive acts undertaken by ISPs. 
Furthermore, I will work with FTC staff and my colleagues on the 
Commission to identify any additional resources that may be necessary 
and will consult with Congress accordingly.

    Question 15. What is your view of the propriety of the FTC imposing 
conditions on proposed mergers as compared with suing to block a deal? 
How would you evaluate when to use one or the other?
    Answer. Merger remedies usefully can be employed when they are 
capable of preserving competition that otherwise would be lost by 
virtue of a proposed merger. But some proposed mergers may threaten to 
substantially lessen competition in ways that cannot be remedied. In 
those instances, suing to block would be appropriate. As Mr. Simons and 
I both discussed during our confirmation hearing, it will be important 
for the FTC to conduct detailed merger retrospectives to determine 
whether prior agency decisions to clear or block mergers (with and 
without remedies) produced the intended results. Those findings can 
then be used to determine whether merger policy changes are warranted.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Christine S. Wilson
    Question 1. What are your ideas how to promote consumer protection 
in an increasingly online--and connected--world?
    Answer. Ensuring consumer protection in an increasingly online and 
connected world will require a multi-pronged approach. Among other 
things, the FTC will need to ensure that it is staying abreast of (or 
ahead of) the technological capabilities of bad actors. It will need to 
closely monitor developments in the marketplace, including through (1) 
collaboration with other federal, state, and foreign agencies, (2) the 
feedback of honest industry participants, and (3) careful analysis of 
consumer complaints. And it will need to work closely with other law 
enforcement agencies, both in the U.S. and abroad, to bring bad actors 
to justice. This set of tasks is complex and challenging. If confirmed, 
I will work with FTC staff and my colleagues on the Commission to 
identify any additional resources that may be necessary and will 
consult with Congress accordingly.

    Question 2. Do you believe that the current FTC enforcement 
principles are sufficient to protect consumers? And do you believe the 
FTC has the resources necessary to protect consumers given the 
significant amount of work on the docket for the agency?
    Answer. Yes, I believe that the FTC's enforcement authority under 
Section 5 of the FTC Act and other laws, together with corresponding 
precedent, is sufficient to protect consumers. That said, if confirmed, 
I will work with FTC staff and my colleagues on the Commission to 
identify any additional tools, resources and/or authority that may be 
necessary and will consult with Congress accordingly.

    Question 3. In December, I wrote to the FTC, along with Senators 
Schumer and Blumenthal, asking for a workshop to discuss the increased 
use of ``bots'' to purchase large quantities of in-demand toys and 
items, particularly at Christmas. The FTC has confirmed that it will 
engage with key stakeholders to determine if a workshop is necessary. 
Will you commit to reviewing the record on this issue and to working 
with my office to determine next steps, including the possibility of 
legislation?
    Answer. Yes.

    Question 4. Last week, an article in TechCrunch showed how Facebook 
uses data from Onavo Protect, a subsidiary app, to gather data on its 
competitors; how Google uses its search rankings to demote alternate 
competitive sites; and Amazon's aggressive low pricing undercuts book 
publishers. Under your respective leadership, how will the FTC enforce 
the principles of unfair methods of competition against tech giants 
like Facebook, Google and Amazon to promote consumer welfare?
    Answer. If confirmed as a Commissioner, within the jurisdiction of 
the FTC, I will follow the facts where they lead without regard to the 
identity or size of the company at issue. No entity is or should be 
above the law. Thus, for both competition and consumer protection 
issues, tech giants will be subject to the same ``rules of the road'' 
that the FTC applies to every other company.

    Question 5. Following the FTC's approval of the Google/DoubleClick 
acquisition in 2007, then Commissioner Pamela Jones Harbor released a 
dissent detailing the need for the commission to ``evaluate the 
implication of this kind of data merger from a competition as well as a 
consumer protection perspective.'' As commissioner, how would you use 
this framing of data mergers in evaluating mergers and acquisitions in 
the technology industry?
    Answer. The analytical framework used for evaluating the likely 
competitive effects of mergers is broad and flexible. Thus, mergers 
involving technology companies should be evaluated in essentially the 
same way as other mergers. Namely, the reviewing agency should ask 
whether the proposed merger will inhibit competition in any way, 
including by raising prices, reducing output, limiting choice, 
decreasing quality, weakening privacy protections, or constraining 
innovation. If careful analysis of these factors reveals that a 
proposed merger is likely to substantially lessen competition, then the 
merger should be subject to enforcement action.
    As Mr. Simons and I both discussed during our confirmation hearing, 
it will be important for the FTC to conduct detailed merger 
retrospectives to determine whether prior agency decisions to clear or 
block mergers, including those in the technology sector, produced the 
intended results. Those findings can then be used to determine whether 
merger policy changes are warranted.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                          Christine S. Wilson
    Question 1. When Congress passed the Fairness to Contact Lens 
Consumers Act in 2004 it helped reduce barriers to retail competition 
in the contact lens market and led to lower prices for consumers. 
However, contact retailers sometimes sell patients contact lenses after 
the prescription has expired or fail to adequately verify the 
prescription in accordance to FCLCA. In some cases, this has led to 
dangerous eye and health conditions for the patient. How can the FTC 
work in coordination with the FDA, CDC and other Federal agencies to 
make sure contact lens patients are receiving high quality care and 
safe contact lenses?
    Answer. The FTC has a rich history of working collaboratively with 
sister Federal agencies to ensure that their expertise is reflected in 
FTC policies. If these agencies have information relevant to the FCLCA 
and any proposed revisions, if confirmed, I will encourage FTC staff to 
coordinate with other relevant agencies as appropriate to ensure that 
issues pertaining to patient safety are given due consideration.

    Question 2. In December 2016, the FTC issued a proposed change to 
the current Contact Lens Rule that mandated that all eye doctors obtain 
a signed acknowledgement form from each of their contact lens patients 
when they receive a copy of their prescription. Do you know of any 
other ways for patients to understand their right to their contact lens 
prescription that would be just as, if not, more effective than a 
written acknowledgement?
    Answer. My understanding is that the FTC has received and is 
analyzing thousands of comments on this and related issues, and is 
holding a workshop in March on this topic. If confirmed, I will work 
with FTC staff to understand the nature of the feedback received from 
consumers, industry, and others regarding how best to promote 
competition while preserving patient safety, including alternate 
mechanisms to notify consumers of their rights under the Contact Lens 
Rule. I will then coordinate with my colleagues on the Commission to 
move forward accordingly.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                         to Christine S. Wilson
    Question 1. Restoring Internet Freedom FCC-FTC MOU
    Within the net neutrality MOU, signed between the FCC and FTC, 
regarding the FTC's authority it states: ``Congress has directed the 
FTC to, among other things, prevent unfair methods of competition and 
unfair or deceptive acts or practices in or affecting commerce.''
    Therefore, can you say without reservation that you'll have what 
you will need, upon being confirmed at the FTC, to actually catch 
improper actions taken by Internet service providers toward consumers?
    Answer. Until the FCC reclassified broadband as a common carrier 
service under Title II of the Communications Act in 2015, Internet 
service providers (ISPs) fell within the jurisdiction of the FTC. In 
its July 17, 2017 submission to the FCC, FTC staff noted that before 
this reclassification, the FTC used its consumer protection authority 
to protect broadband consumers, including in matters pertaining to the 
advertising, marketing, and billing of broadband services and those 
concerning privacy and data security. FTC staff noted in the same 
submission that, before this reclassification, the FTC also used its 
competition authority to protect consumers and the competitive process 
in Internet and Internet-related markets. FTC staff further noted that 
even today, the FTC is using its jurisdiction to address practices 
similar to those of concern in the net neutrality space.
    Based on this lengthy historical expertise, I believe the FTC has 
the tools and expertise necessary to identify and act upon improper 
actions taken by ISPs toward consumers. If confirmed, and if the FTC 
has jurisdiction, I will coordinate with FTC staff and my colleagues on 
the Commission to identify any additional resources that may be 
necessary and will consult with Congress accordingly.

    Question 2. Court Case on FTC Authority over ``Common Carriers''
    Unfortunately we still don't know the full FTC authority over 
common carriers, like in the case pending on AT&T, so I would like to 
hear what you anticipate will be FTC's authority going forward.
    Answer. The extent of the FTC's authority over common carriers will 
be determined by the courts and Congress. If the FTC has jurisdiction, 
and if I am confirmed, I will coordinate with FTC staff and my 
colleagues on the Commission to ensure full and effective enforcement 
of all applicable laws within the FTC's jurisdiction. Furthermore, I 
will work with FTC staff and my colleagues on the Commission to 
identify any additional resources that may be necessary and will 
consult with Congress accordingly.

    Question 3. Court Case on FTC Authority over ``Common Carriers''
    How you can ensure the FTC will even have the authority to enforce 
the limited principles covered in Chairman Pai's weak form of net 
neutrality?
    Answer. As noted above, the extent of the FTC's authority over 
common carriers will be determined by the courts and Congress. If 
confirmed, I would support an FTC dialogue with Congress, if 
appropriate, regarding the proper scope of that authority.

    Question 4. Court Case on FTC Authority over ``Common Carriers''
    And I would ask if you can provide me a true commitment to act on 
behalf of consumers who are impacted by less than fair practices by 
some in the telecommunications industry.
    Answer. If confirmed, yes, as to conduct falling within the 
jurisdiction of the FTC and in conjunction with FTC staff and other 
Commissioners.

    Question 5. Broad Positions on FTC's Place on Net Neutrality
    Can you please define for me what the lead telecommunications 
policy expert Federal agency is, in your opinion?
    Answer. The Federal Communications Commission is responsible for 
implementing and enforcing America's communications law and 
regulations. The FTC is charged with enforcing the FTC Act and many 
other laws governing competition and consumer protection. The FCC and 
the FTC shared jurisdiction over ISPs prior to the reclassification of 
broadband in 2015, and the FTC actively enforced competition and 
consumer protection laws against ISPs during this period. Moreover, the 
FTC coordinated closely with the FCC to implement the Do Not Call List 
under Chairmen Muris and Powell. Shared jurisdiction between sector-
specific regulators and competition/consumer protection authorities 
appears in other industries, and can be an effective force for ensuring 
that consumers are protected and markets are operating efficiently.

    Question 6. Broad Positions on FTC's Place on Net Neutrality
    Have you specifically recently read the MOU on net neutrality 
between the FCC and FTC, and do you support it in its entirety?
    Answer. I have reviewed the FTC/FCC MOU. As in other instances in 
which a sectoral regulator shares jurisdiction and works closely with a 
consumer protection/competition authority, this MOU appears to create a 
cooperative framework that capitalizes on the strengths and expertise 
of each agency for the benefit of American consumers. As noted above, 
my experience in the joint efforts of the FTC and FCC to implement the 
Do Not Call initiative has led me to believe that constructive 
cooperation of this type does enhance the public interest. If 
confirmed, I will fully support the MOU's implementation. Of course, I 
would want to discuss the MOU with FTC staff and my colleagues on the 
Commission to determine whether any revisions would further enhance the 
cooperative framework and benefit the American public.

    Question 7. Broad Positions on FTC's Place on Net Neutrality
    What is your understanding of the capacity of the staff currently 
at the FTC, and do you think you can effectively execute this agreement 
enough to garner true public trust in ensuring a truly free and open 
internet?
    Answer. My understanding is that total FTC staff levels are roughly 
similar to FTC staff levels prior to the 2015 reclassification. In 
comments submitted to the FCC, FTC staff described the robust 
enforcement efforts undertaken with respect to ISPs and the Internet 
prior to reclassification. Thus, my general sense based on public 
knowledge is that--all other things being equal--if the FTC is 
effectively deploying its resources, it likely has the capacity to 
effectively implement the MOU. If confirmed, I would consult with FTC 
staff regarding their capacity and whether any additional resources or 
tools would be required to execute this agreement fully.

    Question 8. Broadband Internet Speed Honesty
    I am aware that various state Attorneys General are concerned that 
a telecomm industry petition to the FCC on cost transparency, related 
to the advertisement of Internet speeds, quote ``represents nothing 
more than the industry's effort to shield itself from state law 
enforcement.''
    Given the FTC's mission regarding deceptive practices, can you 
speak to your perspective on whether this is fair consumer protection 
issue to be concerned about at FTC, given the prices and promises ISPs 
make to generate more business?
    Answer. I have not studied the referenced petition to the FCC. That 
said, if the FTC has jurisdiction over ISPs, it would be appropriate 
for the FTC to analyze whether the advertisements and business 
practices of ISPs are lawful under Section 5 of the FTC Act, and to 
take action when they are not.

    Question 9. FTC Investigation on GPS Tracking of Vehicles
    Last year it was revealed that the Federal Trade Commission is 
investigating GPS tracking technologies used in the subprime auto loan 
industry, but my understanding is that no findings or rulings have been 
released. Going back as far 2014, the New York Times had highlighted 
this as a concern. In their piece, they highlighted a troubling story 
of a mother in Las Vegas, Mary Bolender, who needed to get her child 
with a 103.5-degree fever to the ER, but her 2005 Chrysler van wouldn't 
start. As the piece says--``The cause was not a mechanical problem--it 
was her lender.''
    Now I have a number of concerns with their as a business practice, 
but can I get a commitment from you to continue to look into this issue 
and publically provide information on your findings and enforcement 
determinations in a timely manner?
    Answer. Public materials indicate the FTC has undertaken some work 
on this issue. If confirmed, I will consult with FTC staff and my 
colleagues on the Commission to determine the extent to which findings 
and determinations can be disclosed regarding the FTC's work in this 
area, and also to ascertain whether additional analysis and/or 
enforcement would be appropriate.

    Question 10. Franchise Business Oversight
    The FTC has jurisdiction over franchise businesses. In my state, I 
have heard complaints from Subway franchisees that the Franchise 
Disclosure Document is written in favor of the franchisor in a way that 
can undermine their ability to succeed. Nevada's neighboring state of 
California has passed a bill protecting franchisees.
    How can the FTC expand protections for franchisees so they can 
financially succeed?
    Answer. The FTC enforces the Franchise Rule (adopted in 1979 and 
most recently amended in 2008), which is designed to give prospective 
purchasers of franchises the material information they need in order to 
weigh the risks and benefits of such an investment. If confirmed, I 
would consult with FTC staff and my colleagues on the Commission 
regarding the state of the Franchise Rule and its enforcement, and to 
determine whether additional steps (whether rule revisions, 
enforcement, or other actions) are warranted and within the 
jurisdiction of the FTC.

    Question 11. Mortgage Closing Fraud
    Thieves have been targeting mortgage closings, where they break 
into a realtor or title company's e-mail accounts. Then, they tell the 
homebuyer to wire money they have saved and borrowed to a bank account 
owned by the thieves.
    How do you think the FTC can work with the Consumer Financial 
Protection Bureau to prevent these types of scams?
    Answer. With respect to this question, and to the two following 
questions: Deceptive or unfair practices with respect to mortgage 
closing fraud, reverse mortgages, and debt collection present 
significant concerns. Under its own authority, and in close cooperation 
with the CFPB pursuant to the FTC/CFPB MOU, the FTC should continue to 
pursue these issues vigorously. Furthermore, the FTC's consumer 
education expertise should continue to be brought to bear on these and 
other important issues in the financial services space.

    Question 12. Reverse Mortgages
    Reverse mortgages are products sold to seniors to help them ``age-
in-place'' and use their home equity as a means by which to responsibly 
pay their bills. Reverse mortgages can be sensible products, but 
sometimes have been falsely advertised to seniors. The FTC and the 
Consumer Financial Protection Bureau conducted a ``sweep'' of reverse 
mortgage advertisements, and a review of consumer complaints, and found 
that three reverse mortgage companies engaged in deceptive advertising 
which misled consumers.
    Given the overlapping jurisdictions between the Consumer Financial 
Protection Bureau and the FTC, can you discuss how you envision the two 
entities work together to combat financial fraud, specifically scams 
impacting seniors?
    Answer. Please see above.

    Question 13. Debt Collection
    Debt collectors generate more complaints to the FTC than any other 
industry. And in recent years, the CFPB has noted that debt collection 
remains the top complaint received by the Bureau from older Americans. 
Specifically, the Consumer Bureau identified several issues related to 
debt collection and seniors, including hounding calls, harassment and 
threats of impermissible Social Security garnishment.
    How do you think the FTC could work with the CFPB to bring more 
rules-of-the road to this part of the financial services marketplace to 
protect consumers--particularly seniors--from fraudulent practices?
    Answer. Please see above.

    Question 14. Merger Review Commitment
    With increased multi-industry players growing in prominence by 
acquiring more businesses outside their core business model, can you 
commit to reviewing the horizontal merger guidelines, which have not 
directly addressed vertical mergers since 1984?
    Answer. As Mr. Simons and I both discussed during our confirmation 
hearing, it will be important for the FTC to conduct detailed merger 
retrospectives to determine whether prior agency decisions to clear 
mergers (with and without remedies) adequately preserved competition 
and protected consumers. Using those findings, it would then be 
appropriate to determine whether policy changes are warranted with 
respect to mergers of all types.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                          Noah Joshua Phillips
    Question 1. Many online companies are engaging in targeted 
advertising. Using consumer data, companies can target what they deem 
to be the most relevant ads to consumers. Should there be more 
transparency into how the algorithms behind targeted advertising work 
so that consumers can see how they are being targeted for certain 
messages?
    Answer. Enhancing the ability of advertisers to reach consumers who 
have a higher likelihood of wanting to purchase particular products can 
benefit both consumers and advertisers, but consumers are rightly 
interested in the means by which they are reached. If confirmed, I 
would be willing to explore this question with my colleagues and career 
staff.

    Question 2. Would third party audits of algorithms be a reasonable 
way to ensure the algorithms are doing what companies claim and not 
harming competition or consumer choice? Is this something the FTC might 
consider looking into?
    Answer. In my oral testimony before the Committee, I discussed the 
need of the FTC to keep abreast of trends in technology and business 
practices. The increasing use of algorithms in determining pricing and 
other questions is a good example of a trend that, I believe, the FTC 
needs to monitor closely. If confirmed, I would be interested in 
looking into this issue, including the question whether the audits you 
mention are a reasonable way to protect consumers and promote 
competition.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                          Noah Joshua Phillips
    Question 1. As a former Attorney General of Alaska, I always 
appreciated coordination with Federal agencies where appropriate, and 
the opportunity to communicate solutions that made the most sense for 
Alaskans. Given the importance of state attorneys general to the FTC's 
antitrust enforcement, please describe your views on the working 
relationship between the FTC and state attorneys general.
    Answer. My view is that State Attorneys General can be a ``force 
multiplier'' to help the FTC deal with those who violate the law, and 
that they provide indispensable information about what is going on in 
their respective states. I believe that coordination between the FTC 
and State Attorneys General is important to the agency's mission.

    Question 2. As you know, the state I represent is unique which 
means its problems are unique and require unconventional solutions. In 
a highly rural state like Alaska, many communities are not connected by 
roads, challenging weather conditions prohibit timely delivery of mail 
and other essential services, and quality connectivity is considered a 
luxury. One of your objectives at the Commission is consumer protection 
and education. How will you ensure that rural constituents like mine 
have the tools they need to make informed decisions and in cases of 
abuse that require follow up, for example data breaches or identity 
theft, the information necessary to mitigate risks and resolve the 
issue?
    Answer. The consumer protection mission of the FTC extends to all 
Americans, whoever they are and wherever they live; and consumer 
education is an important part of that. If confirmed, I will work with 
staff and my colleagues to examine the FTC's performance of its 
objectives in rural areas, including Alaska. I would also look forward 
to working with your office on how the FTC can better serve Alaskans.

    Question 3. In your prepared statement, you discuss anticompetitive 
consolidation, which immediately called to mind the enormous market 
capitalization of tech companies. Recent calculations value the four 
largest tech companies' capitalization at $2.8 trillion dollars, which 
is a staggering 24 percent of the S&P 500 Top 50, close to the value of 
every stock traded on the Nasdaq in 2001, and to give a different 
perspective, approximately the same amount as France's current GDP. 
Press reports have also noted allegations of increased anti-competitive 
behavior by some of these companies. Is there a point at which these 
companies are simply too big from an antitrust standpoint?
    Answer. Like many Americans, I experience daily the profound impact 
these companies have on my life and the lives of those around me. Their 
size and scope is remarkable. Under our antitrust laws, size is not, in 
and of itself, a cause for concern. It may reflect success in providing 
consumers with products and services that they value, improving their 
welfare. But growth or the maintenance of market power through 
anticompetitive conduct can violate the law and hurt consumers, and the 
FTC has an important role to play in enforcing the law. That no one--
and no corporation, no matter how large--is above the law is a bedrock 
principle of American justice. I believe the FTC should apply the law 
fairly and carefully, no matter who may be violating it.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Dean Heller to 
                          Noah Joshua Phillips
    Question. When Congress passed the Fairness to Contact Lens 
Consumers Act in 2003, it was a pro-consumer measure that ensured 
consumers automatically receive a copy of his or her prescription after 
an eye exam--without having to ask for it, pay an additional fee, or 
sign a waiver. Do you agree that consumers should receive copies of 
their prescriptions as Congress intended so that they can use the 
prescription to purchase their contact lenses from a source of their 
choosing?
    Answer. Our constitutional system gives it to Congress to write the 
laws and the Executive Branch--including the FTC--to enforce them. The 
FTC should always strive to give effect to the intent of Congress, as 
reflected in the text of the laws it passes. As a consumer, I have 
certainly found it beneficial to be able to take my eyeglass 
prescriptions with me. As a nominee, I have not studied the Contact 
Lens Rule in depth. I do understand that the agency has received 
substantial input from a wide variety of stakeholders over several 
years, and is convening a workshop next month on the ongoing review of 
the Rule. If confirmed, I look forward to working with staff and my 
colleagues to review the results of that work to determine the best 
course forward as the FTC reviews the Contact Lens Rule.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Noah Joshua Phillips
    Question 1. The FTC is a relatively small agency that has to 
effectively use its resources to cover a very broad jurisdiction. In 
this regard, as a matter of discretion, it may be wise for the FTC to 
pursue enforcement cases involving practices that result in substantial 
harm. However, substantial harm is not a legal requirement under 
section five of the FTC Act--cases involving deception do not require 
harm at all, and cases involving unfairness can involve harm that is 
prospective and/or non-financial. Consequently, it is very important 
that commissioners do not stringently require types of harm as a legal 
test for agency enforcement actions. This principle is particularly 
important because Lab MD is challenging the FTC's legal authority to 
bring enforcement actions for data breaches based on the lack of 
requisite harm. As a commissioner, will you pledge to not require 
substantial harm or financial harm as legal tests for FTC enforcement 
actions?
    Answer. If confirmed, I pledge to enforce the FTC Act as written, 
and consistent with legal precedent. Section 45(n) requires 
``substantial injury'' in unfairness cases, but not deception cases. My 
understanding is that ``substantial injury'' is not limited 
specifically to financial harms.
    Under the FTC's 1983 Policy Statement on Deception, the Commission 
will find deception ``if there is a representation, omission or 
practice that is likely to mislead the consumer acting reasonably in 
the circumstances, to the consumer's detriment.'' As the Policy 
Statement notes, the representation, omission or practice must be 
material.

    Question 2. The FTC's Bureau of Economics provides valuable insight 
and analysis that supplements the FTC's work. However, the FTC is, 
first and foremost, a law enforcement agency, not a regulatory agency. 
As such, economic analysis should play a complementary role, not a 
dispositive one. The FTC should enforce the FTC Act and the other laws 
under its jurisdiction according to legal doctrine, not economic 
analyses. As a commissioner, will you pledge to continue to further the 
FTC as a law enforcement agency in which the Bureau of Economics and 
economic analyses play a complimentary role, not a dispositive role? 
Will you pledge to enforce the law according to legal precedent?
    Answer. I agree that the FTC's Bureau of Economics provides 
valuable insight and analysis, which plays an integral role in and 
supplements the FTC's work. If confirmed, I pledge to enforce the law 
according to legal precedent.

    Question 3. Piracy continues to be a problem that plagues content 
providers. The Internet is filled with websites that provide pirated 
content and entertainment at the expense of the companies that produce 
the content. Moreover, many of these websites can harm consumers with 
unsafe or even fraudulent data and commercial practices. What can the 
FTC do to crack down on the illegal piracy of American entertainment 
and content?
    Answer. The FTC is one of several Federal agencies that can deal 
with content piracy and the bad practices that sometimes attend it. The 
FTC can enforce the laws Congress has charged it with enforcing and 
engage in consumer and business education. The FTC has in the past 
conducted workshops dealing with malware-related issues, and maintains 
online outreach on them. The Commission also has brought enforcement 
actions against companies that surreptitiously downloaded such computer 
programs onto consumers' computers.

    Question 4. Fraudulent websites can deceive consumers by 
masquerading as legitimate hotel websites. Consumers who are fooled by 
these sites reserve rooms that do not exist or turn out to be different 
from what they reserved online. According to industry statistics, this 
particular fraud affects millions of consumers a year and costs the 
hotel industry hundreds of millions of dollars. I wrote former FTC 
Chairwoman Edith Ramirez about this issue in June 2015. Will you pledge 
to ensure that the FTC will work with other law enforcement entities 
(such as state attorneys general) to bring enforcement actions against 
fraudulent hotel websites?
    Answer. I believe that the FTC should work with other law 
enforcement entities, including State Attorneys General where 
appropriate. If confirmed, I will support the FTC's efforts to work 
with other law enforcement agencies, including State AGs, to address 
practices that are unfair or deceptive within the meaning of the FTC 
Act, including fraudulent hotel websites.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Noah Joshua Phillips
    Question 1. What experience do you have working with State 
Attorneys General? What are your views regarding the Commission working 
with state law enforcement?
    Answer. Other than in my capacity as a Senate staffer, I do not 
have personal experience working with State Attorneys General. My 
general view is that they can be a ``force multiplier'' to help the FTC 
deal with those who violate the law, and that they provide 
indispensable information about what is going on in their respective 
states.

    Question 2. In the Dodd-Frank Act of 2010, Congress gave the FTC 
extensive authority over the sale, servicing, and leasing of 
automobiles--charging it to protect consumers from abusive auto lending 
practices and granting it exclusive authority to draft rules governing 
unfair or deceptive acts or practices by automobile dealers. Would you 
support the FTC using its rulemaking authority to rein in unfair or 
deceptive acts or practices by automobile dealers?
    Answer. As a nominee, I have not studied this question. If 
confirmed, I would be open to consulting with my colleagues and staff 
on it.

    Question 3. More than 17 million Americans are the victims of 
identity theft every year. This problem seems to increase year over 
year as identity theft scams seem to get more sophisticated.
    Three years ago, the FTC established IdentityTheft.gov. This site 
is supposed to be a one-stop shop for victims of identity theft where 
they can easily freeze credit across the big three credit reporting 
agencies, and recover their stolen identities.
    This website's functionality is limited, however, because of what 
appears to be a lack of engagement by the credit bureaus to make the 
site what it should be.
    How would you engage with credit bureaus to ensure 
IdentityTheft.gov has a comprehensive suite of easy to use tools 
allowing victims of identity theft to recover as quickly as possible, 
with as little stress as possible? What are your expectations with 
respect to the role the credit reporting agencies should play in making 
IdentityTheft.gov an effective one-stop shop for identity theft 
victims?
    Answer. If confirmed, I look forward to consulting with my 
colleagues and career staff at the FTC regarding both IdentityTheft.com 
itself and the role that credit bureaus are playing--or not playing--in 
its success. My expectation is that those agencies will abide by legal 
obligations and commitments made to the FTC.

    Question 4. Would you support FTC's jurisdiction be expanded to 
include non-profits and charities so that it can act more swiftly to 
prevent and stop illegal conduct in the nonprofit sector?
    Answer. I understand the important arguments in favor of expanding 
the FTC's jurisdiction to include non-profits and charities. Before 
taking a position on the issue, however, I would consult with my fellow 
commissioners, career staff and members of Congress. I am interested in 
your view on this issue.

    Question 5. Other Federal agencies charged with consumer protection 
make an array of data available on consumer complaints received. The 
FTC releases relatively very little data on companies receiving 
significant levels of complaints. Do you think the FTC should be more 
transparent about the complaints it receives?
    Answer. I think transparency is an important virtue in government, 
and over the course of my Senate career have worked to improve laws 
like the Freedom of Information Act. If confirmed, I would consult with 
my colleagues and career staff to examine the FTC's practices with 
respect to publishing data on consumer complaints and, if warranted, 
support more transparency.

    Question 6. The Consumer Financial Protection Bureau was created in 
response to the 2008 financial crisis and Great Recession after it 
became clear that our financial sector needed far more oversight to 
prevent a disaster of that magnitude from happening ever again. The 
current Administration seems intent on gutting this agency that serves 
a critical role in protecting Americans from irresponsible financial 
institutions. Of course, the CFPB and the FTC complement each other in 
their protection of consumers. How do you envision the FTC's role in 
holding financial institutions accountable?
    Answer. Where financial institutions are subject to the 
jurisdiction of the FTC, I envision the agency enforcing the FTC Act, 
FCRA, FDCPA and other laws Congress has charged it with enforcing 
against them, where the facts and law warrant that enforcement. If 
confirmed, working with my colleagues, I would support such 
enforcement. The FTC and CFPB share responsibility for the enforcement 
of certain statutes, including ones that apply to financial 
institutions. The relationship between the two agencies is governed 
currently by a memorandum of understanding (MOU). The FTC should 
evaluate whether the MOU facilitates the optimal coordination between 
the agencies, and, if confirmed, I commit to working with my fellow 
commissioners to do so.

    Question 7. Other consumer protection agencies appear to be 
reducing the vigor of their enforcement work. In what way should this 
impact the priorities of the FTC?
    Answer. Our constitutional system gives it to Congress to write the 
laws and the Executive Branch--including the FTC--to enforce them. The 
FTC should thus be committed to the vigorous enforcement of the laws 
Congress has charged it to enforce, and that commitment should not be 
diminished by the decisions of other consumer protection agencies, 
whatever those decisions are. Where the FTC has authority and laws that 
fall under it are being violated, the FTC should be willing to enforce 
the law even if other agencies do not.

    Question 8. In the past, the FTC has cracked down on for-profit 
colleges and vocational programs with strong enforcement actions. 
However, we're seeing these institutions continue to defraud Americans. 
A study conducted by The Century Foundation found that 98 percent of 
complaints asking for student loan forgiveness alleging fraud by 
colleges were from students attending for-profit institutions. If 
confirmed, how will you protect Americans from being scammed by such 
institutions?
    Answer. The FTC has indeed brought enforcement actions against for-
profit educational institutions, where they have violated the laws 
Congress has charged the agency to enforce. If confirmed, I would 
support continued enforcement of those laws, where the facts and the 
law warranted that enforcement. I also believe that the FTC's consumer 
education capabilities can be leveraged to help students make informed 
choices about their education and avoid being defrauded.

    Question 9. More than two of every three American households own a 
pet. The FTC has estimated they will spend $10.2 billion on medications 
this year, of which more than $5 billion require a prescription. It has 
been estimated that pet owners who can get a copy of their pet's 
prescription and shop around, could save 20 to 30 percent on branded 
medications and 50 percent when they purchase generics. This suggests 
that prescription portability can save pet owners billions of dollars 
every year--in addition to the savings in time and transportation if 
they can get those prescriptions filled while they are at the grocery 
store or pharmacy or delivered from an online pharmacy. Unlike with 
human medications, with our pets, the prescriber also dispenses the 
medication prescribed--setting up a conflict of interest whereby the 
prescriber is both a health care provider and a retailer.
    In testimony in 2016, the FTC stated that ``we believe that the 
greater prescription portability likely would enhance competition for 
the sale of pet medications and that consumers would benefit from this 
competition in the form of lower prices.'' Do you agree with this 
conclusion?
    Answer. As a nominee, I have not reviewed that testimony, or 
familiarized myself with the underlying factual record. That said, I 
agree generally that keeping markets (such as those for pet 
prescriptions) open and competitive is good for consumers. If 
confirmed, I plan to familiarize myself with this issue and consult 
with my colleagues, career staff and you and other interested members 
of Congress on that question.

    Question 10. The prescribing and dispensing of human medications 
has long been separated. With eyeglasses and contact lenses, where 
prescribers also sell the products they prescribe, Federal law grants 
consumers the right to their prescriptions. Why should it be any 
different for pet owners with regards to medications for their pets?
    Answer. Keeping markets open and competitive can benefit consumers, 
and their pets. As a nominee, I have not familiarized myself with the 
pet medication market sufficiently to give an adequate answer. If 
confirmed, I would plan to do so, and to consult with my colleagues, 
career staff and you and other interested members of Congress on an 
appropriate path forward.

    Question 11. Manufacturers of pet medications can, and do offer 
inducements to veterinary clinics to prescribe and sell their 
medications. Do you think the public, and pet owners who spend billions 
of dollars annually on prescription pet medications have a right to 
know whether their vet clinic is receiving payments from the 
manufacturers of drugs that clinic prescribes?
    Answer. There are times when mandated disclosures can add important 
information that make markets more transparent and competitive. As a 
nominee, I have not familiarized myself with the specific issue you 
raise. If confirmed, I would plan to learn more about it and to consult 
with my colleagues and career staff.

    Question 12. In 2003, Congress passed the Fairness to Contact Lens 
Consumers Act (``FCLCA'') to grant the 40 million Americans who wear 
contact lens wearers the right to copies of their prescriptions. The 
law also established a process for consumers to have their 
prescriptions verified when they purchase their lenses from a retailer 
other than the prescriber.
    On September 3, 2015, the FTC launched its ten-year review of the 
Contact Lens Rule. The comment period closed on October 26, 2015, after 
the Commission received over 660 comments from a wide variety of 
stakeholders including optometrists, ophthalmologists, consumers, 
contact lens manufacturers and third-party contact lens sellers such as 
big box stores and online retailers.
    On December 7, 2016, the Commission issued a Notice of Proposed 
Rulemaking (``NPRM'') concluding that ``compliance with the automatic 
prescription release provision could be substantially improved.'' This 
is consistent with the comments of 20 State Attorneys General who 
reported to the Commission that: ``[t]he States are aware, from their 
enforcement efforts and collective experience, that not all patients 
receive their prescription in writing as a matter of course.'' The NPRM 
also proposed the common sense solutions of having consumers sign an 
acknowledgement that they have received their prescriptions and 
clarifying the right of consumers and their chosen retailers to receive 
additional copies of those prescriptions.
    If confirmed, will you prioritize finalizing this proposed rule, to 
help ensure all consumers will receive copies of their prescriptions, 
as Congress intended? Considering FTC's limited resources, and the 
significant resources that would be required to take action against 
individual prescribers who are not in compliance with this requirement 
under the current rule, do you agree that the FTC's proposed rule is an 
efficient means of promoting compliance?
    Answer. Next month, the FTC will conduct a workshop to evaluate the 
proposed changes to the Contact Lens Rule. If confirmed, I look forward 
to working with my colleagues and career staff to evaluate the 
knowledge gleaned both from the comments received on the Contact Lens 
Rule over the past few years and additional information that may come 
from the workshop, including with respect to the efficiency of the 
proposed rule.

    Question 13. The FTC has not pursued any enforcement activity under 
the Military Lending Act, despite having the authority to enforce this 
important protection. If confirmed, would you support vigorous 
enforcement of the MLA?
    Answer. Yes.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                          Noah Joshua Phillips
    Question 1. The February 2013, the Federal Trade Commission 
published a report that found that five percent of consumers had errors 
on their credit reports that could result in less favorable terms for 
loans.
    Based on that study, do you think the consumer reporting agencies 
(CRAs) comply with the Fair Credit Reporting Act (FCRA)'s requirement 
to ``follow reasonable procedures to assure maximum possible accuracy'' 
of credit reports? (15 USC 1681e(b))
    Do you think the FTC should conduct a follow up study to see if 
error rates have improved?
    If error rates continue to impact millions of Americans, what 
actions should the FTC take to enforce compliance with the FCRA?
    Do you think the policies and practices of CRAs to handle consumer 
disputes are in compliance with the FCRA?
    In 2015, the New York Attorney General reached a groundbreaking 
settlement with the three national consumer reporting agencies--
Experian, Equifax, and TransUnion. The terms of the settlement require 
the CRAs to do more to ensure maximum possible accuracy of credit 
reports and to improve the dispute resolution process for consumers.
    Do you think the terms of the settlement regarding dispute 
resolution represent best practices for CRAs' compliance with the 
FCRA's requirement that CRAs conduct a ``reasonable reinvestigation'' 
if the consumer disputes the accuracy of the information in his or her 
credit report? (15 USC 1681i)
    Can the FTC use its current authorities to hold CRAs to higher 
standards when it comes to handling consumer disputes?
    What are your views on the adequacy of the Fair Credit Reporting 
Act enforcement regime?
    What are your views on the inclusion of medical debt in credit 
reports?
    Consumers have the right to inspect their credit reports every 
year. Do you think they should also have the right to inspect their 
credit score?
    Do you think the credit reporting market is functioning well? In 
your view, what areas could be improved?
    Do you think it is sound public policy for consumers to have to pay 
to freeze their credit report?
    Do you think it is confusing for consumers to understand the 
difference between freezes, which are defined by and regulated under 
state law, and the CRAs' various ``lock'' products, which fall outside 
of the protection of state law?
    Answer. As you and I have discussed, I am aware of the important 
role that credit reporting agencies play in the economy and the lives 
of individual American consumers, including in particular the negative 
role that CRAs' mistakes can have upon those consumers. As a nominee, I 
have not been briefed by agency staff on these issues, or studied this 
market, including its evolution, common practices and governing state 
and Federal laws, in sufficient depth to give adequate answers to 
questions 1-8. Without doubt, these questions address important issues. 
If confirmed, I look forward to being briefed on them, and consulting 
with my colleagues, staff and, where appropriate, your office on these 
questions.

    Question 2. Should the FTC have the authority to ensure compliance 
with the Safeguards Rule?
    Answer. Pursuant to the Gramm-Leach-Bliley Act, the FTC promulgated 
the Safeguards Rule, which requires financial institutions under FTC 
jurisdiction to have measures in place to keep customer information 
secure. My understanding is that the FTC has brought several 
enforcement actions. If confirmed, I will consult with staff and my 
colleagues about the status of the Rule, including any proposed 
revisions to the scope of authority.

    Question 3. Do you think the FTC has the right expertise and 
capacity to investigate and evaluate algorithms for unfair, deceptive, 
fraudulent consumer practices in the marketplace?
    Answer. As we discussed, the proliferating use of algorithms raise 
novel consumer protection questions, as well potentially as antirust 
ones. This is the kind of changing market practice I had in mind when I 
testified that the agency needs to keep abreast of trends in the 
market. If confirmed, I commit to looking into whether the FTC has the 
right expertise and capacity.

    Question 4. Will you prioritize bringing in additional technical 
talent to strengthen FTC's mission in the digital domain?
    Answer. Yes.

    Question 5. What are your views of the FTC's ability to ensure 
adequate oversight of online privacy? Please include your perspective 
on the FTC's expertise and the adequacy of the regulatory tools 
available to it. What specific actions would you propose the FTC 
undertake to improve online privacy?
    Answer. The FTC is the Federal agency with the most experience and 
best ability to police issues related to online privacy. The Commission 
hones its expertise by interfacing with scholars and stakeholders on 
privacy questions, most notably at its ``PrivacyCon'' conferences. 
Acting Chairman Ohlhausen has stressed the importance of additional 
research to understand the economics of privacy and consumer harm, and 
I believe continuing those efforts is essential. Of course, the FTC 
also must enforce the law, including the FTC Act. To the extent 
inadequate privacy practices constitute unfair or deceptive ones under 
Section 5, the Commission should also consider bringing enforcement 
actions.

    Question 6. The FCC's Net Neutrality order is premised upon ISPs 
disclosing voluntary policies and the FTC enforcing compliance with 
those polices.
    Do you agree that the FTC's authority only extends to enforcing a 
company's compliance with whatever policy the company issues? If not, 
please explain.
    Answer. No. To the extent practices related to net neutrality 
constitute antitrust violations or unfair practices under Section 5 of 
the FTC Act, the Commission would be able to bring enforcement actions 
under those laws.

    Question 7. If the Ninth Circuit's decision in FTC v. AT&T Mobility 
is allowed to stand, what authority, if any, will the FTC retain to 
enforce these company policies?
    Answer. The impact of the pending proceedings in the U.S. Court of 
Appeals for the Ninth Circuit remains to be seen, and will depend upon 
what that court decides. The courts and Congress together will define 
the FTC's enforcement authority.

    Question 8. What is your view of the propriety of the FTC imposing 
conditions on proposed mergers as compared with suing to block a deal? 
How would you evaluate when to use one or the other?
    Answer. My general view is that remedies are best calibrated 
depending on the facts and law that apply to a particular merger. The 
FTC will sometimes demand divestitures (``structural remedies'') and 
sometimes changes to conduct (``behavioral remedies'') in order to 
approve a merger. Sometimes, the parties cannot agree on those remedies 
and litigation may be appropriate and advisable. If confirmed, in every 
case that comes before the Commission, I would consider the 
recommendations of staff and work with my fellow commissioners to 
determine the best approach to protect competition and consumers.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Noah Joshua Phillips
    Question 1. What are your ideas how to promote consumer protection 
in an increasingly online--and connected--world?
    Answer. The increasing and constantly-changing role of online 
commerce makes consumer protection an ever more difficult task. As I 
indicated in my questionnaire to the Committee and hearing testimony, I 
believe that one of the FTC's top priorities must be keeping abreast of 
trends in technology and business practices. It must understand the 
technology and study the economics of how it is used and impacts 
consumers, listening at all times to input from other law enforcement 
agencies, consumers and other important stakeholders. Where 
appropriate, the FTC should leverage its research, consumer and 
business education and enforcement resources to protect consumers 
online.

    Question 2. Do you believe that the current FTC enforcement 
principles are sufficient to protect consumers? And do you believe the 
FTC has the resources necessary to protect consumers given the 
significant amount of work on the docket for the agency?
    Answer. Congress has given the FTC significant authority to protect 
consumers, notably including the FTC Act's proscription of unfair or 
deceptive acts or practices, and unfair methods of competition. With 
respect to that authority and resources, if confirmed, I will work with 
my fellow Commissioners and staff to evaluate the sufficiency of each 
and, if necessary, with Congress to remedy any deficiencies.

    Question 3. In December, I wrote to the FTC, along with Senators 
Schumer and Blumenthal, asking for a workshop to discuss the increased 
use of ``bots'' to purchase large quantities of in-demand toys and 
items, particularly at Christmas. The FTC has confirmed that it will 
engage with key stakeholders to determine if a workshop is necessary. 
Will you commit to reviewing the record on this issue and to working 
with my office to determine next steps, including the possibility of 
legislation?
    Answer. Yes.

    Question 4. Last week, an article in TechCrunch showed how Facebook 
uses data from Onavo Protect, a subsidiary app, to gather data on its 
competitors; how Google uses its search rankings to demote alternate 
competitive sites; and Amazon's aggressive low pricing undercuts book 
publishers. Under your respective leadership, how will the FTC enforce 
the principles of unfair methods of competition against tech giants 
like Facebook, Google and Amazon to promote consumer welfare?
    Answer. I believe the FTC should apply the law fairly and 
carefully, no matter who is violating it. No one, from boiler room scam 
artists to the largest companies in the United States, is above the 
law. In dynamic markets like technology in particular, the FTC must 
also keep abreast of changing trends; watching how they develop and 
seeing how our laws, including consumer protection and antitrust, 
apply. If confirmed, I will work with my fellow Commissioners to see 
that the agency keeps track of these trends and, where violations of 
the law occur, enforces it.

    Question 5. Following the FTC's approval of the Google/DoubleClick 
acquisition in 2007, then Commissioner Pamela Jones Harbor released a 
dissent detailing the need for the commission to ``evaluate the 
implication of this kind of data merger from a competition as well as a 
consumer protection perspective.'' As commissioner, how would you use 
this framing of data mergers in evaluating mergers and acquisitions in 
the technology industry?
    Answer. That no one--and no corporation, no matter how large--is 
above the law is a bedrock principle of American justice. I believe the 
FTC should apply the law fairly and carefully, no matter who may be 
violating it. In dynamic markets like technology in particular, it must 
also keep abreast of changing trends. The increasingly important role 
of data is one such trend, and the FTC has already begun important work 
in studying it. The law governing mergers and the FTC standards for 
evaluating them are well-established, and should be applied rigorously 
in evaluating mergers and acquisitions in the technology industry. 
Where a merger violates Section 7 of the Clayton Act--that is, where a 
merger's effects may be substantially to lessen competition, or to tend 
to create a monopoly, it should be subject to enforcement.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                          Noah Joshua Phillips
    Question 1. When Congress passed the Fairness to Contact Lens 
Consumers Act in 2004 it helped reduce barriers to retail competition 
in the contact lens market and led to lower prices for consumers. 
However, contact retailers sometimes sell patients contact lenses after 
the prescription has expired or fail to adequately verify the 
prescription in accordance to FCLCA. In some cases, this has led to 
dangerous eye and health conditions for the patient. How can the FTC 
work in coordination with the FDA, CDC and other Federal agencies to 
make sure contact lens patients are receiving high quality care and 
safe contact lenses?
    Answer. The FTC has a long tradition of working cooperatively with 
other agencies in the Federal Government that may have expertise that 
can be brought to bear on issues it confronts. If confirmed, I will 
work to determine whether and to what extent the FTC is working with 
the FDA, CDC and other agencies with applicable expertise in the 
context of the re-consideration of the Contact Lens Rule.

    Question 2. In December 2016, the FTC issued a proposed change to 
the current Contact Lens Rule that mandated that all eye doctors obtain 
a signed acknowledgement form from each of their contact lens patients 
when they receive a copy of their prescription. Do you know of any 
other ways for patients to understand their right to their contact lens 
prescription that would be just as, if not, more effective than a 
written acknowledgement?
    Answer. As a nominee, I have not studied the relative efficacy of 
available methods of helping patients understand their rights under the 
Contact Lens Rule. I do understand that the agency has received 
substantial input from a wide variety of stakeholders over several 
years, and is convening a workshop next month on this issue. If 
confirmed, I look forward to reviewing the results of that work to 
determine the best course forward as the FTC reviews the Contact Lens 
Rule.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                        to Noah Joshua Phillips
    Question 1. Restoring Internet Freedom FCC-FTC MOU
    Within the net neutrality MOU, signed between the FCC and FTC, 
regarding the FTC's authority it states: ``Congress has directed the 
FTC to, among other things, prevent unfair methods of competition and 
unfair or deceptive acts or practices in or affecting commerce.''
    Therefore, can you say without reservation that you'll have what 
you will need, upon being confirmed at the FTC, to actually catch 
improper actions taken by Internet service providers toward consumers?
    Answer. Through the FTC Act, Congress has given the FTC significant 
authority to protect consumers. According to the FTC staff, prior to 
the FCC's 2015 reclassification of Internet service providers as 
``common carriers'' under Title II of the Telecommunications Act, the 
FTC used its consumer protection and antitrust authorities to protect 
broadband consumers and the competitive process in Internet-related 
markets.
    Through the appropriations process, Congress has provided the FTC 
with funds to operate. With respect to the adequacy of its legal 
authority and financial resources, if confirmed, I will work with my 
fellow Commissioners and staff to evaluate these and, if necessary, 
discuss with Congress potential remedies to any deficiencies.

    Question 2. Court Case on FTC Authority over ``Common Carriers''
    Unfortunately we still don't know the full FTC authority over 
common carriers, like in the case pending on AT&T, so I would like to 
hear what you anticipate will be FTC's authority going forward.
    Answer. The en banc panel of the U.S. Court of Appeals for the 
Ninth Circuit has not issued a ruling in the pending litigation 
involving AT&T Mobility. Currently, the FTC has authority over the 
activities of common carriers. But the courts, and Congress, will 
determine whether and to what extent that authority continues. In the 
event the FTC does not prevail in the litigation, I would support 
seeking a writ of certiorari from the Supreme Court. If confirmed, and 
if warranted, I will work with my fellow Commissioners and staff to 
determine whether additional authority is necessary. If so, I would 
support engagement with Congress on that.

    Question 3. Court Case on FTC Authority over ``Common Carriers''
    How you can ensure the FTC will even have the authority to enforce 
the limited principles covered in Chairman Pai's weak form of net 
neutrality?
    Answer. The FTC has important authority to protect consumers under 
the FTC Act. The FCC, Congress and, as applicable, the courts will 
collectively determine whether the FTC has authority to enforce the net 
neutrality principles covered in the FCC's order. If confirmed, I would 
support a discussion with Congress on what the proper scope of that 
authority should be, if such discussion proves necessary.

    Question 4. Court Case on FTC Authority over ``Common Carriers''
    And I would ask if you can provide me a true commitment to act on 
behalf of consumers who are impacted by less than fair practices by 
some in the telecommunications industry.
    Answer. Yes, if confirmed, I will commit to enforce the laws passed 
by Congress to protect consumers, including from unfair or deceptive 
acts or practices subject to the FTC's jurisdiction.

    Question 5. Broad Positions on FTC's Place on Net Neutrality
    Can you please define for me what the lead telecommunications 
policy expert Federal agency is, in your opinion?
    Answer. The FCC is the principal Federal telecommunications 
regulatory agency. The FTC has long enforced its antitrust and consumer 
protection authorities, including against telecommunications companies. 
Each agency has expertise about the matters within its jurisdiction. If 
confirmed, I would support the Commission continuing to enforce its 
authority, as permitted by law.

    Question 6. Broad Positions on FTC's Place on Net Neutrality
    Have you specifically recently read the MOU on net neutrality 
between the FCC and FTC, and do you support it in its entirety?
    Answer. Yes. My view is that, until withdrawn or modified, a 
memorandum of understanding validly entered into by the FTC should 
continue to bind the Commission.

    Question 7. Broad Positions on FTC's Place on Net Neutrality
    What is your understanding of the capacity of the staff currently 
at the FTC, and do you think you can effectively execute this agreement 
enough to garner true public trust in ensuring a truly free and open 
internet?
    Answer. The FTC boasts over a thousand professionals, including 
lawyers, technologists, economists and support staff. I have great 
faith in their collective capacity, which is based upon my 
understanding of their demonstrated ability to enforce the FTC Act and 
other laws in complex industries, including those with technology that 
is difficult to master. In its submission to the FCC last year, the FTC 
staff detailed the Commission's experience with Internet service 
providers, telecommunications companies and internet-related issues. If 
confirmed, I would consult with my colleagues and FTC staff to 
determine whether additional resources are necessary for the Commission 
effectively to execute its commitments.

    Question 8. Supposed Transparency and ISP's Public Policies
    The net neutrality MOU between the FCC-FTC states: Consistent with 
its jurisdiction, the FTC will investigate and take enforcement action 
as appropriate against Internet service providers for unfair, 
deceptive, or otherwise unlawful acts or practices, including but not 
limited to, actions pertaining to the accuracy of the disclosures such 
providers make pursuant to the Internet Freedom Order's requirements, 
as well as their marketing, advertising, and promotional activities.
    Do you have a sense that you can ask ISPs to amend their supposed 
transparent blocking and throttling language or commitments?
    In other words, is it your opinion that your authority at the FTC 
includes determining whether the ISPs are being transparent or in other 
cases, just presenting a very broad policy that leaves gaps in a 
consumer's understanding of their providers protections or limitations 
to control the flow of information to them?
    Answer. My understanding is that the transparency measures in the 
FCC's order are intended to give the FTC additional tools to police net 
neutrality-related conduct by Internet service providers that may 
violate the FTC Act. Under the MOU, the FTC indicates that it will 
investigate and take enforcement action as appropriate against ISPs 
concerning the accuracy of those disclosures, as well as other 
deceptive or unfair acts or practices involving their broadband 
services.

    Question 9. Broadband Internet Speed Honesty
    I am aware that various state Attorneys General are concerned that 
a telecomm industry petition to the FCC on cost transparency, related 
to the advertisement of Internet speeds, quote ``represents nothing 
more than the industry's effort to shield itself from state law 
enforcement.''
    Given the FTC's mission regarding deceptive practices, can you 
speak to your perspective on whether this is fair consumer protection 
issue to be concerned about at FTC, given the prices and promises ISPs 
make to generate more business?
    Answer. I am not familiar with the specific petition to the FCC in 
question. That said, the FTC can and should concern itself with any 
activities within its jurisdiction that may constitute violations of 
either the antitrust or consumer protection provisions of the FTC Act.

    Question 10. FTC Investigation on GPS tracking of Vehicles
    Last year it was revealed that the Federal Trade Commission is 
investigating GPS tracking technologies used in the subprime auto loan 
industry, but my understanding is that no findings or rulings have been 
released. Going back as far 2014, the New York Times had highlighted 
this as a concern. In their piece, they highlighted a troubling story 
of a mother in Las Vegas, Mary Bolender, who needed to get her child 
with a 103.5-degree fever to the ER, but her 2005 Chrysler van wouldn't 
start. As the piece says--``The cause was not a mechanical problem--it 
was her lender.''
    Now I have a number of concerns with their as a business practice, 
but can I get a commitment from you to continue to look into this issue 
and publically provide information on your findings and enforcement 
determinations in a timely manner?
    Answer. I understand the FTC has done some work on this issue. If 
confirmed, I commit that I will consult with my colleagues and FTC 
staff to determine the amount of information regarding findings and 
determinations that appropriately can be disclosed.

    Question 11. Franchise Business Oversight
    The FTC has jurisdiction over franchise businesses. In my state, I 
have heard complaints from Subway franchisees that the Franchise 
Disclosure Document is written in favor of the franchisor in a way that 
can undermine their ability to succeed. Nevada's neighboring state of 
California has passed a bill protecting franchisees.
    How can the FTC expand protections for franchisees so they can 
financially succeed?
    Answer. To the extent conduct by franchisors violates the 
requirements of the FTC's Franchise Rule, or the FTC Act, that conduct 
deserves scrutiny by the agency.

    Question 12. Mortgage Closing Fraud
    Thieves have been targeting mortgage closings, where they break 
into a realtor or title company's e-mail accounts. Then, they tell the 
homebuyer to wire money they have saved and borrowed to a bank account 
owned by the thieves.
    How do you think the FTC can work with the Consumer Financial 
Protection Bureau to prevent these types of scams?
    Answer. For the better part of a century, the FTC has worked to 
protect consumers against scams such as these using its authority to 
police unfair or deceptive acts or practices. If confirmed, I will work 
with my fellow commissioners to ensure that it continues to do so. The 
FTC shares with the CFPB certain legal authorities related to consumer 
finance, and their relationship is governed by a memorandum of 
understanding (MOU). The agencies should work in accordance with that 
MOU, collaboratively and in a way that leverages each of their 
expertise and capabilities. The FTC should evaluate whether the MOU 
facilitates the optimal coordination between the agencies, and, if 
confirmed, I commit to working with my fellow commissioners to do so. 
The FTC also has specific experience with consumer education, which can 
also be used to help consumers avoid scams such as these.

    Question 13. Reverse Mortgages
    Reverse mortgages are products sold to seniors to help them ``age-
in-place'' and use their home equity as a means by which to responsibly 
pay their bills. Reverse mortgages can be sensible products, but 
sometimes have been falsely advertised to seniors. The FTC and the 
Consumer Financial Protection Bureau conducted a ``sweep'' of reverse 
mortgage advertisements, and a review of consumer complaints, and found 
that three reverse mortgage companies engaged in deceptive advertising 
which misled consumers.
    Given the overlapping jurisdictions between the Consumer Financial 
Protection Bureau and the FTC, can you discuss how you envision the two 
entities work together to combat financial fraud, specifically scams 
impacting seniors?
    Answer. My understanding is that seniors are sometimes especially 
susceptible to financial fraud, and are often targeted by bad actors. 
The FTC has a long and proud tradition of policing fraud, and in 
particular of protecting seniors, service members and other vulnerable 
and targeted groups. The legal actions taken just days ago, in 
conjunction with the Department of Justice and the Attorney General of 
the State of Missouri, are good examples of that tradition, which, if 
confirmed, I look forward to working with my fellow commissioners to 
continue.
    As I noted above, the FTC shares with the CFPB certain legal 
authorities related to consumer finance, and their relationship is 
governed by an MOU. The agencies should work in accordance with it, 
collaboratively and in a way that leverages each of their expertise and 
capabilities. The recent sweep is an example of that. The FTC should 
evaluate whether the MOU facilitates the optimal coordination between 
the agencies, and, if confirmed, I commit to working with my fellow 
commissioners to do so. The FTC also has specific experience with 
consumer education, which can be used to help consumers avoid scams 
such as these.

    Question 14. Debt Collection
    Debt collectors generate more complaints to the FTC than any other 
industry. And in recent years, the CFPB has noted that debt collection 
remains the top complaint received by the Bureau from older Americans. 
Specifically, the Consumer Bureau identified several issues related to 
debt collection and seniors, including hounding calls, harassment and 
threats of impermissible Social Security garnishment.
    How do you think the FTC could work with the CFPB to bring more 
rules-of-the road to this part of the financial services marketplace to 
protect consumers--particularly seniors--from fraudulent practices?
    Answer. The FTC enforces a number of Federal laws, notably the Fair 
Debt Collection Practices Act, in conjunction with the CFPB. Seniors 
are sometimes susceptible to illegal debt collection conduct, and are 
often targeted with it. The CFPB reports annually on its enforcement 
progress to Congress. If confirmed, I would support Commission efforts 
to evaluate what is working and what is not with respect to protecting 
seniors from illegal practices. The FTC should evaluate whether the MOU 
with the CFPB facilitates the optimal coordination between the 
agencies; and, if confirmed, I commit to working with my fellow 
commissioners to do so.

    Question 15. Merger Review Commitment
    With increased multi-industry players growing in prominence by 
acquiring more businesses outside their core business model, can you 
commit to reviewing the horizontal merger guidelines, which have not 
directly addressed vertical mergers since 1984?
    Answer. The Horizontal Merger Guidelines have provided market 
participants with important guidance about how both the Department of 
Justice Antitrust Division and the FTC consider horizontal mergers. 
They are designed primarily to articulate the analytical framework the 
Agencies apply in determining whether a merger's effects may be 
substantially to lessen competition, and are updated periodically to 
reflect changes in that approach, prompted by changes in the caselaw or 
otherwise. As you state, the ``guidelines'' framework for evaluating 
vertical mergers has not been updated since 1984, although both 
agencies have provided additional guidance on the analytical framework 
for evaluating such conduct. If confirmed, I commit to working with my 
colleagues, career staff and the DOJ Antitrust Division to review 
merger guidelines as necessary.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                              Rohit Chopra
    Question 1. The FTC is responsible for enforcing the Nation's 
antitrust laws. While I appreciate that you are not an antitrust 
attorney, do you nevertheless have any experience in this area? For 
example, have you worked on any antitrust or competition policy issues 
during your professional career? If not, what aspects of your 
professional experience do you believe make you qualified to consider 
and render decisions in antitrust matters, should you be confirmed?
    Answer. Yes, I have been involved in competition issues in my 
professional career.
    For example, I helped to develop the Consumer Financial Protection 
Bureau's market monitoring function that included monitoring of 
competitive intensity. This function aggregated publicly-available data 
to provide a range of evidence-based insights, including where consumer 
welfare might be enhanced through more competition.
    Specifically, the analysis identified that net interest margins for 
private student loan products were not narrowing, unlike margins for 
other products. I led an effort to engage capital markets participants 
and industry innovators to remove perceived regulatory barriers to 
private student loan refinancing. Market participants have noted that 
this work helped to provide greater certainty and incubate more 
competition and shopping by borrowers, helping them to achieve better 
products at lower prices.
    I was also involved in law enforcement efforts that asserted claims 
of alleged violations of ``unfair or deceptive acts and practices,'' 
pursuant to the Consumer Financial Protection Act (CFPA). The CFPA is 
modeled after Section 5 of the Federal Trade Commission Act. As a 
policy leader for the student loan market vertical, I was closely 
involved in analysis to determine whether any alleged practices could 
be justified by countervailing benefits to competition.
    In another example of competition advocacy, I was closely involved 
in the development of the Financial Aid Shopping Sheet, an effort to 
help make costs and risks of borrowing for college more transparent, 
while also facilitating more competition between institutions of higher 
education in the financial aid process. I drafted the original 
prototype made available for public comment. The CFPB and the 
Department of Education released a final version of the Shopping Sheet, 
which was voluntarily adopted by thousands of institutions of higher 
education.
    While serving at Special Adviser to the Secretary of Education, I 
served as an agency representative to the interagency process seeking 
to implement Executive Order 13725, signed in 2016 by President Obama 
to promote competition across sectors of the economy. While at the 
Education Department, I was also involved in policy development on how 
the agency should consider changes in control and changes in ownership 
(mergers and acquisitions), which required the Secretary's approval 
with respect to institutions of higher education.
    In my private sector career, I advised both large companies and 
small investment firms on strategic acquisitions. Analyzing these 
potential acquisitions included extensive empirical work on how new 
technologies and software could be integrated into existing product 
lines. This analysis also considered the complexity of cross-border 
competition issues. This experience, in particular, gave me a deep 
appreciation for the importance of providing market participants with 
rapid determinations about whether an acquisition might be challenged, 
since long, drawn-out deliberations can impose significant costs.
    At the same time, while I have deep experience in consumer 
protection enforcement, I have not been directly involved in antitrust 
law enforcement. I will draw on the expertise of the Bureaus of 
Competition and Economics, as well as these professional experiences, 
including my formal training in finance, accounting, and applied 
economics, to contribute to the agency's mission.

    Question 2. According to media reports, a former employee at the 
Consumer Financial Protection Bureau (CFPB) has alleged that the agency 
systematically identified and rejected Republican job applicants. Did 
you participate in any effort at CFPB to reject Republican or 
conservative-leaning job applicants? If so, please describe these 
efforts in detail.
    Answer. Without qualification, I did not participate in or observe 
any efforts to reject applicants based on political beliefs.

    Question 3. According to media reports, a former CFPB employee 
revealed that there were weekly hiring meetings at CFPB in which 
interviewers summarized the qualifications and attributes of 
applicants, and any attendee could voice an opinion before each 
candidate's verdict was rendered. Note-taking was strictly forbidden, 
and interviewers reportedly destroyed their records after the meetings.
    Did you attend these weekly hiring meetings at CFPB? If so, did you 
ever summarize the backgrounds of any applicants for jobs at CFPB? 
Provide a list of applicants whose backgrounds you summarized for jobs 
at CFPB.
    Did you ever voice an opinion about job applicants at CFPB? If so, 
provide a list of each applicant on which you opined.
    Did you engage in destruction of records regarding applicants for 
jobs at CFPB during your tenure there? If so, please explain why you 
destroyed these records.
    Answer. No, I did not attend these Office of Enforcement weekly 
hiring meetings, provide applicant summaries, voice opinions about job 
applicants directly or indirectly for these meetings, nor engage in any 
destruction of records.
    I did serve as hiring manager over certain positions at the CFPB. 
Notably, none of these positions were filled using a non-competitive 
hiring authority. I chose to publicly post all vacancies for positions 
under my supervision and subject applications to third-party review to 
determine whether an applicant met the technical qualifications in 
order to be advanced for further consideration.
    I was proud to hire and supervise veterans eligible for hiring 
preference, including those with a service-connected disability. Other 
than veterans' preference, which is explicitly authorized under Federal 
law, all candidates were evaluated on a competitive basis in accordance 
with OPM and agency policy, which forbids consideration of political 
affiliation in competitive hiring.

    Question 4. A Freedom of Information Act investigation last year 
revealed that you coordinated a meeting between CFPB Director Richard 
Cordray and Eileen Mancera, a longtime Democratic fundraiser and 
lobbyist. Please explain the circumstances regarding your coordination 
of this meeting. Why were you engaging in apparent political activity 
in your capacity as a Federal employee?
    Answer. I did not arrange a meeting between CFPB Director Richard 
Cordray and Eileen Mancera.
    The senior leadership team at the CFPB regularly referred incoming 
inquiries from current and prospective market participants in the 
student loan industry to me.
    While I engaged in hundreds of calls and meetings with prospective 
market participants in an effort to be responsive to the marketplace, I 
do recall that Director Cordray suggested I reach out to Ms. Mancera, 
who worked for an investment firm.
    I further recall that she and I had a brief conversation about the 
private student loan market, an area where her firm was exploring 
activity. We had no further communication after this brief 
conversation.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                              Rohit Chopra
    Question 1. Many online companies are engaging in targeted 
advertising. Using consumer data, companies can target what they deem 
to be the most relevant ads to consumers. Should there be more 
transparency into how the algorithms behind targeted advertising work 
so that consumers can see how they are being targeted for certain 
messages?
    Answer. Many consumers may be unaware that a wide variety of data 
is collected on them and combined for the purposes of marketing and 
advertising. I read with interest the Federal Trade Commission's 2016 
report entitled ``Big Data: A Tool for Inclusion or Exclusion?'' The 
report outlines some of the public policy implications with respect to 
the use of algorithms.
    As a general matter, transparency contributes to a properly-
functioning marketplace. I look forward to consulting closely with the 
FTC's staff on this issue, which requires careful attention, given its 
impact on consumer protection, privacy, and competition.

    Question 2. Would third party audits of algorithms be a reasonable 
way to ensure the algorithms are doing what companies claim and not 
harming competition or consumer choice? Is this something the FTC might 
consider looking into?
    Answer. Some companies that rely on algorithms and machine-learning 
do engage in third-party audits to determine whether they are in 
compliance with law and regulation. This is particularly true for 
companies that offer services related to the offering of credit, 
housing, and employment, given existing statutory protections against 
non-discrimination. However, this is certainly not the norm.
    I look forward to engaging with policy experts at the FTC, industry 
stakeholders, and consumer and privacy advocates to better understand 
these issues and determine how the FTC might best add value to advance 
its consumer protection and competition mission.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                              Rohit Chopra
    Question 1. As a former Attorney General of Alaska, I always 
appreciated coordination with Federal agencies where appropriate, and 
the opportunity to communicate solutions that made the most sense for 
Alaskans. Given the importance of state attorneys general to the FTC's 
antitrust enforcement, please describe your views on the working 
relationship between the FTC and state attorneys general.
    Answer. I am fortunate to have developed working relationships with 
a bipartisan group of state Attorneys General and their staffs. As I 
noted in the hearing, state Attorneys General are key partners to 
Federal law enforcement. I have direct experience in partnering with 
state Attorneys General on investigations and consumer education.
    I have regularly addressed participants at conferences and meetings 
hosted by the National Association of Attorneys General. In 2016, I 
served as the keynote speaker for a conference hosted by the Conference 
of Western Attorneys General (CWAG), which includes among its members 
the Attorney General of Alaska.
    State Attorneys General and other state officials are invaluable 
partners, and I hope to build on my existing relationships and work 
with these offices for the benefit of Alaskans and all Americans.

    Question 2. As you know, the state I represent is unique which 
means its problems are unique and require unconventional solutions. In 
a highly rural state like Alaska, many communities are not connected by 
roads, challenging weather conditions prohibit timely delivery of mail 
and other essential services, and quality connectivity is considered a 
luxury. One of your objectives at the Commission is consumer protection 
and education. How will you ensure that rural constituents like mine 
have the tools they need to make informed decisions and in cases of 
abuse that require follow up, for example data breaches or identity 
theft, the information necessary to mitigate risks and resolve the 
issue?
    Answer. In my previous service as a government official, I noted 
that traditional methods employed by Federal agencies to engage and 
educate consumers were often ineffective, particularly when quality 
connectivity was a barrier. I learned a great deal from visiting rural 
areas to understand how to best partner with state and local government 
to reach consumers in an efficient and effective manner. I am committed 
to soliciting feedback from elected officials, including Members of 
Congress, to gain insight on how to ensure that the FTC is reaching 
Americans in rural areas.

    Question 3. In your prepared statement, you discuss anticompetitive 
consolidation, which immediately called to mind the enormous market 
capitalization of tech companies. Recent calculations value the four 
largest tech companies' capitalization at $2.8 trillion, which is a 
staggering 24 percent of the S&P 500 Top 50, close to the value of 
every stock traded on the Nasdaq in 2001, and to give a different 
perspective, approximately the same amount as France's current GDP. 
Press reports have also noted allegations of increased anti-competitive 
behavior by some of these companies. Is there a point at which these 
companies are simply too big from an antitrust standpoint?
    Answer. While I appreciate this concern, existing law and 
regulation generally does not establish specific caps or size triggers 
with respect to market capitalization, assets, revenue, or profits.
    However, as I noted in my responses to questions in the hearing, 
the technology sector competes with firms in a broad range of sectors, 
not just firms that are seen as technology firms. In addition, the 
technology sector has contributed an increasing share of economic 
activity and growth in the U.S. economy. Therefore, it will be critical 
for the FTC to carefully analyze market dynamics in the technology 
sector to ensure that the law is being followed and that competition is 
robust.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Dean Heller to 
                              Rohit Chopra
    Question. When Congress passed the Fairness to Contact Lens 
Consumers Act in 2003, it was a pro-consumer measure that ensured 
consumers automatically receive a copy of his or her prescription after 
an eye exam--without having to ask for it, pay an additional fee, or 
sign a waiver. Do you agree that consumers should receive copies of 
their prescriptions as Congress intended so that they can use the 
prescription to purchase their contact lenses from a source of their 
choosing?
    Answer. The Fairness to Contact Lens Consumers Act explicitly 
provides for patients to obtain a copy of a prescription from a 
prescriber whether or not the patient requests one. I agree that there 
are benefits to competition of the Act, and the FTC should carefully 
consider all points of view to ensure that the implementation of this 
law creates the benefits to the marketplace as Congress intended.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                              Rohit Chopra
    Question 1. The FTC is a relatively small agency that has to 
effectively use its resources to cover a very broad jurisdiction. In 
this regard, as a matter of discretion, it may be wise for the FTC to 
pursue enforcement cases involving practices that result in substantial 
harm. However, substantial harm is not a legal requirement under 
section five of the FTC Act--cases involving deception do not require 
harm at all, and cases involving unfairness can involve harm that is 
prospective and/or non-financial. Consequently, it is very important 
that commissioners do not stringently require types of harm as a legal 
test for agency enforcement actions. This principle is particularly 
important because Lab MD is challenging the FTC's legal authority to 
bring enforcement actions for data breaches based on the lack of 
requisite harm. As a commissioner, will you pledge to not require 
substantial harm or financial harm as legal tests for FTC enforcement 
actions?
    Answer. Yes. The FTC should not create additional legal 
requirements unless based in statute, regulation, or legal precedent.

    Question 2. The FTC's Bureau of Economics provides valuable insight 
and analysis that supplements the FTC's work. However, the FTC is, 
first and foremost, a law enforcement agency, not a regulatory agency. 
As such, economic analysis should play a complementary role, not a 
dispositive one. The FTC should enforce the FTC Act and the other laws 
under its jurisdiction according to legal doctrine, not economic 
analyses. As a commissioner, will you pledge to continue to further the 
FTC as a law enforcement agency in which the Bureau of Economics and 
economic analyses play a complimentary role, not a dispositive role? 
Will you pledge to enforce the law according to legal precedent?
    Answer. Yes. As a practical matter, data and analysis, such as 
consumer complaint trends, help to inform agency enforcement 
priorities. However, the FTC not should create legal prerequisites to 
bringing an enforcement action unless based in statute, regulation, or 
legal precedent.

    Question 3. Piracy continues to be a problem that plagues content 
providers. The Internet is filled with websites that provide pirated 
content and entertainment at the expense of the companies that produce 
the content. Moreover, many of these websites can harm consumers with 
unsafe or even fraudulent data and commercial practices. What can the 
FTC do to crack down on the illegal piracy of American entertainment 
and content?
    Answer. While the FTC is generally not responsible for enforcing 
intellectual property law, I agree that websites offering pirated 
content might also deceive consumers into downloading malware. If 
confirmed, I look forward to reviewing the agency's work-to-date on 
this issue to determine the best course of action.

    Question 4. Fraudulent websites can deceive consumers by 
masquerading as legitimate hotel websites. Consumers who are fooled by 
these sites reserve rooms that do not exist or turn out to be different 
from what they reserved online. According to industry statistics, this 
particular fraud affects millions of consumers a year and costs the 
hotel industry hundreds of millions of dollars. I wrote former FTC 
Chairwoman Edith Ramirez about this issue in June 2015. Will you pledge 
to ensure that the FTC will work with other law enforcement entities 
(such as state attorneys general) to bring enforcement actions against 
fraudulent hotel websites?
    Answer. Yes. Many Americans have limited time and resources to take 
their family on a vacation. For families who have saved for this 
experience over a long period of time, fraud can be particularly 
harmful. If confirmed, I look forward to working with other law 
enforcement agencies, including state attorneys general, to address 
this misconduct.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                              Rohit Chopra
    Question 1. What experience do you have working with State 
Attorneys General? What are your views regarding the Commission working 
with state law enforcement?
    Answer. I am fortunate to have developed working relationships with 
a bipartisan group of state Attorneys General and their staffs. As I 
noted in the hearing, state Attorneys General are key partners to 
Federal law enforcement.
    I have direct experience in partnering with state Attorneys General 
on investigations and consumer education. For example, my colleagues 
and I referred a matter regarding a deceptive website, GIBill.com, 
which was targeting veterans for their Federal education benefit 
dollars and masquerading as an official website of the Department of 
Veterans Affairs. A bipartisan group of 20 state Attorneys General 
reached an agreement with the operator of the website, fining the 
company and ordering the website to be turned over to the Federal 
Government.
    I have also regularly addressed participants at conferences and 
meetings hosted by the National Association of Attorneys General, the 
Conference of Western Attorneys General, and the Center for State 
Enforcement of Antitrust and Consumer Protection Laws.
    State Attorneys General and other state officials are invaluable 
partners, and I hope to build on my existing relationships and work 
with these offices to advance the FTC's mission.

    Question 2. In the Dodd-Frank Act of 2010, Congress gave the FTC 
extensive authority over the sale, servicing, and leasing of 
automobiles--charging it to protect consumers from abusive auto lending 
practices and granting it exclusive authority to draft rules governing 
unfair or deceptive acts or practices by automobile dealers. Would you 
support the FTC using its rulemaking authority to rein in unfair or 
deceptive acts or practices by automobile dealers?
    Answer. Section 1029 of the Dodd-Frank Act provided the FTC with 
rulemaking authority using procedures under the Administrative 
Procedure Act to address unfair or deceptive financing practices by 
automobile dealers.
    Importantly, the section of this law also requires that the FTC 
coordinate with the Federal Reserve Board of Governors and the Consumer 
Financial Protection Bureau's Office of Service Member Affairs to 
address complaints and concerns from military families with respect to 
automobile dealers, with a particular focus on automobile dealers 
operating in close proximity to military installations.
    If confirmed, I plan to closely review complaints, assess 
interagency coordination efforts, and engage stakeholders and work with 
my fellow Commissioners to determine the best path forward.

    Question 3. More than 17 million Americans are the victims of 
identity theft every year. This problem seems to increase year over 
year as identity theft scams seem to get more sophisticated.
    Three years ago, the FTC established IdentityTheft.gov. This site 
is supposed to be a one-stop shop for victims of identity theft where 
they can easily freeze credit across the big three credit reporting 
agencies, and recover their stolen identities.
    This website's functionality is limited, however, because of what 
appears to be a lack of engagement by the credit bureaus to make the 
site what it should be.
    How would you engage with credit bureaus to ensure 
IdentityTheft.gov has a comprehensive suite of easy to use tools 
allowing victims of identity theft to recover as quickly as possible, 
with as little stress as possible? What are your expectations with 
respect to the role the credit reporting agencies should play in making 
IdentityTheft.gov an effective one-stop shop for identity theft 
victims?
    Answer. As data collection on consumers has grown to be more 
extensive and with more frequent occurrences of data breaches, identity 
theft can impose major costs and create frustration for consumers.
    As a general matter, I believe the credit reporting industry needs 
to be deeply engaged in efforts to help consumers recover from identity 
theft as quickly as possible. If confirmed, I will seek to better 
understand the industry's current level of engagement with respect to 
making IdentityTheft.gov a successful resource for the public.

    Question 4. Would you support FTC's jurisdiction be expanded to 
include non-profits and charities so that it can act more swiftly to 
prevent and stop illegal conduct in the nonprofit sector?
    Answer. Over the years, there has been bipartisan support from 
Federal Trade Commissioners to extend the FTC Act's jurisdiction to 
include nonprofit organizations under certain circumstances. In 
testimony prepared for Congress, the Commission has specifically noted 
that nonprofit organizations are major participants in health care 
markets, especially hospitals. While I have not closely studied this 
issue, the agency's consumer protection and competition mission may be 
furthered by ensuring a level playing field where all market 
participants are subject to the same set of rules.
    If confirmed, I will study this issue more closely and consult with 
state Attorneys General (many of whom devote significant resources to 
overseeing nonprofits and charities) to offer a more detailed 
perspective to Congress on this issue, if requested.

    Question 5. Other Federal agencies charged with consumer protection 
make an array of data available on consumer complaints received. The 
FTC releases relatively very little data on companies receiving 
significant levels of complaints. Do you think the FTC should be more 
transparent about the complaints it receives?
    Answer. I am deeply committed to promoting transparency in 
government. Not only does transparency make agencies more accountable 
to Congress and the public, it reduces costs for prospective market 
entrants seeking to understand their competitive landscape.
    If confirmed, I look forward to identifying opportunities to 
enhance transparency, including with respect to the FTC's Consumer 
Sentinel database of complaints, while respecting consumer privacy and 
other considerations.

    Question 6. The Consumer Financial Protection Bureau was created in 
response to the 2008 financial crisis and Great Recession after it 
became clear that our financial sector needed far more oversight to 
prevent a disaster of that magnitude from happening ever again. The 
current Administration seems intent on gutting this agency that serves 
a critical role in protecting Americans from irresponsible financial 
institutions. Of course, the CFPB and the FTC complement each other in 
their protection of consumers. How do you envision the FTC's role in 
holding financial institutions accountable?
    Answer. Financial institutions play a fundamental role in the 
economic security for American families. Given this outsized influence, 
monitoring risks and potential harms to consumers is critical for the 
FTC, the CFPB, and the prudential banking regulators, which each 
enforce consumer protection laws in the financial services sector.
    If confirmed, I believe that the FTC must execute its 
responsibilities to enforce laws that Congress has delegated to the 
agency, putting a priority on where risks to consumers is greatest. The 
FTC must also prioritize enforcement where it has exclusive 
jurisdiction and closely coordinate with the CFPB and the prudential 
banking regulators where it shares jurisdiction.
    Coordinating efforts across agencies is an iterative task. Whenever 
possible, this process should be informed by consumer complaints and 
other data, as well as resource allocation decisions by other agencies.
    As a general matter, all of the agencies should deploy resources to 
areas where there may be risk or harm in the market. After making this 
assessment, an individual agency should assess whether it has unique 
authorities or expertise that would make it best suited to addressing a 
particular risk or harm in the market.
    While the FTC, CFPB, and the prudential banking regulators all 
share responsibility for enforcing certain consumer protection laws, 
the FTC has exclusive jurisdiction and/or specialized expertise in 
certain areas. For example, the FTC has exclusive jurisdiction for 
enforce provisions of the Gramm-Leach-Bliley Act (GLBA) related to the 
security of customer information with respect to nonbank financial 
institutions, such as credit reporting agencies.
    Similarly, the FTC is unique among these agencies to have 
jurisdiction to police nonbank small business lenders for unfair or 
deceptive acts or practices. With this in mind, the FTC can and should 
be held accountable by Congress and the public for ensuring adequate 
oversight over these markets, given this exclusive jurisdiction.
    Congress provided enforcement authority to the CFPB for certain 
laws that had previously been exclusively enforced by the FTC at the 
Federal level. Importantly, while Congress did transfer certain 
enforcement authorities from other agencies to the CFPB, Congress did 
not transfer enforcement authority from the FTC for many critical 
consumer protection laws, including the Fair Credit Reporting Act and 
the Fair Debt Collection Practices Act. This choice by Congress 
underscores the importance of continued FTC involvement and close 
interagency coordination.
    The FTC and CFPB coordinate their respective efforts under a 
Memorandum of Understanding that has been revised over time. If 
confirmed, I look forward to continuing these coordination efforts to 
benefit consumers and the marketplace.

    Question 7. Other consumer protection agencies appear to be 
reducing the vigor of their enforcement work. In what way should this 
impact the priorities of the FTC?
    Answer. When allocating agency resources, I believe agency 
leadership should deploy resources to areas where risk to consumers is 
greatest, such as where there is a concentration of consumer 
complaints. Risk to consumers might be higher or lower depending on the 
priorities and resource allocation decisions of other Federal and state 
agencies. Inasmuch as other agencies are reducing consumer protection 
oversight, this can serve as one input for how the FTC develops its own 
priorities and allocates its resources to protect consumers.

    Question 8. In the past, the FTC has cracked down on for-profit 
colleges and vocational programs with strong enforcement actions. 
However, we're seeing these institutions continue to defraud Americans. 
A study conducted by The Century Foundation found that 98 percent of 
complaints asking for student loan forgiveness alleging fraud by 
colleges were from students attending for-profit institutions. If 
confirmed, how will you protect Americans from being scammed by such 
institutions?
    Answer. Students, their families, and honest colleges are all 
harmed when some institutions use unfair or deceptive practices in the 
higher education industry. Paying for college is one of the biggest 
expenses a family makes. The FTC can and should make a concerted effort 
to protect families from illegal practices in this sector.

    Question 9. More than two of every three American households own a 
pet. The FTC has estimated they will spend $10.2 billion on medications 
this year, of which more than $5 billion require a prescription. It has 
been estimated that pet owners who can get a copy of their pet's 
prescription and shop around, could save 20 to 30 percent on branded 
medications and 50 percent when they purchase generics. This suggests 
that prescription portability can save pet owners billions of dollars 
every year--in addition to the savings in time and transportation if 
they can get those prescriptions filled while they are at the grocery 
store or pharmacy or delivered from an online pharmacy. Unlike with 
human medications, with our pets, the prescriber also dispenses the 
medication prescribed--setting up a conflict of interest whereby the 
prescriber is both a health care provider and a retailer.
    In testimony in 2016, the FTC stated that ``we believe that the 
greater prescription portability likely would enhance competition for 
the sale of pet medications and that consumers would benefit from this 
competition in the form of lower prices.'' Do you agree with this 
conclusion?
    Answer. While I do not have detailed knowledge of the pet 
medication market and industry structure, as a general matter, a 
healthy, competitive market is one where consumers can shop and compare 
product features and prices easily across sellers. If confirmed, I look 
forward to exploring this issue further, as well as opportunities to 
benefit consumers and competition in this market.

    Question 10. The prescribing and dispensing of human medications 
has long been separated. With eyeglasses and contact lenses, where 
prescribers also sell the products they prescribe, Federal law grants 
consumers the right to their prescriptions. Why should it be any 
different for pet owners with regards to medications for their pets?
    Answer. I do not have detailed knowledge of the pet medication 
market and industry structure, but you raise an important question 
about whether a consumer has the ability to easily obtain a 
prescription and shop for the best products and prices. I look forward 
to further exploring this issue and consulting with your office and 
other stakeholders, if confirmed.

    Question 11. Manufacturers of pet medications can, and do offer 
inducements to veterinary clinics to prescribe and sell their 
medications. Do you think the public, and pet owners who spend billions 
of dollars annually on prescription pet medications have a right to 
know whether their vet clinic is receiving payments from the 
manufacturers of drugs that clinic prescribes?
    Answer. As a general matter, transparency contributes to a 
properly-functioning marketplace, and I look forward to further 
exploring this issue and consulting with your office and other 
stakeholders, if confirmed.

    Question 12. In 2003, Congress passed the Fairness to Contact Lens 
Consumers Act (``FCLCA'') to grant the 40 million Americans who wear 
contact lens wearers the right to copies of their prescriptions. The 
law also established a process for consumers to have their 
prescriptions verified when they purchase their lenses from a retailer 
other than the prescriber.
    On September 3, 2015, the FTC launched its ten-year review of the 
Contact Lens Rule. The comment period closed on October 26, 2015, after 
the Commission received over 660 comments from a wide variety of 
stakeholders including optometrists, ophthalmologists, consumers, 
contact lens manufacturers and third-party contact lens sellers such as 
big box stores and online retailers.
    On December 7, 2016, the Commission issued a Notice of Proposed 
Rulemaking (``NPRM'') concluding that ``compliance with the automatic 
prescription release provision could be substantially improved.'' This 
is consistent with the comments of 20 State Attorneys General who 
reported to the Commission that: ``[t]he States are aware, from their 
enforcement efforts and collective experience, that not all patients 
receive their prescription in writing as a matter of course.'' The NPRM 
also proposed the common sense solutions of having consumers sign an 
acknowledgement that they have received their prescriptions and 
clarifying the right of consumers and their chosen retailers to receive 
additional copies of those prescriptions.
    If confirmed, will you prioritize finalizing this proposed rule, to 
help ensure all consumers will receive copies of their prescriptions, 
as Congress intended? Considering FTC's limited resources, and the 
significant resources that would be required to take action against 
individual prescribers who are not in compliance with this requirement 
under the current rule, do you agree that the FTC's proposed rule is an 
efficient means of promoting compliance?
    Answer. I appreciate concerns that the rulemaking process related 
to the contact lens market has been ongoing for an extended period of 
time. I also understand that the FTC will host a workshop to gather 
additional input next month. If confirmed, I am committed to closely 
reviewing the proposal and the public feedback to ensure that any 
changes to the rule are finalized in a timely manner.

    Question 13. The FTC has not pursued any enforcement activity under 
the Military Lending Act, despite having the authority to enforce this 
important protection. If confirmed, would you support vigorous 
enforcement of the MLA?
    Answer. Yes. It has been more than a decade since the Department of 
Defense's Report on Predatory Lending Practices Directed at Members of 
the Armed Forces and Their Dependents submitted to Congress. The report 
noted that ``[p]redatory lending undermines military readiness, harms 
the morale of troops and their families, and adds to the cost of 
fielding an all-volunteer fighting force.'' The report specifically 
noted that the Department of Defense needed the assistance of Federal 
and state enforcement agencies.
    If confirmed, I plan to closely examine the agency's activities to 
promote compliance with the MLA.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                              Rohit Chopra
    Question 1. The February 2013, the Federal Trade Commission 
published a report that found that five percent of consumers had errors 
on their credit reports that could result in less favorable terms for 
loans.
    Based on that study, do you think the consumer reporting agencies 
(CRAs) comply with the Fair Credit Reporting Act (FCRA)'s requirement 
to ``follow reasonable procedures to assure maximum possible accuracy'' 
of credit reports? (15 USC 1681e(b))
    Answer. Since credit reports are used by prospective creditors, 
employers, landlords, and others, errors can have a major impact on a 
family's financial life. Ensuring high levels of accuracy is important 
for the entire marketplace.
    The FCRA creates obligations for both furnishers and CRAs. Both of 
these parties have an impact on accuracy. Addressing accuracy and 
dispute resolution issues should be a priority in FCRA enforcement.

    Question 2. Do you think the FTC should conduct a follow-up study 
to see if error rates have improved?
    Answer. The FTC published a series of reports pursuant to the Fair 
and Accurate Credit Transactions Act of 2003. The final report in this 
series was issued in 2015.
    While I do think error rates are worthy of further study, I would 
not want resources to be taken away from important FCRA enforcement 
work. This is certainly worth considering, and, if confirmed, I look 
forward to working with the FTC's staff to ensure the agency is 
adequately addressing an issue that impacts millions of Americans.

    Question 3. If error rates continue to impact millions of 
Americans, what actions should the FTC take to enforce compliance with 
the FCRA?
    Answer. The FTC shares enforcement authority under the FCRA with 
the CFPB and the states. If confirmed, I expect the FTC to play a 
leading role in credit reporting issues to ensure that any illegal 
practices are addressed.

    Question 4. Do you think the policies and practices of CRAs to 
handle consumer disputes are in compliance with the FCRA?
    Answer. As I noted in the hearing, consumers are not able to vote 
with their feet in this market. This might contribute to concerns about 
the dispute resolution and investigation process. If confirmed, I look 
forward to working with the agency's staff to address the consumer 
dispute issues that continue to persist in the market and to take 
appropriate enforcement actions when the law is being violated.

    Question 5. In 2015, the New York Attorney General reached a 
groundbreaking settlement with the three national consumer reporting 
agencies--Experian, Equifax, and TransUnion. The terms of the 
settlement require the CRAs to do more to ensure maximum possible 
accuracy of credit reports and to improve the dispute resolution 
process for consumers.
    Do you think the terms of the settlement regarding dispute 
resolution represent best practices for CRAs' compliance with the 
FCRA's requirement that CRAs conduct a ``reasonable reinvestigation'' 
if the consumer disputes the accuracy of the information in his or her 
credit report? (15 USC 1681i)
    Answer. This is a very important question. There have been 
longstanding concerns that CRAs and furnishers may not have adequate 
incentive to sufficiently investigate disputes.
    The 2015 nationwide settlement with the New York Attorney General, 
as well as the subsequent settlement with 31 additional states, were 
certainly important developments in FCRA compliance and consumer 
disputes.
    It may be too early to tell whether the settlement terms represent 
``best practices.'' If confirmed, I would be interested in working with 
FTC staff, the CFPB, and the states to see how these practices are 
being implemented and whether or not it is working.

    Question 6. Can the FTC use its current authorities to hold CRAs to 
higher standards when it comes to handling consumer disputes?
    Answer. This is a worthwhile issue to explore, and, if confirmed, I 
would like to look into this further.

    Question 7. What are your views on the adequacy of the Fair Credit 
Reporting Act enforcement regime?
    Answer. Given the pervasive impact of credit reporting issues on 
consumers and many sectors of the economy, FCRA compliance and 
enforcement is critical. The FTC has long been a leader in this work.
    I support ongoing enforcement by the states, the CFPB, and the FTC. 
Importantly, FCRA applies not just to CRAs, but also to furnishers, so 
there is a great deal of oversight to conduct. As the FCRA approaches 
its 50th anniversary, I believe the FTC should work with Congress to 
provide any appropriate analysis or technical advice to identify 
opportunities to enhance compliance.

    Question 8. What are your views on the inclusion of medical debt in 
credit reports?
    Answer. My views on this topic have been shaped by empirical 
analysis and personal experience.
    The 2014 study by the CFPB on medical debt and credit reporting 
revealed many interesting insights. Nearly half of all collections 
trade lines reported in consumer credit reports are related to medical 
debt. There were roughly 1,400 different debt collectors furnishing 
this information to the CRAs. The median unpaid amount was 
approximately $200. Overwhelmingly, this negative credit reporting was 
due to unpaid bills for medical services, not unpaid bills for medical 
loans. The CFPB analysis also revealed that credit scoring models were 
overly punitive to consumers with medical debt in collections. In other 
words, having unpaid medical debt was not necessarily predictive of 
being a risky borrower for other types of credit.
    I also have personal experience navigating complex health insurance 
and provider billing and reimbursement arrangements, leading to a 
seemingly-endless game of ping pong to resolve a medical bill. I was 
recently sent to collections due to a billing code issue that was not 
resolved by my provider and insurance company. Despite having 
considerable expertise in credit reporting and debt collection, I have 
spent many hours trying to guard against damage to my credit report. 
Many consumers might simply give up and pay a bill they do not 
legitimately owe.
    This past September, the three nationwide credit reporting agencies 
announced that they would not include medical debt on consumer credit 
reports for 180 days before showing it as past due. While I have not 
reached any firm conclusions about whether medical debt should be 
excluded altogether, I do believe this is an ongoing issue that 
policymakers must confront.

    Question 9. Consumers have the right to inspect their credit 
reports every year. Do you think they should also have the right to 
inspect their credit score?
    Answer. I am quite pleased that many of the Nation's largest credit 
card issuers have started to offer cardholders the ability to check 
their credit score for free on their websites. This makes sense, since 
the issuers are already collecting these scores on a regular basis for 
account monitoring purposes. Sharing this data with consumers has 
surely been valuable for many. At the same time, many consumers do not 
have credit cards or any credit products at all, but their credit 
scores impact their financial lives.
    I think there is merit to ensuring that all consumers have the 
right to know their credit score without excessive cost. If confirmed, 
I would be open to exploring this issue further with FTC staff, 
interested stakeholders, and your office.

    Question 10. Do you think the credit reporting market is 
functioning well? In your view, what areas could be improved?
    Answer. There are many aspects of the market that need improvement, 
and many of the ongoing concerns stem from consumers' lack of market 
power. As I have previously noted, consumers are not the customer to 
credit reporting agencies. In addition, many creditors experience pain 
points with credit reporting issues, as errors and inaccuracy also 
impact them negatively. It is also very unclear as to whether credit 
reporting agencies have adequate incentives to safeguard sensitive 
consumer data. If confirmed, I look forward to continued dialogue on 
issues facing this important market.

    Question 11. Do you think it is sound public policy for consumers 
to have to pay to freeze their credit report?
    Answer. In a world of increasing cyber risks and data breaches, it 
is worth exploring whether it makes sense for consumers to pay to 
freeze their credit report, especially when their personal information 
has been exposed.

    Question 12. Do you think it is confusing for consumers to 
understand the difference between freezes, which are defined by and 
regulated under state law, and the CRAs' various ``lock'' products, 
which fall outside of the protection of state law?
    Answer. Yes.

    Question 13. Should the FTC have the authority to ensure compliance 
with the Safeguards Rule?
    Answer. The FTC currently has authority under the Gramm-Leach-
Bliley Act to ensure compliance with the Safeguards Rule for nonbank 
financial institutions. I believe this should be maintained.
    While the FTC has authority to ensure compliance, many observers 
have noted that the Act and the Safeguards Rule may not have robust 
consequences for noncompliance by nonbank financial institutions. If 
confirmed, I look forward to working closely with staff, stakeholders, 
and your office on this.

    Question 14. Do you think the FTC has the right expertise and 
capacity to investigate and evaluate algorithms for unfair, deceptive, 
fraudulent consumer practices in the marketplace?
    Answer. My understanding is that the FTC has in-house expertise on 
these issues, but I am not certain whether it has adequate resources to 
do so. If confirmed, I am happy to explore this issue further.

    Question 15. Will you prioritize bringing in additional technical 
talent to strengthen FTC's mission in the digital domain?
    Answer. Yes. I believe the FTC should recruit the best and 
brightest, and drawing experts with technical knowledge in the digital 
domain is critical. At the same time, I recognize that it can be 
challenging to attract these workers, but I think the FTC should make a 
concerted effort to do so.

    Question 16. What are your views of the FTC's ability to ensure 
adequate oversight of online privacy? Please include your perspective 
on the FTC's expertise and the adequacy of the regulatory tools 
available to it. What specific actions would you propose the FTC 
undertake to improve online privacy?
    Answer. The FTC does not enforce a comprehensive privacy law that 
cuts across all sectors. With respect to online privacy, the FTC's 
authority generally stems from Section 5 of the FTC Act, as well as 
discrete statutes such as COPPA. This is an important issue, and, if 
confirmed, I look forward to further exploring what can be done to 
improve online privacy.

    Question 17. The FCC's Net Neutrality order is premised upon ISPs 
disclosing voluntary policies and the FTC enforcing compliance with 
those polices. Do you agree that the FTC's authority only extends to 
enforcing a company's compliance with whatever policy the company 
issues? If not, please explain.
    Answer. While I would need to consult further with FTC staff on 
this, it is worth noting the FTC has often asserted deception claims 
with respect to representations made to consumers. If a company 
discloses how it collects and uses personal data or prioritizes certain 
content, that might be material when seeking to determine whether there 
was a violation of law.

    Question 18. If the Ninth Circuit's decision in FTC v. AT&T 
Mobility is allowed to stand, what authority, if any, will the FTC 
retain to enforce these company policies?
    Answer. If the ruling from the en banc review concurs with the 
ruling of the initial panel, it may be difficult for the FTC to ensure 
there is a level playing field if common carriers and others are 
competing in the same market.

    Question 19. What is your view of the propriety of the FTC imposing 
conditions on proposed mergers as compared with suing to block a deal? 
How would you evaluate when to use one or the other?
    Answer. The choice to settle or sue is a challenging one for every 
Federal enforcement agency. At times, it may be in the public interest 
to conserve resources and avoid litigation through settlement. With 
respect to proposed mergers, agencies can sometimes mitigate 
anticompetitive concerns outside of litigation. Other matters may be 
more appropriate for litigation.
    One significant advantage of litigation is that there tends to be 
greater transparency to the public about the facts and the issues at 
hand. It will be important for the FTC to have adequate resources to 
litigate when appropriate, while also seeking to be as transparent as 
possible when resolving a matter via settlement.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              Rohit Chopra
    Question 1. What are your ideas how to promote consumer protection 
in an increasingly online--and connected--world?
    Do you believe that the current FTC enforcement principles are 
sufficient to protect consumers? And do you believe the FTC has the 
resources necessary to protect consumers given the significant amount 
of work on the docket for the agency?
    Answer. While the FTC has the authority to bring enforcement 
actions to protect consumers, I am not fully certain at this time that 
the FTC has adequate resources to address the wide range of consumer 
protection and competition issues that face consumers and the 
marketplace.
    If confirmed, I will work with my fellow Commissioners and agency 
staff to closely assess the adequacy of agency resources.

    Question 2. In December, I wrote to the FTC, along with Senators 
Schumer and Blumenthal, asking for a workshop to discuss the increased 
use of ``bots'' to purchase large quantities of in-demand toys and 
items, particularly at Christmas. The FTC has confirmed that it will 
engage with key stakeholders to determine if a workshop is necessary. 
Will you commit to reviewing the record on this issue and to working 
with my office to determine next steps, including the possibility of 
legislation?
    Answer. ``Bots'' are an emerging area of concern for both consumers 
and sellers of goods and services. The FTC already has authority to 
address certain practices related to ``bots'' in the buying and selling 
of tickets to performances and events. This seems to be an area worthy 
of further review, and I look forward to working with your office on 
this, if confirmed.

    Question 3. Last week, an article in TechCrunch showed how Facebook 
uses data from Onavo Protect, a subsidiary app, to gather data on its 
competitors; how Google uses its search rankings to demote alternate 
competitive sites; and Amazon's aggressive low pricing undercuts book 
publishers. Under your respective leadership, how will the FTC enforce 
the principles of unfair methods of competition against tech giants 
like Facebook, Google and Amazon to promote consumer welfare?
    Answer. Every year, the technology sector has grown in scale and 
scope, competing with sectors across the economy. Without speaking to 
any specific company, investigation, or matter, as a general rule, I 
believe the FTC should use all of its law enforcement tools to ensure 
that incumbents are not violating antitrust laws and should vigorously 
pursue any violations.

    Question 4. Following the FTC's approval of the Google/DoubleClick 
acquisition in 2007, then Commissioner Pamela Jones Harbor released a 
dissent detailing the need for the commission to ``evaluate the 
implication of this kind of data merger from a competition as well as a 
consumer protection perspective.'' As commissioner, how would you use 
this framing of data mergers in evaluating mergers and acquisitions in 
the technology industry?
    Answer. Big data has significant implications for the FTC consumer 
protection, privacy, and competition work. Data is now seen as a key 
asset for firms to gain a competitive advantage. When evaluating 
mergers, it will be important for the agency to carefully analyze the 
role of data assets in a particular transaction.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                              Rohit Chopra
    Question 1. At the Consumer Federation of America, military 
families are one of your main focuses. If confirmed, are you committed 
to prioritizing consumer protection enforcement where active-duty 
servicemembers, Veterans, survivors and their families have been 
targeted by bad actors and if so, can you list your top priorities with 
respect to military consumer protection?
    Answer. In previous Congressional testimony, I have described 
military consumer protection issues as a ``canary in the coal mine.'' 
Of course, the military community warrants support from across Federal 
agencies, but fraud and misconduct targeted at the military is often a 
harbinger for risks to the broader civilian population.
    As a general matter, I have observed that Federal agencies are 
quick to tout their commitment to the military, but slower to do the 
serious work and analysis to determine the specific needs across 
various military population segments. For example, members of the 
Reserves face different issues compared to, say, elderly veterans or 
surviving military spouses. I am confident the FTC can do the work 
necessary to understand the range of issues as they relate to these 
specific segments.
    At this point, I can say that I am particularly concerned about a 
few specific areas: benefits-related fraud targeted at veterans, data 
collection and privacy issues in the active-duty community, and quality 
of outreach by Federal agencies to members of the National Guard.

    Question 2. What additional relevant experience do you bring with 
respect to protecting military consumers?
    Answer. While at the U.S. Department of Education and the Consumer 
Financial Protection Bureau, I was fortunate to work extensively on 
military consumer protection issues.
    In 2012, I co-authored a report with Mrs. Holly Petraeus that 
uncovered an overcharging scheme targeted at military families with 
student loans. The report led to substantial changes in industry 
practice. After a referral to and coordination with the Justice 
Department, violators of the Servicemembers Civil Relief Act were fined 
$60 million and refunds were provided to 78,000 servicemembers.
    I was also closely involved in working with state Attorneys General 
to shut down GIBill.com, a deceptive website targeting veterans. The 
bipartisan group of 20 state AGs fined the operator of the website, and 
ownership of the website was turned over to the Department of Veterans 
Affairs as part of a settlement.
    While at the CFPB, my office also led the development of many 
consumer tools for military consumers, including student loan repayment 
calculators and guides for servicemembers seeking to pay for college.
    I was also fortunate to be invited by the Department of Defense to 
offer seminars at many large military installations and to present at 
the DOD's Worldwide Education Symposium. These events provided 
opportunities for consumer education and to hear about issues faced by 
active-duty servicemembers. I have also lectured at the Judge Advocate 
General Legal Center & School and worked closely with many JAGs who 
assist servicemembers on debt collection, auto lending, and many other 
consumer issues.

    Question 3. A few months ago, when writing about what military 
families should do in the wake of the Equifax data breach, you 
estimated that military consumers report identity theft at double the 
rate of the civilian population. Why do you think this is, and what is 
your assessment of the FTC's work-to-date to protect military 
consumers?
    Answer. While the FTC does not release granular data on the 
military community's complaints about identity theft, there are many 
potential explanations. One potential explanation is that many active-
duty servicemembers face frequent Permanent Change of Station (PCS) 
orders. These frequent moves can prevent a military family from 
spotting early warning signs, such as suspicious credit alerts or 
account openings.
    Some servicemembers and their families have shared that they are 
often separated from their immediate and extended families for long 
periods of time, making digital communication a critical way to stay in 
touch. However, some are concerned that they might be inadvertently 
exposing sensitive information about themselves, potentially 
contributing to identity theft.
    Like all agencies, I think the FTC can always do better to serve 
military consumers. If confirmed, I hope to work with my fellow 
Commissioners and the staff to advance this work.

    Question 4. When Congress passed the Fairness to Contact Lens 
Consumers Act in 2004 it helped reduce barriers to retail competition 
in the contact lens market and led to lower prices for consumers. 
However, contact retailers sometimes sell patients contact lenses after 
the prescription has expired or fail to adequately verify the 
prescription in accordance to FCLCA. In some cases, this has led to 
dangerous eye and health conditions for the patient. How can the FTC 
work in coordination with the FDA, CDC and other Federal agencies to 
make sure contact lens patients are receiving high quality care and 
safe contact lenses?
    Answer. To ensure that the FCLCA is meeting its intended goals, the 
FTC should consult with stakeholders and other agencies to gain 
feedback where appropriate.

    Question 5. In December 2016, the FTC issued a proposed change to 
the current Contact Lens Rule that mandated that all eye doctors obtain 
a signed acknowledgement form from each of their contact lens patients 
when they receive a copy of their prescription. Do you know of any 
other ways for patients to understand their right to their contact lens 
prescription that would be just as, if not, more effective than a 
written acknowledgement?
    Answer. I understand that the FTC will host a workshop to gather 
additional input next month. If confirmed, I am committed to closely 
reviewing the proposal and the public feedback to ensure that any 
changes to the rule are finalized in a timely manner and that patients 
understand their rights in the most effective and efficient way 
possible.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Rohit Chopra
    Question 1. Restoring Internet Freedom FCC-FTC MOU
    Within the net neutrality MOU, signed between the FCC and FTC, 
regarding the FTC's authority it states: ``Congress has directed the 
FTC to, among other things, prevent unfair methods of competition and 
unfair or deceptive acts or practices in or affecting commerce.''
    Therefore, can you say without reservation that you'll have what 
you will need, upon being confirmed at the FTC, to actually catch 
improper actions taken by Internet service providers toward consumers?
    Answer. At this time, I cannot say without reservation that the FTC 
has the resources and expertise to prevent unfair methods of 
competition and unfair or deceptive acts or practices with respect to 
Internet service providers. If confirmed, I hope to better determine 
whether the FTC is able to meet this task.

    Question 2. Court Case on FTC Authority over ``Common Carriers''
    Unfortunately we still don't know the full FTC authority over 
common carriers, like in the case pending on AT&T, so I would like to 
hear what you anticipate will be FTC's authority going forward.
    Answer. As you note, the U.S. Court of Appeals for the Ninth 
Circuit will review en banc the three-judge panel's ruling in a pending 
case in which the FTC is a party. If the Court upholds the ruling of 
the panel, this will present significant challenges in creating a level 
playing field in the broadband Internet market.

    Question 3. Court Case on FTC Authority over ``Common Carriers''
    How you can ensure the FTC will even have the authority to enforce 
the limited principles covered in Chairman Pai's weak form of net 
neutrality?
    Answer. Rules and orders under the Communications Act are generally 
not enforced by the Federal Trade Commission, so I can not be certain 
how this will play out in practice.

    Question 4. Court Case on FTC Authority over ``Common Carriers''
    And I would ask if you can provide me a true commitment to act on 
behalf of consumers who are impacted by less than fair practices by 
some in the telecommunications industry.
    Answer. Regardless of what Congress and the Courts decide with 
respect to net neutrality, I am committed to using any appropriate 
authorities available to the FTC to protect consumers.

    Question 5. Broad Positions on FTC's Place on Net Neutrality
    Can you please define for me what the lead telecommunications 
policy expert Federal agency is, in your opinion?
    Answer. The Federal Communications Commission is seen by both the 
industry and policymakers around the world as America's primary 
telecommunications expert agency.

    Question 6. Broad Positions on FTC's Place on Net Neutrality
    Have you specifically recently read the MOU on net neutrality 
between the FCC and FTC, and do you support it in its entirety?
    Answer. Yes, I have read the December 2017 MOU. Without having 
access to certain nonpublic information on ongoing investigations and 
consumer complaints, it is difficult to determine whether the 
provisions in the MOU are sufficient.

    Question 7. Broad Positions on FTC's Place on Net Neutrality
    What is your understanding of the capacity of the staff currently 
at the FTC, and do you think you can effectively execute this agreement 
enough to garner true public trust in ensuring a truly free and open 
internet?
    Answer. My understanding is that the FTC may not have a large bench 
of technical experts on telecommunications. If confirmed, assessing the 
agency's capabilities so it can execute its enforcement 
responsibilities will be a priority.

    Question 8. Broadband Internet Speed Honesty
    I am aware that various state Attorneys General are concerned that 
a telecomm industry petition to the FCC on cost transparency, related 
to the advertisement of Internet speeds, quote ``represents nothing 
more than the industry's effort to shield itself from state law 
enforcement.''
    Given the FTC's mission regarding deceptive practices, can you 
speak to your perspective on whether this is fair consumer protection 
issue to be concerned about at FTC, given the prices and promises ISPs 
make to generate more business?
    Answer. While I am not deeply familiar with this petition, the FTC 
does have expertise on marketing and advertising practices that may be 
valuable resources in this discussion.

    Question 9. Deceptive Advertising
    When someone takes out a loan, or goes to buy a car or a reverse 
mortgage, they should be treated fairly. Unfortunately, that does not 
always happen. Some people have a profit model that is based on 
overcharging people. The FTC investigates and fines firms that engage 
in deceptive advertising. In previous years, the FTC has fined firms 
that misled people into taking out high-cost auto loans, overpaying 
debt collection agencies or taking out reverse mortgages. The FTC also 
took action against colleges like DeVry University that misled students 
on the likelihood of employment within six months of graduation.
    How do you see the FTC continuing to work with the Consumer 
Financial Protection Bureau to take action against companies that 
intentionally mislead auto buyers, students and elderly homeowners?
    Answer. The Consumer Financial Protection Bureau has deep technical 
expertise in mortgage, auto, and student lending markets among its 
policy experts, economists, and attorneys. The FTC should continue to 
work closely with the CFPB on law enforcement, consumer education, and 
in other areas of shared interest.

    Question 10. FTC Investigation on GPS tracking of Vehicles
    Last year it was revealed that the Federal Trade Commission is 
investigating GPS tracking technologies used in the subprime auto loan 
industry, but my understanding is that no findings or rulings have been 
released. Going back as far 2014, the New York Times had highlighted 
this as a concern. In their piece, they highlighted a troubling story 
of a mother in Las Vegas, Mary Bolender, who needed to get her child 
with a 103.5-degree fever to the ER, but her 2005 Chrysler van wouldn't 
start. As the piece says--``The cause was not a mechanical problem--it 
was her lender.''
    Now I have a number of concerns with their as a business practice, 
but can I get a commitment from you to continue to look into this issue 
and publically provide information on your findings and enforcement 
determinations in a timely manner?
    Answer. Subprime auto lenders frequently make use of GPS trackers 
and kill switches, which has reduced the cost of repossession and may 
be meaningfully impacting the auto lending market. I am committed to 
transparently communicating any findings and determinations, to the 
extent permissible by law.

    Question 11. Auto Loans
    There have long been problems with deceptive advertising in auto 
sales. Two years ago, the FTC took action against two Las Vegas auto 
dealers, Planet Nissan and Planet Hyundai, which ran ads touting sales, 
lease or financing options that seemed attractive but were cancelled 
out by fine-print disclaimers.
    I know when you were with the Consumer Financial Protection Bureau, 
there were also problems with some lenders charging higher interest 
rates to Latinos and African Americans than whites, even when they had 
the same income and credit score.
    What role do you think the FTC should play to make sure that auto 
buyers are not the victims of deceptive advertising or overcharged 
because of their ethnicity?
    Answer. Protecting auto buyers and auto loan borrowers from 
discrimination is somewhat complex. The CFPB has rulemaking authority 
under the Equal Credit Opportunity Act (ECOA) as codified by Regulation 
B. However, with respect to auto dealers, I believe the authority to 
amend Regulation B lies with the Federal Reserve Board of Governors.
    The FTC shares enforcement jurisdiction with the CFPB under ECOA 
with respect to nonbanks, except that the CFPB does not have 
enforcement jurisdiction under ECOA for auto dealers.
    Separately, the FTC has the authority to prescribe rules regarding 
unfair or deceptive acts or practices with respect to auto dealer 
financing.
    If confirmed, I am committed to consulting with staff to better 
understand the FTC's existing work to protecting consumers from 
discrimination in this market.

    Question 12. Reverse Mortgages
    Reverse mortgages are products sold to seniors to help them ``age-
in-place'' and use their home equity as a means by which to responsibly 
pay their bills. Reverse mortgages can be sensible products, but 
sometimes have been falsely advertised to seniors. The FTC and the 
Consumer Financial Protection Bureau conducted a ``sweep'' of reverse 
mortgage advertisements, and a review of consumer complaints, and found 
that three reverse mortgage companies engaged in deceptive advertising 
which misled consumers.
    Given the overlapping jurisdictions between the Consumer Financial 
Protection Bureau and the FTC, can you discuss how you envision the two 
entities work together to combat financial fraud, specifically scams 
impacting seniors?
    Answer. Given the increasing population of senior citizens in 
America, reverse mortgage fraud will likely continue to be an ongoing 
concern. Congress required the Consumer Financial Protection Bureau to 
prepare a report on Reverse Mortgages that detailed many consumer 
protection issues associated with this product.
    Pursuant to the Elder Abuse Prevention and Prosecution Act, the FTC 
has designated an Elder Justice Coordinator responsible for 
coordinating and supporting the enforcement and consumer education 
efforts and policy activities of the FTC on elder justice issues. 
Similarly, Congress also established an Office for the Financial 
Protection of Older Americans within the CFPB, which engages in 
consumer education and market analysis on issues facing older 
Americans. If confirmed, I look forward to facilitating continued 
coordination between the FTC and the CFPB on enforcement, consumer 
education, and other efforts.

    Question 13. Merger Review Commitment
    With increased multi-industry players growing in prominence by 
acquiring more businesses outside their core business model, can you 
commit to reviewing the horizontal merger guidelines, which have not 
directly addressed vertical mergers since 1984?
    Answer. I believe that agencies should review official guidance and 
interpretations on a regular basis. Whenever possible, this should 
include public input. If confirmed, I will work with my fellow 
Commissioners and the agency's staff to explore this idea.

                                  [all]
</pre></body></html>
